     DEPARTMENT OF THE NAVY
ANNUAL FINANCIAL REPORT




        Fiscal Year 2004
                                                                                                             FY 2004 ANNUAL FINANCIAL REPORT



TABLE OF CONTENTS


Message from the Secretary of the Navy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Message from the Assistant Secretary of the Navy (Financial Management & Comptroller) . . . . . . . . . . . . 5
M ANAGEMENT ’ S D ISCUSSION              AND   A NALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


D EPARTMENT        OF THE     N AVY G ENERAL F UND
           Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
           Notes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
           Supporting Consolidating/Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117
           Required Supplementary Stewardship Information. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 131
           Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 139
           Other Accompanying Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 149


N AVY W ORKING C APITAL F UND
           Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 151
           Notes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 163
           Supporting Consolidating/Combining Statements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 203
           Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 231
           Other Accompanying Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 237


AUDIT OPINIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 239




                                                                                                                                                             1
DEPARTMENT   OF THE   NAVY




 2
DEPARTMENT   OF THE   NAVY




 4
                                                                             FY 2004 ANNUAL FINANCIAL REPORT


The Assistant Secretary of the Navy
(FINANCIAL MANAGEMENT AND COMPTROLLER)
1000 NAVY PENTAGON
WASHINGTON, D.C. 20350-1000



November 2004




I am pleased to present the Department of the Navy’s Fiscal Year 2004 Annual Financial Report.
Improvements in the Department’s stewardship of public resources are reflected in this year’s report.

As the Department of the Navy continues to provide Congress and the public with relevant, reliable,
and timely financial information, and strives for favorable audit opinions, accountability becomes even
more important as we prosecute the Global War on Terrorism and support the nation’s defense needs.
The Department’s Financial Improvement Plan will help us achieve our goal.

The Financial Improvement Plan identifies actions and timeframes for correcting financial management
deficiencies in the Department and will result in further improvements in the Principal Statements and
notes presented in this Annual Financial Report. Measurements of success have also been built into
this plan. Our financial improvement efforts focus on maintaining a highly skilled workforce;
standardizing and transforming business processes; and maintaining and aligning systems with the
Department of Defense Business Management Modernization Program. This effort must and will
succeed.

I am proud of the Department of the Navy’s progress thus far, and the enthusiasm exhibited by all
communities that support the business processes that provide our war fighters with the resources and
financial intelligence to succeed. We must sustain this momentum, leverage lessons learned, and
move forward with transformational initiatives.




Robert L. Panek
Acting




                                                                                                          5
DEPARTMENT   OF THE   NAVY




 6
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS
          DEPARTMENT OF THE NAVY

MANAGEMENT’S DISCUSSION AND ANALYSIS




                                       7
DEPARTMENT   OF THE   NAVY




     “The very best organizations are the most efficient organizations.”
                             -- The Honorable Gordon R. England, Secretary of the Navy, March 2004




 8
                                                                                FY 2004 ANNUAL FINANCIAL REPORT



INTRODUCTION
The Department of the Navy (DON) is one of the most visible organizations in the world. With service
members and civilian employees in geographically dispersed locations, the spotlight on our contributions and
our sacrifices never dims. The contributions and sacrifices of our Navy-Marine Corps Team in prosecuting the
Global War on Terrorism have been significant to the overall success of U.S. military forces. As a Nation, we
are blessed to have a 228-year legacy where magnificent men and women volunteer as Sailors and Marines
to protect and defend America. The contributions and sacrifices of our civilian workforce have been
instrumental in supporting our Navy-Marine Corps Team. These experienced and dedicated craftspeople,
researchers, supply and maintenance specialists, computer experts, service providers, and their managers are
an essential part of our total naval force concept.

As we continue to prosecute the Global War on Terrorism, DON remains focused on improving effectiveness to
gain efficiency, facilitating our transformation in force management, combat and technological capabilities, and
business management. The discussion that follows focuses on our achievements in each area of the DON
Balanced Scorecard: People, Combat Capability, Technology Insertion, and Improved Business Practices.



OUR PEOPLE
The Department of the Navy (DON) remains committed to
taking care of its people. As reflected in the Secretary of the          “Sailors and Marines - along with
Navy's priority objectives for fiscal year (FY) 2004, DON is             our civilian workforce - remain the
pursuing a strategy that enhances the quality of service and life
of our Sailors and Marines and that shapes and streamlines
                                                                         strong and steady foundation of
our military and civilian workforce. Below is a synopsis of our          our Naval capabilities.”
achievements in the areas of Quality of Service, Quality of Life,
                                                                                     -- The Honorable Gordon R. England,
and Human Resource Management.
                                                                                     Secretary of the Navy, March 2004

QUALITY OF SERVICE
                   UNITED STATES NAVY                               UNITED STATES MARINE CORPS

   The Navy shall be organized, trained, and equipped         The Marine Corps shall be organized, trained,
   primarily for prompt and sustained combat incident to      and equipped to provide fleet marine forces of
   operations at sea. It is responsible for the preparation   combined arms, together with supporting air
   of naval forces necessary for the effective prosecution    components, for service with the fleet in the
   of war except as otherwise assigned and, in                seizure or defense of advanced naval bases and
   accordance with integrated joint mobilization plans, for   for the conduct of such land operations as may be
   the peacetime components of the Navy to meet the           essential to the prosecution of a naval campaign.
   needs of war.


                        (Section 5062, Title 10, U.S. Code)                   (Section 5063, Title 10, U.S. Code)

                                Founded 13 October 1775                             Founded 10 November 1775



                                                                                                                     9
DEPARTMENT     OF THE   NAVY




     Sailing into New York Harbor, Sailors and Marines “man the rails” aboard the USS IWO JIMA (LHD 7).




     DON developed a Training Resource Strategy to provide high quality training to its deploying combat forces.
     The training of high technology forces in modern warfare has shifted to a stateside network of existing ranges
     and installations. Fully implemented, the Training Resource Strategy has resulted in more training options,
     reduced pre-deployment training transit time, and has increased productive training days. The USS
     ENTERPRISE was the first Carrier Strike Group to deploy under the Training Resource Strategy, utilizing six
     training ranges. The Training Resource Strategy supports the Fleet Response Plan and will be used to
     respond quickly to surge requirements by delivering and bringing to bear a capable fighting force. (A
     discussion of the Fleet Response Plan follows in the next section, "Our Combat Capability.")

     In January 2004, DON participated in the first in a series of Joint National Training Capability exercises. These
     exercises linked a Marine Corps Combined Arms Exercise with live Close Air Support sorties, a Navy Stand-off
     Land Attack Missile Exercise, an Army rotation at the National Training Center, and an Air Force Air Warrior
     Exercise. The Marine Corps will be actively involved in future Joint National Training Capability exercises,
     including Combined Arms Exercises, Marine Aviation Weapons, and Tactics Squadron-1 evolution’s scheduled
     for FY 2005.



     QUALITY OF LIFE

     DON works to improve the quality of life for Sailors and Marines and their families in order to continue the
     success of the all volunteer force. Quality of life programs and services available to service members and
     their families include the Fleet and Family Support Center and Marine Corps Community Services OneSource.
     The Fleet and Family Support Center provides free operational, mobility and counseling support to all service
     members, single or married, including activated Reservists, retiree’s and Department of Defense (DoD)




10
                                                                                FY 2004 ANNUAL FINANCIAL REPORT


civilians overseas. The Center has enhanced delivery of services by dispatching Return and Reunion teams to
sea and adding online features such as the DoD's new Navy OneSource information and referral system.
Similarly, the Marine Corps implemented Marine Corps Community Services OneSource, a DoD-funded pilot
program that provides around-the-clock information and referral services to Marines and their families before,
during, and after deployments. Marine Corps Community Services OneSource is especially useful to activated
Marine Reserves and their families as they negotiate the requirements and procedures associated with
utilization of military programs such as TRICARE and other benefit services.

Additionally, DON remains committed to improving living conditions for Sailors and Marines, and their families.
With an increased emphasis on public-private ventures and an increase in Basic Allowance for Housing, DON
remains on track to eliminate inadequate housing by FY 2007.



HUMAN RESOURCE MANAGEMENT
DON has made several fleet and shore organizational changes that have shown great potential in maximizing
the way forces can be employed and supported. One of these changes is alignment of Navy shore
installations under a single Major Command - Commander, Navy Installations. This alignment will enable DON
to implement common support practices and make better decisions about where to invest limited funds.

Additionally, DON is restructuring its active and reserve forces under the Active Reserve Integration initiative.
This initiative will fully integrate the naval reserve force with the active force in an effort to create a more
cohesive, surge-ready force. This "one fleet" perspective is the most effective, efficient use of resources
because it matches capabilities with requirements for optimum performance. DON expects the realization of
Active Reserve Integration to result in increased warfighting wholeness for the current Navy-Marine Corps
Team and the team of the next generation.

The FY 2004 National Defense Authorization Act authorized DoD to establish a new human resources
management system for DoD civilians known
as the National Security Personnel System.
This legislation provides flexibility in the hiring
and management of civilian workers and links
pay to mission accomplishment and
performance. The National Security
Personnel System will be implemented over a
three-year period. DON will participate in the
first pilot scheduled to commence at fiscal
year-end 2005.




                                                     US Marines assigned to the 22nd Marine Expeditionary Unit,
                                                     Special Operations Capable, conduct physical training on the
                                                     flight deck of the USS WASP (LHD 1).




                                                                                                                    11
DEPARTMENT     OF THE   NAVY



     OUR COMBAT CAPABILITY
            "Innovative capabilities will result in profound increases in military
            power, maintaining the Navy and Marine Corps Team as the
            preeminent global Naval power."
            -- The Honorable Gordon R. England, Secretary of the Navy, March 2004




     The Department of the Navy (DON) has embraced a transformational, capabilities-based approach to forming
     the Navy-Marine Corps Team of tomorrow. Two transformational initiatives underway are the Fleet Response
     Plan and Tactical Aircraft Integration.



     FLEET RESPONSE PLAN

     The Fleet Response Plan, implemented in fiscal year (FY) 2004, represents a new paradigm in force
     readiness. Under the old paradigm, the Navy sought to achieve the highest levels of readiness for forward-
     deployed units. While a number of forward-deployed units were at peak readiness, the majority of ships and
     associated units were not deployed and thus at a point in their Inter-Deployment Readiness Cycle that made it
     difficult and expensive to meet the rapid surge requirements of a crisis, conflict, or Homeland Defense mission.
     In contrast, under the Fleet Response Plan, the Navy’s goal is to develop and sustain significant, surge-ready
     combat capabilities through the use of Carrier Strike Groups, Expeditionary Strike Groups, and Surface Strike
     Groups. Under the “six-plus-two” concept, the Navy will organize and sustain six Carrier Strike Groups
     capable of deploying within 30 days to support global contingency operations; and an additional two Carrier
     Strike Groups ready to deploy within 90 days to reinforce or rotate with forces, continue presence operations in
     other parts of the world, or support military action in other crises. Overall, the Fleet Response Plan provides a
     framework in which the Navy can balance unprecedented combat capability and readiness with the prudent
     use of resources.


     "Summer Pulse '04"

     "Summer Pulse '04" was the Navy's first test of the Fleet Response Plan. During July and August 2004, seven
     Carrier Strike Groups successfully deployed and operated in five theaters with other U.S. allied and coalition
     forces. The near-simultaneous deployment of these Carrier Strike Groups provided the Navy and the Joint
     Combatant Commanders an opportunity to exercise the Fleet Response Plan while maintaining the ability to
     respond to crises around the globe, enhance regional security and relationships, meet Combatant Commander
     requirements (including forward presence), and demonstrate a commitment to allies and coalition partners.
     The success of this exercise reflects the effectiveness and efficiencies associated with DON's investment in
     readiness and improved productivity.




12
                                                                              FY 2004 ANNUAL FINANCIAL REPORT




Signalman communicates with the guided missile destroyer USS CURTIS WILBER (DDG 54) in the Kitty Hawk Carrier
Strike Group in Summer Pulse 2004.




TACTICAL AIRCRAFT INTEGRATION

DON continues to implement the Tactical Aircraft Integration plan to create a leaner, more efficient naval strike-
fighter force. Success factors of this plan include global sourcing and level readiness. Global sourcing is the
ability to task any non-deployed DON squadron to either Navy's or Marine Corps' missions, allowing for a
reduction in force structure. Level readiness is the ability to apply the proper resources to training,
maintenance, and modernization, ensuring that the smaller force is always capable of responding to the needs
of the Navy-Marine Corps Team and the nation. Additionally, support of readiness accounts, modernization
programs, and replacement of the F/A-18 and AV-8B with the Short Takeoff and Vertical Landing Joint Strike
Fighter will ensure the potential promised by this integration. Overall, Tactical Aircraft Integration retains the
Navy-Marine Corps Team's warfighting potential and brings DON a step closer to the flexible sea-based force
envisioned for the future.




                                                                                                                     13
DEPARTMENT    OF THE   NAVY



     OUR TECHNOLOGY INSERTION
          "…our Naval forces have been able to project overwhelming combat
          power because they are technologically superior. We continue to sustain
          a robust RDT&E effort as we transform the Navy and Marine Corps to the
          next generation of combat systems."

          -- The Honorable Gordon R. England, Secretary of the Navy, March 2004



     The transformation of our naval forces through innovative operational concepts and the application of
     appropriate technologies leverage our enduring capabilities for projecting sustainable, immediately deployable,
     joint combat power. Two focal areas for naval technological transformation include ship programs and Marine
     Corps aviation and ground equipment, as discussed below. These focal areas are representative examples of
     naval technological transformation and therefore are part of a broader list of naval transformation priorities.



     SHIP PROGRAMS

     The Department of the Navy (DON) continues to address the requirement for the acquisition, modernization,
     and recapitalization of the world's preeminent surface fleet. Continuing to integrate emerging technologies,
     DON will ensure that tomorrow's fleet will remain on the cutting edge. Two of DON's transformational surface
     programs include the CVN-21 and the Littoral Combat Ship.


     CVN-21

     CVN-21 will be a transformational 21st
     century ship and the future centerpiece of
     the Carrier Strike Group. It will have a
     new electrical generation and distribution
     system, an electro-magnetic aircraft
     launching system, a new and enlarged
     flight deck, weapons and material
     handling improvements, and a smaller
     crew.




                                                     Artist’s conception of the CVN-21.




14
                                                                               FY 2004 ANNUAL FINANCIAL REPORT


Littoral Combat Ship

The Littoral Combat Ship is a new breed of U.S. Navy warship that will be a critical component of tomorrow's
Carrier Strike Groups and Expeditionary Strike Groups. The Navy envisions this ship to be a fast, agile, and
affordable surface combatant capable of operating against anti-access, asymmetric threats in littoral (i.e., the
transition areas between the sea and land). The Navy plans detailed design and construction of the first
Littoral Combat Ship in FY 2005.



MARINE CORPS AVIATION AND GROUND EQUIPMENT

The Marine Corps is committed to transforming tactical and operational capabilities that will provide a critical
joint competency for assuring access and projecting naval power. Representative examples of new systems
                                                              that will enhance the already potent combat
                                                              power of the Marine Air Ground Task Force
                                                              are the MV-22 Osprey, Short Take Off and
                                                              Vertical Landing Joint Strike Fighter, and
                                                              Expeditionary Fighting Vehicle.


                                                                  MV-22 Osprey

                                                                  The MV-22 Osprey remains a priority among
                                                                  Marine Corps aviation acquisitions. While
                                                                  fulfilling the critical Marine Corps medium lift
                                                                  requirement, the MV-22 Osprey's increased
                                                                  range, speed, payload, and survivability will
                                                                  generate truly transformational tactical and
                                                                  operational capabilities. The MV-22 Osprey
                                                                  will replace the Marine Corps' aging fleets of
                                                                  CH-46E Sea Knight and CH-53D Sea Stallion
                                                                  helicopters.



                                                                  Short Take Off and Vertical Landing
                                                                  Joint Strike Fighter

                                                                  The Short Take Off and Vertical Landing Joint
                                                                  Strike Fighter will be a single engine, stealth,
                                                                  supersonic aircraft, designed to replace the
                                                                  aging Marine Corps’ AV-8B and F/A-18 fleets.
                                                                  This strike-fighter will combine the basing
                                                                  flexibility of the AV-8B with the multi-role
                                                                  capabilities, speed, and maneuverability of the
Members of 3rd Battalion, 3rd Marine Regiment, Combat Assault     F/A-18 to fulfill both the air-to-ground and air-
Company advance to offensive positions during exercise Rim of     to-air requirements of the Marine Corps.
the Pacific (RIMPAC) 2004.


                                                                                                                      15
DEPARTMENT    OF THE   NAVY


     Expeditionary Fighting Vehicle

     The Expeditionary Fighting Vehicle will provide Marine Corps surface assault elements the requisite
     operational and tactical mobility to exploit fleeting opportunities in the fluid operational environment of the
     future. Designed to be off-loaded by ships located beyond the enemy's visual horizon, the Expeditionary
     Fighting Vehicle will be capable of carrying a Marine rifle squad at speeds in excess of 20 nautical miles per
     hour even in rough seas. Production representative vehicle procurement occurred in FY 2003 and will deliver
     in FY 2005. Initial operational capability will be reached in FY 2008.




                         A Lighter Amphibious Resupply Cargo (LARC) checks the water level prior
                         to the disembarking members of 3rd Battalion, 3rd Marine Regiment,
                         Combat Assault Company.


16
                                                                               FY 2004 ANNUAL FINANCIAL REPORT



OUR IMPROVED BUSINESS PRACTICES
       "[Our] continuous improvement initiatives enable us to increase our
       combat capabilities with the expectation that we become more
       efficient…at a reduced cost of doing business."
       -- The Honorable Gordon R. England, Secretary of the Navy, March 2004




The breadth of our financial resources requires a steadfast commitment to fiscal accountability and to
incorporating efficient and effective business
practices throughout the Department of the
Navy (DON). To illustrate the relative scope of
our financial resources, DON would rank
among the 15 largest U.S. corporations on the
Fortune 500TM list for total assets. In fiscal
year (FY) 2004, DON reported total assets of
$321 billion (i.e., combined total dollars of FY
2004 DON General Fund and Navy Working
Capital Fund assets). (See FY 2004 DON
General Fund and Navy Working Capital Fund
consolidated balance sheets in this report.)
The following are a few examples of our
commitment to improving business and
financial management throughout DON.



DON FINANCIAL IMPROVEMENT
PROGRAM

DON is finalizing development of a Financial
Improvement Program that supports DON and
Department of Defense (DoD) goals to
produce relevant, reliable, and timely financial
information. The cornerstone of this program
is the DON Financial Improvement Plan
(formerly, the Mid-Range Financial
Improvement Plan). DON is continuously
refining the plan to incorporate executable
tasks and timeframes for correcting
deficiencies in DON General Fund and Navy
                                                     The golden anchor is proudly displayed by the guided missile
Working Capital Fund financial statement line        cruiser USS LAKE ERIE (CG 70) and reflects the ship’s high
                                                     retention rate.



                                                                                                                    17
DEPARTMENT     OF THE   NAVY


     items. This plan, as well as the financial improvement plans of the other Services, will be used to facilitate
     progress toward a favorable audit opinion on the FY 2007 DoD-wide financial statements.

     Similarly, DON has established an audit committee that will interface with the federal and private sector audit
     communities to ensure that DON financial statements are ready for audit. Additionally, DON is coordinating its
     financial improvement efforts with the DoD Business Modernization and Systems Integration office – the
     program management office for the DoD Business Management Modernization Program. This coordination
     ensures DON compliance with business process and system requirements established and maintained under
     this DoD program.


     Global Combat Support System-Marine Corps

     The Global Combat Support System-Marine Corps is part of the Global Combat Support System (GCSS), a
     DoD - sponsored information technology program, designed to streamline DoD logistics and combat service
     support processes. GCSS-Marine Corps will be based upon a logistics operational architecture that will
     facilitate integration of current Marine Corps supply, logistics, distribution, and financial processes. Integration
     of these processes will enable data and information to be shared across the Marine Corps enterprise and with
     other Services and agencies. Components of this architecture include, but are not limited to:

      • A web-based portal that provides a single point of entry for product and service acquisitions, and

      • A logistics functionality that supports Marine Air Ground Task Force command and control (C2) processes.

     Initial operational capability of the GCSS-Marine Corps is scheduled for FY 2005.




     The Los Angeles-class attack submarine USS HAMPTON (SSN 767) surfaces at the North Pole.



18
                                                                               FY 2004 ANNUAL FINANCIAL REPORT


CONVERGENCE         OF   ENTERPRISE RESOURCE PLANNING PILOTS

In FY 2004, the Navy component of DON
continued to successfully operate four Enterprise
Resource Planning (ERP) system pilots – a
financial management initiative to streamline Navy
business processes. These Navy ERP system
pilots are:

 • SIGMA (Program Management under the DON
   General Fund and Navy Working Capital
   Fund);

 • CABRILLO (Warfare Center Management
   under the Navy Working Capital Fund only);

 • SMART (Aviation Supply and Maintenance
   under the DON General Fund and Navy
   Working Capital Fund); and

 • NEMAIS (Regional Ship Maintenance under
   the DON General Fund and Navy Working
   Capital Fund).

These system pilots use commercial off-the-shelf
software approved and certified by the Joint
                                                           A sailor from the guided missile destroyer USS ROSS (DDG
Financial Management Improvement Program.                  71) throws a line to the pier.
Additionally, under the auspices of the converged
ERP program office, the Navy component of DON
continued efforts to collapse these ERP system pilots into one solution. The Converged ERP Program will be
the key enabler for Sea Enterprise, the flagship effort for transforming required business processes and
generating enterprise-wide efficiency savings to support the planned recapitalization of naval forces. Benefits
of the converged ERP system include, but are not limited to:

 • Improved logistics ashore and afloat, thereby increasing fleet combat readiness;

 • End-to-end supply chain integration; and

 • Cost reductions and improved performance of business operations for acquisition, budget, procurement,
   workforce management, and decision-making.

Initial operational capability of the converged ERP system is planned for the third quarter of FY 2006.




                                                                                                                      19
DEPARTMENT    OF THE   NAVY



     STRATEGIC MANAGEMENT
     INTRODUCTION

     The Department of the Navy (DON) remains committed to accomplishing its mission in a way that delivers the
     best value to the Nation and reflects accountability for results. To this end, DON has consolidated the
     objectives and performance management goals of the President’s Management Agenda with the four tenets of
     Department of Defense (DoD) risk management – Force Management Risk, Operational Risk, Future
     Challenges Risk, and Institutional Risk – to form a balanced scorecard for risk management. These four
     tenets of risk management align with the four perspectives of the DON Balanced Scorecard – People, Combat
     Capability, Technology Insertion, and Improved Business Practices. This alignment provides DON with an
     efficient approach to measuring, evaluating, and improving strategic performance consistent with the goals of
     defense policy and the President’s Management Agenda. (A copy of the President’s Management Agenda and
     the Quadrennial Defense Review, which includes a discussion of the four DoD risk tenets, is available at the
     respective websites of the Office of Management and Budget (http://www.whitehouse.gov/omb) and
     Defenselink (http://www.defenselink.mil)).


       Mission of the Department of the Navy:
         • Control and maintain freedom of the seas
         • Project power beyond the sea
         • Influence events and advance U.S. interests across the full spectrum of military operations




                U.S. Marines assigned to Combat Service Support Group Three, role play, as opposition forces
                observe amphibious assault vehicles deploying from amphibious dock landing ship USS
                RUSHMORE (LSD 47), during the operational phase of exercise Rim of the Pacific 2004.




20
                                                                                 FY 2004 ANNUAL FINANCIAL REPORT


PERFORMANCE RESULTS: FY 2004 V. FY 2003

The DON strategic goals and related performance results shown below are representative examples from the
balanced scorecard for risk management. To view this balanced scorecard in its entirety, see the website of
the Assistant Secretary of the Navy (Financial Management and Comptroller), Office of Budget
(http://navweb.secnav.navy.mil).


FORCE MANAGEMENT RISK
Strategic Goal 1: Ensure Sustainable Military Tempo

DON must be able to provide and maintain ready forces necessary to support military operations at any tempo.
In FY 2004, DON sustained a force structure necessary to meet deployment requirements of the Global War
on Terrorism and other military operations. As displayed in the table below, total military end strength (i.e.,
combined total of Navy and Marine Corps, active and reserve) decreased by two percent during FY 2004.

Strategic Goal 2: Maintain Reasonable Force Costs

DON continues to strive toward a leaner, more efficient organization so that it can best address its warfighting
and recapitalization requirements. One way DON strives to improve operational efficiency is workforce
reduction. In FY 2004, DON reduced civilian full-time equivalent workyears (i.e., how DON tracks the civilian
workforce) by approximately one percent. (See table below)




                                    Force Management Risk
                                                                            Performance Results
           DON Strategic Goal                Performance Measure
                                                                            FY 2004    FY 2003 *
                                           Military End Strength
                                                             Active, Navy   373,800     382,235
   Ensure Sustainable Military Tempo                Active, Marine Corps    175,000     177,779
                                                           Reserve, Navy     85,900      88,156
                                                  Reserve, Marine Corps      39,600      41,046
                                           Civilian Full-Time Equivalent
                                           Workyears
    Maintain Reasonable Force Costs
                                                                     Navy   179,935     180,032
                                                            Marine Corps     16,878      17,921
*Results derived from FY 2005 President's Budget.




                                                                                                                   21
DEPARTMENT     OF THE   NAVY


     OPERATIONAL RISK
     Strategic Goal 1: Ensure Force Levels

     Projecting power from the sea is critical to the security of the United States and its interests abroad. DON
     remains focused on the Navy-Marine Corps Team's ability to fulfill deployment requirements for U.S. and
     related international defense missions. In FY 2004, the total number of battle force ships and Marine Corps
     land forces decreased by nearly two and three percent, respectively (see table below).

     Strategic Goal 2: Ensure Force Readiness

     The Global War on Terrorism requires that naval forces operate differently, to be more ready and responsive.
     The Fleet Response Plan has been designed to accomplish these objectives. As displayed in the table below,
     the number of Navy and Marine Corps personnel on deployment decreased by approximately two percent in
     FY 2004. However, modifications in readiness thresholds resulted in a 12 percent decrease in monthly flying
     hours of active crew, and a 24 percent decrease in steaming days per quarter for active force ships.




                                                Operational Risk
                                                                                          Performance Results
             DON Strategic Goal                   Performance Measure
                                                                                          FY 2004     FY 2003 *
                                         Battle Force Ships
                                                                      Aircraft Carriers      12          12
                                                  Fleet Ballistic Missile Submarines         14          16
                                                        Guided Missile Submarines            4            2
                                                                 Surface Combatants         103          106
                                                         Nuclear Attack Submarines           53          54
                                                         Amphibious Warfare Ships            35          36
            Ensure Force Levels
                                                             Combat Logistics Ships          34          34
                                                                  Mine Warfare Ships         17          17
                                                                        Support Ships        19          19
                                         Number of Marine Corps Land Forces
                                                        Marine Expeditionary Forces         3             3
                                                     Marine Expeditionary Brigades          4             4
                                                                            Battalions      69           72
                                         Navy / Marine Corps Personnel
                                         Readiness Ratings                                38,015       38,655
          Ensure Force Readiness         Monthly Flying Hours Per Crew Ratio
                                         (Active)                                          19.3         22.1
                                         Active Steaming Days Per Quarter                  51.0         67.3
     *Results derived from FY 2005 President's Budget.




22
                                                                                   FY 2004 ANNUAL FINANCIAL REPORT


FUTURE CHALLENGES RISK

Strategic Goal: Define and Develop Transformational Capabilities

DON remains focused on naval transformational capabilities. A key component of naval transformation is
research and development. Representative examples of research and development platforms include:

 • Joint Strike Fighter - a family of aircraft that meets the needs of the U.S. Navy, U.S. Marine Corps, U.S.
   Air Force, and allies.

 • DD(X) - a family of advanced multi-mission warships capable of long-range firepower in support of forces
   ashore.

 • V-22 - a joint aircraft program designed to meet the amphibious/vertical assault needs of the Marine Corps
   and the strike rescue needs of the Navy, and to supplement special mission aircraft.

The table below presents FY 2003 and FY 2004 funding for these research and development platforms.

                                      Future Challenges Risk
                                                                             Performance Results
           DON Strategic Goal                  Performance Measure
                                                                             FY 2004    FY 2003 *
                                            Major Platform Research
                                            and Development
Define and Develop Transformational
                                                    Joint Strike Fighter     $2,091M        $1,662M
Capabilities
                                                                  DD(X)      $1,025M        $ 668M
                                                                   V-22      $ 367M         $ 387M
*Results derived from FY 2005 President's Budget.




       Marines, assigned to 3rd Battalion, 3rd Marine Regiment, approach a landing zone for extraction.


                                                                                                                23
DEPARTMENT     OF THE   NAVY


     INSTITUTIONAL RISK

     Strategic Goal 1: Streamline Decision Processes, Drive Financial Management and
     Acquisition Excellence

     This strategic goal distills the business transformation initiative underway in DoD. DON remains committed to
     business transformation, as exemplified by its information technology initiative, the Navy Marine Corps Intranet
     (NMCI), and its financial management initiative, the Enterprise Resource Planning system pilots. The table
     below presents FY 2003 and FY 2004 comparative data for the number of NMCI seats cutover, and the
     reduction of applications from implementation of the Enterprise Resource Planning system pilots. The number
     of NMCI seats cutover (i.e., installed on a user’s desk top) is cumulative. Therefore, 201,270 seats have been
     cutover as of FY 2004 representing increased connectivity to NMCI throughout DON. The number of
     applications reduced through implementation of the Enterprise Resource Planning system pilots remain
     unchanged in FY 2004.

     Strategic Goal 2: Improve Readiness and Quality of Key Facilities

     Among key facilities slated for improvement are housing units for Sailors and Marines, and their families. With
     an increased emphasis on public-private ventures, DON remains on track to eliminate inadequate housing by
     FY 2007. (See table below)

                                               Institutional Risk
                                                                                 Performance Results
                 DON Strategic Goal                      Performance Measure
                                                                                 FY 2004    FY 2003 *
                                                   Number of Navy Marine Corps
     Streamline Decision Processes, Drive          Intranet Seats Cut Over       201,270     109,602
     Financial Management and Acquisition
                                                   Implement Enterprise
     Excellence
                                                   Resource Planning - Number
                                                   of Applications Reduced         70           70
     Improve Readiness and Quality of Key          Number of Privatization
     Facilities                                    Projects/Units                 3,493       9,549
     *Results derived from FY 2005 President's Budget.




24
                                                                                  FY 2004 ANNUAL FINANCIAL REPORT



MANAGEMENT INTEGRITY
Commanders and managers throughout the Department of the Navy (DON) must ensure the integrity of their
programs and operations. Part of this responsibility entails compliance with applicable laws and regulations.
Two applicable statutes include the Federal Managers’ Financial Integrity Act of 1982 and the Improper
Payments Information Act of 2002. Under this statute, DON must present improper payments information in
the annual report, beginning with fiscal year (FY) 2004. A discussion of both statutes and their applicability to
DON appears below.



FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT                          OF   1982

As required by implementing guidance from the Office of Management and Budget and the Department of
Defense, under the Federal Managers’ Financial Integrity Act of 1982, DON must evaluate its system of
internal accounting and administrative controls (i.e., management controls) on an annual basis. The objective
of this evaluation is to determine whether reasonable assurance exists that:

• obligations and costs are in compliance with applicable laws;

• funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
  misappropriation; and

• revenues and expenditures applicable to agency operations are properly recorded and accounted for to
  permit the preparation of reliable accounting, financial, and statistical reports and to maintain accountability
                                            over assets.

                                               For FY 2004, DON issued a qualified statement of assurance,
                                               citing material weaknesses in management controls. Specifically,
                                               DON's system of internal accounting and administrative controls in
                                               effect during the 12-month period ending June 30, 2004, taken as a
                                               whole, provides reasonable assurance that DON can execute its
                                               mission effectively and protect its critical assets, with the exception
                                               of material weaknesses reported. The basis for reasonable
                                               assurance includes an established control environment, continued
                                               emphasis on risk assessment, specific control activities, continuous
                                               communication and flow of information, and monitoring performed
                                               by both command management and the audit/inspection
                                               community. Additionally, the effective execution of missions during
                                               recent military actions confirms the strength of DON's management
                                               controls. To view the FY 2004 statement of assurance in its
                                               entirety, see the website for the Assistant Secretary of the Navy
                                               (Financial Management and Comptroller), Office of Financial
                                               Operations (http://www.fmo.navy.mil/MCP/soa_index.htm).

A Marine secures razor wire while setting up
camp during Exercise Bearing Duel '04.


                                                                                                                         25
DEPARTMENT    OF THE   NAVY


     IMPROPER PAYMENTS INFORMATION ACT                  OF   2002

     A component of the President’s Management Agenda is the initiative to reduce improper payments. Improper
     payments are those which should not have been made or that were made in incorrect amounts under
     statutory, contractual, administrative, or other legally applicable requirements. Examples of improper payments
     include overpayments, underpayments, duplicate payments, and payments for services not received.

     DON programs and activities susceptible to erroneous payments are those for which DON has the
     responsibility for entitlement computation and/or disbursement of government funds. Examples include DON
     Personnel Support Activities and Detachment, which are responsible for the entitlement computation for some
     travel payments; and DON Disbursing Officers aboard ships and at other isolated locations, which are
     responsible for disbursement of government funds. Note that the Defense Finance and Accounting Service
     provides the vast majority of DON’s entitlement computation and disbursement functions.

     As required by implementing guidance from the Office of Management and Budget under the Improper
     Payments Information Act of 2002, DON identified $700 thousand of improper payments in FY 2004. This
     amount is significantly less than the Office of Management and Budget threshold of $10 million. Consequently,
     for the programs for which DON has entitlement computation and/or disbursement responsibility, we have
     instituted internal controls designed to mitigate the occurrence of improper payments in future fiscal years.




26
                                                                           FY 2004 ANNUAL FINANCIAL REPORT



REPORTING RESULTS
For financial reporting purposes, the Department of the Navy (DON) is organized into two reporting entities:
DON General Fund and Navy Working Capital Fund. Each entity has its own set of financial statements and
related notes (see Principal Statements and Notes in this report). In terms of assets, the General Fund
accounts for 92 percent and the Navy Working Capital Fund accounts for 8 percent of DON fiscal year (FY)
2004 Total Assets. DON has been producing DON General Fund financial statements since FY 1996, and
Navy Working Capital Fund financial statements since FY 1991. Below is a discussion of each entity, including
FY 2004 performance.



DON GENERAL FUND

The DON General Fund supports overall Department operations. Direct appropriations from Congress
comprise the DON General Fund account structure. Examples of DON General Fund appropriation types are:

• Military Personnel;

• Operation and Maintenance;

• Procurement;

• Research, Development, Test and Evaluation;

• Military Construction; and

• Family Housing.

For a complete list of DON General Fund appropriations, see "General Fund Other Accompanying Information"
in this report.



MAJOR COMMANDS

DON is comprised a joint warfighting team: U.S. Navy and U.S. Marine Corps. Both services have numerous
major commands that operate under the authority and responsibility of a Commander or other designated
official who has similar authority and responsibility. Each major command has a defined mission that supports
the overall DON mission and generally supports a network of subordinate commands.

For purposes of our discussion, Navy major commands can be grouped into three categories: Secretariat,
Shore Establishment, and Operating Forces. The Shore Establishment and Operating Forces operate under
the purview of the Chief of Naval Operations. Similarly, the Supporting Establishment and Operating Forces of
the Marine Corps organization operate under the purview of the Commandant of the Marine Corps. See
organization chart on page 28. (To view the DON organization in its entirety, see the respective Navy and
Marine Corps websites (http://www.navy.mil and http://www.usmc.mil).)



                                                                                                                27
DEPARTMENT    OF THE   NAVY



                                                   Secretary of the Navy



                            Chief of Naval                                      Commandant of
                             Operations                                         the Marine Corps


                                                                                               Supporting
             Shore Establishment         Operating Forces          Operating Forces
                                                                                              Establishment




     Due to the breadth of the DON organization and space limitations of this report, we have included
     representative examples of Navy major commands below. Included with these examples are the mission and
     end strength of each Navy major command. Mission and end strength of the Marine Corps follow in the next
     section, "Marine Corps Organization."




     SECRETARIAT
     Assistant for Administration to the Under Secretary of the Navy
             Mission: To provide timely and responsive management and customer services to the Secretariat,
             staff offices, field activities, and supported organizations in order to enable them to effectively execute
             goals.

             FY 2004 End Strength:
             Military personnel: 990
             Civilian personnel: 4,255

     Office of Naval Research
     (Office of Naval Research operates under the Chief of Naval Research, Assistant Secretary of the Navy
     (Research, Development, and Acquisition).)

             Mission: To coordinate, execute, and promote science and technology programs of the U.S. Navy and
             Marine Corps through schools, universities, government laboratories, and nonprofit and for-profit
             organizations; to provide technical advice to the Chief of Naval Operations and the Secretary of the
             Navy; and work with industry to improve technology manufacturing processes.

             FY 2004 End Strength:
             Military personnel: 18
             Civilian personnel: 2,937




28
                                                                           FY 2004 ANNUAL FINANCIAL REPORT


OPERATING FORCES
Commander, U.S. Fleet Forces
(Commander, U.S. Fleet Forces has dual responsibility as Commander, U.S. Atlantic Fleet.)

        Mission: To fully organize, train, maintain, equip, and man active and reserve naval forces in support
        of the Unified Command Plan; develop and articulate authoritative Fleet-coordinated readiness and
        warfighting requirements; establish and implement Fleet-coordinated and integrated standards and
        policies for Fleet units; execute assigned readiness and personnel accounts to develop required levels
        of Fleet readiness; and explore transformational concepts.

        FY 2004 End Strength:
        Military personnel: 126,621
        Civilian personnel: 7,085

Commander, U.S. Pacific Fleet
        Mission: To support the U.S. Pacific Command's theater strategy, and to provide interoperable,
        trained and combat-ready naval forces to the U.S. Pacific Command and other U.S. Unified
        Commanders.

        FY 2004 End Strength:
        Military personnel: 106,925
        Civilian personnel: 18,597

Commander, U.S. Naval Forces Europe
        Mission: To execute missions assigned by Commander U.S. European Command, and perform U.S.
        Navy functions assigned by the Chief of Naval Operations;
        maintain and employ ready forces to conduct the full range of
        military operations unilaterally or in concert with coalition
        partners; enhance trans-Atlantic security through support of
        the North Atlantic Treaty Organization; promote regional
        stability; counter terrorism; and enhance U.S. interests in the
        European theater.

        FY 2004 End Strength:
        Military personnel: 1,924
        Civilian personnel: 171

Commander, Naval Reserve Force
        Mission: To provide mission-capable units and individuals to
        the Navy-Marine Corps Team throughout the full range of
        operations from peace to war.

        FY 2004 End Strength:
        Military personnel: 8,878
        Civilian personnel: 487
                                                                         A U.S. Navy F/A-18F Super Hornet,
                                                                         performs at Air Show on Andrews Air Force
                                                                         Base, Clinton, MD.


                                                                                                                 29
DEPARTMENT   OF THE   NAVY


     SHORE ESTABLISHMENT
     Commander, Navy Installations
           Mission: To enable and enhance Navy combat power by providing the most effective and efficient
           shore services and support.

           FY 2004 End Strength:
           Military personnel: 25,522
           Civilian personnel: 26,171


     Naval Sea Systems Command
           Mission: To keep America's Navy #1 in the world by providing the Navy operationally superior and
           affordable ships, systems, and ordnance throughout their lifecycle…for today, tomorrow, and the Navy
           after next.

           FY 2004 End Strength:
           Military personnel: 2,063
           Civilian personnel: 36,125

     Naval Air Systems Command
           Mission: To provide sustainment (current readiness), systems acquisition (future readiness), decision
           support; and to make the Navy more capable, ready, and affordable in a joint environment.

           FY 2004 End Strength:
           Military personnel: 2,669
           Civilian personnel: 24,718

     Space and Naval Warfare Systems Command
           Mission: To provide the warfighter with knowledge superiority by developing, delivering, and
           maintaining effective, capable and integrated command, control, communications, computer,
           intelligence and surveillance systems.

           FY 2004 End Strength:
           Military personnel: 484
           Civilian personnel: 7,188

     Naval Facilities Engineering Command
           Mission: To manage the planning, design, construction, contingency engineering, real estate,
           environmental, and public works support for U. S. Navy shore facilities around the world; to provide
           the Navy's forces with the operating, expeditionary, support and training bases they need.

           FY 2004 End Strength:
           Military personnel: 633
           Civilian personnel:13,930




30
                                                                          FY 2004 ANNUAL FINANCIAL REPORT


Naval Supply Systems Command
      Mission: To provide Navy, Marine Corps, Joint and Allied Forces quality supplies and services on a
      timely basis with "One Touch Supply."

      FY 2004 End Strength:
      Military personnel: 446
      Civilian personnel: 7,661

Strategic Systems Programs
      Mission: To serve our nation by providing credible and affordable sea-based deterrent missile
      systems.

      FY 2004 End Strength:
      Military personnel: 457
      Civilian personnel: 774

Bureau of Medicine and Surgery
      Mission: To provide a comprehensive healthcare delivery system of shore-based treatment facilities
      and operating forces of the Navy and Marine Corps; and ensure the provision of medical and dental
      care and services for Navy and Marine Corps personnel, other uniformed services personnel, and
      eligible beneficiaries authorized by law or regulation.

      FY 2004 End Strength:
      Military personnel: 31,272
      Civilian personnel: 11,402

Navy Personnel Command
      Mission: To support the needs of the Navy by providing the Fleet with the right person in the right
      place at the right time; to satisfy our Sailors' personal goals and improve their quality of life by
      providing them with meaningful and rewarding career opportunities; to promote and retain the best;
      and to ensure fair and equitable treatment of all hands, by all hands, at all times.

      FY 2004 End Strength:
      Military personnel: 10,047
      Civilian personnel: 1,466




                                                                                                             31
DEPARTMENT     OF THE   NAVY


     Naval Education and Training Command
             Mission: To educate and train those who serve, providing the tools and opportunities which enable
             life-long learning, professional and personal growth and development, ensuring fleet readiness and
             mission accomplishment; to perform such other functions and tasks assigned by higher authority; and
             to serve as the sole command for individual training and education, and as the Principal Advisor to the
             Chief of Naval Operations and the Commander, U.S. Fleet Forces Command on training and
             education related matters.

             FY 2004 End Strength:
             Military personnel: 16,457
             Civilian personnel: 4,287
     Naval Security Group Command
             Mission: To exploit, defend and attack information for our naval forces and nation.

             FY 2004 End Strength:
             Military personnel: 6,979
             Civilian personnel: 514

     Office of Naval Intelligence
             Mission: To provide national-level maritime intelligence support to our customers including the joint
             warfighters, the Department of the Navy, national decision-makers, joint operational commanders,
             shore-based and theater tactical elements of the Navy and Marine Corps, and foreign partners; to
             support the acquisition process through scientific and technical analysis of naval weapons systems;
             and to support nontraditional maritime intelligence missions.

             FY 2004 End Strength:
             Military personnel: 948
             Civilian personnel: 1,194

     Field Support Activity
     (Field Support Activity provides direct support to the Chief of Naval Operations.)
              Mission: To initiate action in matters pertaining to the provision of funds, manpower, and facilities to
              assigned unified commands, Navy headquarters and activities; and to evaluate the utilization of such
              resources and initiate or recommend appropriate corrective action.

             FY 2004 End Strength:
             Military personnel: 11,145
             Civilian personnel: 2,923




32
                                                                            FY 2004 ANNUAL FINANCIAL REPORT


MARINE CORPS ORGANIZATION
     Mission: To provide Fleet Marine Forces with combined arms capabilities, including integrated
     aviation and logistical elements, for service as part of a naval expeditionary force.

     FY 2004 End Strength:
     Military personnel: 177,480
     Civilian personnel: 17,028




                                Headquarters, U.S. Marine Corps



                        Operating Forces                    Supporting Establishment




                     Airman signals a CH-53D Sea Stallion preparing to land aboard the amphibious
                     assault ship USS TARAWA (LHA 1),, which was one of many U.S. ships
                     participating in exercise Rim of the Pacific (RIMPAC) 2004.

                                                                                                        33
DEPARTMENT    OF THE   NAVY


     FY 2004 OVERVIEW           OF   PERFORMANCE

     Implementation of the DON Financial Improvement Plan and the Under Secretary of Defense (Comptroller)
     (USD(C)) Financial Improvement Initiative has driven progress in the area of the DON General Fund.
     Highlights of our progress in FY 2004 include:

      • Completion of assertion process for the Investments line item on the DON General Fund Consolidated
        Balance Sheet;

      • Issuance of Accounts Receivable guidance related to the timely collection of delinquent receivables;

      • Development of Accounts Payable Workshops to facilitate implementation of Command-level Accounts
        Payable strategy; and

      • Initiation of actions to produce and distribute consolidated DON General Fund trial balances for each DON
        Major Command, including Marine Corps.

     Our financial performance relative to the FY 2004 DON General Fund Consolidated Balance Sheet and
     Combined Statement of Budgetary Resources appears below.



     Asset Composition

     In FY 2004, Total Assets decreased by two percent. The overall decrease in Total Assets is primarily attributed
     to Intragovernmental Accounts Receivable. Specifically, DON reported a decrease of $246,160 thousand (or,
     50 percent) in Intragovernmental Accounts Receivables in FY 2004 when compared to FY 2003. This
     decrease is a result of implementing the Under Secretary of Defense (Comptroller) memo of June 20, 2003,
     that directed the military departments to establish a goal to close out or collect all over-aged receivables by
     December 31, 2003. In addition, the trading partner/elimination process with other Federal agencies and DoD
     organizations contributed to this decrease. Similarly, DON reported a 14 percent decrease in Non-Federal
     Accounts Receivable. The majority of this decrease is attributed to decreases within the Operation and
     Maintenance, Navy and Military Personnel, Navy appropriations. (See DON General Fund Notes to the
     Principal Statements, Note 5, for more information.)

     Other significant changes in line items comprising Total Assets are as follows:

     Other Assets. DON reported a 45 percent increase in Intragovernmental Other Assets, and a 19 percent
     decrease in Non-Federal Other Assets in FY 2004. The increase in the intragovernmental balance is attributed
     to the trading partner/elimination process. The decrease in the non-federal balance is attributed to outstanding
     contract financing payments within the Aircraft Procurement Program. (See DON General Fund Notes to the
     Principal Statements, Note 6, for more information.)




34
                                                                                  FY 2004 ANNUAL FINANCIAL REPORT


Cash and Other Monetary Assets. DON reported a 17 percent decrease in this line item for FY 2004. This
decrease is a result of the draw down related to Operation Iraqi Freedom and subsequent events.
(See DON General Fund Notes to the Principal Statements, Note 7, for more information.)



                                Asset Composition: FY 2003 v. FY 2004
                                                 ($ in Thousands)




                              General PP&E      Fund Balance        Inventory*        Other**

                   FY 2004     $151,679,503      $81,874,818        $53,340,667     $8,888,157
                   FY 2003     $158,407,450      $78,191,653        $53,611,634     $10,540,281


                *includes operating materials and supplies, held for use
                **comprised of investments, accounts receivable, other assets, and cash
                and other monetary assets



Accounts Receivable Metric

As part of the Under Secretary of Defense (Comptroller) (USD(C)) Financial Indicators Program, DON must
track the total amount of delinquent Intragovermental and Public Accounts Receivable. Accounts Receivable
is deemed “delinquent” when payment has not been received within 30 days of the date specified in the initial
demand letter (Department of Defense Financial Management Regulation, Volume 4, Chapter 3, paragraph
030205). The purpose of the metric is to ensure proper stewardship over public funds and cash management.

USD(C) has established a Department of Defense-wide goal of 25 percent reduction against the total amount
of delinquent Intragovernmental and Public Accounts Receivable. For FY 2004, DON achieved this goal.




                A U.S. Marine Corps MV-22 Osprey lands aboard the amphibious assault ship
                USS BATAAN (LHD 5).


                                                                                                                35
DEPARTMENT     OF THE   NAVY


     Liability Composition

     In FY 2004, Total Liabilities increased by three percent. The overall increase in Total Liabilities is attributed to
     Intragovernmental Accounts Payable. Specifically, DON reported an increase of $402,583 thousand (or, 39
     percent) in FY 2004 when compared with FY 2003. The increase is the result of the varying needs and
     execution requirements of DON as well as the trading partner/intragovernmental elimination process.
     Additionally, DON reported a 20 percent decrease in Non-Federal Accounts Payable in FY 2004. This
     decrease is attributed to DON business process and policy changes. (See DON General Fund Notes to the
     Principal Statements, Note 12, for more information.)




                                    Liability Composition: FY 2003 v. FY 2004
                                                    ($ in Thousands)




                                    Environmental                        Accounts
                                                    Other Liabilities*                Military Retirement
                                      Liabilities                        Payable*

                          FY 2004    $16,031,979      $8,005,628         $2,832,624      $1,575,815
                          FY 2003    $15,614,424      $7,645,875         $2,777,555      $1,589,971



                        *includes intragovernmental debt




36
                                                                                 FY 2004 ANNUAL FINANCIAL REPORT


Budgetary Resources, Obligations, and Outlays

In FY 2004, DON reported the following on the DON General Fund Combined Statement of Budgetary
Resources:

 • $159,183 million, Total Budgetary Resources,

 • $141,155 million, Total Obligations Incurred, and

 • $119,193 million, Total Outlays.

A discussion of these reported budgetary amounts appears below.

Total Budgetary Resources. A primary component of budgetary resources is budget authority (i.e., authority
provided by law to enter into financial obligations that will result in immediate or future outlays involving federal
government funds). In FY 2004, DON reported $124,374 million in budget authority (or 78 percent of Total
Budgetary Resources). FY 2004 budget authority represents an increase (i.e., less than one percent) from FY
2003 due to continuing efforts to accomplish overall DON mission. Note that Marine Corps initiated a process
improvement to capture prior year recoveries in FY 2004.

Total Obligations Incurred. Obligations incurred represent amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments during the same or
future period. Obligations incurred by DON in FY 2004 (i.e., $141,155 million) represent an increase of six
percent from FY 2003. This increase is primarily the result of increased funding for procurement accounts.

Total Outlays. Outlays occur when a federal agency issues checks, disburses cash, or electronically transfers
funds to liquidate an obligation. Outlays also occur when interest on the Treasury debt held by the public
accrues; the federal government issues bonds, notes, or other cash-equivalent instruments; or a direct or
guaranteed loan is disbursed. Outlays reported by DON in FY 2004 (i.e., $119,193 million) represent an
increase of six percent from FY 2003. This increase is the result of increased funding for procurement and
research and development accounts.




                          Total Budgetary Resources, Obligations Incurred,
                                    Outlays: FY 2003 v. FY 2004




                               Budgetary Resources Obligations Incurred             Outlays
                     FY 2004        $159,182,848           $141,154,852           $119,192,659
                     FY 2003        $147,273,067           $132,577,831           $112,318,319




                                                                                                                        37
DEPARTMENT    OF THE   NAVY



     NAVY WORKING CAPITAL FUND
     The Navy Working Capital Fund (NWCF) is a revolving fund established to meet the diverse requirements of
     the Navy and Marine Corps operating forces. Under the revolving fund concept, an appropriation or transfer of
     funds finances the initial cost of goods and services. Reimbursements from a customer's appropriated
     account replenish the initial working capital and permit continuing operations without further appropriation by
     Congress. Unlike profit-oriented businesses, the goal of the revolving fund is to break even over time.



     NWCF BUSINESS AREAS

     Included in the NWCF are five business areas comprised of one or more activities. NWCF activities stabilize
     the price of goods and services in their budget to protect customers from unforeseen fluctuations. Each
     NWCF activity is comprised of civilian and/or military personnel and has a defined mission that supports the
     overall Department of the Navy mission.



                       Base Support Business Area                    Supply Management Business Area
                       • Public Works Centers                         • Supply Management - Navy
                       • Naval Facilities Engineering                 • Supply Management - Marine Corps
                         Service Center




                                                 The Navy
                                               Working Capital                             Depot Maintenance
      Transportation Business                      Fund                                    Business Area
      Area                                                                                 • Naval Shipyards
      • Military Sealift Command                                                           • Aviation Depots
                                                                                           • Marine Corps Depots




                                        Research & Development Business Area
                                        • Naval Research Laboratory
                                        • Naval Surface Warfare Center
                                        • Naval Undersea Warfare Center
                                        • Naval Air Warfare Center
                                        • Space & Naval Warfare Systems Centers



38
                                                                             FY 2004 ANNUAL FINANCIAL REPORT


Supply Management
The Supply Management business area consists of Navy and Marine Corps components, which operate under
the purview of their respective Commands: Naval Supply Systems Command and Marine Corps Logistics
Command. In FY 2004, total actual end strength (i.e., civilian and military personnel) for the Supply
Management business area was 6,430. However, Supply Management-Navy anticipates end strength to
change in FY 2005 and FY 2006, as a result of planned strategic sourcing efforts at the Fleet and Industrial
Supply Centers, the Naval Supply Information Systems Activity, and the Naval Inventory Control Point.
Similarly, Supply Management-Marine Corps expects end strength to decrease in FY 2005.



SUPPLY MANAGEMENT, NAVY
        Mission: To provide Navy, Marine Corps, Joint and Allied Forces quality supplies and services on a
        timely basis with "One Touch Supply."


SUPPLY MANAGEMENT, MARINE CORPS
        Mission: To perform inventory management functions that result in sale of consumable and reparable
        items to support both the Department of Defense and other government agencies.


Depot Maintenance

The Depot Maintenance business area consists of Naval Shipyards, Aviation Depots, and Marine Corps
Depots, all of which operate under the purview of their respective commands: Naval Sea Systems Command,
Naval Air Systems Command, and Marine Corps Logistics Command. In FY 2004, total actual end strength
(i.e., civilian and military personnel) for the Depot Maintenance business area was 24,558. (See chart for
actual FY 2004 end strength by activity groups.)

In subsequent fiscal years, the Depot Maintenance business area anticipates end strength to change.
Specifically, Naval Shipyards expect evolving workload requirements and process efficiencies to affect civilian
end strength and workyears. Aviation Depots expect civilian end strength and workyears to decrease based
on projected use of contractor labor and workload fluctuations. In contrast, Marine Corps Depots anticipate
end strength to increase in FY 2005 to accommodate additional workload for repairing combat-damaged
equipment and weapons systems used in the Global War on Terrorism. However, based on projected
workload for FY 2007, Marine Corps Depots expect to reduce the permanent workforce through voluntary
separation incentives and to release the temporary employees hired to support unplanned workload increases
in prior fiscal years.




                                                                                                                  39
DEPARTMENT    OF THE   NAVY


     DEPOT MAINTENANCE, SHIPYARDS
             Mission: To provide logistics support for assigned ships                Depot Maintenance
             and service craft; perform authorized work in connection      FY 2004 Actual End Strength by Activity Groups
             with construction, overhaul, repair, alteration, drydocking
                                                                                     Marine Corps
             and outfitting of ships and craft as assigned; perform
                                                                                         1,763
             design, manufacturing, refit and restoration, research
             and development and test work, and provide services
             and material to other activities and units as directed by
             competent authority.
                                                                                       Aviation     Shipyards
     DEPOT MAINTENANCE, AVIATION                                                       Depots        11,782
             Mission: To provide responsive worldwide maintenance,                      11,013
             engineering, and logistics support to the Fleet and
             ensure a core industrial resource base essential for
             mobilization; repair aircraft, engines, and components,
             and manufacture parts and assemblies; provide
             engineering services in the development of hardware
             design changes, and furnish technical and other professional services on maintenance and logistics
             problems.

     DEPOT MAINTENANCE, MARINE CORPS
             Mission: To provide the quality products and responsive maintenance support services required to
             maintain a core industrial base in support of mobilization, surge and reconstitution requirements.


     Research and Development

     The Research and Development business area consists of the Naval Research Laboratory and four Naval
     Warfare Centers, all of which operate under the purview of their respective Commands. In FY 2004, total
     actual end strength (i.e., civilian and military personnel) for the Research and Development business area was
     39,653. (See chart for actual FY 2004 end strength by activity group.) To compensate for the projected loss
     of retired personnel in subsequent fiscal years, the Space and Naval Warfare Systems Centers plan to
     continue workforce revitalization through recruitment and retention of talented C4ISR (Command, Control,
     Communications, Computers, Intelligence, Surveillance, and Reconnaissance) professionals.




40
                                                                        FY 2004 ANNUAL FINANCIAL REPORT


NAVAL RESEARCH LABORATORY
     Mission: To operate the Navy's full spectrum corporate            Research and Development
     laboratory, conducting a broadly based multidisciplinary     FY 2004 Actual End Strength by Activity Group
     program of scientific research and advanced
     technological development directed toward maritime
     applications of new and improved materials,
     techniques, equipment, systems and ocean,                                           SSCs
     atmospheric, and space sciences and related                             NAWC        6,155        NRL
     technologies.                                                           10,823                   2,626


NAVAL SURFACE WARFARE CENTER
                                                                          NUWC
     Mission: To operate the Navy's full spectrum research,
                                                                          4,290        NSWC
     development, test and evaluation, engineering and fleet
                                                                                       15,759
     support center for ship hull, mechanical, and electrical
     systems, surface combat systems, coastal warfare
     systems, and other offensive and defensive systems
     associated with surface warfare.

NAVAL UNDERSEA WARFARE CENTER
     Mission: To operate the Navy's full spectrum research, development, test and evaluation, engineering
     and fleet support center for submarines, autonomous underwater systems, and offensive and
     defensive weapons systems associated with undersea warfare.

NAVAL AIR WARFARE CENTER
     Aircraft Division
     Mission: To operate the Navy's principal research, development, test and evaluation, engineering, and
     fleet support activity for naval aircraft engines, avionics, and aircraft support systems and
     ship/shore/air operations.

     Weapons Division
     Mission: To operate as the Navy's full spectrum research, development, test and evaluation in-service
     engineering center for air warfare weapons systems (except anti-submarine warfare systems),
     missiles and missile subsystems, aircraft weapons integration, and assigned airborne electronic
     warfare systems; and as the Department of the Navy's air, land, and sea test ranges.


SPACE AND NAVAL WARFARE SYSTEMS CENTERS
     Mission: To operate the Navy's full spectrum research, development, test and evaluation, engineering,
     and fleet support centers for command, control, and communication systems and ocean surveillance
     and the integration of those systems that overarch multiple platforms.




                                                                                                              41
DEPARTMENT     OF THE   NAVY


     Transportation
     The Transportation business area is comprised of the Military Sealift Command, which has dual reporting
     responsibilities to DON (as a NWCF activity group), and to the U.S. Transportation Command.



     MILITARY SEALIFT COMMAND
             Mission: To provide ocean transportation of equipment, fuel, supplies and ammunition to sustain U.S.
             forces worldwide during peacetime and in war for as long as operational requirements dictate.



     The Military Sealift Command supports three separate and distinct ship programs:

      • Naval Fleet Auxiliary Force - provides fuel, food, ammunition, spare parts and other supplies, enabling the
        Navy fleet to operate at the highest possible operating tempo. In July 2004, Naval Fleet Auxiliary Force
        East merged with Military Sealift Command Atlantic and Combat Logistics Squadron Two to become the
        Sealift Logistics Command Atlantic.

      • Special Mission Ships - provide oceanographic and hydrographic surveys, underwater surveillance, missile
        flight data collection and tracking, acoustic research and submarine support, and other support for
        Department of Defense sponsors.

      • Afloat Pre-Positioning Force Ships-Navy - provide military equipment and supplies for a contingency
        forward deployed in key ocean areas before it is needed.

     In FY 2004, total actual end strength (i.e., civilian and military personnel) for the Military Sealift Command was
     5,503 (see chart). In FY 2006 and FY 2007, the Military Sealift Command expects an increase in afloat
     civilian/civilian mariner end strength, as a result of additional
     ships augmenting the Naval Fleet Auxiliary Force.


                 Military Sealift Command
                   FY 2004 Actual End Strength
                        Military
                         562




                               Civilian
                                4,941


                                                                            The guided missile frigate USS JOHN L. HALL
                                                                            (FFG 32) departs for sea in preparation for
                                                                            PANAMAX 2004

42
                                                                              FY 2004 ANNUAL FINANCIAL REPORT


Base Support

The Base Support business area consists of eight Public Works Centers and the Naval Facilities Engineering
Service Center, which operate under the purview of the Naval Facilities Engineering Command. In FY 2004,
Public Works Centers transferred functional support of Navy shore installations to Commander, Navy
Installations, and established detachment at various Naval Surface and Naval Air Warfare Centers.
Additionally, Public Works Center Pensacola became a detachment of Public Works Center Jacksonville,
reducing the total number of centers from nine to eight.



PUBLIC WORKS CENTER
        Mission: To provide Navy, tenant Department of
                                                                                     Base Support
        Defense, and tenant federal clients with quality public
                                                                         FY 2004 Actual End Strength by Activity
        works support and services, including utilities services,
        facilities maintenance, transportation support,
                                                                                      PWC
        engineering services, environmental services, and shore
                                                                                      389
        facilities planning support.

NAVAL FACILITIES ENGINEERING SERVICES CENTER
        Mission: To deliver quality products and services in
        Energy and Utilities, Amphibious and Expeditionary
        Systems, Environment, Shore, Ocean, and Waterfront
        Facilities.                                                                     NFESC
                                                                                         8,046
In FY 2004, total actual end strength (i.e., civilian and military
personnel) for the Base Support business area was 8,435.
(See chart for actual FY 2004 end strength by activity.) Public
Works Centers anticipate a decrease in civilian end strength and
workyears in subsequent fiscal years due to reorganizations,
outsourcing, and workload reductions.




The conventional aircraft carrier USS KITTY HAWK (CV 63) combat systems department
conducts a Close-In Weapons System (CIWS) pre-action calibration on CIWS Mount 24.


                                                                                                                   43
DEPARTMENT    OF THE   NAVY


     FY 2004 OVERVIEW           OF   PERFORMANCE

     Implementation of the DON Financial Improvement Plan and the Under Secretary of Defense (Comptroller)
     (USD(C)) Financial Improvement Initiative has begun in the NWCF area. Specifically, the Assistant Secretary
     of the Navy (Financial Management and Comptroller) plans to initiate the assertion process for NWCF
     Personal Property, Accounts Receivable, and Debt in the first quarter, FY 2005.



     PROGRAM PERFORMANCE
     Supply Management

     Supply Management, Navy. Since 1998, Supply Management, Navy has used average customer wait time to
     improve customer support. FY 2004 goals for average customer wait time for aviation and maritime supplies
     were 7.5 days and 18.8 days, respectively. As of June 30, 2004, Supply Management, Navy remained on
     track to achieve their fiscal year-end goals: the actual average customer wait time for aviation and maritime
     supplies was 7.9 days and 19.9 days, respectively.

     Supply Management, Marine Corps. The availability of spare parts is an essential performance metric to
     warfighting customers. Accordingly, the Supply Management business area establishes goals and
     continuously monitors results so that corrective actions can be taken, when necessary, to maximize
     performance outputs. In FY 2004, Supply Management, Marine Corps established a goal of 85 percent for
     supply chain channel performance.

     Depot Maintenance

     Depot Maintenance, Shipyards. The shipyards remain committed to productivity improvement. One measure
     of productivity is the direct labor indicator, expressed in part as a percentage of total direct labor man hours
     and overhead. In FY 2004, shipyards exceeded their direct labor goal of 67.9 percent, reporting an actual
     result of 68.2 percent of total direct and overhead hours.

     Depot Maintenance, Aviation. Aviation depots, such as NAVAIR Depot Jacksonville, continue to focus on
     business efficiencies. In the third quarter of FY 2004, NAVAIR Depot Jacksonville produced 11,156
     components, reducing component physical work-in-process by 21 percent. Additionally, NAVAIR Depot
     Jacksonville sold F/A-18 Sequence JX40 out of PMI2 seven days ahead of schedule. This particular airframe
     was converted to the Blue Angel configuration.

     Depot Maintenance, Marine Corps. Schedule conformance improved in FY 2004 as the workforce positioned
     for the workload influx associated with the Global War on Terrorism. Depot Maintenance, Marine Corps
     advanced toward their 100 percent goal through management initiatives aimed at increasing and improving
     productivity yield through continued implementation of the Theory of Constraints. Similarly, Marine Corps
     maintenance centers remained focused on refining and expanding implementation of the Theory of Constraints
     and the application of Lean Thinking to eliminate inefficiencies in shop-level procedures.




44
                                                                                     FY 2004 ANNUAL FINANCIAL REPORT


Research and Development

The span of Research and Development (R&D) activities' products and services is broad and diverse. The
primary measure of performance for the R&D activities is cost per direct labor hour, calculated as direct labor
(civilian and military labor plus overhead) divided by direct labor hours. This financial indicator measures cost
effectiveness in mission performance. The chart below presents FY 2004 planned and actual cost per direct
labor hour for each R&D activity.


                                        Research and Development
                                     FY 2004 Unit Costs: Planned and Actual




                                   NAWC        NSWC          NUWC           NRL         SSC

                        Actual     $80.51      $79.39        $82.39        $106.02      $83.79
                        Planned    $74.73      $80.49        $83.67        $103.65      $83.60



Transportation

To ensure mobility of combat-ready naval forces, it is critical that the Military Sealift Command meet its
readiness goals. The Military Sealift Command bases readiness on "goal days," calculated as the number of
days ships are available to perform a mission multiplied by the number of ships in the program. In FY 2004,
the Military Sealift Command exceeded 100 percent readiness in the Afloat Pre-positioning Force Ships-Navy
(APF- N) Program (see chart). This achievement is attributed primarily to the activation of the USNS CAPE
JOHN (T-AK 5022) and USNS CAPE GIBSON (T-AK 5051) Ready Reserve Force ships during the first quarter
of FY 2004. In the Special Mission Ships (SMS) Program, the Military Sealift Command achieved 99.8 percent
readiness due in part to an unplanned deactivation of the USNS CAPABLE (T-AGOS 16) in September 2004.
In their Naval Fleet Auxiliary Force
(NFAF) Program, the Military Sealift
                                                                Military Sealift Command
Command achieved 96.7 percent
                                                             FY 2004 Readiness by Ship Program
readiness, reflecting the workload
decrease for Harbor Tugs operating
in Norfolk and San Diego and the
delayed activation of the USNS
BRIDGE (T-AOE 10).


                                                              NFAF: 96.7%         APF-N: 101.6%   SMS: 99.8%

                                               Actual Days        23,126              6,322         8,032
                                               Goal Days          23,912              6,222         8,052




                                                                                                                    45
DEPARTMENT    OF THE   NAVY


     Base Support

     As their workload increases, and manual processes are automated, Naval Facilities Engineering Services
     Center continues an upward trend in productivity in FY 2004 (see chart).


                                        Naval Facilities Engineering
                                              Service Center
                                 Upward Trend in Productivity: FY 2001 - FY 2004



                                                                                   77.6%
                                                                  76.3%
                                                 74.1%

                                71.7%



                          FY 2001          FY 2002           FY 2003          FY 2004




     FINANCIAL PERFORMANCE
     Cash Management

     Working Capital Fund cash is managed at the Departmental level. The Department of Defense Financial
     Management Regulation requires Working Capital Fund cash levels be maintained at seven to ten days of
     operational costs, and be sufficient to meet six months of capital outlays. For FY 2004, the seven-day cash
     requirement was $792 million and the ten-day requirement was $1,063 million (see chart below). Based on
     the relatively large beginning balance of $1,827 million, DON structured its FY 2004 budget with a
     disbursement of $448 million from NWCF cash to the Operation and Maintenance, Navy appropriation. Early
     in the fiscal year, Congress and the Office of the Secretary of Defense authorized additional transfers of $88
     million. These transfers, along with anticipated outlays in the Supply Management Business Area, resulted in
     a projected year-end balance of
     $901 million. During FY 2004,                         FY 2004 Cash Management ($ in thousands)
     actual cash levels tracked
     closely with the projected plan         $1,500,000
     except for an unanticipated
     transfer of $200 million directed       $1,000,000
     by the Department of Defense in
     June 2004 to help finance the             $500,000
     Global War on Terrorism. This
     last transfer is the primary                    $-  Oct Nov Dec Jan Feb Mar Apr May Jun Jul Aug Sep
     reason the actual cash balance
     finished approximately $223                                   Actual     Seven-Day Goal     Ten-Day Goal
     million below the projected level
     of $901 million.

46
                                                                               FY 2004 ANNUAL FINANCIAL REPORT


Net Cost of Operations

The NWCF Consolidating Statement of Net Cost present earned revenue and program costs by business area.
The total net cost presented is calculated as the sum of:

 • Intragovernmental Net Costs (i.e., intragovernmental gross costs less intragovernmental earned revenue),
   and

 • Net Costs With the Public (i.e., gross costs with the public less revenue with the public).

NWCF net cost of operations is based on the combined total net cost for the business areas, or "Total Net
Program Costs," after adjustments for any costs not assigned to programs or earned revenue not attributable
to programs. In FY 2003 and FY 2004, there were no adjustments required for costs not assigned to
programs and earned revenue.
                                                             NWCF Combined Net Cost of Operations:
In FY 2004, the combined total net cost for                          FY 2003 v. FY 2004
the NWCF business areas - Supply
Management, Depot Maintenance, Research                                        $1,038,125

and Development, Transportation, Base
Support - NWCF ordnance and component
level was $1,038,125 thousand.                                                                              FY 2003
                                                                $439,930                                    FY 2004




                                                Note: Totals above also include net cost of operations for NWCF
                                                ordnance and component level.




       The Nimitz-class aircraft carrier USS JOHN C. STENNIS (CVN 74).



                                                                                                                      47
DEPARTMENT   OF THE   NAVY


             NET COST        OF   OPERATIONS BY NWCF BUSINESS AREA

                  NWCF Business Area                     FY 2004          FY 2003
                                                         $ (000)          $ (000)      % Inc
              Supply Management
                          Program Costs              $    6,870,512     $ 8,456,945
                   Less: Earned Revenue                   6,106,967       6,895,749
                  Net Cost of Operations             $      763,545     $ 1,561,196

              Depot Maintenance
                          Program Costs              $   1,942,893      $ 5,192,971
                   Less: Earned Revenue                  4,788,820        5,346,593
                  Net Cost of Operations             $ (2,845,927)      $ (153,622)

              Research and Development
                          Program Costs              $ 10,296,517       $ 9,573,205
                   Less: Earned Revenue                10,259,846         9,585,868
                  Net Cost of Operations             $     36,671       $   (12,663)

              Transportation
                           Program Costs             $    1,777,196     $ 1,789,147
                   Less: Earned Revenue                   1,792,429       1,844,089
                  Net Cost of Operations             $      (15,233)    $   (54,942)

              Base Support
                              Program Costs          $    1,581,392     $ 1,569,729
                       Less: Earned Revenue               1,602,991       1,584,722
                      Net Cost of Operations         $      (21,599)    $   (14,993)




             An F-18C Hornet from Fighter Attack Squadron Three Seven




48
                                                                              FY 2004 ANNUAL FINANCIAL REPORT



CONCLUSION
The financial statements have been prepared to report the financial position and results of operations for the
entity, pursuant to the requirements of Title 31, United States Code, Section 3515(b).

The statements have been prepared from the books and records of the entity, in accordance with the formats
prescribed by the Office of Management and Budget. These statements are in addition to the financial reports
used to monitor and control budgetary resources which are prepared from the same books and records.

To the extent possible, the financial statements have been prepared in accordance with federal accounting
standards. At times, the Department is unable to implement all elements of the standards due to financial
management systems limitations. The Department continues to implement system improvements to address
these limitations. There are other instances when the Department's application of the accounting standards is
different from the auditor's application of the standards. In those situations, the Department has reviewed the
intent of the standard and applied it in a manner that management believes fulfills that intent.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that
provides resources to do so.




USNS CAMDEN (T-AOE 2) prepares to receive USS NIMITZ (CVN 68) alongside for a replenishment at sea.



                                                                                                                  49
DEPARTMENT   OF THE   NAVY




                Sailors man the rails aboard the Navy’s newest and most advanced Arleigh Burke-class
                guided missile destroyer USS CHUNG-HOON (DDG 93).




50
                                                   PRINCIPAL STATEMENTS
                                                      GENERAL FUND
        DEPARTMENT OF THE NAVY

GENERAL FUND PRINCIPAL STATEMENTS




                                    GENERAL FUND   51
52
PRINCIPAL STATEMENTS

The FY 2004 Department of the Navy, General Fund Principal Financial Statements and related notes are
presented in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize financial information for individual funds and
accounts within the General Fund for the fiscal year ending September 30, 2004, and are presented on a
comparative basis with information previously reported for the fiscal year ending September 30, 2003.

The following statements are included in the Department of the Navy, General Fund Principal Statements:

 •   Consolidated Balance Sheet
 •   Consolidated Statement of Net Cost
 •   Consolidated Statement of Changes in Net Position
 •   Combined Statement of Budgetary Resources
 •   Combined Statement of Financing

The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                                            GENERAL FUND     53
     Department of Defense
     Department of the Navy
     CONSOLIDATED BALANCE SHEET
     As of September 30, 2004 and 2003
     ($ in thousands)
                                                                                                     2003 Consolidated
                                                                            2004 Consolidated            Restated
      ASSETS (Note 2)

       Intragovernmental:
         Fund Balance with Treasury (Note 3)
              Entity                                                    $           81,874,818   $          78,191,653
              Non-Entity Seized Iraqi Cash                                                   0                       0
              Non-Entity - Other                                                       219,095                 223,225
         Investments (Note 4)                                                            9,457                   9,801
         Accounts Receivable (Note 5)                                                  250,703                 496,863
         Other Assets (Note 6)                                                         272,723                 187,865
              Total Intragovernmental Assets                            $           82,626,796   $          79,109,407
       Cash and Other Monetary Assets (Note 7)                          $              234,865   $             282,995
       Accounts Receivable (Note 5)                                                  2,895,966               3,382,133
       Loans Receivable (Note 8)                                                             0                       0
       Inventory and Related Property (Note 9)                                      53,340,667              53,611,634
       General Property, Plant and Equipment (Note 10)                             151,679,503             158,407,450
       Investments (Note 4)                                                                  0                       0
       Other Assets (Note 6)                                                         5,000,348               6,180,624
     TOTAL ASSETS                                                       $          295,778,145   $         300,974,243

      LIABILITIES (Note 11)
        Intragovernmental:
          Accounts Payable (Note 12)                                    $            1,437,616   $           1,035,033
          Debt (Note 13)                                                                     0                       0
          Environmental Liabilities (Note 14)                                                0                       0
          Other Liabilities (Note 15 & Note 16)                                      3,984,802               3,859,913
                Total Intragovernmental Liabilities                     $            5,422,418   $           4,894,946
        Accounts Payable (Note 12)                                      $            1,395,008   $           1,742,522
        Military Retirement Benefits and Other Employment-Related
          Actuarial Liabilities (Note 17)                                            1,575,815               1,589,971
        Environmental Liabilities (Note 14)                                         16,031,979              15,614,424
        Loan Guarantee Liability (Note 8)                                                    0                       0
        Other Liabilities (Note 15 and Note 16)                                      4,020,826               3,785,962
        Debt Held by Public (Note 13)                                                        0                       0
      TOTAL LIABILITIES                                                 $           28,446,046   $          27,627,825

      NET POSITION
        Unexpended Appropriations (Note 18)                             $           79,161,774   $          76,694,928
        Cumulative Results of Operations                                           188,170,325             196,651,490
      TOTAL NET POSITION                                                $          267,332,099   $         273,346,418

      TOTAL LIABILITIES AND NET POSITION                                $          295,778,145   $         300,974,243


     The accompanying notes are an integral part of these statements.

54
Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                       2004 Consolidated         2003 Consolidated
    Program Costs
       Intragovernmental Gross Costs                               $          39,171,720     $          35,142,574
       (Less: Intragovernmental Earned Revenue)                                (3,272,860)               (3,186,968)
       Intragovernmental Net Costs                                 $          35,898,860     $          31,955,606

       Gross Costs With the Public                                 $          96,846,251     $          81,168,783
       (Less: Earned Revenue From the Public)                                  (3,302,708)              (1,919,696)
       Net Costs With the Public                                   $          93,543,543     $          79,249,087

       Total Net Cost                                   $                    129,442,403     $         111,204,693
    Costs Not Assigned to Programs                                                     0                         0
    (Less: Earned Revenue Not Attributable to Programs)                                0                         0
    Net Cost of Operations                              $                    129,442,403     $         111,204,693




The accompanying notes are an integral part of these statements.

                                                                                                 GENERAL FUND     55
     Department of Defense
     Department of the Navy
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the years ended September 30, 2004 and 2003
     ($ in thousands)

                                                                                                  2003 Consolidated
                                                                            2004 Consolidated         Restated

        Cumulative Results of Operations
         Beginning Balances                                             $         222,565,239 $           44,169,672
          Prior period adjustments (+/-)
          Prior Period Adjustments - Restated (+/-)                               (25,913,750)                     0
          Beginning Balance, Restated                                   $         196,651,489 $           44,169,672
          Prior Period Adjustments - Not Restated (+/-)                                     0            152,557,286
         Beginning Balances, as adjusted                                $         196,651,489 $          196,726,958
         Budgetary Financing Sources:
          Appropriations Received                                       $                   0 $                    0
          Appropriations transferred in/out (+/-)                                           0                      0
          Other adjustments (rescissions, etc) (+/-)                                        0                      0
          Appropriations used                                                     120,198,147            110,567,740
          Nonexchange revenue                                                               0                      0
          Donations and forfeitures of cash and cash equivalents                            0                      0
          Transfers in/out without reimbursement (+/-)                                166,000                      0
          Other budgetary financing sources (+/-)                                           0                      0
         Other Financing Sources:
          Donations and forfeitures of property                                             0                      0
          Transfers in/out without reimbursement (+/-)                                 11,883                 51,765
          Imputed financing from costs absorbed by others                             585,209                509,719
          Other (+/-)                                                                       0                      0
         Total Financing Sources                                        $         120,961,239 $          111,129,224
          Net Cost of Operations (+/-)                                  $         129,442,403 $          111,204,693
          Ending Balances                                               $         188,170,325 $          196,651,489




     The accompanying notes are an integral part of these statements.

56
Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2004 and 2003
($ in thousands)
                                                                                                 2003 Consolidated
                                                                       2004 Consolidated             Restated
   Unexpended Appropriations
    Beginning Balances                                             $          50,781,179     $          64,774,328
     Prior period adjustments (+/-)
     Prior Period Adjustments - Restated (+/-)                                25,913,750                         0
     Beginning Balance, Restated                                   $          76,694,929     $          64,774,328
     Prior Period Adjustments - Not Restated (+/-)                                     0                         0
    Beginning Balances, as adjusted                                $          76,694,929     $          64,774,328
    Budgetary Financing Sources:
     Appropriations Received                                       $          123,917,983    $         122,132,688
     Appropriations transferred in/out (+/-)                                      455,059                1,810,288
     Other adjustments (rescissions, etc) (+/-)                                (1,708,050)              (1,454,635)
     Appropriations used                                                     (120,198,147)            (110,567,740)
     Nonexchange revenue                                                                0                        0
     Donations and forfeitures of cash and cash equivalents                             0                        0
     Transfers in/out without reimbursement (+/-)                                       0                        0
     Other budgetary financing sources (+/-)                                            0                        0
    Other Financing Sources:
     Donations and forfeitures of property                                             0                         0
     Transfers in/out without reimbursement (+/-)                                      0                         0
     Imputed financing from costs absorbed by others                                   0                         0
     Other (+/-)                                                                       0                         0
    Total Financing Sources                                        $           2,466,845     $          11,920,601
     Net Cost of Operations (+/-)                                  $                   0     $                   0
     Ending Balances                                               $          79,161,774     $          76,694,929




The accompanying notes are an integral part of these statements.

                                                                                                 GENERAL FUND         57
     Department of Defense
     Department of the Navy
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the years ended September 30, 2004 and 2003
     ($ in thousands)

                                                                            2004 Combined         2003 Combined
                                                                              Budgetary             Budgetary
                                                                              Financing             Financing
                                                                               Accounts              Accounts
        BUDGETARY RESOURCES
          Budget Authority:
             Appropriations Received                                    $      123,948,477    $       122,169,428
             Borrowing Authority                                                         0                      0
             Contract Authority                                                          0                    739
             Net transfers (+/-)                                                   425,109              1,662,142
             Other                                                                       0                      0
          Unobligated Balance:
             Beginning of period                                                14,695,238             11,908,983
             Net transfers, actual (+/-)                                           195,950                145,546
             Anticipated Transfers Balances                                              0                      0
          Spending Authority from Offsetting Collections:
             Earned                                                                      0                      0
              Collected                                                          7,706,650              6,792,556
              Receivable from Federal sources                                     (360,284)            (1,211,532)
             Change in unfilled customer orders                                          0                      0
              Advances received                                                     56,010                (59,842)
              Without advance from Federal sources                                 467,506                308,282
             Anticipated for the rest of year, without advances                          0                      0
             Transfers from trust funds                                                  0                      0
            Subtotal                                                    $        7,869,882    $         5,829,464
          Recoveries of prior year obligations                          $       13,756,981    $         7,009,339
          Temporarily not available pursuant to Public Law                               0                      0
          Permanently not available                                             (1,708,789)            (1,452,574)
          Total Budgetary Resources                                     $      159,182,848    $       147,273,067

        STATUS OF BUDGETARY RESOURCES
          Obligations Incurred:
             Direct                                                     $      132,268,522    $       124,497,950
             Reimbursable                                                        8,886,330              8,079,881
             Subtotal                                                   $      141,154,852    $       132,577,831
          Unobligated balance:
             Apportioned                                                $       13,973,108    $        13,697,001
             Exempt from apportionment                                                   0                      0
             Other available                                                             0                      0
          Unobligated Balances Not Available                                     4,054,888                998,235
          Total, Status of Budgetary Resources                          $      159,182,848    $       147,273,067




     The accompanying notes are an integral part of these statements.

58
Department of Defense
Department of the Navy
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                       2004 Combined          2003 Combined
                                                                         Budgetary              Budgetary
                                                                         Financing              Financing
                                                                          Accounts               Accounts

   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
     Obligated Balance, Net-beginning of period                    $        63,520,894    $        56,100,186
     Obligated Balance transferred, net (+/-)                                        0                      0
     Obligated Balance, net-end of period:
        Accounts Receivable                                                   (537,560)              (897,842)
        Unfilled customer order from Federal sources                        (2,802,982)            (2,335,476)
        Undelivered Orders                                                  63,723,755             63,419,000
        Accounts Payable                                                     3,473,010              3,335,213
     Outlays:
        Disbursements                                                      126,955,319            119,051,033
        Collections                                                         (7,762,660)            (6,732,714)
        Subtotal                                                   $       119,192,659    $       112,318,319
     Less: Offsetting receipts                                                (115,027)              (246,802)
     Net Outlays                                                   $       119,077,632    $       112,071,517




The accompanying notes are an integral part of these statements.

                                                                                                GENERAL FUND     59
     Department of Defense
     Department of the Navy
     COMBINED STATEMENT OF FINANCING
     For the years ended September 30, 2004 and 2003
     ($ in thousands)

                                                                                         2004 Combined          2003 Combined


        Resources Used to Finance Activities:
        Budgetary Resources Obligated
           Obligations Incurred                                                      $       141,154,852    $      132,577,831
           Less: Spending Authority from offsetting collections and recoveries (-)           (21,626,865)          (12,838,803)
           Obligations net of offsetting collections and recoveries                  $       119,527,987    $      119,739,028
           Less: Offsetting receipts (-)                                                        (115,027)             (246,802)
           Net obligations                                                           $       119,412,960    $      119,492,226
        Other Resources
           Donations and forfeitures of property                                                       0                     0
           Transfers in/out without reimbursement (+/-)                                           11,883                51,765
           Imputed financing from costs absorbed by others                                       585,209               509,719
           Other (+/-)                                                                                 0                     0
           Net other resources used to finance activities                            $           597,092    $          561,484
           Total resources used to finance activities                                $       120,010,052    $      120,053,710

        Resources Used to Finance Items not Part of the Net Cost of Operations:
          Change in budgetary resources obligated for goods, services and benefits
             ordered but not yet provided
             Undelivered orders (-)                                                $           1,796,210    $       (3,213,420)
             Unfilled Customer Orders                                                            523,516               248,440
          Resources that fund expenses recognized in prior periods                              (115,122)              (31,284)
          Budgetary offsetting collections and receipts that do not affect Net
             Cost of Operations                                                                        0                     0
           Resources that finance the acquisition of assets                                  (12,412,218)          (26,444,222)
           Other resources or adjustments to net obligated resources that do not
             affect Net Cost of Operations
               Less: Trust or Special Fund Receipts related to Exchange
               budget (-)                                                                              0                     0
              Other (+/-)                                                                        (11,883)                    0
           Total resources used to finance items not part of the Net Cost of
             Operations                                                              $       (10,219,497)   $      (29,440,486)
           Total resources used to finance the Net Cost of Operations                $       109,790,555    $       90,613,224




     The accompanying notes are an integral part of these statements.

60
Department of Defense
Department of the Navy
COMBINED STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                            2004 Combined         2003 Combined

   Components of the Net Cost of Operations that will not Require
   or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                 $          188,260    $                0
     Increase in environmental and disposal liability                              427,489                     0
     Upward/Downward reestimates of credit subsidy expense                               0                     0
     Increase in exchange revenue receivable from the public (-)                         0                     0
     Other (+/-)                                                                   193,243               428,344
     Total components of Net Cost of Operations that will require or
        generate resources in future periods                            $          808,992    $          428,344

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                      $        17,475,862   $        16,936,476
     Revaluation of assets and liabilities (+/-)                                  1,114,040             3,203,729
     Other (+/-)
          Trust Fund Exchange Revenue                                              (30,297)                    0
          Cost of Goods Sold                                                             0                     0
          Operating Material & Supplies Used                                       270,967                     0
          Other                                                                     12,284                22,920
     Total components of Net Cost of Operations that will not require
       or generate resources                                            $        18,842,856   $        20,163,125
     Total components of Net Cost of Operations that will not
       require or generate resources in the current period              $        19,651,848   $        20,591,469
     Net Cost of Operations                                             $       129,442,403   $       111,204,693




The accompanying notes are an integral part of these statements.

                                                                                              GENERAL FUND      61
62
                                                            NOTES
                                                            TO THE
                                                            GENERAL FUND
                                                               PRINCIPAL STATEMENTS
              DEPARTMENT OF THE NAVY

GENERAL FUND NOTES   TO THE   PRINCIPAL STATEMENTS




                                             GENERAL FUND   63
     NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
     1.A. Basis of Presentation
     These financial statements have been prepared to report the financial position and results of operations of the
     Department of the Navy (DON), as required by the “Chief Financial Officers (CFO) Act of 1990,” expanded by
     the “Government Management Reform Act (GMRA) of 1994,” and other appropriate legislation. The financial
     statements have been prepared from the books and records of the DON in accordance with the “Department of
     Defense Financial Management Regulation” (DoD FMR), the Office of Management and Budget (OMB) Bulletin
     No. 01-09, “Form and Content of Agency Financial Statements,” and to the extent possible, Federal Generally
     Accepted Accounting Principles (GAAP). The accompanying financial statements account for all resources for
     which the DON is responsible; except that information relative to classified assets, programs, and operations
     has been excluded from the statement or otherwise aggregated and reported in such a manner that it is no
     longer classified. In addition to the DON financial statements, and pursuant to OMB directives, financial reports
     are also prepared by the DON that are used to monitor and control the DON’s use of budgetary resources.

     The DON is unable to fully implement all elements of Federal GAAP and the OMB Bulletin No. 01-09 due to
     limitations of its financial management processes and systems, including feeder systems and processes.
     Reported values and information for the DON’s major asset and liability categories are derived largely from
     feeder systems, such as inventory systems and logistic systems. These systems were designed to support
     reporting requirements focusing on maintaining accountability over assets and reporting the status of federal
     appropriations rather than preparing financial statements in accordance with Federal GAAP. As a result, the
     DON cannot currently implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The DON
     continues to implement process and system improvements addressing the limitation of its financial and feeder
     systems. A more detailed explanation of these financial statement elements is provided in the applicable note.

     Fiscal Year (FY) 2004 represents the ninth year that the DON has prepared audited financial statements as
     required by the CFO Act and the GMRA.

     1.B. Mission of the Reporting Entity
     The DON was created on April 30 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall
     mission of DoD, as stated in the FY 2002 Annual Defense Report, is to assure allies and friends, dissuade
     future military competition, deter threats and coercion against U.S. interests, and defeating adversaries if
     deterrence fails.

     1.C. Appropriations and Funds
     The DON’s appropriations and funds are divided into the general, revolving funds, trust, special, and deposit
     funds. These appropriations and funds are used to fund and report how the resources have been used in the
     course of executing the DON’s missions.

     General funds are used for financial transactions arising under Congressional appropriations, including
     personnel, operation and maintenance, research and development, procurement, and construction accounts.

     Revolving funds receive their initial working capital through an appropriation or a transfer of resources from
     existing appropriations or funds and use those capital resources to finance the initial cost of products and
     services. Financial resources to replenish the initial working capital and to permit continuing operations are
     generated by the acceptance of customer orders. The National Defense Sealift Fund is the DON's only
     revolving fund.



64
Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying
out specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special funds account for receipts of the government that are earmarked for a specific purpose.

Deposit funds generally are used to (1) hold assets for which the DON is acting as an agent or a custodian or
whose distribution awaits legal determination, or (2) account for unidentified remittances.

The asset accounts used to prepare the statements are categorized as either entity or non-entity. Entity
accounts consist of resources that the agency has the authority to use, or where management is legally
obligated to use funds to meet entity obligations. Non-entity accounts are assets that are held by an entity but
are not available for use in the operations of the entity.

ENTITY ACCOUNTS:
General Funds
17X0380     Coastal Defense Augmentation, Navy
17 0703     Family Housing Construction, Navy and Marine Corps
17 0735     Family Housing, Navy and Maine Corps (Operations and Maintenance)
17X0810     Environmental Restoration, Navy
17 1105     Military Personnel, Marine Corps
17 1106     Operation and Maintenance, Marine Corps
17 1107     Operation and Maintenance, Marine Corps Reserve
17 1108     Reserve Personnel, Marine Corps
17 1109     Procurement, Marine Corps
17 1205     Military Construction, Navy
17 1235     Military Construction, Naval Reserve
17X1236     Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration
            Fund, Navy
17 1319     Research, Development, Test, and Evaluation, Navy
17 1405     Reserve Personnel, Navy
17 1453     Military Personnel, Navy
17 1506     Aircraft Procurement, Navy
17 1507     Weapons Procurement, Navy
17 1508     Procurement of Ammunition, Navy and Marine Corps
17 1611     Shipbuilding and Conversion, Navy
17 1804     Operation and Maintenance, Navy
17 1806     Operation and Maintenance, Navy Reserve
17 1810     Other Procurement, Navy

Revolving Funds
17 4557      National Defense Sealift Fund, Navy

Trust Funds
17X8716     Department of the Navy General Gift Fund
17X8723     Ship Stores Profits, Navy
17X8733     United States Naval Academy Gift and Museum Fund




                                                                                             GENERAL FUND          65
     Special Funds
     17X5095      Wildlife Conservation, Military Reservations, Navy
     17X5185      Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy
     17X5429      Rossmoor Liquidating Trust Settlement Account

     Non Entity Accounts:
     17 3XXX      Receipt Accounts
     17X6XXX      Deposit Funds

     1.D. Basis of Accounting
     The DON generally records transactions on a budgetary basis and not an accrual accounting basis as is
     required by Federal GAAP. For FY 2004, DON’s financial management systems are unable to meet all of the
     requirements for full accrual accounting. Many of the DON’s financial and feeder systems and processes were
     designed and implemented prior to the issuance of Federal GAAP and, therefore, were not designed to collect
     and record financial information on the full accrual accounting basis as required by Federal GAAP. The DON
     has undertaken efforts to determine the actions required to bring its financial and feeder systems and
     processes into compliance with all elements of Federal GAAP. One such action is the current revision of its
     accounting systems to record transactions based on the United States Government Standard General Ledger
     (USSGL). Until such time as all of the DON’s financial and feeder systems and processes are updated to
     collect and report financial information as required by Federal GAAP, the DON’s financial data will be based on
     budgetary transactions (obligations, disbursements, and collections), and transactions from feeder systems,
     adjusted for known accruals of major items such as payroll expenses, accounts payable, and environmental
     liabilities. However, when possible, the financial statements are presented on the accrual basis of accounting
     as required. One example of information presented on the budgetary basis is the data on the Statement on Net
     Cost. Much of this information is based on obligations and disbursements and may not always represent
     accrued costs.

     In addition, the DON identifies programs based upon the major appropriation groups provided by Congress.
     The DON is in the process of reviewing available data and attempting to develop a cost reporting methodology
     that balances the need for cost information required by the Statement of Federal Financial Accounting
     Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,”
     with the need to keep the financial statements from being overly voluminous.

     1.E. Revenues and Other Financing Sources
     Financing sources for general funds are provided primarily through congressional appropriations that are
     received on both an annual and a multiyear basis. When authorized, these appropriations are supplemented
     by revenues generated by sales of goods or services through a reimbursable order process. The DON
     recognizes revenue as a result of costs incurred or services performed on behalf of other federal agencies and
     the public. Revenue is recognized when earned under the reimbursable order process.

     The DON does not include non-monetary support provided by U.S. Allies for common defense in mutual
     security in its list of other financing sources that appears in the Statement of Financing. The U.S. has
     agreements with foreign countries that include both direct and indirect sharing of costs that each country incurs
     in support of the same general purpose. Examples include countries where there is a mutual or reciprocal
     defense agreement, where U.S. troops are stationed, or where the U.S. fleet is in port. DoD is reviewing these
     types of financing and costs reductions in order to establish accounting policies and procedures to identify
     what, if any, of these costs are appropriate for disclosure in the financial statements in accordance with
     generally accepted accounting principles. Recognition of support provided by host nations would affect both
     financing sources and recognition of expenses.

66
1.F. Recognition of Expenses
For financial reporting purposes, DON policy requires the recognition of operating expenses in the period
incurred. However, because the DON’s financial and feeder systems were not designed to collect and record
financial information on the full accrual accounting basis, accrual adjustments are made for major items such
as payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-
term assets are not recognized as expenses in the DON’s operations until depreciated in the case of Property,
Plant and Equipment (PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Net
increases or decreases in unexpended appropriations are recognized as a change in the net position. Certain
expenses, such as annual and military leave earned but not taken, are financed in the period in which payment
is made.

Operating expenses were adjusted as a result of elimination of balances between DoD components. See Note
19.I, Intragovernmental Expenses and Revenue for disclosure of adjustment amounts.

1.G. Accounting for Intragovernmental Activities
The DON, as an agency of the federal government, interacts with and is dependent upon the financial activities
of the federal government as a whole. Therefore, these financial statements do not reflect the results of all
financial decisions applicable to the DON as though the agency was a stand-alone entity.

The DON’s proportionate share of public debt and related expenses of the federal government are not
included. Debt issued by the federal government and the related costs are not apportioned to federal
agencies. The DON’s financial statements, therefore, do not report any portion of the public debt or interest
thereon, nor do the statements report the source of public financing whether from issuance of debt or tax
revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting
agencies.

The DON’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
Employees Retirement System (FERS), while military personnel are covered by the Military Retirement System
(MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage under
Social Security. The DON funds a portion of the civilian and military pensions. Reporting civilian pension
under CSRS and FERS retirement systems is the responsibility of the Office of Personnel Management
(OPM). The DON recognizes an imputed expense for the portion of civilian employee pensions and other
retirement benefits funded by the OPM in the Statement of Net Cost; and recognizes corresponding imputed
revenue from the civilian employee pensions and other retirement benefits in the Statement of Changes in Net
Position.

DoD reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel in the
Military Retirement Fund (MRF) financial statements. DoD recognizes the actuarial liability for the military
retirement health benefits in the Other Defense Organization General Fund column of the DoD Agency-wide
consolidating/combining statements.

To prepare reliable financial statements, transactions occurring between components or activities within the
DON must be eliminated. However, the DON, as well as the majority of the federal government, cannot
consistently and accurately identify all intragovernmental transactions by customer. The Defense Finance and

                                                                                                  GENERAL FUND           67
     Accounting Services (DFAS) is responsible for eliminating transactions between components or activities of the
     DON. For FYs 1999 and beyond seller entities within DoD provided summary seller-side balances for
     revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In
     most cases, the buyer-side records have been adjusted to recognize unrecorded costs and accounts payable.
     Intra-DoD intragovernmental balances were then eliminated.

     The Department of the Treasury, Financial Management Services (FMS) is responsible for eliminating
     transactions between the Department and other federal agencies. In September 2004, the FMS issued the
     “Federal Intragovernmental Transactions Accounting Policies Guide.” The Department was not able to fully
     implement the policies and procedures in this guide related to reconciling intragovernmental assets, liabilities,
     revenues, and expenses for non-fiduciary transactions. The DON, however, was able to implement the
     policies and procedures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide” as
     updated by the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide,” issued
     October 2002, for reconciling intragovernmental transactions. These transactions pertain to investments in
     Federal securities, borrowings from the United States (U.S.) Treasury and the Federal Financing Bank, Federal
     Employees’ Compensation Act transactions with the Department of Labor (DoL), and benefit program
     transactions with the OPM.

     1.H. Transactions with Foreign Governments and International Organizations
     Each year, the DoD Components sell defense articles and services to foreign governments and international
     organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
     this Act, DoD has authority to sell defense articles and services to foreign countries and international
     organizations, generally at no profit or loss to the U.S. Government. Customers may be required to make
     payments in advance.

     1.I. Funds with the U.S. Treasury
     The DON’S financial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
     disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the U. S. Army
     Corps of Engineers (USACE) disbursing stations, as well as the Department of State financial service centers.
     Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check
     issues, electronic fund transfers, interagency transfers and deposits.

     In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury,
     by appropriation, on interagency transfers, collections received, and disbursements issued. The Department of
     the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
     maintained in the Treasury’s system. Differences between the DON’s recorded balance in the FBWT accounts
     and Treasury’s FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are
     provided at Note 3.

     1.J. Foreign Currency
     The DON conducts a significant portion of its operations overseas. The Congress established a special
     account to handle the gains and losses from foreign currency transactions for five general fund appropriations
     (Operations and Maintenance, Military Personnel, Military Construction, Family Housing Operations and
     Maintenance, and Family Housing Construction.) The gains and losses are computed as the variance
     between the exchange rate current at the date of payment and a budget rate established at the beginning of
     each fiscal year. Foreign currency fluctuations related to other appropriations require adjustment to the original
     obligation amount at the time of payment. These currency fluctuations are not separately identified.



68
1.K. Accounts Receivable
As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds
receivable from other federal entities or from the public. Allowances for uncollectible accounts due from the
public are based upon analysis of collection experience by fund type. The Department does not recognize an
allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies. Material disclosures are provided at Note 5.

1.L. Loans Receivable.
Not applicable.

1.M. Inventories and Related Property
Effective October 1, 2002, SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and
Equipment,” revises accounting principles for military equipment (previously referred to as National Defense
Property, Plant, and Equipment). This standard renames National Defense Property, Plant, and Equipment to
military equipment, classifies military equipment as general property, plant, and equipment, and requires the
capitalization and depreciation of the cost of military equipment, including the cost of modifications and
upgrades. Likewise, military equipment (previously referred to as National Defense Property, Plant, and
Equipment) also includes items, which will now be classified as Operating Materials and Supplies (OM&S).

The DON uses the Latest Acquisition Cost method as its inventory systems were designed for material
management rather than accounting purposes. The systems provide accountability for and visibility over
inventory items. The systems do not maintain the historical cost data necessary to comply with the SFFAS No.
3, “Accounting for Inventory Related Property.” Neither can they directly produce financial transactions using
the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). DoD
is transitioning to a Moving Average Cost methodology for valuing inventory and OM&S that when fully
implemented will allow the DON to comply with SFFAS No. 3.

SFFAS No. 3 distinguishes between “inventory held for sale” and “inventory held in reserve for future sale.”
There is no management or valuation difference between the two USSGL accounts. Further, the DoD manages
only military or government-specific material under normal conditions. Items commonly used in and available
from the commercial sector are not managed in the DoD material management activities. Operational cycles
are irregular, and the military risks associated with stock-out positions have no commercial parallel. The DoD
holds material based on military need and support for contingencies. Therefore, the DON does not attempt to
account separately for items held for current or future use.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for sale,
are valued at standard purchase price. The DoD uses the consumption method of accounting for OM&S, for
the most part, expensing material when it is issued to the end user. Where current systems cannot fully
support the consumption method, the DON uses the purchase method - that is, expended when purchased.
The DON reported significant amounts using the purchase method either because the systems could not
support the consumption method or because management deems that the item is in the hands of the end user.

DoD implemented new policy in FY 2002 to account for condemned material (only) as “Excess, Obsolete, and
Unserviceable.” The net value of condemned material is zero, because the costs of disposal are greater than
the potential scrap value. Material that can be potentially redistributed, presented in previous years as “Excess,
Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Repair” categories according to its
condition.



                                                                                              GENERAL FUND           69
     In addition, past audit results identified uncertainties about the completeness and existence of quantities used
     to produce the reported values. Material disclosure related to inventory and related property is provided at
     Note 9.

     1.N. Investments in U.S. Treasury Securities
     For the Trust Funds, investments in U.S. Treasury securities are reported at cost, net of unamortized premiums
     or discounts. Premium or discounts are amortized into interest income over the term of the investment using
     the effective interest rate method or other methods if similar results are obtained. The DON’s intent is to hold
     investments to maturity; unless they are needed to finance claims or otherwise sustain operations.
     Consequently, a provision is not made for unrealized gains or losses on these securities.

     The DON invests in non-marketable securities. The two types of non-marketable securities are par value and
     market based Intragovernmental securities. The Bureau of Public Debt issues non-marketable Par Value
     Intragovernmental Securities. Non-marketable, Market Based Intragovernmental Securities mimic marketable
     securities, but are not traded publicly. See Note 4 for material disclosures.

     1.O. General Property, Plant and Equipment
     Effective October 1, 2002, SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and
     Equipment,” revises accounting principles for military equipment (previously referred to as National Defense
     Property, Plant, and Equipment). This standard renames National Defense Property, Plant, and Equipment to
     military equipment, classifies military equipment as general property, plant, and equipment, and requires the
     capitalization and depreciation of the cost of military equipment, including the cost of modifications and
     upgrades.

     General PP&E, exclusive of Military Equipment, is capitalized at historical acquisition cost plus capitalized
     improvements when an asset has a useful life of two or more years, and when the acquisition cost equals or
     exceeds the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization
     threshold of $100,000 for General PP&E, are required to be capitalized. All General PP&E, other than land
     and Military Equipment, is depreciated on a straight-line basis. Land is not depreciated.

     When it is in the best interest of the government, the DON provides government property to contractors when
     deemed necessary to complete contracted work. Such property is either owned or leased by the DON, or
     purchased directly by the contractor for the government based on contract terms. When the value of
     contractor procured General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be
     included in the value of General PP&E reported on the DON’s Balance Sheet. DoD is developing new policies
     and a contractor reporting process that will provide appropriate General PP&E information for future financial
     statement reporting purposes. Accordingly, the DON currently reports only government property in the
     possession of contractors that is maintained in the DON’S property systems.

     To bring the DoD into fuller compliance with federal accounting standards, DoD has issued new property
     accountability and reporting regulations that require the DoD Components to maintain, in DoD Component
     property systems, information on all property furnished to contractors. This action and other DoD proposed
     actions are structured to capture and report the information necessary for compliance with federal accounting
     standards. Material disclosures are provided at Note 10.

     1.P. Advances and Prepayments
     Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
     reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
     expenses when the related goods and services are received.

70
1.Q. Leases
Generally, lease payments are for the rental of equipment and operating facilities and are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease) the DON records the applicable asset and liability if the value equals or exceeds the current DoD
capitalization threshold. The DON records the amounts as the lesser of the present value of the rental and
other lease payments during the lease term (excluding portions representing executory costs paid to the
lessor) or the assets fair value. The DON deems the use of estimates for these costs as adequate and
appropriate due to the relatively low dollar value of capital leases. Imputed interest was necessary to reduce
net minimum lease payments to present value calculated at the incremental borrowing rate at the inception of
the leases. In addition, the DON classifies leases that do not transfer substantially all of the benefits or risks of
ownership as operating leases and records payment expenses over the lease term.

1.R. Other Assets
DON conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause,
the DON provides financing payments for certain contracts. One type of financing payment that the DON
makes, for real property, is based upon a percentage of completion. In accordance with the SFFAS No. 1,
“Accounting for Selected Assets and Liabilities,” such payments are treated as Construction-in-Progress and
are reported on the General PP&E line and in Note 10, General PP&E, Net.

In addition, based on the Federal Acquisition Regulation (FAR), the DON makes financing payments under
fixed price contracts that are not based on a percentage of completion. The DON reports these financing
payments as advances or prepayments in the “Other Assets” line item. The DON treats these payments as
advances or prepayment because the DON becomes liable only after the contractor delivers the goods in
conformance with the contract terms. If the contractor does not deliver a satisfactory product, the DON is not
obligated to reimburse the contractor for its costs and the contractor is liable to repay the DON for the full
amount of the advance.

DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract
financing; FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315,
“Prompt Payment.” DoD concluded that SFFAS No. 1 does not fully or adequately address the subject of
progress payment accounting and is considering what further action is appropriate.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized
as a liability when a past event or exchange transaction has occurred, a future loss is probable and the
amount of loss can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss
contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and
assessments. The DON’s loss contingencies arising as a result of pending or threatened litigation or claims
and assessments occur due to events such as aircraft, ship and vehicle accidents; medical malpractice;
property or environmental damages; and contract disputes.




                                                                                                 GENERAL FUND           71
     Other liabilities arise as a result of anticipated disposal costs for the DON’s assets. This type of liability has
     two components-- nonenvironmental and environmental. Recognition of an anticipated environmental disposal
     liability begins when the asset is placed into service, consistent with SFFAS No. 6, “Accounting for Property,
     Plant, and Equipment.” Based upon the DON’s policies and consistent with SFFAS No.5 “Accounting for
     Liabilities of Federal Government,” a nonenvironmental disposal liability is recognized for an asset when
     management makes a decision to dispose of the asset. The Department has agreed to the recognition of
     nonenvironmental disposal liability for nuclear powered assets when the asset is placed in service. Such
     amounts are developed in conjunction with and not easily identifiable separately from environmental disposal
     costs. Material disclosures are provided at Notes 14 and 15.

     1.T. Accrued Leave
     Civilian annual leave and military leave that has been accrued and not used as of the balance sheet date are
     reported as liabilities. The liability reported at the end of the fiscal year reflects current pay rates.

     1.U. Net Position
     Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
     appropriations represent amounts of authority, which are unobligated and have not been rescinded or
     withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
     payments have not yet been incurred.

     Cumulative results of operations represent the difference, since inception of an activity, between expenses and
     losses and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, this
     included the cumulative amount of donations and transfers of assets in and out without reimbursement.

     1.V. Treaties for Use of Foreign Bases
     The DoD Components have the use of land, buildings, and other facilities, which are located overseas and
     have been obtained through various international treaties and agreements negotiated by the Department of
     State. DoD capital assets overseas are purchased with appropriated funds; however, title to land and
     improvements are retained by the host country. Generally, treaty terms allow the DoD Components continued
     use of these properties until the treaties expire. These fixed assets are subject to loss in the event treaties are
     not renewed or other agreements are not reached which allow for the continued use by the Department.
     Therefore, in the event treaties or other agreements are terminated whereby use of the foreign bases is no
     longer allowed, losses will be recorded for the value of any non-retrievable capital assets after negotiations
     between the U.S. and the host country have been concluded to determine the amount to be paid the U.S. for
     such capital investments.

     1.W. Comparative Data
     The Financial Statements and accompanying Notes to the Financial Statements report the financial position
     and results of operations for FY 2004. Financial statement fluctuations greater than 2 percent of total assets
     on the Balance Sheet and/or greater 10 percent between FY 2003 and FY 2004 are explained within the Notes
     to the Financial Statements.

     1.X. Unexpended Obligations
     The DON obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
     statements do not reflect this liability for payment for goods and services not yet delivered.




72
1.Y. Problem Disbursements

Disclosures Related to Problem Disbursements, In-transit Disbursements

                                                                                      (Decrease)/Increase
As of September 30,                       2002          2003           2004
                                                                                       from 2003 to 2004
      (Amounts in thousands)

 1. Total Problem Disbursements
      A. Absolute Unmatched
         Disbursements                $   352,000   $   144,000    $   183,570    $       39,570
      B. Negative Unliquidated
         Obligations                       41,000        42,000         32,110            (9,890)
 2. Total In-transit Disbursements,
                                      $    51,551   $   (11,621)   $   (23,714)   $      (12,093)
    Net


Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
accounting system. Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation
but the payment is greater than the amount of the obligation recorded in the official accounting system. These
payments use available funds for valid receiving reports on delivered goods and services under valid contracts.
In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on
behalf of an accountable activity but not yet posted in an accounting system.

UMDs, NULOs, and In-transit Disbursements, Net represent disbursements of DON funds that have been
reported by a disbursing station to the Department of the Treasury but have not yet been precisely matched
against the specific source obligation giving rise to the disbursements. For the most part, these payments
have been made using available funds and are based on valid receiving reports for goods and services
delivered under valid contracts.

The elimination of both Problem Disbursements and In-transits is one of the highest financial management
priorities of the OUSD(C). Problem Disbursements and In-transits represent a significant financial
management concern since: (1) accuracy of accounting reports is affected; (2) availability of funds is more
difficult to determine; and (3) the required research and resolution process becomes much more labor
intensive as the age of the problem disbursements increase. As a result, the DON has efforts underway to
improve the systems and to resolve all previous problem disbursements and process all in-transit
disbursements.

1.Z. Data Collection Approach
The DON financial statements include information from both financial systems and feeder systems. The
Defense Finance Accounting Service, Cleveland (DFAS-CL) and Kansas City (DFAS-KC) collect the financial
system information and incorporate it into the financial statements. The DON collects financial information from
feeder systems through a data call process and submits it to DFAS-CL & KC for incorporation into the financial
statements. For FY 2004, the DON utilized a web-based data collection instrument (DCI) that captures all
required financial information from feeder systems for the General Fund (GF) statements. This is the sixth
year DON has used the DCI to collect information from feeder systems. The DON DCI identifies the
information requirements to the source provider, provides an audit trail, and integrates into the financial
statement preparation process.




                                                                                                    GENERAL FUND   73
     NOTE 2. NON-ENTITY ASSETS

     As of September 30,                                  2004               2003
     (Amounts in thousands)
     1. Intragovernmental Assets:
         A. Fund Balance with Treasury              $      219,095      $       223,225
         B. Investments                                          0                    0
         C. Accounts Receivable                                  0                    0
         D. Other Assets                                         0                    0
         E. Total Intragovernmental Assets          $      219,095      $       223,225

     2. Non-Federal Assets:
         A. Cash and Other Monetary Assets          $      234,865      $       282,995
         B. Accounts Receivable                          2,755,331            2,642,167
         C. Loans Receivable                                     0                    0
         D. Inventory & Related Property                         0                    0
         E. General Property, Plant and                          0                    0
            Equipment
         F. Investments                                          0                    0
         G. Other Assets                                         0                    0
         H. Total Non-Federal Assets                $    2,990,196      $     2,925,162

     3. Total Non-Entity Assets                     $    3,209,291      $     3,148,387

     4. Total Entity Assets                         $ 292,568,854       $   297,825,856

     5. Total Assets                                $ 295,778,145       $   300,974,243


     6. Other Information Related to Non-Entity and Entity Assets:

     Fluctuation and/or Abnormalities
     Non-Entity Assets.
     The DON reported a decrease of $ 48,130 thousand, 17 percent, in Cash and Other Monetary Assets in FY
     2004 when compared with FY 2003. The Disbursing Officers had more cash on hand in FY 2003 because of
     Operation Iraqi Freedom and subsequent events. In addition, the ATM at Sea and Navy Cash programs have
     contributed to the decrease of Cash and Monetary Assets.

     Explanation of fluctuations for Entity Assets is included in the note for that particular asset. See notes 3-10.

     Definitions
     Assets are categorized as:

     Entity accounts – Resources that the DON has the authority to use, or when management is legally obligated
     to use funds to meet entity obligations.

     Non-Entity accounts - Assets held by an entity, but are not available for use in the operations of the entity.




74
Other Disclosures
Non-Entity Assets. As of year-end FY 2004, DON holds $ 3,209,291 thousand Non-Entity assets. These
assets are not available for use by the DON in its day-to-day operations but the DON maintains stewardship
accountability and responsibility to report. There are three categories of significant non-entity assets held by
the DON: (1) the Intragovernmental Fund Balance with Treasury, (2) the Nonfederal Cash and Other Monetary
Assets, and (3) the Nonfederal Accounts Receivable.

Non-Entity Nonfederal Accounts Receivable (public). As of year-end FY 2004, Non-Entity Nonfederal Accounts
Receivable contains $1,333,494 thousand (principal) in advance payments made to contractors and
$1,128,742 thousand in associated accrued interest that remain in litigation. These balances are being
reported in Non-Entity Accounts Receivable since the original appropriation year has been cancelled, and any
funds collected as a result of this litigation would go to the Department of Treasury and not be available for the
DON’s use in normal operations. See Note 5 for additional information.

Reference

For Additional Line Item discussion, see:
• Note 3, Fund Balance with Treasury
• Note 4, Investments
• Note 5, Accounts Receivable
• Note 6, Other Assets
• Note 7, Cash and Other Monetary Assets
• Note 8, Direct Loans and/or Loan Guarantee Programs
• Note 9, Inventory and Related Property, Net
• Note 10, General Property, Plant, and Equipment (PP&E), Net

For regulatory discussion on Non-Entity and Entity Assets, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1004.



NOTE 3.A. FUND BALANCE                WITH    TREASURY

As of September 30,                                              2004              2003
(Amounts in thousands)
1. Fund Balances:
    A. Appropriated Funds                                 $     79,826,096     $   76,290,090
    B. Revolving Funds                                           2,024,355          1,779,963
    C. Trust Funds                                                  18,245             18,877
    D. Other Fund Types                                            225,217            325,947
    E. Total Fund Balances                                $     82,093,913     $   78,414,877



2. Fund Balances Per Treasury Versus Agency:
    A. Fund Balance per Treasury                          $     83,080,322     $   78,414,877
    B. Fund Balance per DON                                     82,093,913         78,414,877

3. Reconciling Amount                                     $       986,409      $            0




                                                                                                GENERAL FUND         75
     4. Explanation of Reconciliation Amount:
     (Amounts in thousands)
     Receipt accounts unavailable to DON                          $       48,315
     Invalid program years                                                   455
     Cancelling years                                                    937,639
                    Total Reconciling Amount                      $      986,409


     Fund Balance Per Treasury Calculation
     (Amounts in thousands)
     Undisbursed Appropriation Account Trial Balance (FMS 6654)               $    83,005,320
     Receipt Account Trial Balance (FMS 6655 - IAS 613)                               123,925
     Less: 6655 Trust Funds Balances included in 6654                                 (30,343)
     Less: 6655 Special Funds Balances included in 6654                               (18,580)
                        Fund Balance Per Treasury                             $    83,080,322




     The Financial Management Services (FMS) 6653, which is the Undisbursed Appropriation Account Ledger,
     includes the current month’s transactions and cumulative balances for any appropriation that had financial
     activity during the month. FMS 6653 is systematically interfaced with the Standard Accounting and Reporting
     System (STARS) for posting expenditure transactions. FMS 6654, which is the Undisbursed Appropriation
     Account Trial Balance, includes any activity and the cumulative balances for all appropriations regardless of
     whether they had activity for the month. Since the FMS 6654 is all-inclusive, this report is used to calculate
     FBWT. FMS 6655 is the Receipt Account Trial Balance.

     5. Other Information Related to Fund Balance with Treasury:

     Fluctuation and/or Abnormalities
     Fund Balance with the Treasury is the total of entity accounts that the DON has the authority to use and non-
     entity accounts that are held by the DON but are not available for use in operations. The DON reported an
     increase of $3,679,036 thousand, 5 percent, in FY 2004 when compared with FY 2003.

     The only DON Revolving Fund is the National Defense Sealift Fund, Navy. The increase of $244,392
     thousand, 14 percent, in FY 2004 when compared with FY 2003 is a result of increased business activity for
     movement of goods and services over the sea-lanes.

     Other Fund Types (Line 1.D), DON reported a decrease of $100,730 thousand, 31 percent, in FY 2004 when
     compared with FY 2003. The majority of the decrease is the result of the cancelled transactions in the
     suspense accounts as described below.

     Other Disclosures
     To deal with reconciliation of check issue discrepancies and deposit differences that are aged 90 days or
     greater the following actions are being taken: (1) follow-up action with disbursing officers on the status of their
     resolving transactions listed on their statement of differences; (2) weekly teleconferences with the field sites
     and site visits; and (3) improving training.




76
Deposits.
Deposit Statements of Difference result when the deposit amount reported by the Disbursing Office on its
monthly Statement of Accountability submission to the Department of the Treasury does not equal the amount
of deposit information reported by the banking network to the Department of the Treasury for the monthly
period.

Intragovernmental Payments and Collections.
The Intragovernmental Payment and Collections (IPAC) Statements of Difference result when the amount
reported by the Disbursing Office on its monthly Statement of Accountability report to the Department of the
Treasury does not equal the amount of the details reported through the Treasury’s IPAC system which is one
of the major components of the Government On-Line Accounting Link System II (GOALS II). The IPAC
application's primary purpose is to provide a standardized interagency fund transfer mechanism for Federal
Program Agencies (FPAs). IPAC facilitates the intragovernmental transfer of funds, with descriptive data from
one FPA to another.

Reference

See Note Disclosure 1.I. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Funds with the U.S. Treasury.

For regulatory discussion on Fund Balance with Treasury, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 100501.



NOTE 3.B. DISCLOSURES RELATED                    TO   SUSPENSE/BUDGET CLEARING ACCOUNTS

                                                                                   (Decrease)/
                                2002              2003              2004          Increase from
                                                                                 FY 2003 to 2004
As of September 30,
(Amount in thousands)
Account
       F3875                $   (112,731)    $ (262,678)       $    (253,211)    $        9,467
       F3880                      (2,510)        (3,631)                2,453             6,084
       F3882                     (23,965)        (4,172)             (37,698)          (33,526)
       F3885                    (445,921)      (412,370)            (133,156)          279,214
       F3886                        (622)            (2)                    9                11
     Total                  $   (585,749)    $ (682,853)       $   (421,603)     $     261,250



Other Information Related to Suspense/Budget Clearing Accounts:
The DON, in conjunction with DFAS, has made a concerted effort to reduce balances in the suspense and
budget clearing accounts that are disclosed in this note. However, the balances fluctuate during the year
based on current activity. Additionally, the DON is establishing policies and procedures to ensure accurate and
consistent use of these accounts. On September 30th of each fiscal year, all of the un-cleared
suspense/budget clearing account balances are reduced to zero (as required by the Department of Treasury
and DoD FMR Volume 3 Chapter 11 guidance) by transferring the balances to the predominate appropriation
accounts. On October 1st of the following year, the un-cleared suspense/clearing account balances are
reestablished.

                                                                                                   GENERAL FUND   77
     The suspense accounts F3875/3885/3886 temporarily hold collections or disbursements until they can be
     assigned or identified to the proper appropriation. Each suspense account represents a specific source of
     transactions, i.e. Disbursing Officer’s (DO) suspense (F3875), Interfund/IPAC (F3885), and Payroll (TSP)
     (F3886) suspense.

     Clearance of Treasury Account Transactions.
     Public Law 107-314, HR4546, Section 1009, "Clearance of Certain Transactions Recorded in Treasury
     Suspense Accounts and Resolution of Certain Check Issuance Discrepancies" issued December 2, 2002
     allows for the cancellation of certain transactions. In order for transactions to qualify for cancellation, there
     must have been efforts made to locate documentation necessary to identify the appropriation to be charged or
     credited. In accordance with the above legislation, the following amounts were written off from the DON
     suspense accounts during FY 2004:

                             (Amounts in thousands)
                             17 F 3885      $ 348,022 Net         $ 354,558 Absolute
                             17 F 3875          36,446 Net          225,296 Absolute
                             17 F 3880           9,244 Net            9,244 Absolute



     NOTE 4. INVESTMENTS

                                                                         2004                                       2003
                                                        Amorti-    Amortized
                                                                                  Investments,   Market Value   Investments,
                                             Cost       zation     (Premium/
     As of September 30,                                                              Net         Disclosure        Net
                                                        Method      Discount)
     (Amounts in thousands)
     1. Intragovernmental
        Securities
                :
       A. Marketable                     $          0    N/A      $         0      $         0 $          0     $          0
       B. Non-Marketable, Par Value                 0    N/A                0                0            0                0

       C. Non-Marketable, Market-
          Based                            9,432         N/A               (23)          9,409        9,409          9,706
       D. Subtotal                       $ 9,432                  $        (23) $        9,409 $       9,409    $    9,706
       E. Accrued Interest                    48                             0              48            48            95
       F. Total Intragovernmental        $ 9,480                  $        (23) $        9,457 $       9,457    $    9,801
          Securities

     2. Other Investments: None

     3. Other Information Related to Investments:


     Fluctuation and/or Abnormalities
     The DON reported a decrease of $47 thousand, 49 percent, in accrued interest in FY 2004 compared with FY
     2003. This is due to the decrease in the interest rates during FY 2004. The interest rate for February, June
     and August 2004 was 2.125, 1.75, and 2.00 percent, respectively. The average interest rate was 2.17 percent
     for this period.




78
Other Disclosures
The two DON Trust Funds holding interest-bearing securities are the Naval Academy General Gift Fund and
the Navy General Gift Fund, which have a total Investment net value of $9,457 thousand (including $48
thousand of accrued interest.) These investments are Non-Marketable Market-Based securities reported at
cost, net of amortized premiums and discounts.

Reference

See Note Disclosure 1.N. – Investments in U.S. Treasury for additional DoD policies governing Investments in
U.S. Treasury Securities.

For regulatory discussion on Investments, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1006.



NOTE 5. ACCOUNTS RECEIVABLE

                                                            2004                            2003
                                                      Allowance For      Accounts        Accounts
                                     Gross Amount
                                                        Estimated       Receivable,     Receivable,
                                         Due
As of September 30,                                   Uncollectibles       Net             Net
(Amounts in thousands)
1. Intragovernmental
   Receivables:                       $    250,703                 N/A $     250,703    $    496,863
2. Non-Federal Receivables (From
   the Public):                       $   3,203,625     $   (307,659)   $   2,895,966   $   3,382,133
3. Total Accounts Receivable:         $   3,454,328     $   (307,659) $     3,146,669   $   3,878,996

4. Other Information Related to Accounts Receivables:


Fluctuation and/or Abnormalities
Intragovernmental Receivables.
The DON reported a decrease of $246,160 thousand, 50 percent, in Intragovernmental Receivables in FY
2004 when compared to FY 2003. The decrease is a result of implementing the Under Secretary of Defense
(Comptroller) memo of June 20, 2003, that directed the military departments to establish a goal to close out or
collect all over-aged receivables by December 31, 2003. The DON established a plan of action and continues
to aggressively implement the direction of the memo. In addition, the trading partner/elimination process with
other Federal agencies (level one trading partner) and other organizations within DoD (level two trading
partner) also contributed to the decrease of intragovernmental accounts receivable. The majority of the
decrease, $91,298 thousand, is with Navy Working Capital Fund, $80,793 thousand with Other Defense
Organizations General Funds, and $57,922 thousand with Other Defense Organization Working Capital Fund,
and $16,430 thousand with Executive Office of the President.




                                                                                                   GENERAL FUND   79
     Non-Federal Receivables.
     The DON reported a decrease of $486,167 thousand, 14 percent, in Non-Federal Receivables in FY 2004
     when compared to FY 2003. The decrease in the Entity Receivables is $599,329 thousand. The majority of the
     decrease is within Operation and Maintenance, Navy in the amount of $418,881 thousand and Military
     Personnel, Navy in the amount of $116,175 thousand. The total decrease is offset by the increase in Non-
     Entity Receivables in Contract Debt System (CDS)/Mechanization of Contract Administration Services
     (MOCAS) in the amount of $126,586 thousand.

     Allowance Method
     The allowance method for Nonfederal Receivables (From the Public) is determined in the following
     methodology: For all program groups except Military Personnel appropriations, the DON estimates for the
     entity accounts receivable allowance is 3 percent. The entity accounts receivable allowance for Military
     Personnel is estimated to be 14 percent. Each estimate is based on write-offs of accounts receivable over the
     last three-year period. The non-entity accounts receivable allowance was established at 50 percent excluding
     interest receivables pertaining to pending litigation.

     Intragovernmental Accounts Receivable Adjustments
     Allocation of Undistributed Collections.
     Undistributed collections are allocated between federal and non-federal categories based on the percentage of
     federal and non-federal Accounts Receivable as submitted in the field level general ledgers. This allocation
     was suggested as appropriate in a DFAS Arlington memorandum dated October 4, 2000, which required
     disclosure to the audit community of the applicable methodology used to allocate undistributed. For FY 2004,
     $1,296,264 thousand in undistributed collections were allocated to accounts receivable. This amount
     represents a $195,741 thousand or 13% decrease from FY 2003.

     Elimination Adjustments.
     The DON’s accounting systems do not consistently capture trading partner data at the transaction level in a
     manner that facilitates trading partner aggregations. Therefore, the DON was unable to reconcile
     intragovernmental accounts receivable balances with its trading partners. Through the ongoing Business
     Management Modernization Program (BMMP), the Department intends to develop long-term systems
     improvements that will capture the data necessary to perform reconciliations.

     Intrafund transactions are eliminated based upon trading partner information obtained from the Bureau of
     Naval Personnel (BUPERS), Standard Accounting and Reporting System – Field Level (STARS-FL), and the
     Standard Accounting and Reporting System – Headquarters Module (STARS-HQ). The elimination data
     obtained from these systems included seller appropriation, grantor (buyer) appropriation, grantor subhead,
     grantor code, reimbursable source code, accounts receivable, revenue, unearned revenue, and amount
     collected.




80
Other Disclosures
Non-Federal Receivables (from the Public) includes Non-Entity Non-Federal Account Receivables and Entity
Non-Federal Account Receivables.

Non-Entity Non-Federal Accounts Receivables (from the Public) includes the following:


                                                           As of September 30,
  (Amounts in thousands)                                          2004
Contract Litigation Principal and Interest                           $2,462,236
Defense Debt Management System (DDMS)                                    20,297
CDS/MOCAS system debts                                                  372,582
Civilian Pay (DCPS) debt                                                  2,940
In-service Debt & Other Debt                                             66,475
JAG                                                                       4,138
Penalties, Fines and Admin. Fees and Interest                           119,570
Gross Non-Entity Non-Federal A/R                                     $3,048,238
Less Allowance                                                         (292,908)
Nonentity Non-Federal Receivables, Net                                $2,755,330
Entity Non-Federal Receivables, Net                                      140,636
Non-Federal Receivables (From the Public), Net                        $2,895,966



The contract litigation includes principal of $1,333,494 thousand, and accrued interest receivable of $1,128,742
thousand. Interest receivable increased $52,951 thousand from FY 2003.

Other Debt represents foreign military sales and services DON has provided to the public.

Abnormal Account Balances.
Abnormal Accounts Receivable balances may occur for two primary reasons: 1) the application of undistributed
collections and 2) as a result of the intragovernmental transaction elimination process. DFAS Arlington has
provided guidance in a memorandum dated March 1, 2001 to record accruals, for financial statement
presentation purposes, to correct abnormal balances resulting from these conditions.

In accordance with the DoD FMR, Volume 6B, Chapter 13, adjustments are recorded, at the appropriation
level, to bring the DON’s intragovernmental accounts receivable into agreement with its trading partners’
intragovernmental accounts payable.

Reference

See Note Disclosure 1.K. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Accounts Receivable.

For regulatory discussion on Accounts Receivable, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1007.




                                                                                              GENERAL FUND         81
     NOTE 6. OTHER ASSETS

     As of September 30,                                            2004             2003
     (Amounts in thousands)
     1. Intragovernmental Other Assets:
         A. Advances and Prepayments                          $      272,723     $     187,865
         B. Other Assets                                                   0                 0
         C. Total Intra-governmental Other Assets             $      272,723     $     187,865

     2. Non-Federal Other Assets:
         A. Outstanding Contract Financing Payments           $     4,694,420    $   5,809,610
         B. Other Assets (With the Public)                            305,928          371,014
         C. Total Non-Federal Other Assets                    $     5,000,348    $   6,180,624

     3. Total Other Assets:                                   $     5,273,071    $   6,368,489

     4. Other Information Related to Other Assets:

     Fluctuation and/or Abnormalities
     Intragovernmental Other Assets.
     The DON reported an increase of $84,858 thousand, 45 percent, in Intragovernmental Other Assets, Advances
     and Prepayment in FY 2004 when compared with FY 2003. The balances reported are determined by the
     intragovernmental elimination process as submitted by DON’s trading partners. In processing the elimination
     data, increase to Advances and Prepayments are recorded to compensate for the unresolved differences. The
     majority of the increase is with the following trading partners: Department of Interior $177,407 thousand; Air
     Force General Fund $69,510 thousand. The increase is offset by the decrease in Navy Working Capital Fund
     of $130,165 thousand; Other Defense Organizations Working Capital Fund of $29,842 thousand; and Air Force
     Working Capital Fund of $7,356 thousand.

     Non-Federal Other Assets.
     DON reported a decrease of $1,115,190 thousand, 19 percent, in Outstanding Contract Financing Payment in
     FY 2004 when compared with FY 2003. The majority of the decrease, $1,295,246 thousand, is within the
     Aircraft Procurement Program. New contracts within the Aircraft program are being written as performance
     based contracts, and this business process change has reduced the amount of outstanding contract financing
     payments. This decrease is offset by the increase in Weapons Procurement of $317,069 thousand. DON also
     reported a decrease of $65,086 thousand, 18 percent, in Other Assets (With the Public) in FY 2004 when
     compared with FY 2003. The decrease is a result of fewer outstanding progress payments as previously
     issued Marine Corps contracts are being fulfilled.

     Other Disclosures
     Advances and Prepayment.
     The buyer-side advances to others amounts were adjusted to agree with seller-side advances from others on
     the books of other DoD reporting entities. Additionally, the buyer-side prepayment balances were adjusted to
     agree with seller-side deferred credits on the books of other DoD reporting entities.




82
Outstanding Contract Financing Payments.
The DON has reported outstanding financing payments for fixed price contracts as an advance and
prepayment, because under the terms of the fixed price contracts, the DON becomes liable only after the
contractor delivers the goods in conformance with the contract terms. If the contractor does not deliver a
satisfactory product, the DON is not obligated to reimburse the contractor for its costs and the contractor is
liable to repay the DON for the full amount of the outstanding contract financing payments. DoD is completing
its review of all applicable federal accounting standards; applicable public laws on contract financing; FAR
Parts 32,48, and 52; and the OMB guidance in 5 CFR Part 1315, “Prompt Payment.” The DON has concluded
that the SFFAS No. 1, “Accounting for Selected Assets and Liabilities” does not fully or adequately addresses
the subject of progress payment accounting and is considering what further action is appropriate.

The following table displays the Outstanding Contract Financing Payments attributed by program:

                                 As of September 30,
(Amounts in thousands)                  2004
 Aircraft Procurement                        $2,914,923
 Shipbuilding and Conversion                    558,521
 Weapons Procurement                            710,807
 Other Procurement                              487,214
 Other (O&M, RDT&E)                              22,955
                         Total               $4,694,420

Reference

See Note Disclosure 1.R. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Other Assets.

For regulatory discussion on Other Assets, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1008.



NOTE 7. CASH         AND   OTHER MONETARY ASSETS

As of September 30,                                    2004                2003
(Amounts in thousands)
  1. Cash                                        $        232,946    $        224,881
  2. Foreign Currency (non-purchased)                       1,919              58,114
  3. Other Monetary Assets                                      0                   0
  4. Total Cash, Foreign Currency, & Other
     Monetary Assets                             $        234,865    $        282,995


5. Other Information Pertaining to Entity Cash & Other Monetary Assets:

Fluctuation and/or Abnormalities
The DON reported a decrease of $56,195 thousand, 97 percent, in Foreign Currency in FY 2004 compared
with FY 2003. This was offset by a slight increase in Cash held by Disbursing Officers of $8,065 thousand.
The overall decrease in Cash and Other Monetary Assets is a result of the draw down related to Operation
Iraqi Freedom and subsequent events.
                                                                                              GENERAL FUND       83
     Definitions
     Cash - the total of cash resources under the control of the DON, which includes coin, paper currency,
     purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other financial
     institutions. Cash available for agency use should include petty cash funds and cash held in revolving funds,
     which will not be transferred into the U.S. Government General Fund.

     Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in
     foreign currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000
     fund account (formerly called FT accounts).

     Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International Monetary
     Fund. This category is principally for use by the Department of the Treasury.

     Restriction on Cash - all cash and other monetary assets reported are classified as non-entity, which means
     that the assets are not available for the DON’s use in normal operations.

     Other Disclosures
     Cash and Foreign Currency reported consists primarily of cash held by Disbursing Officers to carry out their
     payment, collection, and foreign currency accommodation exchange mission. The primary source of the
     amounts reported is the Standard Form 1219, Statement of Accountability reported by DoD Disbursing Officers.

     The DON translates foreign currency to U.S. dollars utilizing the Department of the Treasury Prevailing Rate of
     Exchange. This rate is the most favorable rate that would legally be available to the U.S. Government’s
     acquisition of foreign currency for its official disbursement and accommodation of exchange transactions.

     Reference

     See Note Disclosure 1.J. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Foreign Currency.

     For regulatory discussion on Cash and Other Monetary Assets, see Department of Defense Financial
     Management Regulation, Volume 6B, Chapter 10, paragraph 1009.



     NOTE 8. A. DIRECT LOAN               AND / OR   LOAN GUARANTEE PROGRAMS

     1. Direct Loan and/or Loan Guarantee Programs: The DoD operates the following direct loan and/or loan
        guarantee program(s):

        Military Housing Privatization Initiative

     2. Other Information:
        The Military Housing Privatization Initiative (MHPI) fosters a mutually beneficial relationship between the
        DoD and the private sector. For the DoD, the MHPI results in the construction of more housing built to
        market standards, at a lower cost than through the military construction process. Commercial construction
        (Private Sector) is faster and less costly than military construction and significantly stretches and leverages
        the DoD’s limited housing funds. The MHPI also provides protection against specific risks, such as base
        closure or member deployment, for the private sector partner.

84
An analysis of loans receivables, loan guarantees, the liability for loan guarantees, and the nature and
amounts of the subsidy and administrative costs associated with the direct loans and loan guarantees is
provided in the following sections of this note.

DoD operates a loan guarantee program authorized by the National Defense Authorization Act for FY 1996,
Public Law 104-106 Stat. 186 Section 2801, includes a series of powerful authorities that allow DoD to work
with the private sector to renovate military housing. DoD’s goals are to:
 • Obtain private capital to leverage government dollars,
 • Make efficient use of limited resources, and
 • Use a variety of private sector approaches to build and renovate military housing faster and at a lower cost
    to American taxpayers.

The Act also provides DoD with a variety of authorities to obtain private sector financing and expertise to
improve military housing. DoD uses these authorities individually, or in combination. They include:
 • Guarantees, both loan and rental
 • Conveyance/leasing of existing property and facilities
 • Differential lease payments
 • Investments, both limited partnerships and stock/bond ownership
 • Direct loans

In addition, the “Federal Credit Reform Act of 1990” governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991 resulting in direct loans or loan guarantees.
 • Direct loans - are reported net of allowance for subsidy at present value, and
 • Loan Guarantee Liabilities - are reported at present value.

Reference

For regulatory discussion on Direct Loans and Loan Guarantee, see Department of Defense Financial
Management Regulation, Volume 6B, Chapter 10, paragraph 1010.



NOTE 9. INVENTORY           AND    RELATED PROPERTY

As of September 30,                                              2004               2003
(Amounts in thousands)
  1. Inventory, Net (Note 9.A.)                           $               0    $              0
  2. Operating Materials & Supplies, Net (Note 9.B.)            53,340,667          53,611,634
  3. Stockpile Materials, Net (Note 9.C.)                                0                   0
  4. Total                                                $     53,340,667     $    53,611,634




NOTE 9.A. INVENTORY, NET
Not Applicable




                                                                                              GENERAL FUND        85
     NOTE 9.B. OPERATING MATERIALS                    AND    SUPPLIES, NET

                                                          2004                                 2003

                                     OM&S Gross       Revaluation                                              Valuation
                                                                            OM&S, Net       OM&S, Net
                                       Value           Allowance                                               Method
     As of September 30,
     (Amounts in thousands)
       1. OM&S Categories:
         A. Held for Use            $   49,608,556    $            0    $    49,608,556     $ 49,948,473    LAC, SP, AC, O
         B. Held for Repair              6,042,959        (2,310,848)         3,732,111        3,663,161    LAC, SP, AC, O
         C. Excess, Obsolete, and
            Unserviceable                1,191,493        (1,191,493)                   0               0   LAC, SP, AC, O
         D. Total                   $   56,843,008    $   (3,502,341)   $    53,340,667     $ 53,611,634


         Legend for Valuation Methods:
         Adjusted LAC = Latest Acquisition Cost      NRV = Net Realizable Value
          adjusted for holding gains and losses      O = Other
         SP = Standard Price
         AC = Actual Cost


     2. Restrictions on OM&S: None

     3. Other Information Related to OM&S:

     Fluctuation and/or Abnormalities

     No fluctuation and/or abnormalities need to be explained.

     Information Related to Operating Materials and Supplies, Net

     General Composition of Operating Materials and Supplies (OM&S).
     OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft configuration
     pods, and centrally managed aircraft engines. The general composition of OM&S is as follows:


     (Amounts in thousands)                               September 30, 2004
     Ammunition and Munitions                                     $32,406,277
     Appropriation Purchase Account (APA) Principal
      End Item                                                          8,818,403
     Sponsor Owned Material                                             9,024,008
     APA Secondary Inventory                                            1,127,908
     Real-time Reutilization Asset Management
      (RRAM)                                                          1,525,591
     Other                                                              438,480
     Total                                                          $53,340,667




86
Balances.
In addition to the account balances shown in Table 9.B., the Statement of Federal Financial Accounting
Standards (SFFAS) No. 3 “Accounting For Inventory and Related Property” requires disclosure of the amount
of OM&S held for “Future Use.” This information is not captured by current OM&S systems which were
designed for material management rather than accounting purposes. However, the DON estimates that
$16,633,878 thousand of the OM&S Held for Use will be used more than 24 months after the end of FY 2004.

Decision Criteria For Identifying The Category To Which Operating Materials And Supplies Are Assigned.
In order to standardize reporting of the categories Held for Use, Held for Repair, and Excess, Obsolete,
Unserviceable, DON implemented the Under Secretary of Defense (Comptroller) (USD(C)) condition code
crosswalk as defined in the memorandum “Accounting for Excess, Unserviceable, and Obsolete Inventory and
Operating Materials and Supplies” dated August 12, 2002. In addition, a September 15, 2002, USD(C) memo
amended the condition code crosswalk to include code “V” in the Excess, Obsolete, Unserviceable category.
OM&S was reported as follows:


                           OM&S Category                       Condition Codes
                    Held for Use                                   A, B, C, D
                    Held for Repair                         E, F, G, J, K, L, M, N, R
                    Excess,Obsolete, Unserviceable                 P, H, S, V

Valuation Method for OM&S.
In July, 2001, the OUSD(C) issued a memo requiring Moving Average Cost (MAC) as the approved valuation
method for Inventory Held for Sale and Operating Materials and Supplies. “Each Military Department and
Defense Agency responsible for material amounts of inventory or operating materials and supplies shall
implement the moving average cost valuation method as systems are renovated or replaced.” The DON is
participating in the DoD Business Management Modernization Program that is currently reviewing and
designing the Business Enterprise Architecture (BEA). The BEA provides for a master plan that includes
guidance on transition plan strategy concepts, considerations, processes, and principles. MAC will be
implemented as systems are renovated or replaced. Until then, the DON continues to value OM&S using
different valuation methodologies such as standard purchase price or actual cost. These valuation
methodologies vary by system.

Government Furnished Material (GFM) and Contractor Acquired Material (CAM).
Generally, the value of the DON’s GFM and CAM in the hands of contractors is not included in the OM&S
values reported above. DoD is presently reviewing its process for reporting these amounts in an effort to
determine the appropriate accounting treatment and the best method to annually collect and report required
information without duplicating information already in other existing logistics systems.

Other Disclosures
Ammunition and Munitions.
Ammunition and Munitions are maintained and valued in the Conventional Ammunition Integrated Management
System (CAIMS).




                                                                                           GENERAL FUND      87
     APA Principal End Items.
     Principal End Items includes OM&S items such as shipboard hull, mechanical and electronic equipment, and
     uninstalled aircraft engines. Principal End Items are items of such importance that central inventory control is
     required. They normally possess one of the following characteristics: (a) essential for combat or training; (b)
     high dollar value; (c) difficult to procure or produce; or (d) critical basic materials or components.

     Sponsor Owned Material (SOM).
     SOM is defined as “programmatic material required in support of Program Manager mission requirements for
     production, life cycle maintenance, and installation of systems and equipment consistent with the mission
     charter. The material usage may involve, but is not limited to: item fabrication, assembly, testing, manufacture,
     development, repair, or research and development.”

     Real-time Reutilization Asset Management (RRAM).
     Material maintained and valued in RRAM is considered excess to the owner, but may not be excess to the
     Navy. Standard price is used to value all stock-numbered items. Part-numbered items are valued by best
     available information.

     Other Operating Materials & Supplies.
     Other OM&S totaled $438,480 thousand as of September 30, 2004. This consists primarily of $383,310
     thousand in Fleet Hospitals and War Reserves, and $38,773 thousand material in the possession of the U.S.
     Coast Guard.

     Reference

     See Note Disclosure 1.M. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing Inventory and Related Property.

     For regulatory discussion on OM&S, see Department of Defense Financial Management Regulation, Volume
     6B, Chapter 10, paragraph 101107.



     NOTE 9.C. STOCKPILE MATERIALS, NET
     Not Applicable




88
NOTE 10. GENERAL PP&E, NET

                                                                                       2004                                                       2003
                                             Depreciation/                                          (Accumulated
                                             Amortization    Service Life   Acquisition Value       Depreciation/       Net Book Value       Net Book Value
As of September 30,                            Method                                               Amortization)
(Amounts in thousands)
      1. Major Asset Classes:
        A. Land                                  N/A             N/A        $       567,889                      N/A    $       567,889      $      603,961
       B. Buildings, Structures, and
                                                 S/L           20 - 40            32,912,222    $      (20,058,447)          12,853,775           21,007,724
          Facilities

       C. Leasehold Improvements                 S/L         lease term                  231                     (21)               210                       0
       D. Software                               S/L          2-5 Or 10                3,071                (1,122)               1,949                  423
       E. General Equipment                      S/L           5 Or 10             2,596,057            (2,078,308)             517,749          133,239,341

       F. Military Equipment                     S/L           Various          427,160,000           (293,030,000)         134,130,000                       0
                                       [1]
       G. Assets Under Capital Lease             S/L         lease term                  432                    (230)               202                  146

       H. Construction-in-Progress               N/A             N/A               3,607,729              N/A                 3,607,729            3,555,856
       I. Other                                                                            0                        0                    0                    0

       J. Total General PP&E                                                $   466,847,631     $     (315,168,128)     $   151,679,503      $   158,407,451

[1]
  Note 15.B for additional information on Capital Leases
L     d f V l ti M th d
S/L = Straight Line     N/A = Not Applicable

2. Other Information Related to General PP&E, Net:

Fluctuation and/or Abnormalities
Building, Structures, and Facilities.
The DON reported a decrease of $8,153,949 thousand, 39 percent, in the net book value of buildings,
structures, and facilities in FY 2004 when compared with FY 2003. The reason for the decrease in net book
value is an increase in accumulated depreciation. While testing and changing the query methodology for the
depreciation module in Internet Naval Facility Asset Database Store (iNFADS), it was discovered that the
methodology was not recognizing the depreciation of capitalized improvements for those buildings, structures,
and facilities whose initial cost was fully depreciated. The cost of the capitalized improvements was in the
reported book value of the DON real property and was captured by the iNFADS query. Since the DON initiated
the OUSD(C) policy of separately identifying and depreciating capitalized improvements in FY 1999, the
depreciation for the capitalized improvements records was not captured in the query methodology. The
correction was made during 1st Quarter FY 2004. The revised query methodology now recognizes the
depreciation expense for those fully depreciated buildings, structures, and facilities that have capitalized
improvements associated with them. Therefore, this change to the query methodology resulted in an increase
in accumulated depreciation and a decrease to the net book value. Other changes associated with the new
query and validation of iNFADS database records also contributed to the overall increase in accumulated
depreciation. A total of $6,369,029 thousand of the accumulated depreciation contributed to the majority of the
decrease in the Building, Structures, and Facilities.




                                                                                                                             GENERAL FUND                89
     Leasehold Improvements.
     For FY 2004, the DON recognized $210 thousand, net, in Leasehold Improvements. This recognition is part of
     the DON Financial Improvement Plan. Therefore, this is a 100 percent increase in FY 2004 when compared
     with FY 2003.

     Software.
     The DON reported an increase of $1,526 thousand, 361 percent, in Software in FY 2004 when compared with
     FY 2003. The increase is a result of migrating DON activities to the Defense Property Accountability System
     (DPAS) in FY 2004. Among the assets migrated are capitalized software and therefore the increase.

     General Equipment.
     For FY 2003, Net Book Value of $132,660,000 thousand of Military Equipment was not reported as a separate
     line item, but was reported in General Equipment Line.

     Excluding the Military Equipment, the DON reported a decrease of $61,592 thousand, 11 percent, in General
     Equipment in FY 2004 when compared with FY 2003. Among the decrease, $46,252 thousand is a result of
     realignment of DON activities and the transfer out and disposal of remaining equipment from these locations.

     Assets Under Capital Lease.
     The DON reported a increase of $56 thousand, 38 percent, in Assets Under Capital Lease in FY 2004 when
     compared with FY 2003. The increase is a result of migrating DON activities to Defense Property
     Accountability System (DPAS) in FY 2004.

     Information Related to General PP&E, Net
     Military Equipment.
     The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting
     Standards No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,” in May 2003.
     This standard, which is effective for accounting periods beginning after September 30, 2002, establishes
     generally accepted accounting principles for valuing and reporting military equipment (e.g., ships, aircraft,
     combat vehicles, weapons) in federal financial statements. The standard requires the capitalization and
     depreciation of the cost of military equipment, including the cost of modifications and upgrades.

     DoD has determined that it is not practicable to accumulate the information needed to value military equipment
     in accordance with generally accepted accounting principles. The Department is working to revise its
     accounting processes and systems to support the informational needs of management and compliance with
     generally accepted accounting principles. In the interim, the Department will base the value of military
     equipment for financial statement presentation purposes on data provided by the Bureau of Economic Analysis
     (BEA), Department of Commerce.

     The data provided by BEA consist of investment and net book value data for 84 groups of equipment such as
     aircraft, ships and combat vehicles. The Department adjusts BEA data to eliminate equipment items that are
     not accounted for as military equipment, such as spares, munitions, and inventory items, which are accounted
     for and reported as Inventory and Related Property.

     BEA uses Department of Defense budget, expenditure, and delivery data to calculate the Department’s annual
     investment in equipment, after recognizing any equipment transfers or war losses. BEA revised its Fiscal Year
     2003 estimate. Previous BEA estimates were based, in part, on projections because source data was not
     available. The revised estimate for Fiscal Year 2003 is based on updated and more complete source data.

90
Further, the revised estimate reflects changes in the methods and data BEA uses to project the investment in,
and depreciation of, military equipment resulting from BEA’s 2003 Comprehensive Revision of the National
Income and Product Accounts. A major factor in the reduction of the acquisition value of military equipment
included in the updated estimate was new data that showed that governments purchased a smaller proportion
of the domestic supply of software than had previously been estimated.

For the DON, the BEA analysis provided for an Acquisition value of $427,160,000 thousand for military
equipment, less an Accumulated Depreciation value of $293,030,000 thousand giving a Net Book Value of
$134,130,000 thousand for military equipment as of FY 2004.

Property in the Possession of Contractors.
The value of the DON’s General PP&E real property in the possession of contractors is included in the values
reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of
General PP&E personal property (Major Asset Classes of Software and Equipment) does not include all of the
General PP&E above the DoD capitalization threshold in the possession of contractors. The net book amount
of such property is immaterial in relation to the total General PP&E net book value. Per the DoD FMR Volume
6B Chapter 10, DON is not supplementing General PP&E information with values from the Defense Contract
Management Agency’s CPMS (DD Form 1662) database. In accordance with an approved strategy with OMB,
the GAO and the Inspector General, DoD, the DoD is developing new policies and a contractor reporting
process to capture General PP&E information for future reporting purposes for compliance with Federal GAAP.

Other Disclosures
Real Property.
The Internet Naval Facility Asset Database Store (iNFADS) is used to report on real property values for
financial statement reporting purposes.

Leasehold Improvements.
No leasehold improvements were reported for FY 2003, because the DON's real property system does not
track leasehold improvements as a separate component of a building's total value. However, the DON is in the
process of surveying commands to determine the value of leasehold improvements and began recognizing
those values in FY 2004.

Software.
The DON uses the Defense Property Accountability System (DPAS) to capture costs associated with Internal
Use Software.

Construction-in-Progress (CIP).
CIP balances were obtained from the Facilities Information System (FIS).




                                                                                            GENERAL FUND        91
     Preponderant Use.
     Per the DoD FMR, Volume 4, Chapter 6, legal ownership is not always the determinant factor when
     establishing which DoD Component recognizes a particular General PP&E asset for accounting and reporting
     purposes. If the following four criteria are met, the preponderant user should report the property regardless of
     legal ownership or funding source:

      • The asset embodies a probable future benefit;
      • The DoD Component that reports the asset obtains the benefit and controls access to the benefit inherent
        in the asset;
      • The transaction or event giving the Component the right to, and control over, the benefit has already
        occurred; and
      • The predominantly used assets, taken as a whole, are material to the Component’s financial statements.

     During the course of FY 2004, the DON continued to identify properties whose preponderant users are other
     DoD Components. Until the Department is able to reconcile with the DoD Components the listing of properties
     and values, the DON will disclose in this note. Those entities utilizing material amounts of DON owned
     property are as follows (dollar values include both acquisition value and improvements meeting the
     capitalization threshold):

                      (Amounts in thousands)                                 FY 2004
                      Defense Commissary Agency (DeCA)                        $50,412
                      DoD Schools                                              39,142
                      Defense Logistics Agency (DLA)                           21,616

     Reference

     See Note Disclosure 1.O. – Significant Accounting Policies for additional discussion on financial reporting
     requirements and DoD policies governing General PP&E.

     For regulatory discussion on General PP&E, see Department of Defense Financial Management Regulation,
     Volume 6B, Chapter 10, paragraph 1012.



     NOTE 10.A.              ASSETS UNDER CAPITAL LEASE

     As of September 30,                                           2004            2003
     (Amounts in thousands)
     1. Entity as Lessee, Assets Under Capital Lease:

         A. Land and Buildings                                 $        0      $        0
         B. Equipment                                                 432             206
         C. Other                                                       0               0
         D. Accumulated Amortization                                 (230)            (60)
         E. Total Capital Leases                               $      202      $      146




92
2. Description of Lease Arrangements:
   Leased assets consist primarily of personal property reported via the DPAS system. Disclosures pertaining
   to future payments due are provided at Note 15.

3. Other Information Related to Assets Under Capital Lease:

Fluctuation and/or Abnormalities
The DON reported an increase of $56 thousand, 38 percent, in Net Equipment Leases in FY 2004 when
compared with FY 2003. The increase is a result of migrating several DON activities to DPAS in FY 2004.
Prior to the use of the DPAS by these activities, these individual capital leases liabilities were not reported.

Reference

See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Leases.



NOTE 11. LIABILITIES NOT COVERED                     BY   BUDGETARY RESOURCES

As of September 30,                                              2004                2003
(Amounts in thousands)
1. Intragovernmental Liabilities:
      A. Accounts Payable                                  $            0       $             0
      B. Debt                                                           0                     0
      C. Environmental Liabilities                                      0                     0
      D. Other                                                  3,438,795             3,305,048
      E. Total Intragovernmental Liabilities               $    3,438,795       $     3,305,048

2. Non-Federal Liabilities:
     A. Accounts Payable                               $           89,472       $              0
     B. Military Retirement Benefits and
        Other Employment-Related Actuarial Liabilities          1,575,816             1,589,971
     C. Environmental Liabilities                              16,031,979            15,614,424
     D. Loan Guarantee Liability                                        0                     0
     E. Debt Held by the Public                                         0                     0
     F. Other Liabilities                                       3,478,823             3,298,340
     G. Total Non-Federal Liabilities                  $       21,176,090       $    20,502,735

3. Total Liabilities Not Covered by Budgetary
   Resources:                                              $   24,614,885       $    23,807,783

4. Total Liabilities Covered by Budgetary
   Resources:                                                   3,831,161             3,820,042

5. Total Liabilities                                       $   28,446,046       $   27,627,825




                                                                                                   GENERAL FUND    93
     6. Other Information Related to Liabilities Not Covered by Budgetary Resources:

     Fluctuation and/or Abnormalities
     Canceled years accounts payable were re-mapped from Non-Federal Other Liabilities to Non-Federal accounts
     payable as directed by Treasury guidance. The prior year amount was not re-mapped in the footnote at the
     time of completion of the statements. This resulted in an increase of $89,472 thousand, 100 percent in
     Accounts Payable in FY 2004 when compared with FY 2003 for this line item. However, cancelled payable
     actually increased by $66,234 thousand, or 285 percent in FY 2004.

     An explanation of fluctuations and abnormalities for Total Liabilities Covered by Budgetary Resources is
     included in the specific note for that liability. See notes 12-17.

     Definitions
      • Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity that are
         covered by realized budgetary resources as of the balance sheet date. Budgetary resources encompass
         not only new budget authority, but also other resources available to cover liabilities for specified purposes
         in a given year.
      • Realized budgetary resources include:
      (1) New budget authority
      (2) Spending authority from offsetting collections (credited to an appropriation or fund account)
      (3) Recoveries of unexpired budget authority through downward adjustments of prior year obligations
      (4) Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year
           balances during the year, and
      (5) Permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law
           as of the balance sheet date, provided that the resources may be apportioned by the OMB without
           further action by the Congress or without a contingency first having to be met.

      • Conversely, Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered
        covered by realized budgetary resources as of the balance sheet date. Budgetary Authority to satisfy
        these liabilities is expected to be provided in a future Defense Appropriations Act. When that future
        budgetary authority is provided, these respective liabilities will be recorded as Covered by Budgetary
        Resources with an associated funded expense. To prevent overstatement on the Balance Sheet and
        Statement of Net Cost, the liabilities previously recorded as Not Covered by Budgetary Resources and the
        associated unfunded expenses are reversed.

     Other Disclosures
     Intragovernmental Liabilities – Other (Not covered by Budgetary Resources) (line 1.D.) includes the following:

                               (Amounts in thousands)         As of September 30, 2004
                               FECA                                            $565,885
                               Unemployment                                      75,204
                               Judgment Fund                                     41,833
                               DOD Education Trust                                  472
                               Liabilities to Treasury                        2,755,401
                                      Total                                 $3,438,795




94
Judgment Fund.
Beginning in FY 2003 and continuing into FY 2004, the DON has made substantial progress in identifying and
resolving Judgment Fund liabilities. Amounts recorded in the DON General Fund Judgment Fund include
those that may be applicable to the Navy Working Capital Fund. This methodology is necessary, as current
Department of Justice reports do not distinguish between the two reporting entities. Reporting the Judgment
Fund is in compliance with OUSD(C) guidance to resolve any outstanding debt due to the Department of
Treasury. The DON is in the process of working with the appropriate Major Commands to obtain
documentation that supports the amounts that have been remitted to Department of Treasury, or provide the
necessary funding to liquidate the liabilities. DON is working with the Department of Treasury to validate the
amounts recorded in this account. FY 2004, the DON reported $41,833 thousand as the outstanding
Judgment Fund liability. Of this amount, $41,547 thousand is attributed to Navy Contract Dispute Act (CDA);
$107 thousand is attributed to Marine Corps CDA; and $179 thousand for the Notification and Federal
Employee Antidiscrimination and Retaliation Act (No FEAR). However, there is $66 thousand for No FEAR Act
in dispute and has not been recorded.

Liability to Treasury.
Unliquidated progress payments and associated accrued interest receivables for contractor debt is reported as
an unfunded liability to Department of the Treasury. Collections on this debt will be due and payable to
Treasury as the appropriations are in a cancelled status. See Note 5 for further disclosure.

Nonfederal Liabilities – Other (Not covered by Budgetary Resources) (Line 2.F.) includes the following:

                  (Amounts in thousands)                        As of September 30, 2004
                  Annual Leave                                                $2,463,860
                  Capital Lease Liabilities                                           202
                  Military Equipment (Non-nuclear
                   Nonenvironmental Disposal Liabilities)                           565,796
                  Disposal Liabilities for Excess/Obsolete
                   Structures                                                       343,324
                  Contract Incentive                                                105,641
                       Total                                                     $3,478,823



Note Reference

For additional line item discussion, see:
 • Note 8, Direct Loans and/or Loan Guarantee Programs
 • Note 12, Accounts Payable
 • Note 13, Debt
 • Note 14, Environmental Liabilities and Disposal Liabilities
 • Note 15, Other Liabilities
 • Note 16, Commitments and Contingencies
 • Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities




                                                                                              GENERAL FUND       95
     NOTE 12. ACCOUNTS PAYABLE

                                                                    2004                                   2003
                                                                   Interest,
                                                                 Penalties, and         Total              Total
                                            Accounts Payable
                                                                 Administrative
     As of September 30,                                             Fees
     (Amounts in thousands)
     1. Intragovernmental Payables:         $        1,437,616           N/A       $    1,437,616      $   1,035,033
     2. Non-Federal Payables (to the
        Public):                                     1,395,008                  0       1,395,008          1,742,522
     3. Total                               $        2,832,624     $            0 $     2,832,624      $   2,777,555


     4. Other Information Related to Accounts Payable:

     Fluctuation and/or Abnormalities
     Intragovernmental Account Payables increased $402,583 thousand, 39 percent, in FY 2004 when compared
     with FY 2003. The varying needs and execution requirements of the DON generally caused fluctuations in the
     intragovernmental payables. Additionally, trading partner/ intragovernmental elimination process affected the
     intragovernemental Accounts Payable line. In FY 2004, in concert with the greater DoD level 1 trading partner
     improvement effort, DON recorded the following Accounts Payable with other Federal Agencies (level 1 trading
     partner): General Service Administration $226,749 thousand; Department of Energy $107,944 thousand; and
     Homeland Security $17,766 thousand. There was also a change in Accounts Payable with some of the
     organizations within DoD (level 2 trading partner). There was a change within Navy Working Capital Fund in
     the amount of $147,738 thousand and $39,107 thousand with Other Defense Organization General Funds.
     The increase is offset by the decrease with Other Defense Organizations Working Capital Fund of $175,710
     thousand.

     DON reported a decrease of $347,514 thousand, 20 percent, in Non-Federal Accounts Payable in FY 2004
     when compared with FY 2003. Among other events, the Marine Corps instituted a business process change in
     the Military Pay account using a new interface file that matches pay records with corresponding accounts
     payable records. This process change resulted in a reduction of $380,000 thousand. Among offsets, liabilities
     for Cancelled Accounts are now recorded as Accounts Payable rather than Other Liabilities. This change in
     reporting policy added $89,472 thousand to reported balances.

     Definitions
     Intragovernmental Accounts Payable - consists of amounts owed to other federal agencies for goods or
     services ordered and received but not yet paid. Interest, penalties and administrative fees are not applicable
     to intragovernmental payables.

     Non-Federal Payables (to the Public) - are payments to nonfederal government entities and individuals.




96
Undistributed Disbursements.
Undistributed Disbursements are the difference between disbursements recorded at the detailed level to a
specific obligation or payable in the activity field records versus those reported by the Department of the
Treasury via the reconciled DD 1329 and DD 1400. This should agree with the undistributed disbursements
reported on monthly accounting reports (SF 133/DD 1002). Generally, timing issues between systems cause
undistributed disbursements. In-transit disbursements are payments that have been made by other agencies,
entities, or systems that have not yet been recorded in the DON’s accounting records. For FY 2004, total
undistributed disbursements were $4,396,148 thousand. This amount represents a $201,756 thousand or 5
percent increase from FY 2003.

Intragovernmental Elimination.
Regarding inter-agency purchases; DON accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the DON was unable to
fully reconcile intragovernmental accounts payable to the related intragovernmental accounts receivable, on
another agencies’ records that generated the payable.

Therefore, the DoD summary level seller accounts receivables were compared to the DON’s accounts payable.
An adjustment was posted to the DON’S accounts payable based on the comparison with the accounts
receivable of the DoD Components providing goods and services to the DON.

DoD intends to develop long-term systems improvements that will include sufficient up-front edits and controls
to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large
that after-the-fact reconciliation cannot be accomplished with existing or foreseeable resources. In the interim,
DFAS is leading an effort to identify alternative means of capturing and recognizing buyer side trading partner
data.

Other Disclosures
Abnormal Account Balances.
Abnormal Accounts Payable balances may occur because 1) the DON does not consistently record Accounts
Payable upon receipt and acceptance of goods and services; 2) the application of undistributed disbursements;
and 3) as a result of the intragovernmental transaction elimination process. Per DoD FMR Vol. 6B, Ch. 13,
when an abnormal balance is created, an adjustment to Accounts Payable and Expenses should be made
accordingly to recognize the shortfall.

Intragovernmental elimination adjustments are recorded at the component level, to bring the DON’s
intragovernmental accounts payable into agreement with its trading partners’ intragovernmental accounts
receivable. These elimination process adjustments may also result in abnormal accounts payable.

Reference

See Note Disclosure 1.G. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing accounting for Intragovernmental Activities.



NOTE 13. DEBT
Not Applicable.




                                                                                               GENERAL FUND          97
     NOTE 14. ENVIRONMENTAL LIABILITIES                              AND   DISPOSAL LIABILITIES

                                                                                                 2004                              2003
                                                                                               Noncurrent
                                                                       Current Liability                           Total           Total
     As of September 30,                                                                        Liability
     (Amounts in thousands)
     1. Environmental Liabilities - Non Federal
       A. Accrued Environmental Restoration (DERP funded) Costs:
        1. Active Installations--Environmental Restoration (ER)            $    503,393        $    2,338,069 $    2,841,462   $   3,132,127
        2. Active Installations--ER for Closed Ranges                             22,029             560,972        583,001         341,266
        3. Formerly Used Defense Sites (FUDS) – ER                                     0                    0              0               0
        4. FUDS--ER for Transferred Ranges                                             0                    0              0               0

       B. Other Accrued Environmental Costs (Non-DERP funds)
        1. Active Installations--Environmental Corrective Action                       0                    0              0               0
        2. Active Installations—Environmental Closure Requirements                     0                    0              0               0
        3. Active Installations--Environ.Response at Active Ranges                     0                    0              0               0
        4. Other                                                                       0                    0              0               0

       C. Base Realignment and Closure (BRAC)
         1. BRAC Installations--Environmental Restoration (ER)                   446,732              663,920      1,110,652       1,155,946
         2. BRAC Installations--ER for Transferring Ranges                         5,762               50,019         55,781          15,551
         3. BRAC Installations--Environmental Corrective Action                        0                    0              0               0
         4. Other                                                                          0                0              0               0

       D. Environmental Disposal for Weapons Systems Programs
        1. Nuclear Powered Aircraft Carriers                                           0            5,693,000      5,693,000       5,565,000
        2. Nuclear Powered Submarines                                             42,400            5,146,300      5,188,700       4,888,900
        3. Other Nuclear Powered Ships                                            86,500             201,000        287,500         269,100
        4. Other National Defense Weapons Systems                                  5,790             266,093        271,883         246,534
        5. Chemical Weapons Disposal Program                                           0                    0              0               0
        6. Other                                                                       0                    0              0               0


     2. Total Environmental Liabilities:                                   $   1,112,606       $   14,919,373 $   16,031,979   $ 15,614,424


     3. Other Information Related to Environmental Liabilities:

     Fluctuation and/or Abnormalities

     Accrued Environmental Restoration (DERP funded) Costs.
     The DON reported a net increase of $241,735 thousand, 71 percent, for Active Installations ER for Closed
     Ranges in FY 2004 when compared to FY 2003. Of the total increase, $33,500 thousand is due to adding 10
     new unexploded ordnance (UXO) sites at Concord and Seal Beach, CA; $76,000 thousand increase for
     Vieques, Puerto Rico; $19,000 thousand increase in Cost to Complete (CTC) based on findings from
     Preliminary Assessments; $88,000 thousand increase in CTC due to addition of Munitions Response Program
     support and adjustment for inflation; $30,000 thousand increase for CTC for Site Investigation at Marine Corps
     sites; and $5,500 thousand for program growth. The program increases were offset by $12,097 thousand for
     cleanup efforts.



98
Base Realignment and Closure (BRAC).
The DON reported an increase of $40,230 thousand, 259 percent, in FY 2004 when compared to FY 2003.
Of the increase, $36,300 thousand is due to the sites moving from ER program to ER for Transferring Ranges.

Environmental Disposal for Weapon Systems.
Other National Defense Weapons Systems – The DON reported an overall increase of $25,349 thousand,
10 percent, in FY 2004 when compared to FY 2003. The increase is related to an estimate for the disposal
of Trident Missile Motors.

Information Related to Environmental Liabilities
Accrued Environmental Restoration (DERP Funded) Cost Liabilities.
For FY 2004, the DON estimated and reported $3,424,463 thousand for environmental restoration liabilities.
This amount is comprised of $2,841,462 thousand in Active Installations - Environmental Restoration (ER)
liabilities and $583,001 thousand in Active Installations – ER for Closed Ranges liabilities, which represents
UXO. The DoD FMR, Volume 6B, Chapter 10 requires that “any estimate produced must be based on site
specific information and use cost models validated in accordance with DoD Instruction 5000.61.” The DON is
supporting this requirement by continuing to validate its range inventory as well as by pursuing the process of
obtaining valid cost estimates for each range.

Other Accrued Environmental Costs (Non-DERP funds).
The DON developed guidance for the DON Major Commands to use as they begin to identify site data and
develop estimates for the DON’s “ongoing” operations. The DON continued review of program areas such as
solid waste management unit cleanup, landfill closure, permitted facilities, removal, replacement, retrofill,
and/or disposal of PCB transformers, underground storage tank remedial investigation and closure. For these
areas the DON has identified an estimated total liability of $288,215 thousand in FY 2004. However, the DON
is currently not reporting this amount within the General Fund financial statements until the Major Commands
are able to identify all the site data and complete the estimates for the Non-DERP costs. The DON plans to
start reporting the Other Accrued Environmental Costs (Non-DERP) within the financial statements beginning
with FY 2006.

Base Realignment and Closure (BRAC).
For FY 2004, the DON estimated and reported $1,166,433 thousand for BRAC funded environmental
restoration liabilities. This amount includes $1,110,652 thousand for environmental restoration (ER) and
$55,781 thousand for ER transferring ranges, which includes military munitions, chemical residues from military
munitions, and munitions scrap at locations on or associated with a military range on a BRAC installation.

Environmental Disposal for Weapons Systems Programs.
The DON reported an environmental disposal liability for Weapons Systems Programs of $11,441,083
thousand in FY 2004. This amount includes nuclear powered aircraft carriers of $5,693,000 thousand, nuclear
powered submarines of $5,188,700 thousand, other nuclear powered ships of $287,500 thousand and other
national defense weapons systems of $271,883 thousand.




                                                                                             GENERAL FUND         99
  Methodology Used to Estimate Environmental Liabilities
  Accrued Environmental Restoration (DERP Funded) Costs.

  Active Installations – Environmental Restoration (ER): Accrued restoration (cleanup) liabilities represent the
  cost to correct past environmental areas that are funded under the Defense Environmental Restoration
  Program in accordance with “Management Guidance for the DERP,” and “Accrued Environmental Restoration
  (Cleanup) Liabilities,” Chapter 14 of Volume 4 of the DoD FMR. These liabilities relate to PP&E, including
  acquired land and Stewardship Land, as those major asset categories are described in Chapter 6 of Volume 4
  of the DoD FMR. Environmental restoration activities may be conducted at operating installations, at FUDS, at
  Closed, Transferred, and Transferring Ranges. Environmental restoration measurements involve the use of
  cost estimates that consider, on a current cost basis, the anticipated costs of the level of effort required to
  affect the restoration, as well as applicable legal and/or regulatory requirements. Program management and
  support costs are included in the estimates. The estimates are based on the DON’s cost-to-complete (CTC)
  module of the DON Normalization of Data System (NORM). Certification of the CTC module was completed
  early in FY 2002. Such cost estimates are based on the current technology available. Site inventory and
  estimated cost data prepared for the DERP report to the Congress was used by the DON as the baseline for
  environmental restoration (cleanup) liability measurement (i.e., the current cost to acquire the required
  services). The Accrued Environmental Restoration (Cleanup) Costs do not include the costs of environmental
  compliance, pollution prevention, conservation activities, contamination or spills associated with current
  operations, or treaty obligations, all of which are accounted for as part of ongoing operations. The Department
  of the Navy’s Environmental Restoration (ER,N) Program includes 3,692 clean-up sites while those
  installations covered by Base Realignment and Closure (BRAC) funding includes 1,057 clean-up sites.

  Active Installations – Environmental Restoration For Closed Ranges: This represents the environmental
  liabilities associated with the identification, investigation and removal and remedial actions to address
  environmental contamination at ranges that were closed prior to September 30, 2002. The contamination may
  include munitions, chemical residues from military munitions and munitions scrap at ranges on active
  installations that pose a threat to human health or the environment. The amount reported is the portion of the
  liability that can be estimated based on site level investigations and characterizations. The estimate produced
  is based on site-specific information and use cost models validated in accordance with DoD Instruction
  5000.61. Total liabilities (cost-to-complete) are not estimated until there is sufficient site-specific data available
  to estimate the total liability. Beginning in FY 2001, the Department began an inventory of closed ranges and
  transferring ranges under the Military Munitions Response Program (MMRP) or UXO program. The inventory
  was completed September 2002 and contains 208 closed ranges at active installations and 19 transferring
  ranges at BRAC sites.

  Information regarding changes
  Survey data of the Department of the Navy Environmental Restoration Program cost estimate changes for
  sites that had over 10 percent change or $500 thousand indicates diverse reasons for change in estimates.
  The reasons for changes include estimation changes (26 percent), regulatory changes (60 percent), and
  technical changes (15 percent). Reasons for changes in estimation are as follows: cost-to-complete (CTC)
  overlooked or previously unknown, better site characterization with sampling, cost avoidance rerun CTC, re-
  estimation based on different assumptions and/or escalation, and re-estimation of costs based on lessons
  learned. Reasons for changes in the regulatory area include: addition of range rule/munitions requirements,
  additional or extended long-term monitoring requirements or 5 year reviews, no further action agreement with
  regulator, and risk based corrective action. Reasons for changes in the technical area include: additional
  contamination level reduction with sampling, additional or extended remedial action operation, additional sites
  and incomplete site data, and changes in technical solutions.

100
Reference

The following is a summary of significant laws that affect the Department’s conduct of environmental policy and
regulations.

The National Environmental Policy Act (NEPA) of 1970 requires the Department to consider the environmental
impacts of proposed actions in the decision making process. Per DON regulations, the action proponent will
determine the level or amount of NEPA documentation required. The Resource Conservation and Recovery
Act (RCRA) of 1976 as amended by the Hazardous and Solid Waste Amendments of 1984 (HSWA), was the
first comprehensive federal effort to deal with safe disposal of all types of hazardous wastes, and provides for
“cradle to grave” tracking of hazardous wastes. Permits are required for treatment, storage or disposal.
Requirements for underground storage tanks (USTs) are also contained in RCRA.

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA), commonly
referred to as the Superfund legislation, provided for Federal agencies authority to respond to the release or
the substantial threat of release of hazardous substances into the environment. CERCLA was amended
several times; one of the amendments was the Community Environmental Response Facilitation Act of 1992.
The Department must identify real property on each facility that is not contaminated and that offers the greatest
opportunity for expedited reuse and redevelopment. When property is transferred, BRAC or non-BRAC, the
Department is still responsible for any remediation or corrective action or any response action found to be
necessary after the transfer.

For the nuclear powered aircraft carriers, submarines, and other nuclear ships, the following significant laws
affect the Department’s conduct of environmental policy and regulations. The Atomic Energy Act of 1954, as
amended, assures the proper management of source, special nuclear, and byproduct material. As in all cases
with nuclear power, the Department coordinates all actions with the Department of Energy. The Nuclear Waste
Policy Act of 1982 required all owners and generators of high-level nuclear waste and spent nuclear fuel, to
pay their respective shares of the full cost of the program. Finally, the Low Level Radioactive Waste Policy
Amendments Act of 1986 provides for the safe and efficient management of low-level radioactive waste.

For additional information concerning applicable laws and regulations, methodology for assigning estimated
cleanup costs, and description of sites and technology used for cleanup consult the “FY 2002 Defense
Environmental Restoration Program Annual Report to Congress.”

For regulatory discussion on Environmental Liabilities, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1016.




                                                                                              GENERAL FUND          101
  NOTE 15.A. OTHER LIABILITIES

                                                                                             2004                             2003
                                                                           Current       Noncurrent
                                                                                                              Total           Total
      As of September 30,                                                  Liability      Liability
      (Amounts in thousands)
      1. Intragovernmental:
           A. Advances from Others                                     $            0 $               0   $          0    $           0
           B. Deferred Credits                                                      0                 0              0                0
           C. Deposit Funds and Suspense Account Liabilities                  256,784                 0        256,784          223,225
           D. Resources Payable to Treasury                                         0                 0              0                0
           E. Disbursing Officer Cash                                         234,866                 0        234,866          282,996
           F. Nonenvironmental Disposal Liabilities:
              (1) National Defense PP&E (Nonnuclear)                                0              0                 0                0
              (2) Excess/Obsolete Structures                                        0              0                 0                0
              (3) Conventional Munitions Disposal                                   0              0                 0                0
              (4) Other                                                             0              0                 0                0
           G. Accounts Payable-- Cancelled Appropriations                           0              0                 0                0
           H. Judgment Fund Liabilities                                        41,833              0            41,833           49,157
           I. FECA Reimbursement to the Department of Labor                   245,461        320,423           565,884          562,105
           J. Capital Lease Liability                                               0              0                 0                0
           K. Other Liabilities                                              2,885,435             0          2,885,435       2,742,430
           L. Total Intragovernmental Other Liabilities               $      3,664,379   $   320,423      $   3,984,802   $   3,859,913
      2. Non-Federal:
           A. Accrued Funded Payroll and Benefits                           $    414,999 $        0       $    414,999    $     394,706
           B. Advances from Others                                                     0          0                  0                0
           C. Deferred Credits                                                         0          0                  0                0
           D. Loan Guarantee Liability                                                 0          0                  0                0
           E. Liability for Subsidy Related to Undisbursed Loans                       0          0                  0                0
           F. Deposit Funds and Suspense Accounts                                      0          0                  0                0
           G. Temporary Early Retirement Authority                                   699          0                699            2,933
           H. Nonenvironmental Disposal Liabilities:
              (1) National Defense PP&E (Nonnuclear)                                   0    565,796             565,796         574,916
              (2) Excess/Obsolete Structures                                      53,707    289,617             343,324         324,270
              (3) Conventional Munitions Disposal                                      0          0                   0               0
              (4) Other                                                                0          0                   0               0
           I. Accounts Payable--Cancelled Appropriations                               0          0                   0          23,238
           J. Accrued Unfunded Annual Leave                                    2,463,860          0           2,463,860       2,269,191
           K. Accrued Entitlement Benefits for Military Retirees and Survivors         0          0                   0               0
           L. Capital Lease Liability                                                202          0                 202             146
           M. Other Liabilities                                                  150,592     81,355             231,947         196,562
           N. Total Non-Federal Other Liabilities                           $ 3,084,059 $   936,768       $   4,020,827   $   3,785,962
      3. Total Other Liabilities:                                           $ 6,748,438 $ 1,257,191       $   8,005,629   $   7,645,875


  4. Other Information Pertaining to Other Liabilities:

  Fluctuation and/or Abnormalities
  Intragovernmental Other Liabilities.
  The DON reported an increase of $33,559 thousand, 15 percent, in Deposit Funds and Suspense Account
  Liabilities (Line 1C) in FY 2004 when compared with FY 2003. The increase is due to implementing the
  Treasury and OUSD(C) policy on disbursement balances in the non-entity accounts. The disbursement
  balance was previously classified in USSGL 2400, Liability for Deposit Funds, Clearing Accounts, and
  Undeposited Collections, and now is recorded in USSGL 2120, Disbursements in Transit. The DON also
  reported a decrease of $48,130 thousand, 17 percent, in Disbursing Officer Cash (Line 1E) in FY 2004 when
  compared to FY 2003. It is the result of the draw down from Operation Iraqi Freedom and subsequent events.

102
The expansion of the ATM at Sea and Navy Cash programs in FY 2004 also contributed to the decrease of
Disbursing Officer Cash as Disbursing Officers do not need as much cash on hand. In addition, the DON
reported a decrease of $7,324 thousand, 15 percent, in the Judgment Fund Liabilities (Line 1H) in FY 2004.
The decrease is due to the aggressive effort of the DON to reconcile and resolve claims under the Contracts
Dispute Act.

Nonfederal Other Liabilities.
The DON also reported a decrease of $2,234 thousand, 76 percent, in Temporary Early Retirement Authority in
FY 2004. Some DON commands did not update the Status of Funds in 4th Quarter FY 2003 and corrective
action was taken in FY 2004. Accounts Payable – Cancelled Appropriations decreased $23,238 thousand, 100
percent for this line item, in FY 2004 due to a policy change that requires reclassifying it as Accounts Payable.
However, cancelled payables actually increased by $66,234 thousand, or 285 percent in FY 2004. DON is
reviewing the process of recording and liquidating cancelled appropriation liabilities. Capital Leases Liability
increased $56 thousand, 38 percent, in the FY 2004 is due to the migration of DON activities to the Defense
Property Accountability System (DPAS) in FY 2004. In addition, Other Liabilities increased $35,385 thousand,
18 percent, due to an increase of $36,324 thousand in Contract Holdbacks with the majority in Aircraft
Procurement.

Other Disclosures

Intragovernmental Other Liabilities:
Judgment Fund (Line1.H).
The DON must reimburse the Department of the Treasury for payments made from the Judgment Fund on its
behalf. These payments are a result of claims being resolved under the Contracts Dispute Act. Great strides
have been made in reconciling and identifying the outstanding Judgment Fund Liability. Since FY 2003, the
DON has reduced the Judgment Fund from $49,157 thousand to $41,833 thousand.

In addition, the Notification of Federal Antidiscrimination and Retaliatory Act (No FEAR) was implemented on
October 1, 2003. This law requires all agencies to reimburse the Judgment Fund for cases covered by the No
FEAR Act. For FY 2004, the DON reported $179 thousand for No FEAR Act liabilities. However, there is $66
thousand for the No FEAR Act in dispute and has not been recorded.

Other Liabilities (Line 1.K.) includes the following:

                        (Amounts in thousands)            As of September 30, 2004
                        Liability to Treasury & Others                    $2,757,397
                        Unemployment                                          75,204
                        Employment Benefit                                    52,834
                        Total Intragovernmental Other
                        Liabilities                                       $2,885,435


With respect to the major fiduciary balances, the DON must reconcile with the DOL and OPM. In FY 2004, the
DON reported the following Intragovernmental Fiduciary liabilities: $565,884 thousand in FECA, $75,204
thousand in Unemployment, $52,834 thousand in Employment Benefit, and $41,833 thousand in Judgment
Fund.




                                                                                              GENERAL FUND          103
  Nonfederal Other Liabilities:

  Nonenvironmental Disposal Liability Disclosure.
  The DON recognizes the nonenvironmental disposal liability for nuclear powered assets when the asset is
  initially placed in service. The nonenvironmental costs are included with the environmental disposal costs and
  reported in Note 14. However, the $565,796 thousand reported is estimated nonenvironmental disposal liability
  for conventional military equipment.

  Excess/Obsolete Structures (Line 2.H.2).
  The reported amount of $343,324 thousand is an estimate of disposing excess/obsolete structures at active
  installations.

  Other Liabilities (Line 2.M.) includes $126,306 thousand Contract Holdbacks, $105,641 thousand Contract
  Incentives.

  Reference

  See Note Disclosure 1.S. – Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Contingencies and Other Liabilities.



  NOTE 15.B. CAPITAL LEASE LIABILITY

                                                                      2004                                        2003
                                                                  Asset Category
                                              Land and
                                                              Equipment           Other           Total           Total
      As of September 30,                     Buildings
      (Amounts in thousands)
      1. Future Payments Due:
          A. Fiscal Year 2005             $               0   $      202      $           0   $       202     $           146
         B. Fiscal Year 2006                              0               0               0               0                 0
         C. Fiscal Year 2007                              0               0               0               0                 0
         D. Fiscal Year 2008                              0               0               0               0                 0
         E. Fiscal Year 2009                              0               0               0               0                 0
         F. After 5 Years                                 0               0               0               0                 0
         G. Total Future Lease            $               0   $      202      $           0   $       202     $           146
             Payments Due
         H. Less: Imputed Interest                        0               0               0               0                 0
             Executory Costs
         I. Net Capital Lease Liability   $               0   $      202      $           0   $       202     $           146


      2. Capital Lease Liabilities Covered by Budgetary Resources:                            $           0   $             0

      3. Capital Lease Liabilities Not Covered by Budgetary Resources:                        $       202     $           146




104
4. Other Information Related to Capital Lease Liability:

Fluctuation and/or Abnormalities
The DON reported $56 thousand, 38 percent, increase in Capital Lease Liability in FY 2004 compared with FY
2003. The increase is due to the migration of DON activities to DPAS in FY 2004. Prior to the use of DPAS by
these activities, these individual capital lease liabilities were not reported.

Other Disclosures
The liabilities associated with capital leases are captured in legacy systems and are not consistently recorded
in the accounting system. The DON has recognized a liability equal to the net value of the assets (i.e. gross
value less accumulated amortization). The resulting liability was recorded as a payment due in FY 2004. The
proper breakout of future payments to appropriate years will be done when a process for capturing lease
liabilities is implemented.

Reference
See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Leases.

For regulatory discussion on Capital Lease Liability, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1017.



NOTE 16. COMMITMENTS               AND    CONTINGENCIES
Information Related to Commitments and Contingencies
The Department of the Navy is a party in various administrative proceedings and legal actions which may
ultimately result in settlements or decisions adverse to the Federal Government. These proceedings and
actions arise in the normal course of operations and their ultimate disposition is unknown. In the event of an
adverse judgment against the Government, some of the liabilities may be payable from the Judgment Fund.
Others may be payable from the Department’s resources, either directly or by reimbursement to the Judgment
Fund. Based on information currently available, however, it is management’s opinion that the expected
outcome of these matters, individually or in the aggregate, will not have a material adverse effect on the
Department.

For fiscal years 2003 and 2004, the materiality threshold for reporting litigation, claims, or assessments was
$16.7 million and $33.3 million, respectively. The amounts set forth above for civil and environmental litigation,
claims, and assessments represent the aggregate of the amounts of claims, litigation or assessments
considered to be significant for reporting purposes based on the established materiality thresholds. These
amounts represent the maximum amounts of any potential liability of the Government based on the amounts
claimed. Management does not consider it to be at all likely that the Government will be liable for such
maximum amounts.

The DON reported a total of 29 cases in FY 2004 that met the materiality threshold. However, DON legal
counsel is unable to express an opinion concerning the likely outcome of these cases.

Reference
See Note Disclosure 1.S. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

                                                                                               GENERAL FUND          105
  For regulatory discussion on Commitments and Contingencies, see Department of Defense Financial
  Management Regulation, Volume 6B, Chapter 10, paragraph 1018.



  NOTE 17. MILITARY RETIREMENT BENEFITS                                  AND     OTHER EMPLOYMENT RELATED
  ACTUARIAL LIABILITIES

                                                                                     2004                                         2003

                                                    Actuarial Present    Assumed       (Less: Assets
                                                                                                         Unfunded Actuarial Unfunded Actuarial
                                                    Value of Projected    Interest    Available to Pay
                                                                                                              Liability          Liability
                                                      Plan Benefits      Rate (%)        Benefits)
  As of September 30,
  (Amount in Thousands)
  1. Pension and Health Benefits:
     A. Military Retirement Pensions                $               0                $            0      $             0    $               0
     B. Military Retirement Health Benefits                         0                             0                    0                    0
     C. Medicare-Eligible Retiree Benefits                          0                             0                    0                    0
     D. Total Pension and Health Benefits           $               0                $            0      $             0    $               0

  2. Other
     A. FECA                                        $       1,575,815                $            0      $     1,575,815    $       1,589,971
     B. Voluntary Separation Incentive Programs                     0                             0                    0                    0
     C. DoD Educational Benefits Fund                               0                             0                    0                    0
     D. Total Other                                 $       1,575,815                $            0      $     1,575,815    $       1,589,971



  3. Total Military Retirement Benefits and Other
     Employment Related Actuarial Liabilities:      $       1,575,815                $            0      $     1,575,815    $       1,589,971


  4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial
  Liabilities:

  Military Retirement Pensions.
  The portion of the military retirement benefits actuarial liability applicable to the DON is reported on the
  financial statements of the Military Retirement Fund (MRF).

  Military Retirement Health Benefits.
  Health benefits are funded centrally at the DoD level. As such, the portion of the health benefits actuarial
  liability that is applicable to DON is reported only on the DoD Agency-wide financial statements.




106
Federal Employees Compensation Act (FECA).

Actuarial Cost Method Used and Assumptions:
The DON’s actuarial liability for workers’ compensation benefits is developed by DOL and provided to DON at
the end of each fiscal year. The liability for future workers’ compensation (FWC) benefits includes the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases, plus
a component for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate payments related
to that period. Consistent with past practice, these projected annual benefit payments have been discounted to
present value using the Office of Management and Budgets economic assumptions for 10-year Treasury notes
and bonds. Interest rate assumptions utilized for discounting were as follows:

                                      FY 2004
                                      4.883 percent in Year 1
                                      5.235 percent in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. These factors were also used to
adjust the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as
follows:

                                      CBY         COLA          CPIM
                                      2005        2.03%         4.14%
                                      2006        2.73%         3.96%
                                      2007        2.40%         3.98%
                                      2008        2.40%         3.99%
                                      2009+       2.40%         4.02%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was
based on two tests: (1) a comparison of the percentage change in the liability amount by agency to the
percentage change in the actual payments, and (2) a comparison of the ratio of the estimated liability to the
actual payment of the beginning year calculated for the current projection to the liability-payment ratio
calculated for the prior projection.

The estimate was allocated between General Fund and Navy Working Capital Fund using a percentage based
on the number of civilian employees taken from the Navy Budget Tracking System. The following table, as of
March 31, 2004, details the numbers used in support of the allocation:

                                                  Personnel       Allocation %

                          DON General Fund            111,166                57%
                          Navy Working
                          Capital Fund                 82,712                43%

                             Total                    193,878              100%



                                                                                                 GENERAL FUND           107
  Voluntary Separation Incentive (VSI) Program.
  The Voluntary Separation Incentive (VSI) Fund (recorded on the books of the Department of the Treasury) is
  used to accumulate funds to finance, on an actuarially sound basis, the liabilities DoD incurred under this
  program. The VSI benefit is an annual annuity paid to members who have separated under this program, and
  is paid for a period of time equal to twice the members’ years of service.

  DoD Education Benefits Fund.
  The DoD Education Benefits Fund is designed to accumulate funds for the educational programs described
  under Title 10 United States Code, section 2006. This program promotes the recruitment and retention of
  members for the All-Volunteer Forces program and the Total Force Concept of the Armed Forces and aids in
  the readjustment of members of the Armed Forces to civilian life after separation from military service.

  Reference

  For regulatory discussion on Military Retirement Benefits and Other Employee Related Actuarial Liabilities, see
  Department of Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.



  NOTE 18. UNEXPENDED APPROPRIATIONS

      As of September 30,                          2004                2003
      (Amounts in thousands)
      1. Unexpended Appropriations:
          A. Unobligated, Available           $   12,741,747      $    28,083,485
          B. Unobligated, Unavailable              4,054,888              998,235
         C. Unexpended Obligations                62,365,139           47,613,208
         D. Total Unexpended
             Appropriations                   $   79,161,774      $    76,694,928

  2. Other Information Pertaining to Unexpended Appropriations:

  Fluctuation and/or Abnormalities
  The Unobligated, Available and the Unexpended Obligations lines for FY 2004 when compared with FY 2003
  does not provide for a meaningful comparison. Due to a prior period adjustment and the restatement of the FY
  2003 column, it is not practical to compare FY 2004 to FY 2003 for these lines. The DON reported an
  increase of $3,056,653 thousand, 306 percent in Unobligated, Unavailable (Line 1B) in FY 2004 when
  compared with FY 2003. The reason for the significant increase in Unobligated, Unavailable is a result of
  receipt of supplemental appropriations (Title IX of the FY 2005 DoD Appropriations Act (P.L. 108-287)) that
  provided for FY 2004/FY 2005 additional funding.




108
Other Disclosures
Unobligated, Unavailable includes annual funds that are subject to the quarterly apportionment rule. They will
become available in subsequent periods as they are apportioned. The amounts below reflect supplemental
appropriations that will be made available in FY 2005. Below is a summary of funds subject to subsequent
period apportionment:

Apportioned, Subsequent Periods:             Unobligated, Unavailable Funds
(Amounts in thousands)
Military Personnel                                                  $269,400
Operations and Maintenance                                         2,032,000
Procurement                                                           61,800
     Total                                                        $2,363,200
Expired Years Authority                                            1,691,688
Unobligated, Unavailable                                          $4,054,888




NOTE 19.A GENERAL DISCLOSURES RELATED                           TO THE    STATEMENT        OF   NET COST

Fluctuation and/or Abnormalities
The DON reported an increase of $18,237,710 thousand, 16 percent, in the Net Cost of Operations in FY 2004
when compared to FY 2003. The Procurement area showed a fluctuation in FY 2004 when compared with FY
2003 of $14,808,038 thousand, 86 percent, and Military Construction costs increased by $7,053,236 thousand,
653 percent. On a comparative basis, the major factor affecting the Procurement area was the FY 2003
capitalization of Military Equipment that reduced operating expenses by $20,440,000 thousand in FY 2003.
The major factor affecting the Military Construction area was a correction to depreciation expense in FY 2004
related to Real Property and associated Capitalized Improvements. See Note 10 for a further explanation of
the depreciation change.

Intragovernmental Gross Costs increased by $4,029,146 thousand, 11 percent, in FY 2004 when compared to
FY 2003 with an increase in Intragovernmental Earned Revenue of $85,892 thousand, 3 percent.
Intragovernmental Gross Costs are adjusted for trading partner submissions at the Component level, as
trading partner submissions for payables and expense do not identify the DON Appropriations or associated
Programs. The increase in Intragovernmental Earned Revenue is spread over several governmental agencies
with these increases offset by immaterial decreases with several of the agencies. Significant increases in
Intragovernmental Revenue were $917,991 thousand with Navy Working Capital Fund and $67,732 thousand
with Air Force General Fund.

Similarly, Gross Costs with the Public increased $15,677,468 thousand, 19 percent, in FY 2004 when
compared with FY 2003 and is coupled with an increase in Earned Revenue from the Public of $1,383,012
thousand, 72 percent. The increase in Gross Costs with the Public is a result of an increase in depreciation
costs as a result of recognizing Military Equipment in FY 2003 and continuing into FY 2004 and an increase in
depreciation costs for buildings, structures, and utilities resulting from changes to the depreciation module of
Internet Naval Facility Association Database Store (iNFADS). These cost increases are explained in detail in
Note 10.

A factor that impacted the increase on DON’s Earned Revenue from the Public was the re-mapping of USSGL
7190 (Other Gains) to Earned Revenue from the Public.


                                                                                             GENERAL FUND          109
  Other Disclosures Related to the Statement of Net Cost
  The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven
  on understanding the net cost of programs and/or organizations that the federal government supports through
  appropriations or other means. This statement provides gross and net cost information that can be related to
  the amount of output or outcome for a given program and/or organization administered by a responsible
  reporting entity.

  The amounts presented in the Statement of Net Cost (SoNC) are based on obligations and disbursements and
  therefore may not in all cases report actual accrued costs. The DON generally records transactions on a cash
  basis and not an accrual basis as is required by Federal GAAP. Therefore, the DON systems do not
  consistently capture actual costs. As such, information presented in the SoNC is based on budgetary
  obligations, disbursements, and collection transactions, as well as non-financial feeder systems; then adjusted
  to record known accruals for major items such as payroll expenses, accounts payable, and environmental
  liabilities.



  NOTE 19.B. GROSS COST               AND    EARNED REVENUE            BY   BUDGET FUNCTIONAL
  CLASSIFICATION
  Not Applicable.



  NOTE 19.C. GROSS COST TO GENERATE INTRAGOVERNMENTAL REVENUE                                         AND
  EARNED REVENUE (TRANSACTIONS WITH OTHER FEDERAL—NON-DOD—
  ENTITIES) BY BUDGET FUNCTIONAL CLASSIFICATION
  Not Applicable.



  NOTE 19.D. IMPUTED EXPENSES

      As of September 30,                             2004             2003
      (Amount in thousands)

         1. Civilian (e.g.,CSRS/FERS) Retirement $    247,413      $     231,585
         2. Civilian Health                           296,631            232,822
         3. Civilian Life Insurance                     1,020                904
         4. Military Retirement Pension                     0                  0
         5. Military Retirement Health                      0                  0
         6. Judgment Fund                              40,145             44,408
         7. Total Imputed Expenses               $    585,209      $     509,719

  8. Other Information Related to Imputed Expense:
  The DON financial statements have recognized an imputed expense for civilian employee pensions, life
  insurance, and health benefits in the Statement of Net Cost. Imputed expenses for employee benefits were
  calculated using cost factors provided by OPM applied against gross basic pay for all categories of civilian
  service employees. The gross basic pay amounts were extracted directly from the Defense Civilian Pay
  System (DCPS).




110
NOTE 19.E. BENEFIT PROGRAM EXPENSES
Not Applicable.



NOTE 19. F. EXCHANGE REVENUE
Not Applicable.



NOTE 19.G. AMOUNTS FOR FOREIGN MILITARY SALES (FMS) PROGRAM
PROCUREMENTS FROM CONTRACTORS
Not Applicable.



NOTE 19.H. STEWARDSHIP ASSETS
Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, and
Investments in Research and Development. The current year cost of acquiring, constructing, improving,
reconstructing, or renovating stewardship assets are included in the Statement of Net Cost.



NOTE 19.I. INTRAGOVERNMENTAL REVENUE                          AND E XPENSE
The majority of DON accounting systems do not consistently capture trading partner data at the transaction
level in a manner that facilitates trading partner aggregations. Therefore, DON was unable to reconcile
intragovernmental revenue balances with its trading partners. DoD intends to develop long-term systems
improvements that will include sufficient up-front edits and controls to eliminate the need for after-the-fact
reconciliations. The volume of intragovernmental transactions is so large that after-the-fact reconciliation can
not be accomplished with existing or foreseeable resources.



NOTE 19.J. SUBORGANIZATION PROGRAM COSTS
Not Applicable.




                                                                                               GENERAL FUND        111
  NOTE 20. DISCLOSURES RELATED                             TO THE        STATEMENT         OF      CHANGES          IN     NET
  POSITION

                                                                                                                                 Unexpended
                                                 Cumulative Results of      Unexpended             Cumulative Results of
                                                                                                                                Appropriations
                                                   Operations 2004       Appropriations 2004         Operations 2003
                                                                                                                                    2003
      As of September 30,
      (Amounts in thousands)
      1. Prior Period Adjustments Increases
      (Decreases) to Net Position Beginning
      Balance:
         A. Changes in Accounting Standards      $                 0     $                0    $          152,557,286       $                    0
         B. Errors and Omissions in Prior Year          (25,913,750)            25,913,750                          0                            0
         C. Other Prior Period Adjustments                         0                     0                          0                            0
         D. Total Prior Period Adjustments       $      (25,913,750)     $      25,913,750     $          152,557,286       $                    0

      2. Imputed Financing:
          A. Civilian CSRS/FERS Retirement       $          247,413      $                0    $              231,585       $                    0
          B. Civilian Health                                296,631                       0                   232,822                            0
          C. Civilian Life Insurance                          1,020                       0                       904                            0
          D. Military Retirement Pension                          0                       0                         0                            0
          E. Military Retirement Health                           0                       0                         0                            0
          F. Judgment Fund                                   40,145                       0                    44,408                            0
          G. Total Imputed Financing             $          585,209      $                0    $              509,719       $                    0



  3. Other Information:

  Other Disclosures
  Errors and Omissions in Prior Year Accounting Reports.
  Two prior period adjustments were recorded to the DON financial statements and were recognized as errors
  and omissions per Statement of Federal Financial Accounting Standards (SFFAS) No. 21, “Reporting
  Corrections of Errors and Changes in Accounting Principles.” The errors occurred in the 4th Quarter FY 2003
  financial statements. The overall impact of the prior period adjustments warrants the restatement of the FY
  2004 DON financial statements for comparative purposes. These adjustments will affect the following financial
  statements for restatement in the fourth quarter: Balance Sheet (Net Position section) and the Statement of
  Changes in Net Position. The prior period adjustments were categorized as follows:

                                                          Cumulative Results            Unexpended
                                                            of Operations              Appropriations
       Error in reporting Appropriations Used                 ($25,913,750)              $25,913,750


  The errors involved the inclusion of disbursement and collection amounts in Appropriations Used, accounts
  (USSGL 3107 and USSGL 5700) both of which are mapped to the Statement of Changes in Net Position:
  3107 to Unexpended Appropriations, and 5700 to Cumulative Results of Operations.

  Imputed Financing.
  The DON financial statements have recognized an imputed financing source for civilian employee pensions,
  life insurance, and health benefits in the Statement of Net Cost. Imputed financing sources for employee
  benefits were calculated using cost factors provided by OPM applied against gross basic pay for all categories
  of civilian service employees. The gross basic pay amounts were extracted directly from the Defense Civilian
  Pay System (DCPS).

112
Judgment Fund.
Treasury provided information related to amounts paid for Judgment Fund liabilities under the Contracts
Dispute Act and the Notification of Federal Antidiscrimination and Retaliatory Act (No FEAR Act) on behalf of
the DON, which the DON is required to repay. Judgment Fund payments made out of the following Treasury
appropriations do not require reimbursement and therefore represent imputed financing to the DON: 20X1740
and 20X1742. Only those payments made from Treasury appropriation 20X1743, and that portion of 20X1741
that is related to the No FEAR Act are required to be repaid by DON.



NOTE 21. DISCLOSURES RELATED                    TO THE     STATEMENT       OF   BUDGETARY
RESOURCES


                                                                                    2004             2003
As of September 30,
(Amounts in thousands)
1.   Net Amount of Budgetary Resources Obligated for Undelivered
     Orders at the End of the Period                                            $ 63,059,730      $ 64,855,940
2.   Available Borrowing and Contract Authority at the End of the Period                   0                739

3. Other Information Related to the Statement of Budgetary Resources:

The Net Amount of Budgetary Resources Obligated for Undelivered Orders in this note only represents USSGL
4801, Undelivered Orders – Obligations, Unpaid. However, the amount represented on the Statement of
Budgetary Resources, line 14 C not only includes USSGL 4801, Undelivered Orders – Obligations, Unpaid but
also USSGL 4802, Undelivered Orders – Obligations, Prepaid/Advanced.

The difference of $30,494 thousand between the SBR Appropriations Received when compared with the
Statement of Change of Net Position (SOCNP) Appropriations Received is due to the Trust Funds not being
included in the Appropriations Received line of the SOCNP.

Other Disclosures
Obligations Incurred includes $132,268,522 thousand Direct Obligations and $8,886,330 thousand
Reimbursable Obligations.

Included in the DON FY 2004 Statement of Budgetary Resources is a $448,000 thousand transaction from the
Navy Working Capital Fund (NWCF). This transaction was recorded using a Voucher For Transfers Between
Appropriations and/or Funds (SF1080) and is not reflected as a part of Net Transfers on the Statement of
Budgetary Resources. The SF1080 transaction with the NWCF was made in accordance with the Department
of the Navy's FY 2004 President's Budget.

Due to accounting system deficiencies, intragovernmental transactions were not eliminated for the presentation
of a Consolidated Statement of Budgetary Resources (SBR).

In FY 2004, DoD treated Foreign Military Sales (FMS) Trust Fund transactions as nonfederal, and were
presented as such in the Balance Sheet (BS) and the Statement of Net Cost. Accounts Receivable and
Revenues related to FMS are recognized in the SBR. Therefore, reconciling differences exist between the
SBR and the BS. OUSD(C) Accounting Policy is currently researching the issue to determine the proper
treatment of FMS Trust Fund transactions to ensure proper reporting.
                                                                                               GENERAL FUND       113
  DON has two permanent, indefinite appropriations.

  National Defense Sealift Fund:
  The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which
  provides for the construction (including design of vessels), purchase, alteration, and conversion of Department
  of Defense (DOD) sealift vessels; operation, maintenance, and lease or charter of DOD vessels for national
  defense purposes; installation and maintenance of defense features for national defense purposes on privately
  owned and operated vessels that are constructed in the United States and documented under the laws of the
  United States; research and development relating to national defense sealift; and expenses for maintaining the
  National Defense Reserve Fleet (NDRF) including the acquisition, alteration or conversion of vessels built in
  U.S. shipyards for the NDRF. In FY 2004, $5,000 thousand was transferred from the NDSF to the Military
  Personnel, Marine Corps appropriation.

  Environmental Restoration, Navy:
  Environmental Restoration, Navy (ER, N) is a transfer account that funds environmental restoration, reduction
  and recycling of hazardous waste, removal of unsafe buildings and debris, and similar purposes. Funds are to
  remain available until transferred, and remain available for the same purpose and same time period as the
  appropriations to which transferred. In FY 2004, $254,929 thousand was transferred from ER, N to the
  Operations and Maintenance, Navy appropriation.



  NOTE 22. DISCLOSURES RELATED                   TO THE     STATEMENT        OF   FINANCING

  Fluctuation and/or Abnormalities
  Budgetary data is not in agreement with proprietary expenses and assets capitalized. This fact causes a
  difference in net cost between the Statement of Net Cost and the Statement of Financing. Adjustments are
  posted to the Statement of Financing for these differences.

  Other Disclosures
  The increase of resources that finance the acquisition of assets is primarily due to the implementation of
  SFFAS No. 23 “Eliminating the Category of National Defense Property, Plant, and Equipment.”
  Correspondingly, there is also an increase in the reported depreciation for the military equipment.

  The Statement of Financing is presented as combined or combining statements rather than consolidated
  statements due to intragovernmental transactions not being eliminated. Adjustments in funds which are
  temporarily not available pursuant to Public Law, and those that are permanently not available (included in the
  “Adjustments” line on the Statement of Budgetary Resources), are not included in “Spending Authority From
  Offsetting Collections and Adjustments” line on the Statement of Budgetary Resources or on the Statement of
  Financing.

  The Statement of Financing was expanded to further articulate and detail the relationship between new
  obligations from budgetary accounting and net cost of operations from proprietary accounting.



  NOTE 23. DISCLOSURES RELATED                   TO THE     STATEMENT        OF   CUSTODIAL ACTIVITY
  Not Applicable




114
NOTE 24.A. OTHER DISCLOSURES

1. Entity as Lessee - Operating Leases


As of September 30,                                 2004                                 2003
(Amounts in thousands)

  Future Payments            Land and
  Due:                       Buildings     Equipment       Other         Total           Total
   Fiscal Year
   2005                      $     59,965 $          0 $           0 $     59,965    $     15,596
   2006                            64,693            0             0       64,693          15,474
   2007                            66,276            0             0       66,276          17,469
   2008                            66,569            0             0       66,569          17,559
   2009                            66,861            0             0       66,861          17,571
   After 5 Years                        0            0             0            0               0
   Total Future Lease
   Payments Due              $   324,364 $           0 $           0 $    324,364    $     83,669


Fluctuations and/of Abnormalities
The DON reported an increase of $240,695 thousand, 288 percent, in Operating Leases Future Payment in
FY 2004 when compared to FY 2003. The increase is due to better data collection efforts throughout the Navy
shore establishment.

Definitions
Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or
equipment) from a lessor in exchange for a payment of funds.

Operating Lease - A lease which does not transfer substantially all the benefits and risk of ownership.
Payments should be charged to expense over the lease term as it becomes payable.

Other Disclosure
The value for lease information is derived from the DON data collection process. This process only provides
summary levels values at this time.



NOTE 24.B. OTHER DISCLOSURES
Not Applicable.




                                                                                                 GENERAL FUND   115
116
                                                        CONSOLIDATING/COMBINING STATEMENTS
                                                            GENERAL FUND SUPPORTING
               DEPARTMENT OF THE NAVY

GENERAL FUND SUPPORTING CONSOLIDATING/COMBINING
                 STATEMENTS




                                         GENERAL FUND   117
  Department of Defense
  Department of the Navy
  CONSOLIDATING BALANCE SHEET
  As of September 30, 2004 and 2003
  ($ in thousands)
                                                                                            Marine
                                                                            Navy
                                                                                            Corps
      ASSETS (Note 2)
          Intragovernmental:
             Fund Balance with Treasury (Note 3)
             Entity                                                   $    75,047,363   $    6,827,455
             Non-Entity Seized Iraqi Cash                                           0                0
             Non-Entity-Other                                                 219,095                0
             Investments (Note 4)                                               9,457                0
             Accounts Receivable (Note 5)                                     211,008           59,418
             Other Assets (Note 6)                                            269,589            3,134
             Total Intragovernmental Assets                           $    75,756,512   $    6,890,007

          Cash and Other Monetary Assets (Note 7)                     $       126,338   $      108,527
          Accounts Receivable (Note 5)                                      2,885,043           10,923
          Loans Receivable (Note 8)                                                 0                0
          Inventory and Related Property (Note 9)                          52,862,678          477,989
          General Property, Plant and Equipment (Note 10)                 148,266,586        3,412,917
          Investments (Note 4)                                                      0                0
          Other Assets (Note 6)                                             4,824,249          176,099
      TOTAL ASSETS                                                    $   284,721,406   $   11,076,462


      LIABILITIES (Note 11)
           Intragovernmental:
              Accounts Payable (Note 12)                              $     1,303,589   $     153,750
              Debt (Note 13)                                                        0               0
              Environmental Liabilities (Note 14)                                   0               0
              Other Liabilities (Note 15 & Note 16)                         3,784,884         199,918
              Total Intragovernmental Liabilities                     $     5,088,473   $     353,668


          Accounts Payable (Note 12)                                  $     1,016,008   $     379,000
          Military Retirement Benefits and Other Employment-Related
            Actuarial Liabilities (Note 17)                                 1,359,036          216,779
          Environmental Liabilities (Note 14)                              16,031,979                0
          Loan Guarantee Liability (Note 8)                                         0                0
          Other Liabilities (Note 15 and Note 16)                           3,488,967          531,859
          Debt Held by Public                                                       0                0
      TOTAL LIABILITIES                                               $    26,984,463   $    1,481,306

      NET POSITION
         Unexpended Appropriations (Note 18)                          $    72,627,291   $    6,534,483
         Cumulative Results of Operations                                 185,109,652        3,060,673
      TOTAL NET POSITION                                              $   257,736,943   $    9,595,156

      TOTAL LIABILITIES AND NET POSITION                              $   284,721,406   $   11,076,462




118
Department of Defense
Department of the Navy
CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003
($ in thousands)

                                                                                                              2003
                                                      Combined                            2004             Consolidated
 ASSETS (Note 2)                                        Total       Eliminations       Consolidated          Restated
     Intragovernmental:
        Fund Balance with Treasury (Note 3)
        Entity                                    $    81,874,818   $          0   $     81,874,818    $    78,191,653
        Non-Entity Seized Iraqi Cash                            0              0                  0                  0
        Non-Entity-Other                                  219,095              0            219,095            223,225
        Investments (Note 4)                                9,457              0              9,457              9,801
        Accounts Receivable (Note 5)                      270,426         19,723            250,703            496,863
        Other Assets (Note 6)                             272,723              0            272,723            187,865
        Total Intragovernmental Assets            $    82,646,519   $     19,723   $     82,626,796    $    79,109,407


      Cash and Other Monetary Assets (Note 7)     $       234,865   $          0   $        234,865    $       282,995
      Accounts Receivable (Note 5)                      2,895,966              0          2,895,966          3,382,133
      Loans Receivable (Note 8)                                 0              0                  0                  0
      Inventory and Related Property (Note 9)          53,340,667              0         53,340,667         53,611,634
      General Property, Plant and Equipment
        (Note 10)                                     151,679,503              0     151,679,503         158,407,450
      Investments (Note 4)                                      0              0               0                   0
                                                        5,000,348              0       5,000,348           6,180,624
 TOTAL ASSETS                                     $   295,797,868   $     19,723   $ 295,778,145       $ 300,974,243

 LIABILITIES (Note 11)
      Intragovernmental:
         Accounts Payable (Note 12)               $     1,457,339   $     19,723   $       1,437,616   $     1,035,033
         Debt (Note 13)                                         0              0                   0                 0
         Environmental Liabilities (Note 14)                    0              0                   0                 0
         Other Liabilities (Note 15 & Note 16)          3,984,802              0           3,984,802         3,859,913
         Total Intragovernmental Liabilities      $     5,442,141   $     19,723   $       5,422,418   $     4,894,946

      Accounts Payable (Note 12)                  $     1,395,008   $          0   $       1,395,008   $     1,742,522
      Military Retirement Benefits and Other
       Employment-Related Actuarial Liabilities         1,575,815              0           1,575,815         1,589,971
      (Note 17)
     Environmental Liabilities (Note 14)               16,031,979              0         16,031,979         15,614,424
     Loan Guarantee Liability (Note 8)                          0              0                  0                  0
     Other Liabilities (Note 15 and Note 16)            4,020,826              0          4,020,826          3,785,962
     Debt Held by Public                                        0              0                  0                  0
 TOTAL LIABILITIES                                $    28,465,769   $     19,723   $     28,446,046    $    27,627,825

 NET POSITION
    Unexpended Appropriations (Note 18)           $    79,161,774   $          0   $  79,161,774       $  76,694,928
    Cumulative Results of Operations                  188,170,325              0     188,170,325         196,651,490
 TOTAL NET POSITION                               $   267,332,099   $          0   $ 267,332,099       $ 273,346,418

 TOTAL LIABILITIES AND NET POSITION               $   295,797,868   $     19,723   $ 295,778,145       $ 300,974,243


                                                                                                 GENERAL FUND        119
  Department of Defense
  Department of the Navy
  CONSOLIDATING STATEMENT OF NET COST
  For the years ended September 30, 2004 and 2003
  ($ in thousands)


                                                         Navy             Marine Corps

      Program Costs
      Military Personnel
          Intragovernmental Gross Costs             $    5,157,236    $      2,241,253
          (Less Intragovernmental Earned Revenue)         (397,452)            (20,074)
          Intragovernmental Net Costs               $    4,759,784    $      2,221,179

         Gross Costs With the Public                $   20,934,864    $     8,069,582
         (Less: Earned Revenue From the Public)                  0                  0
         Net Costs With the Public                  $   20,934,864    $     8,069,582
        Net Program Cost                            $   25,694,648    $    10,290,761

      Operations and Maintenance
         Intragovernmental Gross Costs              $    1,581,078    $        281,615
         (Less Intragovernmental Earned Revenue)        (4,774,111)           (392,144)
         Intragovernmental Net Costs                $   (3,193,033)   $       (110,529)

         Gross Costs With the Public                $   38,784,464    $      5,345,293
         (Less: Earned Revenue From the Public)            (47,276)                  0
         Net Costs With the Public                  $   38,737,188    $      5,345,293
        Net Program Cost                            $   35,544,155    $      5,234,764

      Procurement
         Intragovernmental Gross Costs              $            0    $            550
         (Less Intragovernmental Earned Revenue)          (765,188)             (2,035)
         Intragovernmental Net Costs                $     (765,188)   $         (1,485)

         Gross Costs With the Public                $   30,116,666    $      2,983,589
         (Less: Earned Revenue From the Public)                  0            (248,999)
         Net Costs With the Public                  $   30,116,666    $      2,734,590
        Net Program Cost                            $   29,351,478    $      2,733,105

      Research, Development, Test & Evaluation
         Intragovernmental Gross Costs              $            0    $              0
         (Less Intragovernmental Earned Revenue)          (307,534)                  0
         Intragovernmental Net Costs                $     (307,534)   $              0

         Gross Costs With the Public                $   14,466,658    $              0
         (Less: Earned Revenue From the Public)                  0                   0
         Net Costs With the Public                  $   14,466,658    $              0
        Net Program Cost                            $   14,159,124    $              0




120
Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                    Combined                                     2004                  2003
                                                                       Eliminations
                                                      Total                                   Consolidated          Consolidated
  Program Costs
  Military Personnel
      Intragovernmental Gross Costs             $     7,398,489    $                  0   $       7,398,489     $      12,135,559
      (Less Intragovernmental Earned Revenue)          (417,526)                      0            (417,526)              (69,149)
      Intragovernmental Net Costs               $     6,980,963    $                  0   $       6,980,963     $      12,066,410

     Gross Costs With the Public                $    29,004,446    $                  0   $      29,004,446     $      24,509,847
     (Less: Earned Revenue From the Public)                   0                       0                   0              (281,482)
     Net Costs With the Public                  $    29,004,446    $                  0   $      29,004,446     $      24,228,365
    Net Program Cost                            $    35,985,409    $                  0   $      35,985,409     $      36,294,775

  Operations and Maintenance
     Intragovernmental Gross Costs              $     1,862,693    $                  0   $        1,862,693    $      16,783,901
     (Less Intragovernmental Earned Revenue)         (5,166,255)                      0           (5,166,255)          (2,605,019)
     Intragovernmental Net Costs                $    (3,303,562)   $                  0   $       (3,303,562)   $      14,178,882

     Gross Costs With the Public                $    44,129,757    $                  0   $      44,129,757     $      28,690,542
     (Less: Earned Revenue From the Public)             (47,276)                      0             (47,276)           (1,036,745)
     Net Costs With the Public                  $    44,082,481    $                  0   $      44,082,481     $      27,653,797
    Net Program Cost                            $    40,778,919    $                  0   $      40,778,919     $      41,832,679

  Procurement
     Intragovernmental Gross Costs              $           550    $                  0   $             550     $        3,966,807
     (Less Intragovernmental Earned Revenue)           (767,223)                      0            (767,223)              (886,640)
     Intragovernmental Net Costs                $      (766,673)   $                  0   $        (766,673)    $        3,080,167

     Gross Costs With the Public                $    33,100,255    $                  0   $      33,100,255     $      14,507,061
     (Less: Earned Revenue From the Public)            (248,999)                      0            (248,999)             (310,683)
     Net Costs With the Public                  $    32,851,256    $                  0   $      32,851,256     $      14,196,378
    Net Program Cost                            $    32,084,583    $                  0   $      32,084,583     $      17,276,545

  Research, Development, Test & Evaluation
     Intragovernmental Gross Costs              $             0    $                  0   $               0     $          993,892
     (Less Intragovernmental Earned Revenue)           (307,534)                      0            (307,534)              (237,506)
     Intragovernmental Net Costs                $      (307,534)   $                  0   $        (307,534)    $          756,386

     Gross Costs With the Public                $    14,466,658    $                  0   $      14,466,658     $      11,418,578
     (Less: Earned Revenue From the Public)                   0                       0                   0                (4,122)
     Net Costs With the Public                  $    14,466,658    $                  0   $      14,466,658     $      11,414,456
    Net Program Cost                            $    14,159,124    $                  0   $      14,159,124     $      12,170,842




                                                                                                     GENERAL FUND       121
      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING STATEMENT OF NET COST
      For the years ended September 30, 2004 and 2003
      ($ in thousands)

                                                                    Navy             Marine Corps


        Program Costs
        Military Construction/Family Housing
            Intragovernmental Gross Costs                     $             0    $                  0
            (Less Intragovernmental Earned Revenue)                  (741,184)                      0
            Intragovernmental Net Costs                       $      (741,184)   $                  0

           Gross Costs With the Public                        $     8,910,371    $                  0
           (Less: Earned Revenue From the Public)                     (35,329)                      0
           Net Costs With the Public                          $     8,875,042    $                  0
          Net Program Cost                                    $     8,133,858    $                  0

        Other
           Intragovernmental Gross Costs                      $    27,763,610    $        2,364,592
           (Less Intragovernmental Earned Revenue)                  3,714,298               194,350
           Intragovernmental Net Costs                        $    31,477,908    $        2,558,942

           Gross Costs With the Public                        $   (30,308,974)   $       (2,456,262)
           (Less: Earned Revenue From the Public)                  (2,863,533)             (107,571)
           Net Costs With the Public                          $   (33,172,507)   $       (2,563,833)
          Net Program Cost                                    $    (1,694,599)   $           (4,891)

        Total Program Costs
           Intragovernmental Gross Costs                      $    34,501,924    $        4,888,010
           (Less Intragovernmental Earned Revenue)                 (3,271,171)             (219,903)
           Intragovernmental Net Costs                        $    31,230,753    $        4,668,107

           Gross Costs With the Public                        $    82,904,049    $       13,942,202
           (Less: Earned Revenue From the Public)                  (2,946,138)             (356,570)
           Net Costs With the Public                          $    79,957,911    $       13,585,632
          Net Program Cost                                    $   111,188,664    $       18,253,739
        Costs Not Assigned to Programs                                      0                     0
        (Less: Earned Revenue Not Attributable to Programs)                 0                     0
        Net Cost of Operations                                $   111,188,664    $       18,253,739




122
Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                            Combined                                     2004                  2003
                                                                               Eliminations           Consolidated          Consolidated
                                                              Total
  Program Costs
  Military Construction/Family Housing
      Intragovernmental Gross Costs                     $             0    $                  0   $               0     $       204,387
      (Less Intragovernmental Earned Revenue)                  (741,184)                      0            (741,184)           (124,381)
      Intragovernmental Net Costs                       $      (741,184)   $                  0   $        (741,184)    $        80,006

     Gross Costs With the Public                        $     8,910,371    $                  0   $       8,910,371     $     1,370,505
     (Less: Earned Revenue From the Public)                     (35,329)                      0             (35,329)           (369,889)
     Net Costs With the Public                          $     8,875,042    $                  0   $       8,875,042     $     1,000,616
    Net Program Cost                                    $     8,133,858    $                  0   $       8,133,858     $     1,080,622

  Other
     Intragovernmental Gross Costs                      $    30,128,202    $         218,214      $      29,909,988     $     1,058,028
     (Less Intragovernmental Earned Revenue)                  3,908,648             (218,214)             4,126,862             735,727
     Intragovernmental Net Costs                        $    34,036,850    $               0      $      34,036,850     $     1,793,755

     Gross Costs With the Public                        $   (32,765,236)   $                  0   $      (32,765,236)   $       672,250
     (Less: Earned Revenue From the Public)                  (2,971,104)                      0           (2,971,104)            83,225
     Net Costs With the Public                          $   (35,736,340)   $                  0   $      (35,736,340)   $       755,475
    Net Program Cost                                    $    (1,699,490)   $                  0   $       (1,699,490)   $     2,549,230

  Total Program Costs
     Intragovernmental Gross Costs                      $    39,389,934    $         218,214      $      39,171,720     $    35,142,574
     (Less Intragovernmental Earned Revenue)                 (3,491,074)            (218,214)            (3,272,860)         (3,186,968)
     Intragovernmental Net Costs                        $    35,898,860    $               0      $      35,898,860     $    31,955,606

     Gross Costs With the Public                        $    96,846,251    $                  0   $      96,846,251     $  81,168,783
     (Less: Earned Revenue From the Public)                  (3,302,708)                      0          (3,302,708)       (1,919,696)
     Net Costs With the Public                          $    93,543,543    $                  0   $      93,543,543     $ 79,249,087
    Net Program Cost                                    $   129,442,403    $                  0   $     129,442,403     $ 111,204,693
  Costs Not Assigned to Programs                                      0                       0                   0                 0
  (Less: Earned Revenue Not Attributable to Programs)                 0                       0                   0                 0
  Net Cost of Operations                                $   129,442,403    $                  0   $     129,442,403     $ 111,204,693




                                                                                                          GENERAL FUND          123
       Department of Defense
       Department of the Navy
      CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
       For the years ended September 30, 2004 and 2003
       ($ in thousands)

                                                                                            Marine
                                                                         Navy
                                                                                            Corps
       Cumulative Results of Operations
        Beginning Balances                                        $   217,746,444     $    4,818,795
         Prior period adjustments (+/-)
         Prior Period Adjustments- Restated (+/-)                     (25,913,750)                 0
         Beginning Balance- Restated                              $   191,832,694     $    4,818,795
         Prior Period Adjustments- Not Restated (+/-)                           0                  0
         Beginning Balances, as adjusted                          $   191,832,694     $    4,818,795
        Budgetary Financing Sources:
         Appropriations Received                                  $             0     $            0
         Appropriations transferred in/out (+/-)                                0                  0
         Other adjustments (rescissions, etc) (+/-)                             0                  0
         Appropriations used                                          103,759,488         16,438,659
         Nonexchange revenue                                                    0                  0
         Donations and forfeitures of cash and cash equivalents                 0                  0
         Transfers in/out without reimbursement (+/-)                     166,000                  0
         Other budgetary financing sources (+/-)                                0                  0
        Other Financing Sources:
         Donations and forfeitures of property                                  0                  0
         Transfers in/out without reimbursement (+/-)                      16,775             (4,892)
         Imputed financing from costs absorbed by others                  523,359             61,850
         Other (+/-)                                                            0                  0
        Total Financing Sources                                   $   104,465,622     $   16,495,617
         Net Cost of Operations (+/-)                             $   111,188,664     $   18,253,739
         Ending Balances                                          $   185,109,652     $    3,060,673

       Unexpended Appropriations
        Beginning Balances                                        $    46,963,736     $    3,817,443
         Prior period adjustments (+/-)
         Prior Period Adjustments- Restated (+/-)                      25,913,750                  0
         Beginning Balance- Restated                              $    72,877,486     $    3,817,443
         Prior Period Adjustments- Not Restated (+/-)                           0                  0
         Beginning Balances, as adjusted                          $    72,877,486     $    3,817,443
        Budgetary Financing Sources:
         Appropriations Received                                  $    105,443,972    $    18,474,011
         Appropriations transferred in/out (+/-)                          (327,024)           782,083
         Other adjustments (rescissions, etc) (+/-)                     (1,607,655)          (100,395)
         Appropriations used                                          (103,759,488)       (16,438,659)
         Nonexchange revenue                                                     0                  0
         Donations and forfeitures of cash and cash equivalents                  0                  0
         Transfers in/out without reimbursement (+/-)                            0                  0
         Other budgetary financing sources (+/-)                                 0                  0
        Other Financing Sources:
         Donations and forfeitures of property                                  0                  0
         Transfers in/out without reimbursement (+/-)                           0                  0
         Imputed financing from costs absorbed by others                        0                  0
         Other (+/-)                                                            0                  0
        Total Financing Sources                                   $      (250,195)    $    2,717,040
         Net Cost of Operations (+/-)                             $             0     $            0
         Ending Balances                                          $    72,627,291     $    6,534,483


124
Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                                                     2003
                                                               Combined                        2004               Consolidated
                                                                             Eliminations
                                                                 Total                      Consolidated           Restated
Cumulative Results of Operations
 Beginning Balances                                        $ 222,565,239     $          0   $   222,565,239   $     44,169,672
  Prior period adjustments (+/-)
  Prior Period Adjustments- Restated (+/-)                 $ (25,913,750)    $          0   $   (25,913,750) $            0
  Beginning Balance- Restated                                196,651,489                0       196,651,489     44,169,672
  Prior Period Adjustments- Not Restated (+/-)                         0                0                 0    152,557,286
  Beginning Balances, as adjusted                          $ 196,651,489     $          0   $   196,651,489 $ 196,726,958
 Budgetary Financing Sources:
  Appropriations Received                                  $             0   $          0   $             0   $              0
  Appropriations transferred in/out (+/-)                                0              0                 0                  0
  Other adjustments (rescissions, etc) (+/-)                             0              0                 0                  0
  Appropriations used                                          120,198,147              0       120,198,147        110,567,740
  Nonexchange revenue                                                    0              0                 0                  0
  Donations and forfeitures of cash and cash equivalents                 0              0                 0                  0
  Transfers in/out without reimbursement (+/-)                     166,000              0           166,000                  0
  Other budgetary financing sources (+/-)                                0              0                 0                  0
 Other Financing Sources:
  Donations and forfeitures of property                                0                0                 0               0
  Transfers in/out without reimbursement (+/-)                    11,883                0            11,883          51,765
  Imputed financing from costs absorbed by others                585,209                0           585,209         509,719
  Other (+/-)                                                          0                0                 0               0
 Total Financing Sources                                   $ 120,961,239     $          0   $   120,961,239   $ 111,129,224
  Net Cost of Operations (+/-)                             $ 129,442,403     $          0   $   129,442,403   $ 111,204,693
  Ending Balances                                          $ 188,170,325     $          0   $   188,170,325   $ 196,651,489

Unexpended Appropriations
 Beginning Balances                                        $    50,781,179   $          0   $    50,781,179   $     64,774,328
  Prior period adjustments (+/-)
  Prior Period Adjustments- Restated (+/-)                      25,913,750              0        25,913,750                   0
  Beginning Balance- Restated                              $    76,694,929   $          0   $    76,694,929   $               0
  Prior Period Adjustments- Not Restated (+/-)                           0              0                 0                   0
  Beginning Balances, as adjusted                          $    76,694,929   $          0   $    76,694,929   $     64,774,328
 Budgetary Financing Sources:
  Appropriations Received                                  $ 123,917,983     $          0   $    123,917,983 $ 122,132,688
  Appropriations transferred in/out (+/-)                         455,059               0            455,059      1,810,288
  Other adjustments (rescissions, etc) (+/-)                   (1,708,050)              0         (1,708,050)    (1,454,635)
  Appropriations used                                        (120,198,147)              0       (120,198,147)  (110,567,740)
  Nonexchange revenue                                                   0               0                  0              0
  Donations and forfeitures of cash and cash equivalents                0               0                  0              0
  Transfers in/out without reimbursement (+/-)                          0               0                  0              0
  Other budgetary financing sources (+/-)                               0               0                  0              0
 Other Financing Sources:
  Donations and forfeitures of property                                  0              0                 0                  0
  Transfers in/out without reimbursement (+/-)                           0              0                 0                  0
  Imputed financing from costs absorbed by others                        0              0                 0                  0
  Other (+/-)                                                            0              0                 0                  0
 Total Financing Sources                                   $     2,466,845   $          0   $     2,466,845   $     11,920,601
  Net Cost of Operations (+/-)                             $             0   $          0   $             0   $              0
  Ending Balances                                          $    79,161,774   $          0   $    79,161,774   $     76,694,929

                                                                                                   GENERAL FUND        125
Department of Defense
Department of the Navy
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

BUDGETARY FINANCING ACCOUNTS
                                                                                                2004            2003
                                                          Navy              Marine Corps      Combined        Combined
BUDGETARY RESOURCES
  Budget Authority:
     Appropriations Received                           $ 105,474,466    $      18,474,011    $ 123,948,477 $ 122,169,428
     Borrowing Authority                                           0                    0                0             0
     Contract Authority                                            0                    0                0           739
     Net transfers (+/-)                                    (252,259)             677,368         425,109      1,662,142
     Other                                                         0                    0                0             0
  Unobligated Balance:
     Beginning of period                                  14,108,219             587,019        14,695,238    11,908,983
     Net transfers, actual (+/-)                              91,235             104,715           195,950       145,546
     Anticipated Transfers Balances                                0                   0                 0             0
  Spending Authority from Offsetting Collections:
     Earned
      Collected                                            7,327,335             379,315         7,706,650      6,792,556
      Receivable from Federal sources                       (395,222)             34,938          (360,284)    (1,211,532)
     Change in unfilled customer orders
      Advances received                                       56,010                    0           56,010       (59,842)
      Without advance from Federal sources                   457,066               10,440          467,506       308,282
     Anticipated for the rest of year, without advances            0                    0                0             0
     Transfers from trust funds                                    0                    0                0             0
     Subtotal                                          $   7,445,189    $         424,693    $   7,869,882 $   5,829,464
  Recoveries of prior year obligations                 $   6,708,443    $       7,048,538    $ 13,756,981 $    7,009,339
  Temporarily not available pursuant to Public Law                 0                    0                0             0
  Permanently not available                               (1,608,394)            (100,395)      (1,708,789)   (1,452,574)
  Total Budgetary Resources                            $ 131,966,899    $      27,215,949    $ 159,182,848 $ 147,273,067




126
Department of Defense
Department of the Navy
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

BUDGETARY FINANCING ACCOUNTS
                                                                                                 2004                2003
                                                           Navy             Marine Corps       Combined            Combined
STATUS OF BUDGETARY RESOURCES
  Obligations Incurred:
      Direct                                         $   108,067,166    $    24,201,356    $    132,268,522    $   124,497,950
      Reimbursable                                         8,332,062            554,268           8,886,330          8,079,881
      Subtotal                                       $   116,399,228    $    24,755,624    $    141,154,852    $   132,577,831
  Unobligated balance:
      Apportioned                                    $    13,683,673    $       289,435    $     13,973,108    $    13,697,001
      Exempt from apportionment                                    0                  0                   0                  0
      Other available                                              0                  0                   0                  0
  Unobligated Balances Not Available                       1,883,998          2,170,890           4,054,888            998,235
  Total, Status of Budgetary Resources               $   131,966,899    $    27,215,949    $    159,182,848    $   147,273,067

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
  Obligated Balance, Net-beginning of period         $    59,338,256    $     4,182,638    $     63,520,894    $    56,100,186
  Obligated Balance transferred, net (+/-)                         0                  0                   0                  0
  Obligated Balance, net-end of period:
      Accounts Receivable                                   (440,504)           (97,056)           (537,560)          (897,842)
      Unfilled customer order from Federal sources        (2,672,247)          (130,735)         (2,802,982)        (2,335,476)
      Undelivered Orders                                  59,698,095          4,025,660          63,723,755         63,419,000
      Accounts Payable                                     2,903,749            569,261           3,473,010          3,335,212
  Outlays:
     Disbursements                                       109,478,103         17,477,216         126,955,319        119,051,033
     Collections                                          (7,383,345)          (379,315)         (7,762,660)        (6,732,714)
     Subtotal                                        $   102,094,758    $    17,097,901    $    119,192,659    $   112,318,319
  Less: Offsetting receipts                          $      (115,027)   $            0     $       (115,027)   $      (246,802)
  Net Outlays                                        $   101,979,731    $    17,097,901    $    119,077,632    $   112,071,517




                                                                                                        GENERAL FUND        127
Department of Defense
Department of the Navy
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                                                          2004               2003
                                                                                   Navy             Marine Corps
                                                                                                                        Combined           Combined

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                      $ 116,399,228    $     24,755,624    $ 141,154,852      $ 132,577,831
     Less: Spending Authority from offsetting collections and recoveries (-)     (14,153,633)         (7,473,232)     (21,626,865)       (12,838,803)
     Obligations net of offsetting collections and recoveries                  $ 102,245,595    $     17,282,392    $ 119,527,987      $ 119,739,028
     Less: Offsetting receipts (-)                                                  (115,027)                 0          (115,027)          (246,802)
     Net obligations                                                           $ 102,130,568    $     17,282,392    $ 119,412,960      $ 119,492,226
  Other Resources
     Donations and forfeitures of property                                                 0                   0                0                  0
     Transfers in/out without reimbursement (+/-)                                     16,775              (4,892)          11,883             51,765
     Imputed financing from costs absorbed by others                                523,359               61,850         585,209            509,719
     Other (+/-)                                                                           0                   0                0                  0
     Net other resources used to finance activities                            $    540,134     $         56,958    $    597,092       $    561,484
     Total resources used to finance activities                                $ 102,670,702    $     17,339,350    $ 120,010,052      $ 120,053,710

  Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services
     and benefits ordered but not yet provided
       Undelivered Orders (-)                                                 $ 2,650,383       $       (854,173)   $     1,796,210    $     (3,213,420)
       Unfilled Customer Orders                                                     513,076               10,440            523,516             248,440
    Resources that fund expenses recognized in prior periods                       (104,796)             (10,326)          (115,122)            (31,284)
    Budgetary offsetting collections and receipts that do not affect
      Net Cost of Operations                                                              0                   0                  0                   0
    Resources that finance the acquisition of assets                            (12,412,218)                  0         (12,412,218)        (26,444,222)
    Other resources or adjustments to net obligated resources that
      do not affect Net Cost of Operations
       Less: Trust or Special Fund receipts related to exchange in the entity's
       budget (-)                                                                         0                   0                   0                   0
       Other (+/-)                                                                  (16,775)              4,892             (11,883)                  0
    Total resources used to finance items not part of the Net
      Cost of Operations                                                      $ (9,370,330)     $       (849,167)   $ (10,219,497)     $    (29,440,486)
    Total resources used to finance the Net Cost of Operations                $ 93,300,372      $     16,490,183    $ 109,790,555      $     90,613,224




       128
Department of Defense
Department of the Navy
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                           Marine           2004              2003
                                                                           Navy            Corps          Combined          Combined
  Components of the Net Cost of Operations that will not Require
   or Generate Resources in the Current Period:
  Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                              $     188,260     $         0    $     188,260     $           0
     Increase in environmental and disposal liability                      427,489               0          427,489                 0
     Upward/Downward reestimates of credit subsidy expense (+/-)                 0               0                0                 0
     Increase in exchange revenue receivable from the public (-)                 0               0                0                 0
     Other (+/-)                                                            10,245         182,998          193,243           428,344
     Total components of Net Cost of Operations that will require or
       generate resources in future periods                          $     625,994     $   182,998    $     808,992     $     428,344

  Components not Requiring or Generating Resources:
    Depreciation and amortization                                      $ 15,721,991    $ 1,753,871    $ 17,475,862      $ 16,936,476
    Revaluation of assets and liabilities (+/-)                           1,367,930       (253,890)      1,114,040         3,203,729
    Other (+/-)
      Trust Fund Exchange Revenue                                          (30,297)              0           (30,297)               0
      Cost of Goods Sold                                                         0               0                 0                0
      Operating Materials and Supplies Used                                234,481          36,486           270,967                0
      Other                                                                (31,808)         44,092            12,284           22,920
    Total components of Net Cost of Operations that will not require
     or generate resources                                             $ 17,262,297    $ 1,580,559    $ 18,842,856      $ 20,163,125
    Total components of Net Cost of Operations that will not
     require or generate resources in the current period               $ 17,888,291    $ 1,763,557    $ 19,651,848      $ 20,591,469
    Net Cost of Operations                                             $ 111,188,663   $ 18,253,740   $ 129,442,403     $ 111,204,693




                                                                                                          GENERAL FUND       129
130
                                                         SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                GENERAL FUND REQUIRED
                DEPARTMENT OF THE NAVY

GENERAL FUND REQUIRED SUPPLEMENTARY STEWARDSHIP
                  INFORMATION




                                         GENERAL FUND   131
  MILITARY EQUIPMENT
  Narrative Statement
  The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial
  Accounting Standards No. 6 to require the capitalization and depreciation of military equipment (formerly
  National Defense Property, Plant and Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond, and
  encouraged early implementation. Therefore, RSSI reporting of military equipment has been terminated.

  HERITAGE ASSETS
  For Fiscal Year Ended September 30, 2004

                (a)                                  (b)           (c)         (d)         (e)         (f)
                                                Measurement      As of                                As of
                                                  Quantity      10/01/03    Additions   Deletions    9/30/04
  Museums                                           Each              27       0            0           27
  Monuments & Memorials                             Each             511      37           26          522
  Cemeteries                                        Sites             58       1            0           59
  Archeological Sites                               Sites         23,262       0            0       23,262
  Buildings and Structures                          Each           9,092       0            0        9,092
  Major Collections (See Supplemental               Each
   Reporting)

  Narrative Statement
  The Department of the Navy (DON) is required to report Heritage Assets in accordance with the following
  public laws:
   • 10 USC 2721
   • USC 483(b)
   • Antiquities Act of 1906
   • Historic Sites Act of 1935
   • USC 470 National Historic Preservation Act of 1966
   • National Environmental Policy Act of 1969
   • American Indian Religious Freedom Act of 1978
   • Archeological Resources Protection Act of 1979
   • Native American Graves Protection & Repatriation Act of 1990
   • Presidential Memorandum for Heads of Executive Departments and Agencies: Government to
      Government Relations with Native American Tribal Governments Act of 1994
   • 36 CFR 79 - Curation of Federally Owned and Administered Archeological Collections

  In general, the DON defines Heritage Assets as items that are unique for one or more of the following reasons:
  historical or natural significance; cultural, educational or artistic importance, or significant architectural
  characteristics.

  Explanation for adjustments, additions, and deletions.
  In FY 2004 adjustments to museums, cemeteries and monuments were made to reflect assets acquired in
  prior years that were not previously reported.

  Accurate inventory data for archaeological artifacts, archaeological sites, and buildings and structures are
  pending full implementation of tracking systems, notably iNFADS and DONHAMS, and related use of historic
  property data elements for buildings and structures.

132
Process used to define assets as Heritage Assets. The processes used to define items as having heritage
significance varies between categories and type of assets being evaluated. Subject matter experts, including
historians and curators, play a significant role in the definition process in addition to other criteria such as
listing on the National Register of Historic Places. In all cases, a myriad of federal statutes, service
regulations, and other guidelines mandate heritage significance or provide guidance in its determination.

Multi-Use Heritage Assets. Per DoD FMR Volume 6B, Multi-Use Heritage Assets are reported both as
Heritage Assets on the RSSI and on the Balance Sheet.

Information Pertaining to the Condition of DON Heritage Assets. The methodology used to report the condition
of the heritage assets was a combination of visual assessment of the objects, historic value to the DON
collection, and general display and storage standards for historic collections. The overall condition of the
collection objects is good.

Museums
Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition, and
educational interpretation of objects having scientific, historical, or artistic value.

Monuments and Memorials
Monuments and Memorials have significant monetary and/or historical value to the DON.

Cemeteries
Cemeteries are government owned burial grounds of which gravesites of prominent historical figures are
located.

Archeological Sites
Archeological Sites are lands on which items of significance are located.

Buildings and Structures
Buildings and Structures are listed on or determined eligible for listing on the National Register of Historic
Places, including Multi-use Heritage Assets. Criteria for evaluating National Register eligibility of these sites
may be referenced at 36 CFR 60.4.

Supplemental Reporting. In addition to the data presented in the table above, the following supplemental
information was reported as of 9/30/04:


                                   Measurement
               Category              Quantity      As of 10/01/03   Additions    Deletions     As of 9/30/04
         Archeological Artifacts    Cubic Feet            13,749             0            0            13,749
                Archival            Linear Feet           96,222           751        2,757            94,216
                Artwork                Item               37,380           567            0            37,947
          Historical Artifacts         Item            1,114,407        10,712            2         1,125,117




                                                                                                GENERAL FUND        133
  Archival
  The FY 2003 ending balance was adjusted downward by 30,404 resulting in an FY 2004 beginning balance of
  96,222. This adjustment reflects the correction of an error in the prior reporting period.


  STEWARDSHIP LAND
      For Fiscal Year Ended September 30, 2004
      (Acres in Thousands)

          (a)                            (b)          (c)          (d)         (e)
                                       As of                                  As of
       Land Use                       10/01/03     Additions    Deletions    9/30/04

       1. Mission                          2,021            5            0     2,026
       2. Parks & Historic Sites               0            0            0         0

         Totals                            2,021            5            0     2,026


  Narrative Statement
  The DON followed the definition of Stewardship Land per DoD Guidance to include Public Domain, Land Set
  Aside, and Donated Land. The iNFADS was used to derive acres for Stewardship Land. Within the definition
  of Stewardship Land, land can be further defined as improved, semi-improved and other categories of land.



  NON-FEDERAL PHYSICAL PROPERTY
  The Department of the Navy does not fund this type of Activity.


  INVESTMENTS           IN   RESEARCH      AND     DEVELOPMENT
      For Fiscal Years 2000 through 2004
      (In Millions of Dollars)

          (a)                                                      (b)        (c)       (d)      (e)       (f)
       Categories                                                 FY00       FY01      FY02     FY03      FY04

       1. Basic Research                                            $345      $383      $378      $399      $431

       2. Applied Research                                           538       597       647       743       686

       3. Development
           Advanced Technology Development                           607        738       779       836      967
           Advanced Component Development And Prototypes           2,216      2,418     2,415     2,536    2,361
           System Development and Demonstration                    2,225      2,086     2,836     4,200    6,115
           Research, Development, Test, and Evaluation
            Management Support                                       750        782       838       797       906
           Operational Systems Development                         2,047      2,266     2,417     2,385     1,820

        Total                                                     $8,728     $9,270 $10,310     $11,896   $13,286




134
Narrative Statement

Investments in Research and Development
Investment values included in this Report are based on Research and Development (R&D) outlays
(expenditures). Outlays are used because current DON systems are unable to fully capture and summarize
costs in accordance with FASAB standards.

A. Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications, processes, or products in mind. Basic
Research involves the gathering of fuller knowledge or understanding of the subject under study. Major
outputs are scientific studies and research papers.

The following are two representative program examples for the Basic Research category.

Converting Waste Heat Into Electricity
The excess heat produced in everything from microelectronics to large ship engines is generally thought of as
a problem for engineers to solve. A new scientific leap discovered in semiconductor technology funded by the
Office of Naval Research could put that troublesome heat to good use. Funded through a Multi-University
Research Initiative (MURI), a Michigan State group has developed a fundamental understanding of the
chemical properties needed to create the ideal material with high electrical conductivity but low thermal
conductivity. The group has found the right combination of ultrapure lead, antimony, silver, and tellurium for a
material (called LAST) that is significantly more efficient for high temperature power generation than existing
thermoelectric materials. The secret to the new material's efficiency seems to be in the nanostructures within it
that impede the flow of heat by introducing internal boundaries.

NOAA and U.S. Navy Uncover Secrets of Lost Civil War Submarine USS Alligator
The U.S. Department of Commerce's National Oceanic and Atmospheric Administration (NOAA) and the U.S.
Navy's Office of Naval Research (ONR) have joined forces to uncover the secrets of a technological marvel of
the Civil War era akin to the USS Monitor and the CSS Hunley: the USS Alligator. Launched in 1862, the
Alligator was the U.S. Navy's first submarine. While the vessel represented a significant leap forward in naval
engineering, complete information about its design and fate has been elusive. Recently, NOAA and ONR
released findings that help fill large gaps in the history of the all-but-forgotten Union submarine, including
details about the Alligator's inventor, innovative features and its loss in April 1863.

NOAA and ONR initiated the Alligator Project in 2002 in an effort to shed new light on America's maritime
heritage. In October 2003, at a special symposium, NOAA and ONR brought together experts in naval history,
maritime archaeology, oceanography, engineering and ocean exploration to exchange information about the
Alligator and discuss the possibility of locating and recovering this historic vessel.

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge
or understanding for the purpose of meeting a recognized need. This research points toward specific military
needs with a view toward developing and evaluating the feasibility and practicability of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, and research papers,
hardware components, software codes, and limited construction of, or part of, a weapon system to include
nonsystem specific development efforts.


                                                                                              GENERAL FUND          135
  The following are two representative program examples for the Applied Research category.

  Free-Electron Laser Reaches 10 Kilowatts
  The Free-Electron Laser (FEL), supported by the Office of Naval Research and located at the U.S. Department
  of Energy's Thomas Jefferson National Accelerator Facility, achieved 10 kilowatts of infrared laser light in late
  July, making it the most powerful tunable laser in the world. The recently upgraded laser's new capabilities will
  enhance defense and manufacturing technologies, and support advanced studies of chemistry, physics,
  biology, and more.

  The FEL program began as the One-Kilowatt Demonstration FEL, which broke power records and made its
  mark as the world's brightest high average power laser. It delivered 2.1 kilowatts (kW) of infrared light, more
  than twice it was initially designed to achieve, before it was taken offline in November 2001 for an upgrade to
  10 kW. The FEL provides intense beams of laser light that can be tuned to a precise wavelength, and which
  are more powerful than beams from a conventional laser. Conventional lasers are limited in the wavelength of
  light they emit by the source of the electrons (such as a gas or crystal) used within the laser.

  ONR manages the FEL development effort in cooperation with the Naval Sea Systems Command (NAVSEA)
  Directed Energy and Electric Weapons Office. ONR is also funding the operation and optimization of the 10
  kW FEL, and has several experiments slated to begin in early fall 2004. The Navy intends on using the
  lessons learned from the development of the 10 kW FEL to begin design and construction of a 100 kW FEL
  over the next four years. Eventually, the Navy plans on moving the 100 kW laser to an over water test site,
  and scaling the power up to megawatt levels.

  "Brain-Based" Control for Unmanned Vehicles
  This summer at the Naval Undersea Warfare Center in Newport, RI, a mobile autonomous research vehicle
  (MARV) fitted with an agile "brain-based" controller attempted to smoothly and quietly maneuver itself in and
  out of a docking tube. This tricky feat could be critical to future missions in which Unmanned Underwater
  Vehicles might carry out missions too dangerous for humans.

  ONR's project sponsor reported that the controller, developed jointly by Russia's Nizhny Novgorod State
  University and Institute for Applied Sciences and New York University Medical School, mimics the part of the
  human brain that controls balance and limb movement, known as the olivo-cerebellar system. The controller
  can be used to replicate not only the human body's ability to carry out complex maneuvers but also, for
  example, the wing control of birds and insects as they adjust their angles of flight. In the case of the MARV,
  the controller will manipulate the movements of high-lift actuators that change the direction and speed of the
  vehicle's motion. This capability could be exploited both by autonomous military and commercial systems that
  require highly precise movement control.

  C. Development
  Development takes what has been discovered or learned from basic and applied research and uses it to
  establish technological feasibility, assessment of operability, and production capability. Development is
  comprised of five stages defined below:

  1.   Advance Technology Development is the systematic use of the knowledge or understanding gained from
       research directed toward proof of technological feasibility and assessment of operational and producibility
       rather than the development of hardware for service use. Employs demonstration activities intended to
       prove or test a technology or method.

  2.   Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an
       operating environment as possible to assess the performance or cost reduction potential of advanced

136
     technology. Programs in this phase are generally system specific. Major outputs of Advanced Component
     Development and Prototype are hardware and software components, or complete weapon systems, ready
     for operational and developmental testing and field use.

3.   System Development and Demonstration concludes the program or project and prepares it for production.
     It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are
     weapons systems finalized for complete operational and development testing.

4.   RDT&E Management Support is support for installations and operations for general research and
     development use. This category includes costs associated with test ranges, military construction
     maintenance support for laboratories, operation and maintenance of test aircraft and ships, and studies
     and analyzes in support of the R&D program.

5.   Operational Systems Development is concerned with development projects in support of programs or
     upgrades still in engineering and manufacturing development, which have received approval for
     production, for which production funds have been budgeted in subsequent fiscal years.

The following are two representative program examples for the Development category.

Clearing Antennas for Better Communication
In August, the Office of Naval Research tested a concept that aims to bring down the number of antennas
used for receiving and transmitting radio-frequency (RF) signals because each antenna requires a costly
support system, and the antennas interfere with one another.

The advanced multi-function radio frequency concept, or AMRF-C, is developing electronic modules and
software to enable a limited number of transmit and receive antennas to handle multiple communications,
radar, and electronic warfare (EW) functions. The goal is to halt the proliferation of so-called "stovepipes"-
systems tailored for a single function such as super-high-frequency satellite communications or extremely low-
frequency submarine contacts. Specialized computers, power hookups, and maintenance support for each
antenna means higher costs, and risks, when they fail. The dissimilar antennas can interfere with one another
or other ship systems, and degrade performance, thereby forcing ships to limit strictly the operations of certain
RF systems when others are needed.

Hybrids on the High Sea; Fuel Cells for Future Ships
As hybrid electric cars become more commonplace on America's highways, the Navy is working to bring hybrid
electric ships to the high seas. The Office of Naval Research (ONR) is developing innovative propulsion
systems based on new fuel-cell technology for efficient generation of electrical power-and greater design
flexibility-for future ships.

To ensure a relatively quick transition to this promising technology, ONR is funding development of a method to
extract hydrogen from diesel fuel. A diesel reforming system would take advantage of the relative low cost of
the fuel and the Navy's established infrastructure for buying, storing, and transporting it.

ONR is testing a 500-kilowatt diesel fuel reformer, or "integrated fuel processor," that is compatible with a
proton exchange membrane (PEM) fuel cell, at the Department of Energy Idaho National Engineering and
Environmental Laboratory in Idaho Falls. The testing will continue to prove out the reforming process. ONR is
also looking at design approaches to reduce the size of the processor, which consists of an arrangement of
valves, water-gas shift reactors, an oxidizer, and other components, so that it won't take up too much space on
a Navy ship.

                                                                                              GENERAL FUND          137
138
                                                         REQUIRED SUPPLEMENTARY INFORMATION
                                                                   GENERAL FUND
               DEPARTMENT OF THE NAVY

GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION




                                         GENERAL FUND   139
      Department of Defense
      Department of the Navy
      DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2004 and 2003
      ($ in thousands)

                                                                                         Research,
                                                                                     Development, Test &       Operation and
                                                                  Other                 Evaluation             Maintenance            Procurement

       BUDGETARY FINANCING ACCOUNTS
       BUDGETARY RESOURCES
         Budget Authority
             Appropriations Received                         $       323,507     $           15,140,383    $       38,835,051     $     31,533,801
             Borrowing Authority                                            0                         0                      0                    0
             Contract Authority                                             0                         0                      0                    0
             Net transfers (+/-)                                    (254,929)                   (83,036)              689,364             (176,811)
             Other                                                          0                         0                      0                    0
          Unobligated Balance:
             Beginning of period                                     100,536                  1,422,855               858,590           11,221,811
             Net transfers, actual (+/-)                                    0                     7,500               118,953              203,208
             Anticipated Transfers Balances                                 0                         0                      0                    0
          Spending Authority from Offsetting Collections:
             Earned
               Collected                                                    0                  308,474              5,198,785            1,023,564
               Receivable from Federal sources                              0                     1,715               (94,312)            (256,342)
             Change in unfilled customer orders
               Advances received                                            0                         0                61,782                     0
               Without advance from Federal sources                         0                  263,623                 12,972              154,176
             Anticipated for the rest of year, without advances             0                         0                      0                    0
             Transfers from trust funds                                     0                         0                      0                    0
            Subtotal                                         $              0    $             573,812     $        5,179,227     $        921,398
       Recoveries of prior year obligations                  $         1,058     $             750,964     $        2,926,779     $      4,003,086
       Temporarily not available pursuant to Public Law                     0                         0                      0                    0
       Permanently not available                                       (1,963)                 (205,340)             (732,515)            (520,019)
       Total Budgetary Resources                             $       168,209     $           17,607,138    $       47,875,449     $     47,186,474


       STATUS OF BUDGETARY RESOURCES
         Obligations Incurred
             Direct                                          $    (22,618,778)   $           15,667,733    $       53,145,441     $     41,032,035
             Reimbursable                                         22,762,495                   (236,177)            (8,201,287)          (5,319,061)
             Subtotal                                        $       143,717     $           15,431,556    $       44,944,154     $     35,712,974
         Unobligated balance
             Apportioned                                     $        24,492     $            2,031,771    $          127,502     $     10,863,766
             Exempt from apportionment                                      0                         0                      0                    0
             Other available                                                0                         0                      0                    0
         Unobligated Balances Not Available                                 0                  143,812              2,803,794              609,734
         Total, Status of Budgetary Resources                $       168,209     $           17,607,139    $       47,875,450     $     47,186,474


       RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
         Obligated Balance, Net-beginning of period:         $       102,743     $            6,135,287    $       15,805,153     $     37,672,898
         Obligated Balance transferred, net (+/-)                           0                         0                      0                    0
         Obligated Balance, net-end of period:
             Accounts Receivable                             $              0    $               (3,842)   $         (218,866)    $       (133,595)
             Unfilled customer order from Federal sources                   0                  (283,282)            (1,855,180)            (11,204)
             Undelivered Orders                                     (840,309)                 6,392,738            15,825,519           39,395,853
             Accounts Payable                                        906,061                          1               211,325            1,217,804
       OUTLAYS:
         Disbursements                                       $       179,649     $           14,444,925    $       43,941,070     $     29,016,095
         Collections                                                        0                  (308,474)            (5,260,567)          (1,023,564)
         Subtotal                                            $       179,649     $           14,136,451    $       38,680,503     $     27,992,531
         Less: Offsetting receipts                                  (115,027)                         0                      0                    0
         Net Outlays                                         $        64,622     $           14,136,451    $       38,680,503     $     27,992,531

140
Department of Defense
Department of the Navy
DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                      Military
                                                                 Military          Construction/          2004                2003
                                                                Personnel          Family Housing       Combined            Combined


 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES
   Budget Authority
       Appropriations Received                              $    36,602,056    $       1,513,679    $   123,948,477    $     122,169,428
       Borrowing Authority                                                0                    0                  0                    0
       Contract Authority                                                 0                    0                  0                  739
       Net transfers (+/-)                                          242,821                7,700            425,109            1,662,142
       Other                                                              0                    0                  0                    0
    Unobligated Balance:
       Beginning of period                                          177,408              914,037         14,695,238           11,908,983
       Net transfers, actual (+/-)                                 (114,161)             (19,550)           195,950              145,546
       Anticipated Transfers Balances                                     0                    0                  0                    0
    Spending Authority from Offsetting Collections:
       Earned
         Collected                                                 463,167               712,659          7,706,650            6,792,556
         Receivable from Federal sources                           (45,641)               34,296           (360,284)          (1,211,532)
       Change in unfilled customer orders
         Advances received                                                0               (5,771)            56,010              (59,842)
         Without advance from Federal sources                           323               36,413            467,506              308,282
       Anticipated for the rest of year, without advances                 0                    0                  0                    0
       Transfers from trust funds                                         0                    0                  0                    0
      Subtotal                                              $       417,849 $            777,597 $        7,869,882 $          5,829,464
 Recoveries of prior year obligations                       $     6,056,640 $             18,454 $       13,756,981 $          7,009,339
 Temporarily not available pursuant to Public Law                         0                    0                  0                    0
 Permanently not available                                         (137,391)            (111,560)        (1,708,789)          (1,452,574)
 Total Budgetary Resources                                  $    43,245,222 $          3,100,357 $      159,182,848 $        147,273,067

  STATUS OF BUDGETARY RESOURCES
   Obligations Incurred
      Direct                                                $    44,089,514 $            952,578    $   132,268,522    $     124,497,950
      Reimbursable                                               (1,320,441)           1,200,802          8,886,330            8,079,881
      Subtotal                                              $    42,769,073 $          2,153,380    $   141,154,852    $     132,577,831
   Unobligated balance
      Apportioned                                           $         9,215    $         916,363    $    13,973,107    $      13,697,001
      Exempt from apportionment                                           0                    0                  0                    0
      Other available                                                     0                    0                  1                    0
   Unobligated Balances Not Available                               466,934               30,614          4,054,888              998,235
   Total, Status of Budgetary Resources                     $    43,245,222    $       3,100,357    $   159,182,848    $     147,273,067

 RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
   Obligated Balance, Net-beginning of period:              $     2,100,639    $       1,704,174    $    63,520,894    $      56,100,186
   Obligated Balance transferred, net (+/-)                               0                    0                  0                    0
   Obligated Balance, net-end of period:
       Accounts Receivable                                  $      (53,914) $           (127,342) $        (537,560) $          (897,842)
       Unfilled customer order from Federal sources                    631              (653,946)        (2,802,982)          (2,335,476)
       Undelivered Orders                                          909,797             2,040,156         63,723,755           63,419,000
       Accounts Payable                                            907,837               229,981          3,473,010            3,335,213
 OUTLAYS:
   Disbursements                                            $    37,094,039 $          2,279,541 $      126,955,319 $        119,051,033
   Collections                                                     (463,167)            (706,888)        (7,762,660)          (6,732,714)
   Subtotal                                                 $    36,630,872 $          1,572,653 $      119,192,659 $        112,318,319
   Less: Offsetting receipts                                              0                    0           (115,027)            (246,802)
   Net Outlays                                              $    36,630,872 $          1,572,653 $      119,077,632 $        112,071,517




                                                                                                                           GENERAL FUND     141
  DON GENERAL PROPERTY, PLANT,                 AND E QUIPMENT
  Real Property Deferred Annual Sustainment and Restoration Tables
  As of September 30, 2004
  ($ in Millions)

                                        Annual Sustainment FY 2004
                                                Required     Actual           Difference
                   Navy                              1,283        795             488
                   Marine Corps                      553          529             24
                   Building, Structures,             1,836       1,324            512
                   and Utilities

                                    Annual Deferred Sustainment Trend
                                               FY 2001 FY 2002 FY 2003             FY 2004
                   Navy                            -         -        -              488
                   Marine Corps                    -         -        -              24
                   Building, Structures, and      501       40       346             512
                   Utilities

                                Restoration and Modernization Requirements
                                          End FY 2003     End FY 2004      Change
                   Navy
                   Marine Corps
                   Building, Structures,         -                 -                -
                   and Utilities


  Narrative Statement:
  Fiscal Year 2004 represents the third year in which the Facility Sustainment Model (FSM) was utilized.
  Deferred amounts were calculated in accordance with the methodology provided by DoD Financial
  Management Regulation, Volume 6B, Chapter 12. The output of the Facility Sustainment Model continues to
  undergo quality checks to ensure its accuracy. Accordingly, requirements for each fiscal year are prepared
  with a more updated and accurate version of the model.

  In FY 2004, FSM version 4.0 was used for programming and budgeting facilities sustainment.

  This year represents the first year that separate breakout of Navy and Marine Corps sustainment amounts can
  be provided.

  The Department of the Navy General Fund has no material amounts of deferred sustainment for the General
  Property, Plant, and Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.




142
MILITARY EQUIPMENT
Deferred Maintenance Amounts
As of September 30, 2004
($ in Thousands)

                             Major Type                        Amount
                            1. Aircraft                       $ 98,885
                            2. Ships                             97,642
                            3. Missiles                          66,444
                            4. Combat Vehicles                   40,193
                            5. Other Weapons Systems            143,964
                            6. Total                          $ 447,128

Narrative Statement:

Aircraft Deferred Maintenance
There are four sub-categories, which comprise aircraft, deferred maintenance: airframe rework and
maintenance (active and reserve), engine rework and maintenance (active and reserve), component repair and
software maintenance. The airframe rework deferred maintenance calculation reflects executable unfunded
requirements, which represent aircraft that failed Aircraft Service Period Adjustment (ASPA) or reached fixed
Period End Date (PED) at year-end. The engine rework deferred maintenance calculation reflects year-end
actual requirements minus actual funded units. Component repair deferred maintenance cost represents the
difference between the validated requirement and funding. Aircraft deferred maintenance reflects only
executable deferred maintenance. Unexecutable deferred maintenance is not reported for airframe rework,
engine rework and component repair, nor is it collected.

The Depot maintenance is currently being performed under both the Standard Depot Level Maintenance
(SDLM) and Integrated Maintenance Concept (IMC) programs. Currently, the C-130, E-2C, EA-6B, F/A-14,
F/A-18, H-60, UH-1N, and S-3 aircraft programs have been incorporated under the IMC concept. The IMC
concept uses Planned Maintenance Intervals (PMI), performing more frequent depot maintenance, with smaller
work packages, thereby reducing out of service time. The goal of this program is to improve readiness while
reducing operating and support costs. Commander, Naval Air Systems Command's (COMNAVAIRSYSCOM)
Industrial Strategy is to maintain the minimum level of organic capacity, consistent with force levels, that is
necessary to sustain peacetime readiness and maintain fighting surge capability. COMNAVAIRSYSCOM
works in partnership with private industry to make maximum use of industry's production capabilities and for
non-core related aviation depot level maintenance.

Ship Deferred Maintenance
Fleet Type Commanders provided deferred Ship Maintenance data. Data was collected from the Current
Ships' Maintenance Plan (CSMP) database, which captures maintenance actions at all levels (organizational,
intermediate, depot) for active and reserve ships. Only depot level deferred maintenance has been provided in
this report. This includes maintenance actions that were deferred from actual depot maintenance work
packages as well as maintenance actions that were deferred prior to inclusion in a work package due to fiscal,
operational, or capacity constraints. Although there is a significant amount of deferred maintenance actions,
there are no ships that fall into the category of "unacceptable operating condition". Any ship that would be at
risk of being in unacceptable operating condition would receive priority for maintenance funding to maintain
acceptable operating condition.


                                                                                            GENERAL FUND          143
  Missile Maintenance
  Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance,
  and other. Deferred maintenance is defined as the difference between the total weapon maintenance
  requirement as determined by requirements modeling processes and the weapon maintenance that is funded
  in accordance with the annual budget controls for the Missile Maintenance program. The maintenance
  requirements model projects the quantity of missiles and missile components per weapon system that are
  required to be maintained (reworked) annually.

  Combat Vehicles
  The combat vehicles category is for vehicle overhaul for the active and reserve Marine Corps.

  Other Weapons System
  The "Other Weapons System" category is comprised of ordnance, end item maintenance for support
  equipment, camera equipment, landing aids, calibration equipment, air traffic control equipment, target
  systems, expeditionary airfield equipment, special weapons, target maintenance, and repair of repairables.
  Three categories define ordnance maintenance: ordnance maintenance, software maintenance and other.
  Although the various programs vary in the methodology in defining requirements, all programs define deferred
  maintenance as the difference between requirements and funding.

  Software Maintenance
  Software maintenance requirements and deferred maintenance for aircraft, missiles and other equipment are
  determined using the same methodology and, therefore will not be addressed separately for each Military
  Equipment Deferred Maintenance reporting categories. Software maintenance includes the operational and
  system test software that runs in the airborne avionics systems (e.g., mission computer, display computer,
  radar) and the software that runs the ground based support lab’s used to perform software sustainment (e.g.,
  compilers, editors, simulation, configuration management). The deferred maintenance reported for the
  execution year are those requirements below the funding threshold and up to, but not exceeding, the capacity
  of the Software Support Activity (SSA) in that particular fiscal year. There may be deferred requirements that
  exceed the capacity of the SSA, but these are not reported in the Exhibit OP-30 for the execution year, but
  rather identified as an out year requirement.




144
 Schedule, Part A DoD Intra-governmental
 Asset Balances                                      Treasury       Fund Balance     Accounts        Loans
 ($ Amounts in Thousands)                              Index        with Treasury    Receivable    Receivable Investments    Other
Government Printing Office                                   4                        $      10
The Judiciary                                                10                              22
Department of Commerce                                       13                            1,975
Department of the Interior                                   14                             271                             $ 177,407
Department of Justice                                        15                            3,136
Department of Labor                                          16                              73                                     59
United States Postal Service                                 18                              14
Department of State                                          19                            3,924
Department of the Treasury                                   20     $   82,093,913         1,496                $   9,481
Department of the Army                                       21                           38,049                                 154
Nuclear Regulatory Commission                                31                              38
Department of Veterans Affairs                               36                              13
General Services Administration                              47                            3,480
National Science Foundation                                  49                             563                                  212
Department of the Air Force                                  57                           15,358                              75,516
Federal Emergency Management Agency                          58                             139
Environmental Protection Agency                              68                                                                1,077
Department of Transportation                                 69                             385                                2,643
Homeland Security                                            70                            6,461
Department of Health and Human Services                      75                              92                                     24
National Aeronautics and Space Administration                80                            9,629                                 395
Department of Housing and Urban Development                  86                               9
Department of Energy                                         89                             401                                1,144
Department of Education                                      91                             167
US Army Corps of Engineers                                   96                            1,657
Other Defense Organizations General Funds                    97                           67,507                                     4
Other Defense Organizations Working Capital Funds       97-4930                           30,396                              14,010
Army Working Capital Fund                             97-4930.001                          8,638                                    11
Navy Working Capital Fund                             97-4930.002                         56,800
Air Force Working Capital Fund                        97-4930.003                                                                   66
Totals might not match reports.                     Totals          $   82,093,913    $ 250,703       $    0    $   9,481   $ 272,722




                                                                                                           GENERAL FUND       145
      Schedule, Part B DoD Intra-governmental
      Entity Liabilities
                                                                                        Debts/Borrowings
                                                          Treasury      Accounts          From Other
      ($ Amounts in Thousands)                             Index        Payable            Agencies            Other
      Library of Congress                                     3         $          12
      Department of Agriculture                               12                 550
      Department of the Interior                              14              15,441
      Department of Justice                                   15                  17
      Department of Labor                                     16                                           $    642,613
      Department of State                                     19              14,306
      Department of the Treasury                              20                   47                            41,833
      Department of the Army                                  21              59,749
      Office of Personnel Management                          24                    1                            52,834
      Federal Communications Commission                       27                 438
      Nuclear Regulatory Commission                           31                   44
      Department of Veterans Affairs                          36               6,676
      General Services Administration                         47             226,749
      National Science Foundation                             49                 913
      Department of the Air Force                             57               4,792
      Tennessee Valley Authority                              64                 813
      Environmental Protection Agency                         68                 426
      Department of Transportation                            69                    -
      Homeland Security                                       70              17,766
      Department of Health and Human Services                 75                   44
      National Aeronautics and Space Administration           80               4,370
      Department of Energy                                    89             107,944
      US Army Corps of Engineers                              96                 147
      Other Defense Organizations General Funds               97              52,967                                   472
      Other Defense Organizations Working Capital Funds    97-4930           336,552
      Army Working Capital Fund                           97-4930.001         14,767
      Navy Working Capital Fund                           97-4930.002        568,385
      Air Force Working Capital Fund                      97-4930.003          3,701
      The General Fund of the Treasury                        99                                               3,247,050
      Totals might not match reports.                       Totals:     $   1,437,617     $          0     $   3,984,802




146
Schedule, Part C DoD Intragovernmental
revenue and related costs
                                                                          Earned
($ Amounts
($ AmountsininThousands)
               Thousands)                           Treasury Index       Revenue
Government Printing Office                                4          $           41
Executive Office of the President                         11                 73,227
Department of Agriculture                                 12                 24,068
Department of Commerce                                    13                 19,578
Department of the Interior                                14                   618
Department of Justice                                     15                 17,855
Department of Labor                                       16                       2
United States Postal Service                              18                       9
Department of State                                       19                 40,740
Department of the Treasury                                20                  8,966
Department of the Army                                    21                208,864
Nuclear Regulatory Commission                             31                   345
Department of Veterans Affairs                            36                   227
General Service Administration                            47                  1,377
National Science Foundation                               49                  2,003
Department of the Air Force                               57                201,169
Federal Emergency Management Agency                       58                   682
Department of Transportation                              69                  4,081
Homeland Security                                         70                 45,702
Agency for International Development                      72                       1
Small Business Administration                             73                    (2)
Department of Health and Human Services                   75                   465
National Aeronautics and Space Administration             80                 17,820
Department of Housing and Urban Development               86                  7,798
Department of Energy                                      89                  8,568
Department of Education                                   91                  1,142
US Army Corps of Engineers                                96                  3,282
Other Defense Organizations General Funds                 97                800,104
Other Defense Organizations Working Capital Funds       97-4930             190,129
Army Working Capital Fund                             97-4930.001            40,394
Navy Working Capital Fund                             97-4930.002         1,423,377
Air Force Working Capital Fund                        97-4930.003                 -
DoD Medicare-Eligible Retiree Health Care Fund                              130,228
Total might not match reports.                          Total:       $    3,272,860




                                                                          GENERAL FUND   147
      Schedule, Part E DoD Intragovernmental non-exchange revenues


      ($ Amounts in Thousands)                            Treasury Index   Transfers In   Transfers Out
      Department of the Air Force                                 57       $    (2,809)             0
      Other Defense Organizations General Funds                   97            14,489              0
      Other Defense Organizations Working Capital Funds       97-4930          121,026              0
      Navy Working Capital Fund                             97-4930.002         45,177              0
      Total might not match reports.                      Total            $   177,883              0




148
                                                       OTHER ACCOMPANYING INFORMATION
                                                               GENERAL FUND
             DEPARTMENT OF THE NAVY

GENERAL FUND OTHER ACCOMPANYING INFORMATION




                                       GENERAL FUND   149
  APPROPRIATIONS, FUNDS,           AND   ACCOUNTS INCLUDED         IN THE   PRINCIPAL
  STATEMENTS
  Entity Accounts:
  General Funds
  17X0380       Coastal Defense Augmentation, Navy
  17 0703       Family Housing Construction, Navy and Marine Corps
  17 0735       Family Housing, Navy and Marine Corps (Operations and Maintenance)
  17X0810       Environmental Restoration, Navy
  17 1105       Military Personnel, Marine Corps
  17 1106       Operation and Maintenance, Marine Corps
  17 1107       Operation and Maintenance, Marine Corps Reserve
  17 1108       Reserve Personnel, Marine Corps
  17 1109       Procurement, Marine Corps
  17 1205       Military Construction, Navy
  17 1235       Military Construction, Naval Reserve
  17X1236       Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental
                Restoration Fund, Navy
  17   1319     Research, Development, Test, and Evaluation, Navy
  17   1405     Reserve Personnel, Navy
  17   1453     Military Personnel, Navy
  17   1506     Aircraft Procurement, Navy
  17   1507     Weapons Procurement, Navy
  17   1508     Procurement of Ammunition, Navy and Marine Corps
  17   1611     Shipbuilding and Conversion, Navy
  17   1804     Operation and Maintenance, Navy
  17   1806     Operation and Maintenance, Navy Reserve
  17   1810     Other Procurement, Navy

  Revolving Funds
  17 4557       National Defense Sealift Fund, Navy

  Trust Funds
  17X8716       Department of the Navy General Gift Fund
  17X8723       Ship Stores Profits, Navy
  17X8733       United States Naval Academy Gift and Museum Fund

  Special Funds
  17X5095       Wildlife Conservation, Military Reservations, Navy
  17X5185       Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund,
  17X5429       Rossmoor Liquidating Trust Settlement Account

  Non Entity Accounts:
  17 3XXX       Receipt Accounts
  17X6XXX       Deposit Funds




150
               DEPARTMENT OF THE NAVY

NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS




                                                                        NAVY WORKING CAPITAL FUND
                                                                           PRINCIPAL STATEMENTS




                                        N AVY W ORKING C APITAL F UND          151
152
P RINCIPAL S TATEMENTS

The FY 2004 Navy Working Capital Fund Principal Financial Statements and related notes are presented in the
format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual activity groups and activities within
the Navy Working Capital Fund for the fiscal year ending September 30, 2004, and are presented on a
comparative basis with information previously reported for the fiscal year ending September 30, 2003.

The following statements are included in the Navy Working Capital Fund Principal Statements:

 •   Consolidated Balance Sheet
 •   Consolidated Statement of Net Cost
 •   Consolidated Statement of Changes in Net Position
 •   Combined Statement of Budgetary Resources
 •   Combined Statement of Financing

The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                           N AVY W ORKING C APITAL F UND            153
  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATED BALANCE SHEET
  As of September 30, 2004 and 2003
  ($ in thousands)
                                                                                             2003 Consolidated
                                                                         2004 Consolidated       Restated
      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                                $            861,243    $     1,827,646
               Non-Entity Seized Iraqi Cash                                             0                  0
               Non-Entity - Other                                                       0                  0
          Investments (Note 4)                                                          0                  0
          Accounts Receivable (Note 5)                                            857,519            582,773
          Other Assets (Note 6)                                                        15             10,392
               Total Intragovernmental Assets                        $          1,718,777    $     2,420,811
        Cash and Other Monetary Assets (Note 7)                      $                  0    $             0
        Accounts Receivable (Note 5)                                               26,190            111,775
        Loans Receivable (Note 8)                                                       0                  0
        Inventory and Related Property (Note 9)                                19,239,192         18,256,128
        General Property, Plant and Equipment (Note 10)                         3,895,542          4,323,910
        Investments (Note 4)                                                            0                  0
        Other Assets (Note 6)                                                     717,191            868,808
      TOTAL ASSETS                                                   $         25,596,892    $    25,981,432

      LIABILITIES (Note 11)
        Intragovernmental:
          Accounts Payable (Note 12)                                 $            243,982    $       313,786
          Debt (Note 13)                                                          506,278            615,648
          Environmental Liabilities (Note 14)                                           0                  0
          Other Liabilities (Note 15 & Note 16)                                   114,851            289,268
                Total Intragovernmental Liabilities                  $            865,111    $     1,218,702
        Accounts Payable (Note 12)                                   $          1,862,567    $     2,102,870
        Military Retirement Benefits and Other Employment-
          Related Actuarial Liabilities (Note 17)                               1,168,225          1,409,853
        Environmental Liabilities (Note 14)                                             0                  0
        Loan Guarantee Liability (Note 8)                                               0                  0
        Other Liabilities (Note 15 and Note 16)                                 5,679,116          4,157,892
        Debt Held by Public (Note 13)                                                   0                  0
      TOTAL LIABILITIES                                              $          9,575,019    $     8,889,317

      NET POSITION
        Unexpended Appropriations (Note 18)                          $                  0    $             0
        Cumulative Results of Operations                                       16,021,873         17,092,115
      TOTAL NET POSITION                                             $         16,021,873    $    17,092,115

      TOTAL LIABILITIES AND NET POSITION                             $         25,596,892    $    25,981,432



  The accompanying notes are an integral part of these statements.

154
Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                       2004 Consolidated        2003 Consolidated
    Program Costs
       Intragovernmental Gross Costs                               $           5,434,981    $           5,422,250
       (Less: Intragovernmental Earned Revenue)                              (21,698,935)             (21,871,864)
       Intragovernmental Net Costs                                 $         (16,263,954)   $         (16,449,614)

       Gross Costs With the Public                                 $          17,915,614               17,656,253
       (Less: Earned Revenue From the Public)                                   (613,535)                (766,709)
       Net Costs With the Public                                   $          17,302,079    $          16,889,544

       Total Net Cost                                   $                      1,038,125    $            439,930
    Costs Not Assigned to Programs                                                     0                       0
    (Less: Earned Revenue Not Attributable to Programs)                                0                       0
    Net Cost of Operations                              $                      1,038,125    $            439,930




The accompanying notes are an integral part of these statements.

                                                                              N AVY W ORKING C APITAL F UND          155
      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
      For the years ended September 30, 2004 and 2003
      ($ in thousands)

                                                                                                  Cumulative Results
                                                                         Cumulative Results         of Operations
                                                                           of Operations          2003 Consolidated
                                                                         2004 Consolidated            Restated

          Beginning Balances                                      $             18,136,830    $           18,006,706
           Prior period adjustments (+/-)                                                0                         0
           Prior period adjustments - restated (+/-)                            (1,044,715)               (1,044,715)
           Beginning Balance, Restated                                          17,092,115                16,961,991
           Prior period adjustments - not restated (+/-)                                 0                         0
          Beginning Balances, as adjusted                         $             17,092,115    $           16,961,991
          Budgetary Financing Sources:
           Appropriations Received                                $                      0    $               40,200
           Appropriations transferred in/out (+/-)                                       0                         0
           Other adjustments (rescissions, etc) (+/-)                                    0                         0
           Appropriations used                                                     130,446                   (40,200)
           Nonexchange revenue                                                           0                         0
           Donations and forfeitures of cash and cash equivalents                        0                         0
           Transfers in/out without reimbursement (+/-)                           (287,800)                        0
           Other budgetary financing sources (+/-)                                (419,775)                        0
          Other Financing Sources:
           Donations and forfeitures of property                                         0                         0
           Transfers in/out without reimbursement (+/-)                                126                   (13,527)
           Imputed financing from costs absorbed by others                         544,886                   543,381
           Other (+/-)                                                                   0                         0
          Total Financing Sources                                 $                (32,117)   $              570,054
          Net Cost of Operations (+/-)                            $              1,038,125    $              439,930
          Ending Balances                                         $             16,021,873    $           17,092,115




      The accompanying notes are an integral part of these statements.

156
Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2004 and 2003
($ in thousands)
                                                                                              Unexpended
                                                                      Unexpended             Appropriations
                                                                     Appropriations        2003 Consolidated
                                                                   2004 Consolidated           Restated

    Beginning Balances                                             $             0     $                   0
    Prior period adjustments (+/-)                                               0                         0
     Prior period adjustments, restated (+/-)                                    0                         0
     Beginning Balance, Restated                                                 0                         0
     Prior period adjustments, not restated                                      0                         0
    Beginning Balances, as adjusted                                $             0     $                   0
    Budgetary Financing Sources:
     Appropriations Received                                       $       130,446     $              40,200
     Appropriations transferred in/out (+/-)                                     0                         0
     Other adjustments (rescissions, etc) (+/-)                                  0                         0
     Appropriations used                                                  (130,446)                  (40,200)
     Nonexchange revenue                                                         0                         0
     Donations and forfeitures of cash and cash equivalents                      0                         0
     Transfers in/out without reimbursement (+/-)                                0                         0
     Other budgetary financing sources (+/-)                                     0                         0
    Other Financing Sources:
     Donations and forfeitures of property                                       0                         0
     Transfers in/out without reimbursement (+/-)                                0                         0
     Imputed financing from costs absorbed by others                             0                         0
     Other (+/-)                                                                 0                         0
    Total Financing Sources                                        $             0     $                   0
    Net Cost of Operations (+/-)                                   $             0     $                   0
    Ending Balances                                                $             0     $                   0




The accompanying notes are an integral part of these statements.

                                                                          N AVY W ORKING C APITAL F UND         157
  Department of Defense
  Navy Working Capital Fund
  COMBINED STATEMENT OF BUDGETARY RESOURCES
  For the years ended September 30, 2004 and 2003
  ($ in thousands)

                                                                         2004 Combined        2003 Combined
                                                                           Budgetary            Budgetary
                                                                           Financing            Financing
                                                                            Accounts             Accounts
      BUDGETARY RESOURCES
        Budget Authority:
           Appropriations Received                                   $         130,446    $          40,200
           Borrowing Authority                                                       0                    0
           Contract Authority                                                  355,172              558,144
           Net transfers (+/-)                                                       0                    0
           Other                                                                     0                    0
        Unobligated Balance:
           Beginning of period                                               4,513,325            4,117,221
           Net transfers, actual (+/-)                                        (287,800)             (30,200)
           Anticipated Transfers Balances                                            0                    0
        Spending Authority from Offsetting Collections:
           Earned
            Collected                                                       23,926,810           25,585,547
            Receivable from Federal sources                                    249,344             (432,227)
           Change in unfilled customer orders
            Advances received                                                   90,067              178,239
            Without advance from Federal sources                            (1,724,666)           1,964,175
           Anticipated for the rest of year, without advances                        0                    0
           Transfers from trust funds                                                0                    0
          Subtotal                                                   $      22,541,555    $      27,295,734
        Recoveries of prior year obligations                         $               0    $               0
        Temporarily not available pursuant to Public Law                             0                    0
        Permanently not available                                             (186,529)            (204,140)
        Total Budgetary Resources                                    $      27,066,169    $      31,776,959

      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
           Direct                                                    $               0    $               0
           Reimbursable                                                     24,316,448           27,263,631
           Subtotal                                                  $      24,316,448    $      27,263,631
        Unobligated Balance:
           Apportioned                                               $       2,650,776    $       4,632,115
           Exempt from apportionment                                                 0                    0
           Other available                                                           0                    2
        Unobligated Balances Not Available                                      98,945             (118,789)
        Total, Status of Budgetary Resources                         $      27,066,169    $      31,776,959




  The accompanying notes are an integral part of these statements.

158
Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                       2004 Combined      2003 Combined
                                                                         Budgetary          Budgetary
                                                                         Financing          Financing
                                                                          Accounts           Accounts

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net-beginning of period                     $       3,274,114     $      2,985,762
    Obligated Balance transferred, net (+/-)                                       0                    0
    Obligated Balance, Net-end of period:
       Accounts Receivable                                                   (590,442)           (341,097)
       Unfilled customer orders from Federal sources                       (7,031,461)         (8,756,130)
       Undelivered Orders                                                   6,892,059           7,998,442
       Accounts Payable                                                     4,968,550           4,372,899
    Outlays:
       Disbursements                                                       24,827,178          25,443,332
       Collections                                                        (24,016,876)        (25,763,785)
       Subtotal                                                    $          810,302    $       (320,453)
    Less: Offsetting receipts                                                       0                   0
    Net Outlays                                                    $          810,302    $       (320,453)




The accompanying notes are an integral part of these statements.

                                                                                 N AVY W ORKING C APITAL F UND   159
Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                2004 Combined      2003 Combined

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
     Obligations Incurred                                                      $     24,316,448    $    27,263,631
     Less: Spending Authority from offsetting collections and recoveries (-)        (22,541,554)       (27,295,734)
     Obligations net of offsetting collections and recoveries                  $      1,774,894    $       (32,103)
     Less: Offsetting receipts (-)                                                            0                  0
     Net obligations                                                           $      1,774,894    $       (32,103)
  Other Resources
     Donations and forfeitures of property                                                   0                  0
     Transfers in/out without reimbursement (+/-)                                          125            (13,527)
     Imputed financing from costs absorbed by others                                   544,886            543,381
     Other (+/-)                                                                             0                  0
     Net other resources used to finance activities                            $       545,011     $      529,854
     Total resources used to finance activities                                $     2,319,905     $      497,751

  Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided
       Undelivered orders (-)                                                   $     1,142,521    $     (703,528)
       Unfilled Customer Orders                                                      (1,634,601)        2,142,413
    Resources that fund expenses recognized in prior periods                           (241,627)                0
    Budgetary offsetting collections and receipts that do not affect Net Cost
      of Operations                                                                           0                  8
    Resources that finance the acquisition of assets                                 (5,045,185)        (1,899,644)
    Other resources or adjustments to net obligated resources that do not
     affect Net Cost of Operations                                                            0                  0
       Less: Trust or Special Fund receipts related to exchange in the entity's
       budget (-)                                                                             0                  0
       Other (+/-)                                                                         (125)                 0
    Total resources used to finance items not part of the Net Cost of
      Operations                                                                $    (5,779,017)   $     (460,751)
    Total resources used to finance the Net Cost of Operations                  $    (3,459,112)   $       37,000




      The accompanying notes are an integral part of these statements.

160
Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                           2004 Combined         2003 Combined

  Components of the Net Cost of Operations that will not Require
  or Generate Resources in the Current Period:
  Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                $               0     $                0
     Increase in environmental and disposal liability                                  0                      0
     Upward/Downward reestimates of credit subsidy expense                             0                      0
     Increase in exchange revenue receivable from the public (-)                       0                      0
     Other (+/-)                                                                       0                 83,927
     Total components of Net Cost of Operations that will require or
       generate resources in future periods                            $               0     $           83,927

  Components not Requiring or Generating Resources:
    Depreciation and amortization                                      $         255,203     $          243,755
    Revaluation of assets and liabilities (+/-)                                   42,924                 74,973
    Other (+/-)
        Trust Fund Exchange Revenue                                                     0                     0
        Cost of Goods Sold                                                      4,160,738                     0
        Operating Material & Supplies Used                                              0                     0
        Other                                                                      38,372                   275
    Total components of Net Cost of Operations that will not require
    or generate resources                                              $        4,497,237    $          319,003
    Total components of Net Cost of Operations that will not
     generate resources in the current period                          $        4,497,237    $          402,930
    Net Cost of Operations                                             $        1,038,125    $          439,930




The accompanying notes are an integral part of these statements.

                                                                            N AVY W ORKING C APITAL F UND     161
162
        DEPARTMENT OF THE NAVY

   NAVY WORKING CAPITAL FUND
NOTES TO THE PRINCIPAL STATEMENTS




                                                                 PRINCIPAL STATEMENTS
                                                                 NWCF NOTES TO THE




                                 N AVY W ORKING C APITAL F UND        163
  NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
  1.A. Basis of Presentation
  These financial statements have been prepared to report the financial position and results of operations of the
  Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act of 1990, expanded
  by the Government Management Reform Act of 1994, and other appropriate legislation. The financial
  statements have been prepared from the books and records of the NWCF in accordance with the Department
  of Defense (DoD) Financial Management Regulation, Office of Management and Budget (OMB) Bulletin No.
  01-09, "Form and Content of Agency Financial Statements," and to the extent possible Federal Generally
  Accepted Accounting Principals (GAAP). The accompanying financial statements account for all resources for
  which the NWCF is responsible except that information relative to classified assets, programs, and operations
  which have been excluded from the statement or otherwise aggregated and reported in such a manner that it
  is no longer classified. The NWCF financial statements are in addition to the financial reports also prepared by
  the NWCF pursuant to OMB directives that are used to monitor and control the NWCF use of budgetary
  resources.

  The NWCF is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to
  limitations of its financial management processes and systems, including feeder systems and processes.
  Reported values and information for NWCF major asset and liability categories are derived in part from feeder
  systems, such as inventory systems and logistic systems. These were designed to support reporting
  requirements focusing on maintaining accountability over assets and reporting the status of federal
  appropriations rather than preparing financial statements in accordance with Federal GAAP. The NWCF
  continues to implement process and system improvements addressing the limitation of its financial and feeder
  systems. A more detailed explanation of these financial statement elements is provided in the applicable note.

  1.B. Mission of the Reporting Entity
  The overall mission of the Department of the Navy (DON) is to organize, train, and equip forces to deter
  aggression and, if necessary, defeat aggressors of the United States and its allies. The NWCF provides goods,
  services, and infrastructure to DON and other DoD customers to help ensure our military forces are mobile,
  ready, and have the most advanced technology.

  The NWCF has prepared annual financial statements pursuant to the CFO Act of 1990, as amended, for the
  past fourteen years. The Act requires that financial statements be prepared and audited for each revolving fund
  and account that performed substantial commercial functions, such as those performed by the NWCF.

  The NWCF financial statements include all activities previously financed through the Navy Industrial Fund and
  DON Stock Fund. DoD converted these activities to the Defense Business Operations Fund (DBOF) in October
  1991. In December 1996, Under Secretary of Defense (Comptroller) replaced the DBOF with four working
  capital funds, one of which is the NWCF. This action did not change the previous organizational reporting
  structure.

  1.C. Appropriations and Funds
  The DON's appropriations and funds are divided into general, working capital (revolving funds), trust, special,
  and deposit funds. These appropriations and funds are used to fund and report how the resources have been
  used in the course of executing the DON's missions.




164
The NWCF (a revolving fund) received its initial working capital through an appropriation or a transfer of
resources from existing appropriations or funds and used those capital resources to finance the initial cost of
products and services. Financial resources to replenish the initial working capital and to permit continuing
operations are generated by the acceptance of customer orders. The NWCF operates with financial principles
that provide improved cost visibility and accountability to enhance business management and improve the
decision making process. The activities provide goods and services on a reimbursable basis. Receipts derived
from operations generally are available in their entirety for use without further congressional action.

1.D. Basis of Accounting
The NWCF generally records transactions on an accrual accounting basis as required by Federal GAAP.
However, some of the NWCF's financial and feeder systems and processes are not designed to collect and
record financial information on the full accrual accounting basis. The NWCF has undertaken efforts to
determine the actions required to bring all of its financial and feeder systems and processes into compliance
with all elements of Federal GAAP.

In addition, the NWCF identifies programs based upon the major appropriation groups provided by Congress.
The NWCF is in the process of reviewing available data and attempting to develop a cost reporting
methodology that balances the need for cost information required by the Statements of Federal Financial
Accounting Standards (SFFAS) No. 4, "Managerial Cost Accounting Concepts and Standards for the Federal
Government," with the need to keep the financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources
Revenue is recognized according to the percentage of completion method for depot maintenance activity
groups. Research and Development activity groups recognize revenue according to the percentage of
completion method or as actual costs are incurred and billed. Revenue is recognized when an inventory item is
sold for supply management activities and at the time service is rendered for base support activities. Revenue
for the transportation activity group is recognized on either a reimbursable or per diem basis, that is, revenue is
recognized when earned. The preponderance of per diem projects are billed and collected in the month
services are rendered. In the case of reimbursables, some per diems and point-to-point voyages, the revenue
is accrued in the month services are rendered and collection is made the following month.

The NWCF does not include non-monetary support provided by U.S. Allies for common defense and mutual
security in its list of other financing sources that appears in the Statement of Financing. The U.S. has
agreements with foreign countries that include both direct or indirect sharing of costs that each country incurs
in support of the same general purpose. Examples include countries where there is a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. fleet is in a port. DoD is reviewing
these types of financing and cost reductions in order to establish accounting policies and procedures to identify
what, if any, of these costs are appropriate for disclosure in the financial statements in accordance with GAAP.
Recognition of support provided by host nations would affect both financing sources and recognition of
expenses.

1.F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the NWCF's financial and feeder systems were not designed to collect and record
financial information on the full accrual accounting basis, accrual adjustments are made for major items such
as payroll expenses, accounts payable, and contracts. Expenditures for capital and other long-term assets are
not recognized as expenses in the NWCF's operations until depreciated in the case of Property, Plant, and
Equipment (PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Net increases or
decreases in unexpended appropriations are recognized as a change in the net position.

                                                                            N AVY W ORKING C APITAL F UND             165
  Operating expenses were adjusted as a result of the elimination of balances between DoD Components. See
  Note 19.I Intragovernmental Revenue and Expense, for disclosure of adjustment amounts.

  1.G. Accounting for Intragovernmental Activities
  The NWCF, as an agency of the federal government, interacts with and is dependent upon the financial
  activities of the federal government as a whole. Therefore, these financial statements do not reflect the results
  of all financial decisions applicable to the NWCF as though the agency was a stand-alone entity.

  The DON's proportionate share of public debt and related expenses of the federal government are not
  included. Debt issued by the federal government and the related costs are not apportioned to federal
  agencies. The NWCF financial statements, therefore, do not report any portion of the federal government
  public debt or interest thereon, nor do the statements report the source of public financing whether from
  issuance of debt or tax revenues.

  Financing for the construction of DON facilities is obtained through budget appropriations. To the extent this
  financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
  capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting
  agencies.

  The NWCF's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
  Employees Retirement Systems (FERS), while military personnel are covered by the Military Retirement
  System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage
  under Social Security. The NWCF funds a portion of the civilian and military pensions. Reporting civilian
  pension under CSRS and FERS retirement systems is the responsibility of the Office of Personnel
  Management (OPM). The NWCF recognizes an imputed expense for the portion of civilian employee pensions
  and other retirement benefits funded by the OPM in the Statement of Net Cost; and recognizes corresponding
  imputed revenue from the civilian employee pensions and other retirement benefits in the Statement of
  Changes in Net Position.

  To prepare reliable financial statements, transactions occurring between components or activities within the
  NWCF must be eliminated. However, the NWCF cannot accurately identify all intragovernmental transactions
  by customer. The Defense Finance and Accounting Service (DFAS) is responsible for eliminating transactions
  between components or activities of the NWCF. For FY 1999 and beyond, seller entities within the Department
  provided summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-
  side internal DoD accounting offices. In most cases, the buyer-side records have been adjusted to recognize
  unrecorded costs and accounts payable. Intra-DoD intragovernmental balances were then eliminated.

  The Department of the Treasury, Financial Management Service is responsible for eliminating transactions
  between the Department of Defense or Navy and other federal agencies. In September 2000, the Financial
  Management Service issued the "Federal Intragovernmental Transactions Accounting Policies and Procedures
  Guide." The Department was not able to fully implement the policies and procedures in this guide related to
  reconciling intragovernmental assets, liabilities, revenues, and expenses for non-fiduciary transactions. The
  NWCF, however, was able to implement the policies and procedures contained in the "Intragovernmental
  Fiduciary Transactions Accounting Guide," as updated by the "Federal Intragovernmental Transactions
  Accounting Policies and Procedures Guide," issued October 2002, for reconciling intragovernmental
  transactions. These transactions pertain to investments in federal securities, borrowings from the United States
  (U.S.) Treasury and the Federal Financing Bank, Federal Employees' Compensation Act transactions with the
  Department of Labor, and benefit program transactions with the OPM.


166
1.H. Transactions with Foreign Governments and International Organizations
Each year, DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the "Arms Export Control Act of 1976." Under the provisions of
this Act, DoD has authority to sell defense articles and services to foreign countries and international
organizations, generally at no profit or loss to the U.S. Government. Customers may be required to make
payments in advance.

1.I. Funds with the U.S. Treasury
The NWCF financial resources are maintained in U.S. Treasury accounts. Cash collections, disbursements,
and adjustments are processed worldwide at DFAS, Military Services, and the U.S. Army Corps of Engineers
(USACE) disbursing stations, as well as the Department of State financial service centers. Each disbursing
station prepares monthly reports, which provide information to the U.S. Treasury on check issues, electronic
fund transfers, interagency transfers and deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
maintained in the Treasury's system. Differences between the NWCF recorded balance in the FBWT accounts
and Treasury's FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are
provided at Note 3.

1.J. Foreign Currency
Not Applicable.

1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are
based upon analysis of collection experience by fund type. DoD does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against another federal agency are to be resolved
between the agencies. Material disclosures are provided in Note 5.

1.L. Loans Receivable.
Not Applicable.

1.M. Inventories and Related Property
Effective FY 2003, Statement of Federal Financial Accounting Standards No.23, “Eliminating the Category
National Defense Property, Plant, and Equipment,” revises accounting principles for military equipment
(previously referred to as National Defense Property, Plant, and Equipment). The standard renames National
Defense Property, Plant, and Equipment to military equipment, classifies military equipment as general
property, plant, and equipment, and requires the capitalization and depreciation of the cost of military
equipment, including the cost of modifications and upgrades. Likewise, military equipment also includes items,
which will now be classified as Operating Materials and Supplies. Military equipment is reported on the books
of the DON General Fund.

The majority of the NWCF inventories are reported at approximate historical cost using Latest Acquisition Cost
(LAC) adjusted for holding gains and losses. The remaining inventory is valued using Moving Average Cost
(MAC). The NWCF uses the LAC method because its inventory systems were designed for material
management rather than accounting. The systems provide accountability and visibility over inventory items.



                                                                          N AVY W ORKING C APITAL F UND           167
  They do not maintain the historical cost data necessary to comply with the SFFAS No. 3, "Accounting for
  Inventory and Related Property." Neither can they directly produce financial transactions using the U.S.
  Standard General Ledger (USSGL), as required by the Federal Financial Management Improvement Act of
  1996 (P.L. 104-208). DoD is transitioning to a MAC methodology for valuing inventory that when fully
  implemented will allow the NWCF to comply with SFFAS No. 3.

  SFFAS No. 3 distinguishes between "inventory held for sale" and "inventory held in reserve for future sale."
  There is no management or valuation difference between the two USSGL accounts. Further, the DoD manages
  only military or government-specific material under normal conditions. Items commonly used in and available
  from the commercial sector are not managed in the DoD material management activities. Operational cycles
  are irregular, and the military risks associated with stock-out positions have no commercial parallel. The DoD
  holds material based on military need and support for contingencies.

  Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. The OM&S,
  including munitions not held for sale, are valued at standard purchase price. The NWCF uses various methods
  of accounting for OM&S.

  The DoD policy is to account for condemned material (only) as "Excess, Obsolete, and Unserviceable." The
  net value of condemned material is zero, because the costs of disposal are greater than the potential scrap
  value. Material that can be potentially redistributed, presented in previous years as "Excess, Obsolete, and
  Unserviceable," is included in the "Held for Use" or "Held for Repair" categories according to its condition.

  In FY 2003, DoD adopted the use of an allowance to reflect impaired assets, i.e. Inventory Held for Repair.
  Previously, the DoD financial statements have presented its impaired assets at other than historical cost. The
  NWCF will implement the allowance method in conjunction with the transition to MAC.

  In addition, past audit results identified uncertainties about the completeness and existence of quantities used
  to produce the reported values. Material disclosures related to Inventory and Related Property are provided at
  Note 9.

  1.N. Investments in U.S. Treasury Securities
  Not Applicable.

  1.O. General Property, Plant and Equipment
  Effective FY 2003, SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and
  Equipment,” revises accounting principles for military equipment (previously referred to as National Defense
  Property, Plant, and Equipment). The standard renames National Defense Property, Plant, and Equipment to
  military equipment, classifies military equipment as general property, plant, and equipment, and requires the
  capitalization and depreciation of the cost of military equipment, including the cost of modifications and
  upgrades. Military equipment is reported on the books of the Department of the Navy General Fund.

  General PP&E assets and any improvements to the asset are capitalized at historical acquisition cost when the
  asset has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD
  capitalization threshold of $100 thousand. Improvement costs over the DoD capitalization threshold of $100
  thousand for General PP&E are required to be capitalized. All General PP&E, other than land, is depreciated
  on a straight-line basis. Land is not depreciated.




168
General PP&E has been capitalized and reported on the NWCF financial statements using the following DoD
capitalization thresholds: FY 1996 though FY 2004 - $100 thousand; FY 1995 - $50 thousand; FY 1994 - $25
thousand; and FY 1993 - $15 thousand.

For NWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E,
whether or not it meets the definition of any other PP&E categories. Military Equipment, Heritage Assets and
Stewardship Land owned or maintained on a NWCF installation are reported in the Supplemental Stewardship
Report of the applicable Military Department. To prevent duplicate reporting of the same Heritage Assets within
DON, the total number of DON-wide Heritage Assets are reported in the Required Supplementary Stewardship
Information of the Annual Audited Financial Statements of the DON General Funds (Treasury Index 17).

Material disclosures are provided at Note 10.

1.P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and
reported as an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and
expenses when the related goods and services are received.

1.Q. Leases
Generally, lease payments are for the rental of equipment and operating facilities and are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease), the NWCF records the applicable asset and liability if the value equals or exceeds the current
DoD capitalization threshold. The NWCF records the amounts as the lesser of the present value of the rental
and other lease payments during the lease term (excluding portions representing executory costs paid to the
lessor) or the assets fair value. The NWCF deems the use of estimates for these costs as adequate and
appropriate due to the relatively low dollar value of capital leases. Imputed interest was necessary to reduce
net minimum lease payments to present value calculated at the incremental borrowing rate at the inception of
the leases. In addition, the NWCF classifies leases that do not transfer substantially all of the benefits or risks
of ownership as operating leases and records payment expenses over the lease term.

1.R. Other Assets
The NWCF conducts business with commercial contractors under two primary types of contracts - fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, the NWCF provides financing payments. One type of financing payment that the NWCF makes, for real
property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, "Accounting for
Selected Assets and Liabilities," such payments are treated as construction in process and are reported on the
General PP&E line and in Note 10, General PP&E, Net.

In addition, based on the provision of the Federal Acquisition Regulation (FAR), the NWCF makes financing
payments under fixed price contracts that are not based on a percentage of completion. The NWCF reports
these financing payments as advances or prepayments in the "Other Assets" line item. The NWCF treats these
payments as advances or prepayments because the NWCF becomes liable only after the contractor delivers
the goods in conformance with the contract terms. If the contractor does not deliver a satisfactory product, the
NWCF is not obligated to reimburse the contractor for its costs and the contractor is liable to repay the NWCF
for the full amount of the advance.

The DoD has completed a review of all applicable federal accounting standards; applicable public laws on
contract financing FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part
1315, "Prompt Payment." The DoD has concluded that SFFAS No. 1 does not fully or adequately address the
subject of progress payment accounting and is considering what further action is appropriate.
                                                                             N AVY W ORKING C APITAL F UND            169
  1.S. Contingencies and Other Liabilities
  The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," defines a contingency as an existing
  condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the
  NWCF. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is
  recognized as a liability when a past event or exchange transaction has occurred, a future loss is probable and
  the amount of loss can be reasonably estimated.

  Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
  there is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss
  contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and
  assessments. The NWCF's loss contingencies arising as a result of pending or threatened litigation or claims
  and assessments occur due to events such as property damages and contract disputes.

  1.T. Accrued Leave
  Civilian annual leave that has been accrued and not used as of the balance sheet date is reported as a liability.
  The liability reported at the end of the fiscal year reflects the current pay rates.

  1.U. Net Position
  Net Position consists of unexpended appropriations and cumulative results of operations (CRO). Unexpended
  appropriations represent amounts of authority which are unobligated and have not been rescinded or
  withdrawn. Unexpended appropriations also represent amounts obligated but for which legal liabilities for
  payments have not been incurred.

  CRO for the NWCF represents the excess/loss of revenues over expenses less refunds to customers and
  returns to the U.S. Treasury since fund inception.

  1.V. Treaties for Use of Foreign Bases
  The DoD Components have the use of land, buildings, and other facilities, which are located overseas and
  have been obtained through various international treaties and agreements negotiated by the Department of
  State. The DoD capital assets overseas are purchased with appropriated funds; however, title to land and
  improvements is retained by the host country. Generally, treaty terms allow the DoD Components continued
  use of these properties until the treaties expire. These fixed assets are subject to loss in the event treaties are
  not renewed or other agreements are not reached which allow for the continued use by the Department.
  Therefore, in the event treaties or other agreements are terminated whereby use of the foreign bases is no
  longer allowed, losses will be recorded for the value of any irretrievable capital assets after negotiations
  between the U.S. and the host country have been concluded to determine the amount to be paid the U.S. for
  such capital investments.

  1.W. Comparative Data
  The Financial Statements and accompanying Notes to the Financial Statements report the financial position
  and results of operations for FY 2004. Financial statement fluctuations greater than 2 percent of total assets
  on the Balance Sheet and/or greater than 10 percent between FY 2003 and FY 2004, are explained within the
  Notes to the Financial Statements.

  1.X. Unexpended Obligations
  The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The
  financial statements do not reflect this liability for payment for goods/services not yet delivered.




170
1.Y. Problem Disbursements

As of                                           Sep-02      Sep-03      Sep-04     Decrease/Increase
(Amounts in thousands)                                                             from 2003 to 2004
 1. Total Problem Disbursements
   A. Absolute Unmatched Disbursements         $166,500     $88,748     $56,910             ($31,838)
   B. Negative Unliquidated Obligations                0           0           0                    0

 2. Total In-Transit Disbursements, Net               $0          $0         $0                    $0



Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
accounting system. Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation
but the payment is greater than the amount of the obligation recorded in the official accounting system. These
payments use available funds for valid receiving reports on delivered goods and services under valid contracts.
In-Transits represent the net value of disbursements and collections made by a DoD disbursing activity on
behalf of an accountable activity but not yet posted in an accounting system.

The NWCF had a problem disbursement absolute amount and net amount of $56,910 thousand and $35,225
thousand, respectively. NWCF problem disbursements continue to decrease from the prior years largely due
to improving system functionality and business processes. Additional emphasis on further reducing NWCF
problem disbursements has resulted in corresponding efforts to analyze and improve DFAS processes, and
determine solutions to reduce current inflow and their root causes.

UMDs, NULOs, and In-transit Disbursement, Net represent disbursements of the NWCF funds that have been
reported by a disbursing station to the Department of the Treasury, but have not yet been precisely matched
against the specific source obligation giving rise to the disbursements. For the most part, these payments
have been made using available funds and are based on valid receiving reports for goods and services
delivered under valid contracts.

The elimination of both Problem Disbursements and In-transits is one of the highest financial management
priorities of the OUSD(C). Problem Disbursements and In-transits represent a significant financial
management concern since: (1) accuracy of accounting reports is affected; (2) availability of funds is more
difficult to determine; and (3) the required research and resolution process becomes much more labor
intensive as the age of the problem disbursements increase. As a result the NWCF has efforts underway to
improve the systems and to resolve all previous problem disbursements.




                                                                         N AVY W ORKING C APITAL F UND            171
  NOTE 2. NON-ENTITY ASSETS


      As of September 30,                             2004            2003
      (Amounts in thousands)
      1. Intra-governmental Assets:
           A. Fund Balance with Treasury         $             0 $             0
           B. Investments                                      0               0
           C. Accounts Receivable                              0               0
           D. Other Assets                                     0               0
           E. Total Intra-governmental Assets    $             0 $             0

      2. Non-Federal Assets:
          A. Cash and Other Monetary Assets      $            0 $             0
          B. Accounts Receivable                          5,141          11,617
          C. Loans Receivable                                 0               0
          D. Inventory & Related Property                     0               0
          E. General Property, Plant and
             Equipment                                        0               0
          F. Investments                                      0               0
          G. Other Assets                                     0               0
          H. Total Non-Federal Assets            $        5,141 $        11,617

      3. Total Non-Entity Assets                 $        5,141 $        11,617

      4. Total Entity Assets                     $ 25,591,751 $ 25,969,815

      5. Total Assets                            $ 25,596,892 $ 25,981,432

      6. Other Information Related to Non-entity and Entity Assets:


  Fluctuations and/or Abnormalities
  The decrease of $6,476 thousand, 56 percent, in non-federal accounts receivable is the result of reduced
  outstanding interest, penalties, fines, and administrative fees.

  Definitions
  Asset accounts are either categorized as entity or non-entity. Entity accounts consist of resources that the
  agency has the authority to use, or where management is legally obligated to use funds to meet entity
  obligations, e.g., accounts payable. Non-entity accounts are assets that are held by an entity, but are not
  available for use in the operations of the entity, for example, interest, penalties and fines, as an agent of the
  Department of the Treasury.

  Composition of Non-entity Assets
  The $5,141 thousand included in non-entity non-federal accounts receivable represents interest, penalties,
  fines, & administrative fees. These fees do not belong to the Navy Working Capital Fund and will be submitted
  to the Department of the Treasury.




172
Other Disclosures Related to Non-entity Assets
No further disclosures required.

Note Reference

For regulatory discussion on Non-entity Assets, See Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1004.



NOTE 3.A. FUND BALANCE         WITH   TREASURY


As of September 30,                                          2004           2003
(Amounts in thousands)
1. Fund Balances:
    A. Appropriated Funds                                $       0      $         0
    B. Revolving Funds                                     861,243        1,827,646
    C. Trust Funds                                               0                0
    D. Other Fund Types                                          0                0
    E. Total Fund Balances                               $ 861,243      $ 1,827,646


2. Fund Balances Per Treasury Versus Agency:
    A. Fund Balance per Treasury                         $ 861,243      $ 1,827,646
    B. Fund Balance per NWCF                               861,243        1,827,646

3. Reconciling Amount                                    $          0   $          0

4. Explanation of Reconciliation Amount:
None.

5. Information Related to Fund Balance with Treasury:

Fluctuations and/or Abnormalities
Fund Balance with Treasury (FBWT) had a net decrease of $966,403 thousand, 53 percent, from FY 2003 to
FY 2004. The majority of the decreases (over 80 percent) are attributed to: $810,000 thousand decrease in
net outlays which is attributable to a disbursement of $448,000 thousand to the Navy General Fund in FY
2004. This transfer to the Navy General Fund was made in accordance with the Department of the Navy's
(DON) FY 2004 President's Budget; the Naval Shipyards had a net decrease of $94,636 thousand because
the budgeted stabilized billing rate for FY 2004 was lower than the FY 2003 billing rate. The Navy Supply
Management had a net decrease in net outlays of $447,545 thousand which was attributed to the increase in
disbursements that was the result of liquidating accounts payable in FY 2004.




                                                                        N AVY W ORKING C APITAL F UND       173
  Composition of Fund Balance with Treasury
  The FBWT of $861,243 thousand reflects the FY 2003 ending balance of $1,827,646 thousand plus FY 2004
  collections, disbursements, and other cash transactions recorded in the Navy Working Capital Fund (NWCF)
  Treasury sub-limit 97X4930.002. The following table details the amounts recorded as of September 30, 2004.
                      (Amounts in thousands)
                      Net Prior Year Adjustments                $              0
                      Collections                               $     24,016,877
                      Disbursements                             $    (24,718,258)
                      Other Cash Transactions, Net              $       (265,021)

  The following table provides a breakout of Other Cash Transactions, Net:
                      (Amounts in thousands)
                      Activity
                      Navy Supply Management        Appropriations Received       $ 130,446
                      Ordnance-Seal Beach           PBD 419 Cash Transfer            (42,800)
                      Transportation                Principal Payment to FFB       (107,667)
                      Navy Component                Public Law 108-87               (245,000)
                        Total                                                     $ (265,021)

  A direct appropriation of $130,446 thousand was provided to the NWCF Supply Management Activity through
  the allocation of the Department of Defense (DoD) Appropriations Act of 2004.
  Program Budget Decision 419 transferred $42,800 thousand for the residual accounting from NWCF Ordnance
  activity group, which became part of the General Fund in FY 2000.

  The principal payment of $107,667 thousand to the Federal Financing Bank relates to an outstanding debt
  principal amount reported by the Transportation Activity Group. See Note 6 for additional disclosures.

  As outlined in Office of the Under Secretary of Defense memorandum of December 9, 2003, a direct
  appropriation was provided to the Defense Working Capital Fund in the DoD Appropriations Act, 2004, P.L.
  108-87, Title V. Program Budget Decision 624, dated December 1, 2003 provided those funds to Navy Supply
  Management.

  Intragovernmental Payment and Collection (IPAC)
  IPAC differences are reconcilable differences that represent amounts recorded by Treasury but not reported by
  the organization. IPAC differences for the DON cannot be differentiated between NWCF and General Funds.
  Therefore, no IPAC differences are being reported for the NWCF. All amounts, if applicable, will be reported on
  the Department of the Navy General Fund statement.

  Other Disclosures Related to Fund Balance with Treasury
  No further disclosures required.

  Note Reference
  See Note Disclosure 1.I., Significant Accounting Policies, for additional discussion on financial reporting
  requirements and DoD policies governing Funds with the U.S. Treasury.

  For regulatory discussion on Fund Balance with Treasury, See DoD Financial Management Regulation, Volume
  6B, Chapter 10, paragraph 100501.


174
NOTE 3.B. DISCLOSURES RELATED            TO   SUSPENSE/BUDGET CLEARING ACCOUNTS

Information Related to Suspense/Budget Clearing Accounts:
The NWCF Suspense/Budget Clearing Accounts are being reported under Navy General Funds, Index 17.



NOTE 4. INVESTMENTS
Not Applicable.



NOTE 5. ACCOUNTS RECEIVABLE


                                                                  2004                               2003

                                                             Allowance For
                                              Gross Amount                        Accounts        Accounts
                                                               Estimated
                                                  Due                           Receivable, Net Receivable, Net
                                                             Uncollectibles
As of September 30,
(Amounts in thousands)
1. Intra-governmental
   Receivables:                               $   857,519              N/A       $    857,519    $    582,773
2. Non-Federal Receivables
  (From the Public):                          $    26,198    $           (8)     $     26,190    $    111,775
3. Total Accounts Receivable:                 $   883,717    $           (8)     $    883,709    $    694,548

4. Other Information Related to Accounts Receivable:

Fluctuations and/or Abnormalities
Intra-governmental accounts receivable increased $274,746 thousand, 47 percent, from FY 2003 to FY 2004.
This increase is mainly attributed to the increase of $352,938 thousand of supported undistributed collections.
The Navy Supply Management business area had a decrease of $48,357 thousand for the reduction in
undistributed collections that were applied/matched to the accounts receivable. Transportation business area
had a decrease of $44,940 thousand that was attributed to the Global War on Terrorism (GWOT). Normally,
the Military Sealift Command (MSC) bills and collects accounts receivables for the majority of its recurring
customers in the same month, but as the GWOT was initiated, MSC had an increase in new customers, and at
first was unable to bill and collect in the same month, which resulted in a higher than normal FY 2003 year-end
balance. The Depot Maintenance Aviation had a decrease of $66,703 thousand from the collection of
outstanding customer bills, which had been recorded in FY 2003 and liquidated in FY 2004.

Other activity groups' undistributed collections were impacted because of the shortened reporting period for
year-end, which prohibited the processing of some of the Daily Expenditure Files through September 30, 2004.




                                                                               N AVY W ORKING C APITAL F UND      175
  Non-federal Accounts Receivable decreased $85,585 thousand, 77 percent, from FY 2003 to FY 2004. The
  decrease of Non-federal Accounts Receivable in the amount of $91,458 thousand is predominantly attributed
  to the changes from FY 2003 to FY 2004 listed below:

            (Amount in thousands)
            Foreign Military Sales reclass JV                                 $     (24,314)
            MOCAS JV                                                                 30,175
            Combined Changes for Undistributed Supported /Unsupported                85,597
            Total                                                             $      91,458

  A posting logic flaw in the Material Financial Control System for the Supply Management business area
  continues from FY 2003. Progress has been made, however additional problems have surfaced; thus creating
  a lower than anticipated balance in the Allowance for Estimated Uncollectibles. In addition, the Industrial
  Fund's business processes will be changed as a result of the DON Financial Improvement Plan requiring them
  to record an allowance.

  Throughout the NWCF activities, a more aggressive role has been taken within the activities working in
  conjunction with their DFAS partners, to clear delinquent aged accounts receivables.

  Allowance Method
  The Statement of Federal Financial Accounting Standards No. 1 and the Department of Defense (DoD)
  Financial Management Regulation require that federal agencies establish an allowance for uncollectible
  accounts receivable non-federal accounts. This account has been established within the Navy Working Capital
  Fund (NWCF). This amount is low, as the NWCF requires an advance deposit from all non-federal entities
  prior to the commencement of work. Therefore, an assumption is made that the amount of uncollectible
  accounts should be negligible. The allowance amount represents a percentage of the total that was billed after
  the total project cost has been adjusted to reflect the advance deposit.

  Allocation of Undistributed Collections
  The DoD policy is to allocate supported undistributed collections between federal and non-federal categories
  based on the percentage of federal and non-federal accounts receivable. Supported undistributed collections in
  the amount of $352,938 thousand were applied against accounts receivable. (The allocation of supported
  undistributed did not result in an abnormal balance or allocations greater than 10 percent of the accounts
  receivable balance.) The NWCF allocates its unsupported undistributed collections in U. S. Standard General
  Ledger account 2400, Liability for Deposit Funds, Clearing Accounts, and Undeposited Collections. This
  treatment recognizes that the potential exists that some of these unsupported undistributed collections do not
  belong to the NWCF and will have to be paid to the appropriate fund holder.

  Trading Partner Data
  The NWCF's accounting systems do not capture trading partner data at the transaction level in a manner that
  facilitates trading partner aggregations. Therefore, the NWCF is unable to reconcile intragovernmental
  accounts receivable balances with most trading partners. Through the Business Management Modernization
  Program, DoD intends to develop long-term systems improvements that will capture the data necessary to
  perform reconciliations. The DON is also working on short-term solutions to gather the required information as
  outlined in the DON Financial Improvement Plan.

  Accounts Receivable Greater than 180 days
  The amount of non-federal and intragovernmental receivables over 180-days old is $20,515 thousand and
  $19,052 thousand, respectively.



176
Non-federal Refunds Receivable
The total amount of non-federal refund receivables does not exceed 10 percent of the non-federal accounts
receivable, net amount on the Balance Sheet.

Other Disclosures Related to Accounts Receivable
No further disclosures required.

Note Reference
For additional discussion on financial reporting requirements and DoD policies governing Trading Partner Data
and Accounts Receivable, see Notes 1.G. and 1.K, Significant Accounting Policies, respectively.

For regulatory discussion on Accounts Receivable, See Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1007.



NOTE 6. OTHER ASSETS

As of September 30,                                             2004             2003
(Amounts in thousands)
1. Intra-governmental Other Assets:
    A. Advances and Prepayments                             $          15    $   10,392
    B. Other Assets                                                     0             0
    C. Total Intra-governmental Other Assets                $          15    $   10,392

2. Non-Federal Other Assets:
    A. Outstanding Contract Financing Payments              $         0      $       0
    B. Other Assets (With the Public)                           717,191        868,808
    C. Total Non-Federal Other Assets                       $   717,191      $ 868,808

3. Total Other Assets:                                      $   717,206      $ 879,200

4. Other Information Related to Other Assets:

Fluctuations and/or Abnormalities
Intragovernmental Other Assets, Advances and Prepayments, decreased $10,376 thousand, 99 percent from
FY 2003 to FY 2004. This variance was the result of elimination adjustments to reflect the balances reported
on the seller's books (other Department of Defense (DoD)) in September 2003. For FY 2004, these
eliminations were not necessary to facilitate the DoD and federal-wide consolidation process, which is
discussed in Note 1.

Non-Federal Other Assets (Other Assets With the Public) decreased $151,616 thousand, 18 percent, which is
primarily attributed to the change in the outstanding principal balance of the Maritime Prepositioning Ships
(MPS) loan in the amount of $107,861 thousand.




                                                                            N AVY W ORKING C APITAL F UND       177
  Advances and Prepayments
  In FY 2003, the buyer-side advances to others account balances were adjusted to agree with seller-side
  advances from others account balances as reported on the books of other DoD reporting entities. Additionally,
  the buyer-side prepayment balances were adjusted to agree with seller-side deferred credits as reported on
  the books of other DoD reporting entities for FY 2003 only.

  Composition of Non-Federal Other Assets
  Non-Federal Other Assets (Other Assets With the Public) includes prepayments made by Navy Supply
  Management; revenue earned but not billed by Depot Maintenance, Shipyards; and deferred charges,
  advances, and unallocated costs.

  Other Disclosures Related to Other Assets
  None.

  Note Reference
  See Note 1.R., Significant Accounting Policies, for additional discussion on financial reporting requirements
  and DoD policies governing Other Assets.

  For regulatory discussion on Other Assets, See Department of Defense Financial Management Regulation,
  Volume 6B, Chapter 10, paragraph 1008.



  NOTE 7. CASH        AND   OTHER MONETARY ASSETS
  Not Applicable.



  NOTE 8. A. DIRECT LOAN          AND / OR   LOAN GUARANTEE PROGRAMS
  Not Applicable.



  NOTE 9. INVENTORY         AND   RELATED PROPERTY


      As of September 30,                                         2004             2003
      (Amounts in thousands)
      1. Inventory, Net (Note 9.A.)                          $   18,505,475 $ 17,519,382
      2. Operating Materials & Supplies, Net (Note 9.B.)            733,717      736,746
      3. Stockpile Materials, Net (Note 9.C.)                             0            0
      4. Total                                               $   19,239,192 $ 18,256,128




178
NOTE 9.A. INVENTORY, NET


                                                            2004                                2003
                                        Inventory,      Revaluation           Inventory,      Inventory,    Valuation
As of September 30,                    Gross Value      Allowance                Net             Net         Method
(Amounts in thousands)
1. Inventory Categories:
    A. Available and Purchased for                                                                              O
        Resale                        $ 22,561,554     $   (18,421,542)   $     4,140,012    $ 3,319,295
    B. Held for Repair                  13,520,824             372,350         13,893,174     13,242,934        O
    C. Excess, Obsolete, and
        Unserviceable                       708,360           (708,360)                 0               0       SP
    D. Raw Materials                              0                  0                  0               0
    E. Work in Process                      472,289                  0            472,289         957,153       AC

   F. Total                           $ 37,263,027 $       (18,757,552)   $ 18,505,475       $ 17,519,382

Legend for Valuation Methods:
   Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
   NRV = Net Realizable Value
   O = Other
   SP = Standard Price
   AC = Actual Cost

2. Restrictions of Inventory Use, Sale, or Disposition: None

3. Other Information:

Fluctuations and/or Abnormalities
Inventory Available and Purchased for Resale is a net increase of $820,716 thousand, 25 percent, from FY
2003 to FY 2004. The Cost of Goods Sold (COGS) model prior period adjustment, $534,077 thousand, was
reclassified to the inventory allowance account, thereby decreasing the inventory allowance which resulted in
an increase in inventory. In addition, Navy Supply Management had a reduction in purchases at cost in FY
2004 for approximately $300,000 thousand.

The Material Financial Control System (MFCS) posting logic is incorrect and caused an abnormal balance in
other liabilities, the Navy Supply Management business area's Other Supply Offices, had $568,567 thousand
reclassified to the inventory allowance account to more accurately reflect Navy Supply Management's financial
position and correct the posting logic.

Work in Process decreased $484,861 thousand, 51 percent, from FY 2003 to FY 2004 due to aggressive
clearing of backlogged work in process. The majority of this decrease is a result of Depot Maintenance,
Aviation, $175,529 thousand; Naval Air Warfare Center, decrease of $231,196 thousand, and Naval Surface
Warfare Center, decrease of $38,734 thousand. Due to Puget Sound Naval Shipyard becoming mission
funded in FY 2004, the shipyards work in process decreased $31,387 thousand.




                                                                          N AVY W ORKING C APITAL F UND         179
  The abnormal value of the allowance account for Inventory Held for Repair in the amount of ($372,350)
  thousand was caused by increased disposal of inventory held for the Inactive Inventory Investment Program.
  This program held material above requirements for potential market and recoupment of investment funds for a
  predetermined amount of time. Once the time expired, the inventory was disposed.

  Changes in Accounting Methods
  Navy Supply Management started implementation of SMART, an Enterprise Resource Planning (ERP) System
  in FY 2003. The inventory capitalized into ERP is valued at Moving Average Cost (MAC). Under the MAC
  inventory valuation method, the "per item" inventory value can change upon each new purchase.

  Valuation Methods
  The valuation method O (Other) included in the numeric note table above for inventory categories Available
  and Purchased for Resale and Held for Repair were provided because the amounts reported are valued at
  both Latest Acquisition Cost (LAC) and MAC. A breakout of these amounts by valuation method is as follows:

                      (Amounts in thousands)
                      Inventory Available and Purchased for Resale, Net
                      Latest Acquisition Cost                   $3,359,312
                      Moving Average Cost                          780,700
                         Total                                  $4,140,012

                      Inventory Held for Repair, Net
                      Latest Acquisition Cost                        $13,397,093
                      Moving Average Cost                                496,081
                         Total                                       $13,893,174

  Restrictions of Inventory Use, Sale, or Disposition
  Generally, there are no restrictions with regard to the use, sale, or disposition to applicable Department of
  Defense (DoD) activities and personnel. Other than certain safety and war reserve levels, inventory may be
  sold to foreign, state and local governments, private parties and contractors in accordance with DoD and the
  Department of the Navy (DON) policies and guidance or at the direction of the President.

  Composition of Inventory
  Except for the Work in Process, all Inventory categories shown in the table above apply to the Supply
  Management Activities only.

  Inventory Categories. Inventory represents property that is (1) held for sale, (2) in the process of production for
  sale or (3) to be consumed in the production of goods for sale or in the provision of services for a fee.

  Inventory Available and Purchase for Resale includes consumable spare and repair parts and repairable items
  owned and managed by the DON. In some cases, the consumable and repairable items are managed by other
  Military Services, such as the Defense Logistics Agency or the General Services Administration. Material
  available and purchased for resale includes material held due to a managerial determination that it should be
  retained to support military or national contingencies. Federal Accounting Standards require disclosure of the
  amount of Inventory Held for "Future Sale". The Navy Working Capital Fund estimates there is currently no
  Inventory Held for Future Sale reported for FY 2004 in Inventory Held for Sale, Net.




180
Included in Line 1.A., Inventory Available and Purchased for Resale, is an amount of $156,925 thousand for
War Reserve Material for Navy Supply Management. Marine Corps Supply Management currently has no War
Reserve Material.

Inventory Held for Repair is inventory that requires repair to make suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because the DON often relies on weapon
systems and machinery no longer in production, the DON supports a process that encourages the repair and
rebuilding of certain items. This repair cycle is an essential part of maintaining a ready, mobile, and armed
military force.

Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be
economically repaired and are awaiting disposal. The DON does not anticipate recovering any significant costs
as a result of final disposal of these items. Therefore, Excess, Obsolete, and Unserviceable inventory will
reflect a net realizably value of zero.

Work in Process balances include costs related to the production or servicing of items, including direct
material, direct labor, applied overhead and other direct costs. Work in Process also includes the value of
finished products or completed services pending billing to the customer. The Work in Process designation may
also be used to accumulate the amount paid to a contractor under cost reimbursable contracts, including the
amount withheld from payment to ensure performance, and the amount paid to other Government plants for
accrued costs of end items of material ordered but not delivered.

Inventory Work in Process
Work in process at Depot Maintenance activities and Research and Development activities of approximately
$120,004 thousand and $352,286 thousand, respectively, is included as inventory Work in Process in Note
9.A. These amounts are reported in inventory because the U.S. Government Standard General Ledger
(USSGL) does not provide a separate account for Work in Process. This amount represents work that has
been completed, expenses incurred, and waiting to be billed to the customer.

Other Disclosures Related to Inventory
The general ledger values in the accounting system do not reconcile with the supporting detail records in the
Navy segment of the Supply Management Activity logistics system. Navy Supply Management has determined
that program changes must be made to MFCS to correct systemic posting problems, which contribute to a
reconciling difference between the systems. Twenty-four System Change Requests have been prepared and
submitted. Once approved and executed, final adjustments will be made to inventory and financial systems to
align the data.

Note Reference
See Note 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Inventory and Related Property.

For regulatory discussion on Inventory, Net, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1011.




                                                                           N AVY W ORKING C APITAL F UND        181
  NOTE 9.B. OPERATING MATERIALS                AND   SUPPLIES, NET


                                                                   2004                       2003
                                                    OM&S
                                                    Gross      Revaluation                              Valuation
      As of September 30,                           Value      Allowance     OM&S, Net    OM&S, Net     Method
      (Amounts in thousands)
      1. OM&S Categories:
          A. Held for Use                          $ 733,717   $          0 $   733,717   $   736,746        O
          B. Held for Repair                               0              0           0             0
          C. Excess, Obsolete, and
              Unserviceable                                0              0           0             0
          D. Total                                 $ 733,717   $          0 $   733,717   $   736,746

         Legend for Valuation Methods:
         Adjusted LAC = Latest Acquisition Cost        NRV = Net Realizable Value
           adjusted for holding gains and losses       O = Other
         SP = Standard Price
         AC = Actual Cost


  2. Restrictions on OM&S: None

  3. Other Information Related to OM&S:

  Fluctuations and/or Abnormalities
  No further disclosures required.

  Restrictions on OM&S
  Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S applicable the
  Department of Defense (DoD) activities.

  Composition of OM&S
  OM&S Held for Use represents property that is consumed during normal operations and includes consumable
  spare and repair parts for use on customer work by various activities. The items are recorded using different
  methodologies including actual, weighted-average and historical cost. Federal Accounting Standards requires
  disclosure of the amount of OM&S Held for "Future Use". The Navy Working Capital Fund estimates that
  $13,674 thousand of the OM&S Held for Use, Net will be for future use. There is no management or valuation
  difference between the two categories.

  Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
  Generally, the values of the NWCF's GFM and CAM in the hands of contractors are not included in the OM&S
  values reported above. DoD is presently reviewing its process for reporting these amounts in an effort to
  determine the appropriate accounting treatment and the best method to annually collect and report required
  information without duplicating information already in other existing logistics systems.

  Other Disclosures Related to OM&S
  No further disclosures required.




182
Note Reference
See Note 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Inventory and Related Property.

For regulatory discussion on OM&S, Net, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 101107.



NOTE 9.C. STOCKPILE MATERIALS, NET
Not Applicable.



NOTE 10. GENERAL PP&E, NET

                                                                    2004                                                    2003

                                  Depreciation/                                      (Accumulated
                                                                   Acquisition                                        Prior FY Net
                                  Amortization Service Life                          Depreciation/   Net Book Value
                                                                     Value                                            Book Value
                                    Method                                           Amortization)
As of September 30,
(Amounts in thousands)
1. Major Asset Classes:
    A. Land                            N/A           N/A       $        50,740            N/A         $     50,740    $     63,711
      B. Buildings, Structures,
         and Facilities                S/L         20 Or 40          5,780,915       $ (3,727,618)        2,053,297       2,496,894
      C. Leasehold Improvements        S/L        lease term               302               (164)              138             169
      D. Software                      S/L         2-5 Or 10           414,331           (200,236)          214,095         106,935
      E. Equipment                     S/L          5 Or 10          3,354,530         (2,471,542)          882,988         921,981
      F. Military Equipment            S/L          Various                  0                  0                 0               0
      G. Assets Under Capital
                 [1]
         Lease                         S/L        lease term                     0              0                0                 0
      H. Construction-in-
           Progress                    N/A           N/A               682,665            N/A              682,665         730,671
      I. Other                                                          11,619                  0           11,619           3,549

      J. Total General PP&E                                    $ 10,295,102          $ (6,399,560)    $ 3,895,542     $ 4,323,910


[1]
  Note 15.B for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line     N/A = Not Applicable

2. Other Information Related to General PP&E, Net:

Fluctuations and/or Abnormalities
Land decreased $12,972 thousand, 20 percent. The Naval Air Warfare Centers (NAWCs) became a tenant of
Commander, Naval Installation (CNI), as of October 1, 2003, resulting in the transfer of land to CNI, which
caused a decrease of $11,563 thousand. The Naval Undersea Warfare Center (NUWC) had a decrease of
$646 thousand because of a transfer of land to CNI also.




                                                                                       N AVY W ORKING C APITAL F UND               183
  Buildings, Structures, and Facilities decreased $443,596 thousand, 17.8 percent from FY 2003 to FY 2004.
  The majority of the decrease is a result of the NAWC decrease of $327,565 thousand and the NUWC
  decrease of $76,040 thousand transfer of assets to CNI.

  Leasehold Improvements decreased $31 thousand, 18 percent, due to increased depreciation in the
  Transportation Business Area.

  Software increased $107,160 thousand, 100 percent, from FY 2003 to FY 2004. The increase is primarily
  attributed to an increase in the Depot Maintenance Aviation business areas as a result of its Enterprise
  Resource Planning (ERP), System configuration Management Information System, Naval Air Systems
  Command (NAVAIR) Depot Maintenance System and the Depot Maintenance System becoming operational in
  FY 2004.

  GPP&E Other increased $8,070 thousand, 227 percent, from FY 2003 to FY 2004 due to property awaiting
  disposal. With the implementation of ERP, this is the book value of the Defense Industrial Financial
  Management System (DIFMS) that is no longer being depreciated.

  Military Equipment
  Military equipment is reported on the books of the Department of Navy General Fund.

  Fully Depreciated Assets
  The acquisition value of fully depreciated assets reported in the Balance Sheet amount to $3,325,566
  thousand as of September 30, 2004.

  Outside of the Continental United States (OCONUS) GPP&E
  Included in the Major Asset Classes disclosed in Note 10 are assets located OCONUS. As of September 30,
  2004 the amount of OCONUS was $322,816 thousand.

  Contractor Held GPP&E
  For those activities with GPP&E real property in the possession of contractors, the value of this real property is
  included in the values reported for the Major Asset Classes of Buildings, Structures, and Facilities. The value
  of personal property in Major Asset Classes of Automated Data Processing Software and Equipment does not
  include all of the GPP&E in the possession of contractors. The net book amount of such property is immaterial
  in relation to the total GPP&E net book value. In accordance with an approved strategy with the Office of
  Management and Budget, the General Accounting Office, and the Inspector General Department of Defense,
  the Department of Defense is developing new policies and a contractor reporting process to capture GPP&E
  information for future reporting purposes for compliance with federal-wide accounting standards.

  Other Disclosures Related to GPP&E
  For the Naval Supply Systems Command, the value of GPP&E is potentially overstated. Implementation of the
  Defense Property Accounting System (DPAS) has recorded all plant, property, and equipment since its
  inception in October 1999. The value of equipment is overstated in the Central Database (CDB) due to a lack
  of an interface between the source system, DPAS and the Defense Business Management System (DBMS).
  Additionally, the GPP&E that was resident in the CDB prior to October 1999 remains in the CDB. The amounts
  reported in the CDB appear on the balance sheet, but potentially overstate the true value of the GPP&E. Navy
  Supply Management plans to initiate the interface with DPAS and DBMS, for equipment, during the first quarter
  of FY 2005. There are initiatives underway to identify corrective actions for the reporting of land, buildings, and
  software during FY 2005. This deficiency has been noted in the DON Financial Improvement Plan.




184
Note Reference
See Note 1.O., Significant Accounting Policies, for additional discussion on financial reporting requirements
and the Department of Defense (DoD) policies governing GPP&E.

For regulatory discussion on GPP&E, Net, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1012.



NOTE 10.A. ASSETS UNDER CAPITAL LEASE
Information Related to Assets Under Capital Lease:
The Navy Working Capital Fund has no assets under capital lease.

Other Disclosures Related to Assets Under Capital Lease
No further disclosures required.

Note References
See Note 1.Q., Significant Accounting Policies, for additional discussion on financial reporting requirements
and the DoD policies governing Leases.



NOTE 11. LIABILITIES NOT COVERED            BY   BUDGETARY RESOURCES


As of September 30,                                               2004            2003
(Amounts in thousands)
1. Intra-governmental Liabilities:
      A. Accounts Payable                                    $           0    $           0
      B. Debt                                                            0                0
      C. Environmental Liabilities                                       0                0
      D. Other                                                       5,141           11,617
      E. Total Intra-governmental Liabilities                $       5,141    $      11,617

2. Non-Federal Liabilities:
     A. Accounts Payable                                     $            0   $           0
     B. Military Retirement Benefits and
         Other Employment-Related Actuarial Liabilities          1,168,225        1,409,853
     C. Environmental Liabilities                                        0                0
     D. Loan Guarantee Liability                                         0                0
     E. Debt Held by Public                                              0                0
     F. Other Liabilities                                                0                0
     G. Total Non-Federal Liabilities                        $   1,168,225    $   1,409,853

3. Total Liabilities Not Covered by Budgetary
   Resources                                                 $   1,173,366    $   1,421,470

4. Total Liabilities Covered by Budgetary
   Resources                                                $    8,401,653    $   7,467,848

5. Total Liabilities                                        $    9,575,019    $   8,889,318




                                                                           N AVY W ORKING C APITAL F UND        185
  Fluctuations and/or Abnormalities
  The decrease of $6,476 thousand, 55 percent, in other intragovernmental liabilities is the result of reduced
  outstanding refunds receivable and interest.

  The decrease of $241,628 thousand, 17 percent, in Military Retirement Benefits and Other Employment-
  Related Actuarial Liabilities is based on the amount received from the Department of Labor.

  Definitions
  Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
  realized budgetary resources as of the balance sheet date.

  The Intragovernmental Liabilities, Other amount of $5,141 thousand represents interest, penalties, fines &
  administrative fees. These fees do not belong to the Navy Working Capital Fund and will be distributed directly
  to the Department of the Treasury.

  Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
  The $1,168,225 thousand included in Military Retirement Benefits and Other Employment-Related Actuarial
  Liabilities represents Federal Employees' Compensation Act liabilities.

  Note Reference
  For additional line item discussion, see Note 12, Accounts Payable; Note 15, Other Liabilities; Note 16,
  Commitments and Contingencies; and Note 17, Military Retirement Benefits and Other Employment Related
  Actuarial Liabilities.



  NOTE 12. ACCOUNTS PAYABLE


                                                                       2004                             2003
                                                                     Interest,
                                                      Accounts     Penalties, and       Total           Total
                                                      Payable      Administrative
      As of September 30,                                              Fees
      (Amounts in thousands)
      1. Intra-governmental Payables:             $       243,982        N/A        $     243,982   $     313,786
      2. Non-Federal Payables (to the Public):    $     1,862,567 $             0   $   1,862,567   $   2,102,870
      3. Total                                    $     2,106,549 $             0   $   2,106,549   $   2,416,656




  4. Other Information Related to Accounts Payable:

  Fluctuations and/or Abnormalities
  Intragovernmental Accounts Payable had a net decrease of $69,804 thousand, 22 percent, from FY 2003 to
  FY 2004. The decrease is attributed to the Component business area that had a total decrease of $400,775
  thousand of which a net decrease of $257,016 thousand reflects an accounts payable adjustment that moved
  unsupported undistributed disbursements to disbursements in transit; a net decrease of $122,149 thousand
  reflects an adjustment to accounts payable that reclassified intragovernmental to public and a decrease of
  $21,611 thousand that is attributed to eliminations.




186
There was an increase of $333,902 thousand in accounts payable that was attributed to the Ordnance
business area of $119,474 thousand. This increase was offset by undistributed disbursements and the
continual clearing of residual accounts in this business area; the Naval Air Warfare Center’s (NAWC's)
increase of $121,160 thousand related to the implementation of SIGMA Enterprise Resource Planning (ERP)
System. During the NAWC's implementation, undistributed disbursements were higher in FY 2003. With the
system being fully operational, the problems encountered in FY 2003 have been corrected in FY 2004 and the
proper balances are reflected. Navy Supply Management increased $140,217 thousand, which was attributed
to the increase in supplies ordered during FY 2004 and the decrease of undistributed disbursements. See
below for discussion on the composition and allocation of undistributed disbursements.

In February 2003, the Department of Defense (DoD) Appropriations Act authorized the Navy Working Capital
Fund (NWCF) Cash Balance and Rate Stabilization Adjustment for the Ordnance activity group for $120,000
thousand that decreased accounts payable because a Voucher for Transfers between Appropriations and/or
Funds was used and this transaction created an undistributed disbursement. Navy Supply Management
increased $140,217 thousand because of the activity at the field level accounts payable records. Space and
Naval Warfare System Center had a decrease of $73,673 thousand. The majority of the undistributed
disbursements represent Mechanization of Contract Administration Services (MOCAS) payments, which had
not liquidated. NAWC increased $121,160 thousand due to delayed processing of the Daily Expenditure File
in September 2004, which created an undistributed disbursement.

Approximately 85-90 percent of Intragovernmental Other Liabilities includes the Industrial Fund's contract
accruals. Contract accruals are the costs of contractual services rendered by either commercial or government
organizations, which are accrued over the anticipated life of each service contract. Accruals are rolled-up in
the accounting system as Other Liabilities and should be adjusted based on paid vouchers. The Department of
the Navy (DON) Financial Improvement Plan is addressing the accounting deficiencies of not posting contract
accruals as accounts payable. The NWCF will continue to reflect abnormal accounts payable until the solution
is implemented.

Other activity groups' undistributed collections were impacted because of the shortened reporting period for
year-end, which prohibited the processing of some of the Daily Expenditure Files through September 30, 2004.

Non-Federal Accounts Payable decreased $240,303 thousand, 11 percent, from FY 2003 to FY 2004. Net
adjustments were made in the Component business area which were attributed to a net decrease of $148,349
thousand which was moved from unsupported undistributed disbursements to disbursements in transit (other
liabilities); a net increase in the amount of $122,149 thousand was reclassified payables from
intragovernmental to non-federal in order to reconcile trading partner data. The remaining $221,780 thousand
decrease is related to the Naval Surface Warfare Center. This decrease was caused by a new business
practice of running cash daily and the clean up of old accounts payables. The Transportation business area
decreased because they were able to resolve outstanding unmatched disbursements during FY 2004.

Definitions
Intragovernmental accounts payable consists of amounts owed to other federal agencies for goods or services
ordered and received but not yet paid. Interest, penalties, and administrative fees are not applicable to
intragovernmental payables. Non-Federal payables are payments to non-federal government entities (to the
public).




                                                                        N AVY W ORKING C APITAL F UND            187
  Undistributed Disbursements
  Undistributed disbursements are the difference between disbursements/collections recorded at the transaction
  level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported by
  the U.S. Treasury via the reconciled DD1329 and DD1400. The total undistributed disbursement amounts
  displayed in this note should agree with the undistributed amounts reported on the accounting reports
  (SF133/AR(M)1307). In-transit payments are payments that have been made for other agencies or entities that
  have not been recorded in their accounting records. These payments are applied to each entity's outstanding
  accounts payable balance at year-end.

  Allocation of Undistributed Disbursements
  The DoD policy is to allocate supported undistributed disbursements between federal and nonfederal
  categories based on the percentage of Federal and Nonfederal accounts payable. Supported undistributed
  disbursements in the amount of $237,294 thousand were applied against Accounts Payable. Unsupported
  undistributed disbursements should be recorded in U.S. Standard General Ledger (USSGL) account 2120,
  Disbursements in Transit. The NWCF reclassified $604,251 thousand to in-transit payments.

  Composition of Undistributed Disbursements
  The majority of the undistributed disbursements represent MOCAS payments, which have not been liquidated.
  MOCAS payments represent those payments made to contractors for materials or services that are greater
  than $2,500 dollars. Accruals are made when the service is performed and remains in this account until the
  provider submits an invoice for payment. Therefore, if a copy of the invoice is not received by the NWCF
  activity prior to the Defense Finance and Accounting Service making payment, the payment will go to
  undistributed disbursements. The amounts accrued to cover the anticipated materials and services are
  captured as Contract Accruals on the Other Accrued Expense line (Note 15.A., Other Liabilities, Nonfederal:
  Other Liabilities) and are not considered an accounts payable.

  Note 3 describes a $448,000 thousand disbursement to the Navy General Fund. This transfer to the Navy
  General Fund was made in accordance with the Department of the Navy's FY 2004 President's Budget
  resulting in an undistributed disbursement in the Component business area that was also applied to accounts
  payable.

  Trading Partner Data
  For the majority of intra-agency sales, NWCF accounting systems do not capture trading partner data at the
  transaction level in a manner that facilitates trading partner aggregations. Therefore, the NWCF was unable to
  reconcile the majority of its intragovernmental accounts payable to the related intragovernmental accounts
  receivable that generated the payable. Through an ongoing Business Management Modernization Program,
  the DoD intends to develop long-term systems improvements that will capture the data necessary to perform
  reconciliations. The DON has outlined some processes for review and implementation in the DON Financial
  Improvement Plan, which should provide some near-term solutions.

  Eliminating Adjustments
  The DoD summary level seller accounts receivables were compared to NWCF accounts payable. An
  adjustment was posted to the NWCF accounts payable based on the comparison with the accounts receivable
  of the DoD Components providing goods and services to the NWCF. As required, adjustments were made to
  reclassify accounts payable from Federal to Public.




188
Other Disclosures Related to Accounts Payable
The NWCF also disbursed $448,000 thousand to the Navy General Fund in April 2004 in accordance with the
Department of the Navy's FY 2004 President's Budget, which also created an undistributed disbursement in
the Component business area.

Note Reference
See Note 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Trading Partner Data and Eliminating Adjustments.



NOTE 13. DEBT


                                                                    2004                          2003
                                                   Beginning       Net            Ending         Ending
As of September 30,                                 Balance     Borrowings        Balance        Balance
(Amounts in thousands)
1. Public Debt:
     A. Held by Government Accounts                    N/A           N/A            N/A            N/A
     B. Held by the Public                             N/A           N/A            N/A            N/A
     C. Total Public Debt                              N/A           N/A            N/A            N/A

2. Agency Debt:
     A. Debt to the Treasury                       $       0    $        0 $             0   $           0
     B. Debt to the Federal Financing Bank           615,648      (109,370)        506,278         615,648
     C. Debt to Other Federal Agencies                     0             0               0               0
     D. Total Agency Debt                          $ 615,648    $ (109,370) $      506,278   $     615,648

3. Total Debt:                                     $ 615,648    $ (109,370) $      506,278   $     615,648

4. Classification of Debt:
     A. Intragovernmental Debt                                                $    506,278   $     615,648
     B. Non-Federal Debt                                                            N/A            N/A
     C. Total Debt                                                            $    506,278   $     615,648

5. Other Information



Fluctuations and/or Abnormalities
Intragovernmental Debt decreased $109,370 thousand, 18 percent, from FY 2003 to FY 2004 as a result of the
reduction of the outstanding debt principal and interest amount reported for the Transportation Activity Group.

Other Information Related to Debt
The Afloat Propositioning Force - Navy (APF-N) program, with Congressional approval, provides ships for Time
Charter to meet requirements not available in the marketplace. These ships are built or converted by private
Interim Vessel Owners using private, non-government financing obtained from various banking institutions.
There were no payments made by the government during the building/conversion phase. APF-N Time
Charters are for five years with four option renewal periods of five years each, for a total of 25 years. At the
end of the contract, each ship returns to the vessels owner.



                                                                           N AVY W ORKING C APITAL F UND           189
  The Federal Financing Bank (FFB) is one of the institutions that provided loans to the vessel owners. The FFB
  is reporting a debt in the amount of $506,278 thousand which represents an outstanding principal balance of
  $498,583 thousand and accrued interest payable of $7,695 thousand for the Transportation activity group.
  This information is being presented in error as the transportation activity group does not owe this debt to the
  FFB. This debt is a public debt owed by the private vessel owners. In order to simplify the payments to the
  FFB and to meet its requirements, the FFB cross-disburses the semi-annual principal and interest payments
  directly from the Navy Working Capital Fund (NWCF). This is done instead of having the Military Sealift
  Command (MSC) make Capital Hire payments to the vessel owners, who would in turn make its loan
  obligation payments to the FFB.

  The direction of the vessel owner to have the government make payments directly to a bank, in this case the
  FFB, is not an uncommon practice, and mirrors other Time Charters where payment is assigned directly to a
  bank. This occurred when the ownership of these vessels was transferred to private vessel owners; however,
  the FFB when establishing the loan coded the loan as a government debt.

  As required by the Under Secretary of Defense (Comptroller) memorandum of January 22, 1999, MSC is
  correctly recording these payments as an operating expense. However, the outstanding debt principal amount
  is reported in the NWCF Balance Sheet as an Other Asset to reconcile with the amount reported by the FFB
  through the trading partner elimination process. The misclassification by the FFB has generated this long-
  standing reporting problem. See Note 6 for additional disclosures.

  As required by the Department of Defense Appropriations Act passed in December 1985, 10 percent of the fifth
  year termination value of the vessels must be obligated from Operation and Maintenance, Navy funds. This
  was completed as each vessel was delivered.

  Note References
  See Note 3, Fund Balance with Treasury and Note 6, Other Assets, for additional discussion on the Debt to the
  Federal Financing Bank.

  For regulatory discussion on Debt, Net, see Department of Defense Financial Management Regulation,
  Volume 6B, Chapter 10, paragraph 1015.



  NOTE 14. ENVIRONMENTAL LIABILITIES           AND   DISPOSAL LIABILITIES
  Not Applicable.




190
NOTE 15.A. OTHER LIABILITIE


                                                                                     2004                            2003
                                                                  Current         Noncurrent
                                                                                                     Total           Total
As of September 30,                                               Liability        Liability
(Amounts in thousands)
1. Intragovernmental:
       A. Advances from Others                                $       72,509      $            0 $    72,509     $   239,595
       B. Deferred Credits                                                 0                   0           0               0
       C. Deposit Funds and Suspense Account
           Liabilities                                                        0                0             0               0
       D. Resources Payable to Treasury                                       0                0             0               0
       E. Disbursing Officer Cash                                             0                0             0               0
       F. Nonenvironmental Disposal Liabilities:
          (1) National Defense PP&E (Nonnuclear)                          0                    0           0               0
          (2) Excess/Obsolete Structures                                  0                    0           0               0
          (3) Conventional Munitions Disposal                             0                    0           0               0
          (4) Other                                                       0                    0           0               0
       G. Accounts Payable-- Cancelled Appropriations                     0                    0           0               0
       H. Judgement Fund Liabilities                                      0                    0           0               0
       I. FECA Reimbursement to the Department of Labor                   0                    0           0               0
       J. Capital Lease Liability                                         0                    0           0               0
       K. Other Liabilities                                          42,342                    0      42,342          49,673
       L. Total Intragovernmental Other Liabilities           $     114,851       $            0 $   114,851     $   289,268

2. Non-Federal:
      A. Accrued Funded Payroll and Benefits                  $     746,226       $            0 $    746,226    $   726,494
      B. Advances from Others                                       477,383                    0      477,383        194,779
      C. Deferred Credits                                                 0                    0            0              0
      D. Loan Guarantee Liability                                         0                    0            0              0
      E. Liability for Subsidy Related to Undisbursed Loans               0                    0            0              0
      F. Deposit Funds and Suspense Accounts                        341,793                    0     341,793         235,588
      G. Temporary Early Retirement Authority                             0                    0            0              0
      H. Nonenvironmental Disposal Liabilities:
         (1) National Defense PP&E (Nonnuclear)                               0                0             0               0
         (2) Excess/Obsolete Structures                                       0                0             0               0
         (3) Conventional Munitions Disposal                                  0                0             0               0
         (4) Other                                                            0                0             0               0
      I. Accounts Payable--Cancelled Appropriations                           0                0             0               0
      J. Accrued Unfunded Annual Leave                                        0                0             0               0
      K. Accrued Entitlement Benefits for Military Retirees
          and Survivors                                                 0                      0           0               0
      L. Capital Lease Liability                                        0                      0           0               0
      M. Other Liabilities                                      4,113,706                      8   4,113,714       3,001,030
      N. Total Non-Federal Other Liabilities                  $ 5,679,108         $            8 $ 5,679,116     $ 4,157,891
3. Total Other Liabilities:                                   $ 5,793,959         $            8 $ 5,793,967     $ 4,447,159

4. Other Information Pertaining to Other Liabilities:

Fluctuations and/or Abnormalities
On the balance sheet, Intragovernmental Other Liabilities decreased $174,416 thousand, 60 percent, from FY
2003 to FY 2004. The Component business area reflects a decrease of $162,608 thousand, which includes an
adjustment of $277,020 thousand for buyer side eliminations.



                                                                                  N AVY W ORKING C APITAL F UND              191
  Approximately 85-90 percent of Intragovernmental Other Liabilities includes the Industrial Fund's contract
  accruals. Contract accruals are the costs of contractual services rendered by either commercial or government
  organizations, which are accrued over the anticipated life of each service contract. Accruals are rolled-up in
  the accounting system as Other Liabilities and should be adjusted based on paid vouchers. The Department of
  the Navy (DON) Financial Improvement Plan is addressing the accounting deficiencies of not posting contract
  accruals as accounts payable. The Navy Working Capital Fund (NWCF) will continue to reflect the abnormal
  accounts payable and other liabilities until the solution is implemented.

  Non-Federal Accounts Receivable decreased from FY 2003 to FY 2004 in the amount of $6,476 thousand or
  55 percent as a result of reduced outstanding refunds receivable and interest reported in Mechanization of
  Contract Administration Services, (MOCAS).

  In addition the increase is attributed to Depot Maintenance Shipyards growth in Advances for Revenue
  Recognition, which have been cross-walked within the Department of Defense Reporting System to Advances
  from Others. Specified projects at the Naval Shipyards are funded using fixed price versus the reimbursable
  method. This amount actually represents the difference between what the activity billed the customer and that
  which it actually earned as determined by what was physically accomplished on the job. Preliminary analysis
  indicates this amount would be more appropriately posted to Progress Payments - Work in Progress. A review
  of this amount will be included in the Department of the Navy Financial Improvement Plan.

  Non-Federal Other Liabilities increased $1,521,225 thousand, 37 percent, from FY 2003 to FY 2004. The
  Component business area had an increase of $333,432 thousand that was attributed to Non-Federal Advances
  from Others which increased $282,604 thousand, 145 percent, from FY 2003 to FY 2004. This amount is
  primarily attributable to a reclassification in the Component business area in the amount of $277,020 thousand,
  to adjust for trading partner data. The $1,044,000 thousand that was included FY 2003 was reclassified as a
  prior year adjustment. Also, the Navy Supply Management business area had an increase of $1,306,495
  thousand due to the reclassification of $568,567 thousand abnormal balance and an increase of $676,000
  thousand in depot level reparable carcass returns.

  Composition of Other Liabilities
  Intragovernmental Other Liabilities represents liabilities of $42,342 thousand for fringe benefits and the
  Voluntary Separation Incentive Program.

  Non-federal Deposit Funds and Suspense Account Liabilities increased $106,205 thousand, 45 percent, which
  include amounts for unsupported undistributed collections.

  Non-federal Other Liabilities includes amounts that are significant portions of the total liabilities presented in
  the NWCF balance sheet. A breakout of the major components of Non-federal Other Liabilities follows:

      a. Accrual of Contractual Services represents an accrued liability for direct work performed by contractors or
         material and supplies purchased for a direct order in which a request for payment has not been received.
         The accrual is based on the level of effort performed for the direct order on a monthly basis.

      b. Depot Level Repairable Carcass Return Liability represents the value of returned depot level repairable
         carcasses that have been received by an accountable activity from an end-use activity but for which an
         issue has not yet been processed.




192
c.   Other Liabilities includes a $(1,044,715) thousand allocation of unsupported undistributed disbursements.
     This allocation was based on the Defense Finance and Accounting Service memorandum dated
     October 10, 1997, which directed the allocation of undistributed disbursements to the DoD Military
     Services from their Defense Working Capital Fund corporate account. During FY 2004, the $1,044,715
     thousand was treated as a prior period adjustment.

     The remainder of the Other Liabilities amount consists of Progress Payments, which show the balance of
     payments taken for accrued costs charged to Work in Process or the value of material procured and held
     for specific orders received from customers within the DoD.

Intragovernmental Reconciliation for Fiduciary Transactions with Department of Labor (DOL)
With respect to the major fiduciary balances, the NWCF was able to reconcile with the DOL.

Other Disclosures Related to Other Liabilities
No further disclosures required.

Note References
See Note 1.S., Significant Accounting Policies, for additional discussion on financial reporting requirements
and the DoD policies governing Contingencies and Other Liabilities



NOTE 15.B. CAPITAL LEASE LIABILITY

Information Related to Capital Lease Liability:
The NWCF has no capital lease liability.

Other Disclosures Related to Capital Lease Liability
No further disclosures required.

Note Reference
See Note 1.Q., Significant Accounting Policies, for additional discussion on financial reporting requirements
and the DoD policies governing Leases.

For regulatory discussion on Capital Lease Liability, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1017.



NOTE 16. COMMITMENTS          AND   CONTINGENCIES
Information Related to Commitments and Contingencies:
The Navy Working Capital Fund (NWCF) is a party in various administrative proceedings and legal actions that
may ultimately result in settlements or decisions adverse to the Federal Government. These proceedings and
actions arise in the normal course of operations and their ultimate disposition is unknown. In the event of an
adverse judgment against the Government, some of the liabilities may be payable from the Judgment Fund.
Others may be payable from the Department's resources, either directly or by reimbursement to the Judgment
Fund. Based on information currently available, however, it is management's opinion that the expected
outcome of these matters, individually or in the aggregate, will not have a material adverse effect on the
Department.




                                                                           N AVY W ORKING C APITAL F UND         193
  For fiscal years 2003 and 2004, the materiality threshold for reporting litigation, claims, or assessments was
  $5.8 million and $3.5 million, respectively. The amounts set forth above for civil and environmental litigation,
  claims, and assessments represent the aggregate of the amounts of claims, litigation or assessments
  considered to be significant for reporting purposes based on the established materiality thresholds. These
  amounts represent the maximum amounts of any potential liability of the Government based on the amounts
  claimed. Management does not consider it to be at all likely that the Government will be liable for such
  maximum amounts.

  The NWCF reported a total amount of 10 cases in FY 2004. However, the Department of the Navy (DON) is
  unable to express an opinion concerning the likely outcome of these cases.


  Reference
  See Note Disclosure 1.S. - Significant Accounting Policies for additional discussion on financial reporting
  requirements and DoD policies governing Contingencies and Other Liabilities.

  For regulatory discussion on Commitments and Contingencies, see Department of Defense Financial
  Management Regulation, Volume 6B, Chapter 10, paragraph 1018.



  NOTE 17. MILITARY RETIREMENT BENEFITS                     AND   OTHER EMPLOYMENT RELATED ACTUARIAL
  LIABILITIES

                                                                                  2004                                      2003

                                                           Actuarial
                                                                        Assumed    (Less: Assets         Unfunded         Unfunded
                                                        Present Value
                                                                         Interest Available to Pay       Actuarial        Actuarial
                                                         of Projected
                                                                        Rate (%)     Benefits)            Liability        Liability
                                                        Plan Benefits
      As of September 30,
      (Amount in Thousands)
      1. Pension and Health Benefits:
         A. Military Retirement Pensions                $          0               $            0    $            0   $                0
         B. Military Retirement Health Benefits                    0                            0                 0                    0
         C. Medicare-Eligible Retiree Benefits                     0                            0                 0                    0
         D. Total Pension and Health Benefits           $          0               $            0    $            0   $                0

      2. Other
         A. FECA                                        $   1,168,225     4.883% $             0     $  1,168,225     $     1,409,853
         B. Voluntary Separation Incentive Programs                 0                          0                0                   0
         C. DoD Educational Benefits Fund                           0                          0                0                   0
         D. Total Other                                 $   1,168,225              $           0     $ 1,168,225      $     1,409,853

      3. Total Military Retirement Benefits and Other
          Employment Related Actuarial Liabilities:     $   1,168,225              $           0     $ 1,168,225      $     1,409,853


  4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related
     Actuarial Liabilities:

  Actuarial Cost Method Used:
  The Department of the Navy (DON) actuarial liability for workers' compensation benefits is developed by the
  Department of Labor (DOL) and provided to the DON at the end of each fiscal year. The liability is distributed
  between the Navy Working Capital Fund (NWCF) and DON General Fund based upon the number of civilian
  employees funded in each entity as reported in the Navy Budget Tracking System. The liability includes the

194
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The
liability is determined using a method that utilizes historical benefit payment patterns to predict the ultimate
payments.

Assumptions:
The projected annual benefit payments are discounted to the present value using the Office of Management
and Budgets (OMB's) economic assumptions for 10-year U.S. Treasury notes and bonds. Cost-of-living
adjustments and medical inflation factors are also applied to the calculation of projected future benefits. The
interest rate assumptions used in the discount calculations were as follows as of September 30, 2004:

       4.883 percent in year 1,
       5.235 percent in year 2 and thereafter

Market Value of Investments in Market-based and Marketable Securities:
Not Applicable.



NOTE 18. UNEXPENDED APPROPRIATIONS
Not Applicable.



NOTE 19.A GENERAL DISCLOSURES RELATED                  TO THE   STATEMENT      OF   NET COST

Disclosures Related to the Statement of Net Cost:

Fluctuations and/or Abnormalities
The overall increase of $598,195 thousand, 136 percent, was attributed to the Component business area
reclassifying expenses from intragovernmental to non-federal in order to adjust the trading partner data
received from other federal reporting entities. The Statement of Net Cost reflects the circumstances and
general business conditions of the Activities of the Navy Working Capital Fund (NWCF). In FY 2004, the
business conditions of the NWCF included: reduction in new orders and workload changes; restraints on
overhead; transition of Puget Sound Naval Shipyard out of NWCF; deferred maintenance and stabilized rate
adjustments.

The goal of the Net Cost of Operations is to maintain an income and expense account that comes close to
break even. It is not the goal of the U.S. Government to make a profit.

Composition of Statement of Net Cost
The NWCF generally records transactions on an accrual basis as required by federal generally accepted
accounting principles. Information presented on the Statement of Net Cost represents the net result of post-
closing adjustments and eliminating entries made in compiling and consolidating the NWCF financial
statements. These entries significantly affected the reported amounts of Intragovernmental Program Cost,
Program Cost with the Public, Earned Revenue and Net Program Cost. The post-closing adjustments were
made in order to increase or decrease certain NWCF account balances reported as of September 30, 2004 to
ensure agreement with related balances reported by other Department of Defense (DoD) activities and other
federal reporting entities. Eliminating entries are required adjustments made as part of the financial process.
This process enables the matching of trading partner data recorded at each financial statement consolidation
level -- the NWCF, DoD and Federal Government levels.



                                                                           N AVY W ORKING C APITAL F UND           195
  Other Disclosures Related to the Statement of Net Cost
  The Statement of Net Cost was impacted by recording a Prior Period Adjustment in the amount of $103,258
  thousand as a current year transaction in accordance with the federal accounting standards. See Note 20 for
  further disclosures.



  NOTE 19.B. GROSS COST           AND   EARNED REVENUE       BY   BUDGET FUNCTIONAL CLASSIFICATION
  Not Applicable.



  NOTE 19.C. GROSS COST TO GENERATE INTRAGOVERNMENTAL REVENUE AND EARNED
  REVENUE (TRANSACTIONS WITH OTHER FEDERAL-NON-DOD-ENTITIES) BY BUDGET FUNCTIONAL
  CLASSIFICATION
  Not Applicable.



  NOTE 19.D. IMPUTED EXPENSES


      As of September 30,                                   2004             2003
      (Amount in thousands)
      1. Civilian (e.g.,CSRS/FERS) Retirement           $     243,406    $   270,127
      2. Civilian Health                                      300,500        272,241
      3. Civilian Life Insurance                                  980          1,013
      4. Military Retirement Pension                                0              0
      5. Military Retirement Health                                 0              0
      6. Judgment Fund                                              0              0
      7. Total Imputed Expenses                         $     544,886    $   543,381

  8. Other Information

  Related to Imputed Expense:
  The NWCF financial statements have recognized an imputed expense for civilian employee pensions, life
  insurance, and health benefits in the Statement of Net Cost. Imputed expenses for employee benefits were
  calculated using cost factors provided by the Office of Personnel Management (OPM) applied against gross
  basic pay for all categories of civilian service employees. The gross basic pay amounts were extracted directly
  from the Defense Civilian Pay System (DCPS). Judgment Fund claims are reported in the Navy General Fund
  statements and notes.

  Other Disclosures Related to Imputed Expenses
  No further disclosures required.



  NOTE 19.E. BENEFIT PROGRAM EXPENSES
  Not Applicable.



  NOTE 19. F. EXCHANGE REVENUE
  Disclosures related to the Exchange Revenue:

196
Definition
Exchange revenue arises when a government entity provides goods and services to the public or to another
Government entity for a price, "earned revenue". Exchange revenue includes most user charges other than
taxes, i.e., regulatory user charges.

Other Disclosures Related to Exchange Revenue
No further disclosures required.

Note Reference
For regulatory discussion on Exchange Revenue, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 102120.



NOTE 19.G. AMOUNTS         FOR   FOREIGN MILITARY SALES (FMS) PROGRAM PROCUREMENTS                         FROM
CONTRACTORS
Not Applicable.



NOTE 19.H. STEWARDSHIP ASSETS
Not Applicable.



NOTE 19.I. INTRAGOVERNMENTAL REVENUE                AND   EXPENSE

Disclosures Related to Intergovernmental Revenue and Expense:
Intragovernmental Revenue. The Navy Working Capital Fund (NWCF) accounting systems do not capture
trading partner data at the transaction level in a manner that facilitates trading partner aggregations. Therefore,
the NWCF was unable to reconcile intragovernmental revenue balances with the majority of its trading
partners. Action has been taken to reconcile some of the smaller accounts manually. Through an ongoing
Business Management Modernization Program (BMMP), the Department of Defense (DoD) intends to develop
long-term systems improvements that will capture the data necessary to perform reconciliations.

Intragovernmental Operating Expenses
The NWCF operating expenses were adjusted based on a comparison between the NWCF's accounts payable
and the DoD summary level seller accounts receivable. Adjustments were posted to accounts payable and
operating expenses to reflect the following reported balances: other trading partners; Federal Financing Bank
(FFB) payments for debt; interest, penalties, fines & administrative fees data call; and resolution of abnormal
accounts payables in accordance with current guidance. The operating expenses of the NWCF were adjusted
downward in the net amount of $905,726 thousand.

The Office of Management and Budget (OMB) has established a working group to review the current business
practices in place to capture the data exchanged between federal agencies and to determine what changes
need to be incorporated. The Department of the Navy (DON) has representation on the Office of the Under
Secretary of Defense (Comptroller) group, which is working directly with OMB to ensure that all aspects (e.g.,
financial, logistics and security) of DoD are given full consideration. Based on the large volume of
intragovernmental transactions that occur, this project is a major undertaking and will take several years to
complete with the ultimate goal of having this process totally automated.



                                                                            N AVY W ORKING C APITAL F UND             197
  Other Disclosures Related to Exchange Revenue
  No further disclosures required.



  NOTE 19.J. SUBORGANIZATION PROGRAM COSTS
  Not Applicable.



  NOTE 20. DISCLOSURES RELATED              TO THE   STATEMENT         OF   CHANGES     IN   NET POSITION



                                                     Cumulative         Unexpended           Cumulative     Unexpended
                                                     Results of        Appropriations        Results of    Appropriations
                                                     Operations            2004              Operations        2003
      As of September 30,                              2004                                    2003
      (Amounts in thousands)
      1. Prior Period Adjustments Increases
      (Decreases) to Net Position Beginning
      Balance:
        A. Changes in Accounting Standards       $                0$                0 $                   0 $           0
        B. Errors and Omissions in Prior Year
            Accounting Reports                               0                      0                   0               0
        C. Other Prior Period Adjustments          (1,044,715)                      0         (1,044,715)               0
        D. Total Prior Period Adjustments        $ (1,044,715) $                    0 $       (1,044,715) $             0

      2. Imputed Financing:
         A. Civilian CSRS/FERS Retirement        $       243,406 $                  0 $          270,127 $              0
         B. Civilian Health                              300,500                    0            272,241                0
         C. Civilian Life Insurance                          980                    0              1,013                0
         D. Military Retirement Pension                        0                    0                  0                0
         E. Military Retirement Health                         0                    0                  0                0
         F. Judgment Fund                                      0                    0                  0                0
         G. Total Imputed Financing              $       544,886 $                  0 $          543,381 $              0

      3. Other Information:

  Fluctuations and/or Abnormalities
  In FY 1995, the Department of the Navy received $1,044,715 thousand in undistributed Net Outlays from the
  Office of the Secretary of Defense corporate account. This value was adjusted to the Navy Working Capital
  Fund (NWCF) Component business area.

  Composition of Statement of Changes in Net Position
  During FY 2004, the $1,044,715 thousand was treated as a prior period adjustment. NWCF activities capture
  prior period adjustments in their accounting systems. Adjustments in the amount of $103,258 thousand were
  reclassified to current year operations because their individual values did not meet the material threshold
  outlined in the OUSD(C) memo of June 8, 2003.




198
Based on Office of the Under Secretary of Defense (OUSD) (C) direction, amounts generated as prior period
adjustments within the Cost of Goods Sold model were moved to inventory allowance accounts. The amounts
are as follows:

             (Amount in thousands)                              FY 2004           FY 2003
             Navy Supply Management                         $       (533,848) $    (951,964)
             Marine Corps Supply Management                 $           (229) $     178,768

The Other Budgetary Financing Sources line on the Statement of Changes in Net Position includes $258,002
thousand for amounts reclassified to Other Gains or Other Losses from Transfers-In and Transfers-Out.
Transfers-In amounts are required to agree with Transfers-Out amounts received from seller-side data.

Imputed Financing
The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the
Civil Service Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits
Program and the Federal Employee Group Life Insurance Program do not fully cover the Government's cost to
provide these benefits. An imputed cost is recognized as the difference between the Government's cost of
providing these benefits to the employees and contributions made by and for them. The OPM provides the cost
factors to the Defense Finance and Accounting Service (DFAS) for computation of imputed financing cost. The
DFAS provides the costs to OUSD(Personnel and Readiness) for validation. Approved imputed costs are
provided to the reporting components for inclusion in their financial statements.



NOTE 21. DISCLOSURES RELATED          TO THE   STATEMENT       OF   BUDGETARY RESOURCES


As of September 30,                                                 2004            2003
(Amounts in thousands)
1. Net Amount of Budgetary Resources Obligated for
     Undelivered Orders at the End of the Period           $     6,901,108 $        8,043,629
2. Available Borrowing and Contract Authority at the
     End of the Period                                           6,156,853          5,880,543


3. Other Information:

Fluctuations and/or Abnormalities
None.

Information Related to the Statement of Budgetary Resources:
The Statement of Budgetary Resources (SBR) is an image of the monthly Report on Budget Execution
(Standard Form (SF) 133). These reports should be produced using budgetary accounts. However, the Navy
Working Capital Fund (NWCF) uses proprietary accounts because its financial accounting systems were not
designed to produce budgetary accounting data. The Department of the Navy (DON) and the Defense Finance
and Accounting Service (DFAS) continue with the implementation of new accounting systems designed to
produce both proprietary and budgetary reports and use the U.S. Standard General Ledger (USSGL). The
Defense Industrial Financial Management System (DIFMS) has been fully implemented at all Research and
Development (R&D) activities that were scheduled for conversion. R&D activity Space and Naval Warfare




                                                                           N AVY W ORKING C APITAL F UND      199
  Systems Command, San Diego has successfully implemented the Enterprise Resource Planning (ERP)
  System (Cabrillo) thus moving off DIFMS. Also, the Naval Air Warfare Centers (NAWCs) have moved from
  DIFMS to their ERP (SIGMA). The ERPs are programmed to complete the SBR at the activity level. The
  Defense Working Capital Fund Accounting System (DWAS) implementation continues to be implemented at
  the Base Support Activities.

  As of September 30, 2004, the SBR does not measure the NWCF's budget execution against budgetary
  resources. Budgetary resources are recorded in the accounting records and reported on the basis of customer
  orders received and contract authority invoked. On these reports, the spending authority from offsetting
  collections during the period of execution is based upon the approved President's Budget estimate of
  anticipated customer orders. Further, there are system deficiencies that have been identified, which are being
  addressed in the DON Financial Improvement Plan.

  For the SBR, Supply Management's revenue is defined as gross sales less credit returns. For the balance
  sheet, revenue does not include credit returns because the inventory valuation model considers credit returns
  as inventory allowances. The difference in "meanings" causes variances in the reports. On these budgetary
  reports, the net outlays (collections and disbursements) year to date are reported based on the amounts
  reported to the U.S. Treasury.

  As of September 30, 2004, the differences between the U.S. Treasury and the NWCF activity ledgers have
  been minimal, and the cause is related to timing or the type of transactions. The differences are recorded as
  undistributed disbursements and collections on the departmental reports. While there may be no impact upon
  the U.S. Treasury balance, the above differences have created distortions in the accounts receivable and
  accounts payable from a budgetary reporting perspective on the SBR. Also, problems with undistributed
  collections and disbursements have created abnormal balances for accounts receivable and accounts payable
  on the SBR.

  Intra-entity Transactions
  The SBR does not include intra-entity transactions because the statements are presented as combined and
  combining.

  Apportionment Categories
  The amount of direct and reimbursable obligations incurred against amounts apportioned under categories A,
  B, and exempt from apportionment as required by OMB Bulletin 01-09 are as follows:

                 (Amounts in Thousands)
                 Obligations Incurred – Direct             Line 8A     $             0
                 Obligations Incurred – Reimbursable       Line 8B     $    24,316,447
                 Exempt from apportionment -               Line 9B     $             0



  Undelivered Orders
  Undelivered Orders presented in the SBR includes Undelivered Orders-Unpaid for reimbursable funds.

  Spending Authority from Offsetting Collections
  Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently
  not available are not included in the Spending Authority from Offsetting Collections line on the SBR or the
  Spending Authority for Offsetting Collections line on the Statement of Financing.



200
Other Disclosures Related to the Statement of Budgetary Resources
No further disclosures required.



NOTE 22. DISCLOSURES RELATED              TO THE    STATEMENT      OF   FINANCING
Disclosures Related to the Statement of Financing:
The Statement of Financing is designed to provide information on the total resources used by an entity, to
explain how those resources were used to finance orders for goods and services not yet delivered, to acquire
assets and liabilities, and to fund the entity's net cost of operations. It is designed to report the differences and
facilitate the reconciliation of accrual-based amounts used in the Statement of Net Cost and obligation-based
amounts used in the Statement of Budgetary Resources. The computations and presentation of items in the
Statement of Financing demonstrate that the budgetary and proprietary information in an entity's financial
management system is in agreement.

The Defense Finance and Accounting Service (DFAS) Navy Working Capital Fund (NWCF) accounting
systems and Navy Enterprise Resource Planning (ERP), include budgetary accounts. However some of the
legacy NWCF accounting systems do not. As a result, the Statement of Budgetary Resources (SBR) is
generated by DFAS using data extracted from the proprietary accounts.

The detailed level of information required to appropriately complete the SBR is being developed for those
activities that cannot provide the data due to system deficiencies. Due to the system deficiencies, the
Statement of Financing line, Resources that Finance the Acquisition of Assets, was adjusted upward by
$2,209,934 thousand.

Intra-entity transactions have not been eliminated because statements are presented as combined and
combining.

Other Disclosures Related to the Statement of Financing
No further disclosures required.



NOTE 23. DISCLOSURES RELATED              TO THE    STATEMENT      OF   CUSTODIAL ACTIVITY
Not Applicable.




                                                                              N AVY W ORKING C APITAL F UND             201
  NOTE 24.A. OTHER DISCLOSURES
  Entity as Lessee - Operating Leases


      As of September 30,                                          2004                               2003
      (Amounts in thousands)
                                         Land and
         Future Payments Due:            Buildings     Equipment          Other         Total         Total
         Fiscal Year
         2005                        $               0 $           0 $            0 $           0 $           511
         2006                                        0             0              0             0               0
         2007                                        0             0              0             0               0
         2008                                        0             0              0             0               0
         2009                                        0             0              0             0               0
         After 5 Years                               0             0              0             0               0
         Total Future Lease
         Payments Due                $               0 $           0 $            0 $           0 $           511

  Fluctuations and/or Abnormalities
  The Military Sealift Command (MSC) had an operating lease for a corporate data center, which commenced
  December 1, 1999 for a lease period of one year with three option years. MSC exercised the final option to
  buy the equipment prior to the end of FY 2004 in the amount of $494 thousand.

  Definitions
  Lessee - A person or entity who receives the use and possession of leased property (e.g. real estate or
  equipment) from a lessor in exchange for a payment of funds.

  Operating Lease - A lease which does not transfer substantially all the benefits and risks of ownership.
  Payments should be charged to expense over the lease term as it becomes payable.

  Land and Building Leases consist of:
  Description of Leases:
  None.

  Equipment Leases consist of:
  None.

  Other Leases consist of:
  None.



  NOTE 24.B. OTHER DISCLOSURES
  Not Applicable.




202
          DEPARTMENT OF THE NAVY

NAVY WORKING CAPITAL FUND SUPPORTING
 CONSOLIDATING/COMBINING STATEMENTS




                                                                   CONSOLIDATING/COMBINING STATEMENTS
                                                                           NWCF SUPPORTING




                                   N AVY W ORKING C APITAL F UND             203
Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003
($ in thousands)

                                                              Depot              Depot              Depot
                                                           Maintenance,       Maintenance,       Maintenance,       Ordnance
                                                            Shipyards           Aviation         Marine Corps
ASSETS (Note 2)
  Intragovernmental:
   Fund Balance with Treasury (Note 3)
        Entity                                        $         390,127   $        59,035    $       (33,400)   $     31,211
        Non-Entity Seized Iraqi Cash                                  0                 0                  0               0
        Non-Entity - Other                                            0                 0                  0               0
   Investments (Note 4)                                               0                 0                  0               0
   Accounts Receivable (Note 5)                                  12,622            77,089             13,051               1
   Other Assets (Note 6)                                              0                 0                 12               0
         Total Intragovernmental Assets               $         402,749   $       136,124    $       (20,337)   $     31,212
  Cash and Other Monetary Assets (Note 7)             $               0   $             0    $             0    $          0
  Accounts Receivable (Note 5)                                      170               345                168               0
  Loans Receivable (Note 8)                                           0                 0                  0               0
  Inventory and Related Property (Note 9)                       194,782           482,857             75,509               0
  General Property, Plant and Equipment (Note 10)               660,252           349,981             51,708             140
  Investments (Note 4)                                                0                 0                  0               0
  Other Assets (Note 6)                                          74,319             2,724                  0               0
TOTAL ASSETS                                          $       1,332,272   $       972,031    $       107,048    $     31,352

LIABILITIES (Note 11)
  Intragovernmental:
   Accounts Payable (Note 12)                          $         17,340   $       232,530    $        35,558    $      5,655
    Debt (Note 13)                                                    0                 0                  0               0
   Environmental Liabilities (Note 14)                                0                 0                  0               0
   Other Liabilities (Note 15 & Note 16)                         49,084             4,798              8,691               0
          Total Intragovernmental Liabilities          $         66,424   $       237,328    $        44,249    $      5,655
  Accounts Payable (Note 12)                           $         48,666   $        27,190    $         9,863    $      4,641
  Military Retirement Benefits and Other
    Employment-Related Actuarial Liabilities (Note 17)                0                 0             22,365               0
  Environmental Liabilities (Note 14)                                 0                 0                  0               0
  Loan Guarantee Liability (Note 8)                                   0                 0                  0               0
  Other Liabilities (Note 15 and Note 16)                       270,258           276,612              5,621           8,182
  Debt Held by Public (Note 13)                                       0                 0                  0               0
TOTAL LIABILITIES                                      $        385,348   $       541,130    $        82,098    $     18,478

NET POSITION
  Unexpended Appropriations (Note 18)                 $               0   $             0    $             0    $          0
  Cumulative Results of Operations                              946,924           430,901             24,950          12,874
TOTAL NET POSITION                                    $         946,924   $       430,901    $        24,950    $     12,874

TOTAL LIABILITIES AND NET POSITION                    $       1,332,272   $       972,031    $       107,048    $     31,352


   204
Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003
($ in thousands)


                                                                                            Research &        Supply
                                                         Transportation    Base Support    Development      Management

ASSETS (Note 2)
  Intragovernmental:
   Fund Balance with Treasury (Note 3)
        Entity                                           $     286,324     $     178,398   $   1,131,923    $   (943,264)
        Non-Entity Seized Iraqi Cash                                 0                 0               0               0
        Non-Entity - Other                                           0                 0               0               0
   Investments (Note 4)                                              0                 0               0               0
   Accounts Receivable (Note 5)                                 98,318           156,404          40,962         180,053
   Other Assets (Note 6)                                             0                 0             (52)              0
         Total Intragovernmental Assets                  $     384,642     $     334,802   $   1,172,833    $   (763,211)
  Cash and Other Monetary Assets (Note 7)                $           0     $           0   $           0    $          0
  Accounts Receivable (Note 5)                                     260            22,077          58,385         (37,657)
  Loans Receivable (Note 8)                                          0                 0               0               0
  Inventory and Related Property (Note 9)                        3,359            25,965         423,534      18,033,186
  General Property, Plant and Equipment (Note 10)               44,085           669,697       1,562,410         557,269
  Investments (Note 4)                                               0                 0               0               0
  Other Assets (Note 6)                                        499,745             1,320          22,745         116,393
TOTAL ASSETS                                             $     932,091     $   1,053,861   $   3,239,907    $ 17,905,980

LIABILITIES (Note 11)
  Intragovernmental:
   Accounts Payable (Note 12)                            $      58,011     $     31,593    $    (104,113)   $    607,304
    Debt (Note 13)                                             506,278                0                0               0
   Environmental Liabilities (Note 14)                               0                0                0               0
   Other Liabilities (Note 15 & Note 16)                         3,092            4,339          202,063          55,888
          Total Intragovernmental Liabilities            $     567,381     $     35,932    $      97,950    $    663,192
  Accounts Payable (Note 12)                             $     340,937     $    160,902    $     728,336    $    514,214
  Military Retirement Benefits and Other
    Employment-Related Actuarial Liabilities (Note 17)               0                0                0                0
  Environmental Liabilities (Note 14)                                0                0                0                0
  Loan Guarantee Liability (Note 8)                                  0                0                0                0
  Other Liabilities (Note 15 and Note 16)                       49,533          117,179        2,260,277        2,137,570
  Debt Held by Public (Note 13)                                      0                0                0                0
TOTAL LIABILITIES                                        $     957,851     $    314,013    $   3,086,563    $   3,314,976

NET POSITION
  Unexpended Appropriations (Note 18)                    $            0    $          0    $          0     $          0
  Cumulative Results of Operations                              (25,760)        739,848         153,344       14,591,004
TOTAL NET POSITION                                       $      (25,760)   $    739,848    $    153,344     $ 14,591,004

TOTAL LIABILITIES AND NET POSITION                       $     932,091     $   1,053,861   $   3,239,907    $ 17,905,980



                                                                               N AVY W ORKING C APITAL F UND         205
      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING BALANCE SHEET
      As of September 30, 2004 and 2003
      ($ in thousands)

                                                                   Component          Combined
                                                                                                   Eliminations
                                                                     Level              Total

      ASSETS (Note 2)
        Intragovernmental:
         Fund Balance with Treasury (Note 3)
              Entity                                           $     (239,111)    $    861,243     $         0
              Non-Entity Seized Iraqi Cash                                   0               0               0
              Non-Entity - Other                                             0               0               0
         Investments (Note 4)                                                0               0               0
         Accounts Receivable (Note 5)                                 279,019          857,519               0
         Other Assets (Note 6)                                              55              15               0
               Total Intragovernmental Assets                  $       39,963     $ 1,718,777      $         0
        Cash and Other Monetary Assets (Note 7)                $             0    $          0     $         0
        Accounts Receivable (Note 5)                                  (17,558)          26,190               0
        Loans Receivable (Note 8)                                            0               0               0
        Inventory and Related Property (Note 9)                              0      19,239,192               0
        General Property, Plant and Equipment (Note 10)                      0       3,895,542               0
        Investments (Note 4)                                                 0               0               0
        Other Assets (Note 6)                                              (55)        717,191               0
      TOTAL ASSETS                                             $       22,350     $ 25,596,892     $         0

      LIABILITIES (Note 11)
        Intragovernmental:
         Accounts Payable (Note 12)                            $     (639,896)    $     243,982    $         0
          Debt (Note 13)                                                    0           506,278              0
         Environmental Liabilities (Note 14)                                0                 0              0
         Other Liabilities (Note 15 & Note 16)                       (213,104)          114,851              0
                Total Intragovernmental Liabilities            $     (853,000)    $     865,111    $         0
        Accounts Payable (Note 12)                             $       27,818     $   1,862,567    $         0
        Military Retirement Benefits and Other                                                               0
          Employment-Related Actuarial Liabilities (Note 17)        1,145,860          1,168,225
        Environmental Liabilities (Note 14)                                0                   0             0
        Loan Guarantee Liability (Note 8)                                  0                   0             0
        Other Liabilities (Note 15 and Note 16)                      553,884          5,679,116              0
        Debt Held by Public (Note 13)                                      0                   0             0
      TOTAL LIABILITIES                                        $     874,562      $   9,575,019    $         0

      NET POSITION
        Unexpended Appropriations (Note 18)                    $            0     $          0     $         0
        Cumulative Results of Operations                             (852,212)      16,021,873               0
      TOTAL NET POSITION                                       $     (852,212)    $ 16,021,873     $         0

      TOTAL LIABILITIES AND NET POSITION                       $       22,350     $ 25,596,892     $         0



206
Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2004 and 2003
($ in thousands)

                                                          2004 Consolidated     2003 Consolidated
 ASSETS (Note 2)
  Intragovernmental:
    Fund Balance with Treasury (Note 3)
         Entity                                           $          861,243    $       1,827,646
         Non-Entity Seized Iraqi Cash                                      0                    0
         Non-Entity - Other                                                0                    0
    Investments (Note 4)                                                   0                    0
    Accounts Receivable (Note 5)                                     857,519              582,773
    Other Assets (Note 6)                                                 15               10,392
         Total Intragovernmental Assets                   $        1,718,777    $       2,420,811
  Cash and Other Monetary Assets (Note 7)                 $                0    $               0
  Accounts Receivable (Note 5)                                        26,190              111,775
  Loans Receivable (Note 8)                                                0                    0
  Inventory and Related Property (Note 9)                         19,239,192           18,256,128
  General Property, Plant and Equipment (Note 10)                  3,895,542            4,323,910
  Investments (Note 4)                                                     0                    0
  Other Assets (Note 6)                                              717,191              868,808
TOTAL ASSETS                                              $       25,596,892    $      25,981,432

 LIABILITIES (Note 11)
   Intragovernmental:
     Accounts Payable (Note 12)                           $          243,982    $         313,786
     Debt (Note 13)                                                  506,278              615,648
     Environmental Liabilities (Note 14)                                   0                    0
     Other Liabilities (Note 15 & Note 16)                           114,851              289,268
           Total Intragovernmental Liabilities            $          865,111    $       1,218,702
   Accounts Payable (Note 12)                             $        1,862,567    $       2,102,870
   Military Retirement Benefits and Other
     Employment-Related Actuarial Liabilities (Note 17)             1,168,225           1,409,853
   Environmental Liabilities (Note 14)                                      0                   0
   Loan Guarantee Liability (Note 8)                                        0                   0
   Other Liabilities (Note 15 and Note 16)                         5,679,116            4,157,892
   Debt Held by Public (Note 13)                                            0                   0
 TOTAL LIABILITIES                                        $        9,575,019    $       8,889,317

 NET POSITION
   Unexpended Appropriations (Note 18)                    $                0    $               0
   Cumulative Results of Operations                               16,021,873           17,092,115
 TOTAL NET POSITION                                       $       16,021,873    $      17,092,115

 TOTAL LIABILITIES AND NET POSITION                       $       25,596,892    $      25,981,432




                                                                     N AVY W ORKING C APITAL F UND   207
      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING STATEMENT OF NET COST
      For the years ended September 30, 2004 and 2003
      ($ in thousands)


                                                                                               2004                2003
                                                      2004 Total         Eliminations
                                                                                            Consolidated        Consolidated
      Program Costs
      Base Support
         Intragovernmental Gross Costs           $       985,405     $             0    $        985,405    $      1,008,827
         (Less Intragovernmental Earned Revenue)      (1,602,991)                  0          (1,602,991)         (1,584,722)
         Intragovernmental Net Costs             $      (617,586)    $             0    $       (617,586)   $       (575,895)

         Gross Costs With the Public              $      595,987                   0            595,987             560,902
         (Less: Earned Revenue From the Public)                0                   0                  0                   0
         Net Costs With the Public                $      595,987     $             0    $       595,987     $       560,902
         Net Program Cost                         $      (21,599)    $             0    $       (21,599)    $       (14,993)

      Component Level
        Intragovernmental Gross Costs           $     (4,319,029)    $             0    $     (4,319,029)   $     (5,265,821)
        (Less Intragovernmental Earned Revenue)        2,777,999                   0           2,777,999           3,370,279
        Intragovernmental Net Costs             $     (1,541,030)    $             0    $     (1,541,030)   $     (1,895,542)

         Gross Costs With the Public              $     2,311,441                  0          2,311,441            1,763,338
         (Less: Earned Revenue From the Public)          (539,417)                 0           (539,417)            (750,905)
         Net Costs With the Public                $     1,772,024    $             0    $     1,772,024     $      1,012,433
         Net Program Cost                         $       230,994    $             0    $       230,994     $       (883,109)

      Depot Maintenance, Aviation
         Intragovernmental Gross Costs           $     1,179,235     $             0    $      1,179,235    $      1,333,506
         (Less Intragovernmental Earned Revenue)      (2,218,932)                  0          (2,218,932)         (2,355,599)
         Intragovernmental Net Costs             $    (1,039,697)    $             0    $     (1,039,697)   $     (1,022,093)

         Gross Costs With the Public              $     1,032,649                  0          1,032,649             945,884
         (Less: Earned Revenue From the Public)                 0                  0                  0             (12,226)
         Net Costs With the Public                $     1,032,649    $             0    $     1,032,649     $       933,658
         Net Program Cost                         $        (7,048)   $             0    $        (7,048)    $       (88,435)

      Depot Maintenance, Marine Corps
         Intragovernmental Gross Costs           $        331,518    $             0    $       331,518     $         20,163
         (Less Intragovernmental Earned Revenue)         (324,480)                 0           (324,480)            (224,548)
         Intragovernmental Net Costs             $          7,038    $             0    $         7,038     $       (204,385)

         Gross Costs With the Public              $       (11,652)                 0             (11,652)           222,057
         (Less: Earned Revenue From the Public)            (3,927)                 0              (3,927)            (3,578)
         Net Costs With the Public                $       (15,579)   $             0    $        (15,579)   $       218,479
         Net Program Cost                         $        (8,541)   $             0    $         (8,541)   $        14,094




208
Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                        2004              2003
                                                  2004 Total          Eliminations
                                                                                     Consolidated      Consolidated
Program Costs
Depot Maintenance, Shipyards
   Intragovernmental Gross Costs           $           826,312    $            0     $      826,312    $    1,019,640
   (Less Intragovernmental Earned Revenue)          (2,241,481)                0         (2,241,481)       (2,750,642)
   Intragovernmental Net Costs             $        (1,415,169)   $            0     $   (1,415,169)   $   (1,731,002)

   Gross Costs With the Public              $       1,482,587                  0         1,482,587         1,650,127
   (Less: Earned Revenue From the Public)                   0                  0                 0                 0
   Net Costs With the Public                $       1,482,587     $            0     $   1,482,587     $   1,650,127
   Net Program Cost                         $          67,418     $            0     $      67,418     $     (80,875)

Ordnance
   Intragovernmental Gross Costs           $            (8,104)   $            0     $       (8,104)   $           71
   (Less Intragovernmental Earned Revenue)                   1                 0                  1              (926)
   Intragovernmental Net Costs             $            (8,103)   $            0     $       (8,103)   $         (855)

   Gross Costs With the Public              $               21                 0                 21               512
   (Less: Earned Revenue From the Public)                    0                 0                  0                 0
   Net Costs With the Public                $               21    $            0     $           21    $          512
   Net Program Cost                         $           (8,082)   $            0     $       (8,082)   $         (343)

Transportation
   Intragovernmental Gross Costs           $           439,176    $            0     $      439,176    $    1,299,609
   (Less Intragovernmental Earned Revenue)          (1,792,429)                0         (1,792,429)       (1,844,089)
   Intragovernmental Net Costs             $        (1,353,253)   $            0     $   (1,353,253)   $     (544,480)

   Gross Costs With the Public              $       1,338,020                  0         1,338,020           489,538
   (Less: Earned Revenue From the Public)                   0                  0                 0                 0
   Net Costs With the Public                $       1,338,020     $            0     $   1,338,020     $     489,538
   Net Program Cost                         $         (15,233)    $            0     $     (15,233)    $     (54,942)

Research & Development
   Intragovernmental Gross Costs           $         5,854,980    $            0     $   5,854,980     $    5,822,619
   (Less Intragovernmental Earned Revenue)         (10,260,468)                0       (10,260,468)        (9,585,868)
   Intragovernmental Net Costs             $        (4,405,488)   $            0     $ (4,405,488)     $   (3,763,249)

   Gross Costs With the Public              $       4,441,537                  0         4,441,537         3,750,586
   (Less: Earned Revenue From the Public)                 622                  0               622                 0
   Net Costs With the Public                $       4,442,159     $            0     $   4,442,159     $   3,750,586
   Net Program Cost                         $          36,671     $            0     $      36,671     $     (12,663)




                                                                             N AVY W ORKING C APITAL F UND        209
Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2004 and 2003
($ in thousands)


                                                                                                 2004            2003
                                                      2004 Total           Eliminations       Consolidated    Consolidated
Program Costs
Supply Management
   Intragovernmental Gross Costs                  $       145,488      $             0    $        145,488    $      183,636
   (Less Intragovernmental Earned Revenue)             (6,036,154)                   0          (6,036,154)       (6,895,749)
   Intragovernmental Net Costs                    $    (5,890,666)     $             0    $     (5,890,666)   $   (6,712,113)

   Gross Costs With the Public                    $     6,725,024                    0          6,725,024         8,273,309
   (Less: Earned Revenue From the Public)                 (70,813)                   0            (70,813)                0
   Net Costs With the Public                      $     6,654,211      $             0    $     6,654,211     $   8,273,309
   Net Program Cost                               $       763,545      $             0    $       763,545     $   1,561,196

Total Program Costs
   Intragovernmental Gross Costs                  $     5,434,981      $             0    $      5,434,981    $   5,422,250
   (Less Intragovernmental Earned Revenue)            (21,698,935)                   0         (21,698,935)     (21,871,864)
   Intragovernmental Net Costs                    $   (16,263,954)     $             0    $    (16,263,954)   $ (16,449,614)

   Gross Costs With the Public                    $   17,915,614                     0         17,915,614       17,656,253
   (Less: Earned Revenue From the Public)               (613,535)                    0           (613,535)        (766,709)
   Net Costs With the Public                      $   17,302,079       $             0    $    17,302,079     $ 16,889,544
   Net Program Cost                               $    1,038,125       $             0    $     1,038,125     $    439,930
Costs Not Assigned to Programs                                 0                     0                  0                0
(Less: Earned Revenue Not Attributable to
  Programs)                                                        0                 0                   0                 0
Net Cost of Operations                            $     1,038,125      $             0    $     1,038,125     $     439,930




   210
Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2004 and 2003
($ in thousands)



                                                                  Depot          Depot           Depot
                                                               Maintenance,   Maintenance,    Maintenance,
                                                                Shipyards       Aviation      Marine Corps        Ordnance
Cumulative Results of Operations
  Beginning Balances                                       $     1,053,728    $    420,294    $     58,480    $     167,592
  Prior period adjustments (+/-)
  Prior Period Adjustments - Restated (+/-)                              0               0               0                0
  Beginning Balance, Restated                                    1,053,728         420,294          58,480          167,592
  Prior Period Adjustments - Not Restated (+/-)                       (911)              0               0
 Beginning Balances, as adjusted                           $     1,052,817    $    420,294    $     58,480    $     167,592
 Budgetary Financing Sources:
  Appropriations Received                                  $             0    $          0    $          0    $           0
  Appropriations transferred in/out (+/-)                                0               0               0                0
  Other adjustments (rescissions, etc) (+/-)                             0               0               0                0
  Appropriations used                                                    0               0               0                0
  Nonexchange revenue                                                    0               0               0                0
  Donations and forfeitures of cash and cash equivalents                 0               0               0                0
  Transfers in/out without reimbursement (+/-)                           0               0               0          (42,800)
  Other budgetary financing sources (+/-)                                0               0               0                0
 Other Financing Sources:
  Donations and forfeitures of property                                  0               0               0                0
  Transfers in/out without reimbursement (+/-)                     (38,474)          3,559         (50,573)        (120,000)
  Imputed financing from costs absorbed by others                        0               0           8,501                0
  Other (+/-)                                                            0               0               0                0
 Total Financing Sources                                   $       (38,474)   $      3,559    $    (42,072)   $    (162,800)
  Net Cost of Operations (+/-)                             $        67,418    $     (7,048)   $     (8,541)   $      (8,082)
  Ending Balances                                          $       946,925    $    430,901    $     24,949    $      12,874

Unexpended Appropriations
  Beginning Balances                                       $             0    $          0    $          0    $             0
  Prior period adjustments (+/-)                                         0               0               0                  0
  Beginning Balances, as adjusted                          $             0    $          0    $          0    $             0
 Budgetary Financing Sources:
  Appropriations Received                                  $             0    $          0    $          0    $             0
  Appropriations transferred in/out (+/-)                                0               0               0                  0
  Other adjustments (rescissions, etc) (+/-)                             0               0               0                  0
  Appropriations used                                                    0               0               0                  0
  Nonexchange revenue                                                    0               0               0                  0
  Donations and forfeitures of cash and cash equivalents                 0               0               0                  0
  Transfers in/out without reimbursement (+/-)                           0               0               0                  0
  Other budgetary financing sources (+/-)                                0               0               0                  0
 Other Financing Sources:
  Donations and forfeitures of property                                  0               0               0                  0
  Transfers in/out without reimbursement (+/-)                           0               0               0                  0
  Imputed financing from costs absorbed by others                        0               0               0                  0
  Other (+/-)                                                            0               0               0                  0
 Total Financing Sources                                   $             0    $          0    $          0    $             0
  Net Cost of Operations (+/-)                             $             0    $          0    $          0    $             0
  Ending Balances                                          $             0    $          0    $          0    $             0


                                                                                  N AVY W ORKING C APITAL F UND       211
Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2004 and 2003
($ in thousands)


                                                                                                Research &     Supply
                                                      Transportation       Base Support        Development   Management
Cumulative Results of Operations
  Beginning Balances                                    $   (40,575)   $        743,193    $     554,407     $   15,914,791
  Prior period adjustments (+/-)
  Prior Period Adjustments - Restated (+/-)                       0                   0                0                  0
  Beginning Balance, Restated                               (40,575)            743,193          554,407         15,914,791
  Prior Period Adjustments - Not Restated (+/-)                   0                  10                0           (102,357)
 Beginning Balances, as adjusted                        $   (40,575)   $        743,203    $     554,407     $   15,812,434
 Budgetary Financing Sources:
  Appropriations Received                               $         0    $              0    $           0     $           0
  Appropriations transferred in/out (+/-)                         0                   0                0                 0
  Other adjustments (rescissions, etc) (+/-)                      0                   0           40,524                 0
  Appropriations used                                             0                   0                0           130,446
  Nonexchange revenue                                             0                   0                0                 0
  Donations and forfeitures of cash and cash equivalents          0                   0                0                 0
  Transfers in/out without reimbursement (+/-)                    0                   0                0            45,184
  Other budgetary financing sources (+/-)                         0                   0                0                 0
 Other Financing Sources:
  Donations and forfeitures of property                           0                   0                 0                 0
  Transfers in/out without reimbursement (+/-)                 (419)            (24,954)         (404,916)         (633,515)
  Imputed financing from costs absorbed by others                 0                   0                 0
  Other (+/-)                                                     0                   0                 0                 0
 Total Financing Sources                                $      (419)   $        (24,954)   $     (364,392)   $     (457,885)
  Net Cost of Operations (+/-)                          $   (15,233)   $        (21,599)   $       36,671    $      763,545
  Ending Balances                                       $   (25,761)            739,848           153,344        14,591,004

Unexpended Appropriations
  Beginning Balances                                    $         0    $              0    $            0    $            0
  Prior period adjustments (+/-)                                  0                   0                 0                 0
  Beginning Balances, as adjusted                       $         0    $              0    $            0    $            0
 Budgetary Financing Sources:
  Appropriations Received                               $         0    $              0    $            0    $      130,446
  Appropriations transferred in/out (+/-)                         0                   0                 0                 0
  Other adjustments (rescissions, etc) (+/-)                      0                   0                 0                 0
  Appropriations used                                             0                   0                 0          (130,446)
  Nonexchange revenue                                             0                   0                 0                 0
  Donations and forfeitures of cash and cash equivalents          0                   0                 0                 0
  Transfers in/out without reimbursement (+/-)                    0                   0                 0                 0
  Other budgetary financing sources (+/-)                         0                   0                 0                 0
 Other Financing Sources:
  Donations and forfeitures of property                           0                   0                 0                 0
  Transfers in/out without reimbursement (+/-)                    0                   0                 0                 0
  Imputed financing from costs absorbed by others                 0                   0                 0                 0
  Other (+/-)                                                     0                   0                 0                 0
 Total Financing Sources                                $         0    $              0    $            0    $            0
  Net Cost of Operations (+/-)                          $         0    $              0    $            0    $            0
  Ending Balances                                       $         0    $              0    $            0    $            0


    212
Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                               Component           Combined
                                                                                                      Eliminations
                                                                 Level               Total
Cumulative Results of Operations
  Beginning Balances                                       $      (735,080)    $   18,136,830     $             0
  Prior period adjustments (+/-)
  Prior Period Adjustments - Restated (+/-)                     (1,044,715)        (1,044,715)
  Beginning Balance, Restated                                   (1,779,795)        17,092,115
  Prior Period Adjustments - Not Restated (+/-)                    103,258                  0                   0
 Beginning Balances, as adjusted                           $    (1,676,537)    $   17,092,115     $             0
 Budgetary Financing Sources:
  Appropriations Received                                  $             0     $            0     $             0
  Appropriations transferred in/out (+/-)                                0                  0                   0
  Other adjustments (rescissions, etc) (+/-)                       (40,524)                 0                   0
  Appropriations used                                                    0            130,446                   0
  Nonexchange revenue                                                    0                  0                   0
  Donations and forfeitures of cash and cash equivalents                 0                  0                   0
  Transfers in/out without reimbursement (+/-)                    (290,184)          (287,800)                  0
  Other budgetary financing sources (+/-)                         (419,775)          (419,775)                  0
 Other Financing Sources:
  Donations and forfeitures of property                                  0                  0                   0
  Transfers in/out without reimbursement (+/-)                   1,269,418                126                   0
  Imputed financing from costs absorbed by others                  536,385            544,886                   0
  Other (+/-)                                                            0                  0                   0
 Total Financing Sources                                   $     1,055,320     $      (32,117)    $             0
  Net Cost of Operations (+/-)                             $       230,994     $    1,038,125     $             0
  Ending Balances                                          $      (852,211)    $   16,021,873     $             0

Unexpended Appropriations
  Beginning Balances                                       $             0     $              0   $             0
  Prior period adjustments (+/-)                                         0                    0                 0
  Beginning Balances, as adjusted                          $             0     $              0   $             0
 Budgetary Financing Sources:
  Appropriations Received                                  $             0     $      130,446     $             0
  Appropriations transferred in/out (+/-)                                0                  0                   0
  Other adjustments (rescissions, etc) (+/-)                             0                  0                   0
  Appropriations used                                                    0           (130,446)                  0
  Nonexchange revenue                                                    0                  0                   0
  Donations and forfeitures of cash and cash equivalents                 0                  0                   0
  Transfers in/out without reimbursement (+/-)                           0                  0                   0
  Other budgetary financing sources (+/-)                                0                  0                   0
 Other Financing Sources:
  Donations and forfeitures of property                                  0                    0                 0
  Transfers in/out without reimbursement (+/-)                           0                    0                 0
  Imputed financing from costs absorbed by others                        0                    0                 0
  Other (+/-)                                                            0                    0                 0
 Total Financing Sources                                   $             0     $              0   $             0
  Net Cost of Operations (+/-)                             $             0     $              0   $             0
  Ending Balances                                          $             0     $              0   $             0



                                                                              N AVY W ORKING C APITAL F UND          213
  Department of Defense
  Navy Working Capital Fund
  CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
  For the years ended September 30, 2004 and 2003
  ($ in thousands)



                                                                        2004                   2003
                                                                     Consolidated           Consolidated
      Cumulative Results of Operations
       Beginning Balances                                        $       18,136,830     $      18,006,706
       Prior period adjustments (+/-)
        Prior Period Adjustments - Restated (+/-)                        (1,044,715)           (1,044,715)
        Beginning Balance, Restated                                      17,092,115            16,961,991
        Prior Period Adjustments - Not Restated (+/-)                             0                     0
       Beginning Balances, as adjusted                           $       17,092,115            16,961,991
       Budgetary Financing Sources:
        Appropriations Received                                  $                0                     0
        Appropriations transferred in/out (+/-)                                   0                     0
        Other adjustments (rescissions, etc) (+/-)                                0                     0
        Appropriations used                                                 130,446                40,200
        Nonexchange revenue                                                       0                     0
        Donations and forfeitures of cash and cash equivalents                    0                     0
        Transfers in/out without reimbursement (+/-)                       (287,800)                    0
        Other budgetary financing sources (+/-)                            (419,775)                    0
       Other Financing Sources:
        Donations and forfeitures of property                                     0                     0
        Transfers in/out without reimbursement (+/-)                            126               (13,527)
        Imputed financing from costs absorbed by others                     544,886               543,381
        Other (+/-)                                                               0                     0
       Total Financing Sources                                   $          (32,117)              570,054
        Net Cost of Operations (+/-)                             $        1,038,125               439,930
        Ending Balances                                          $       16,021,873     $      17,092,115

      Unexpended Appropriations
       Beginning Balances                                        $                  0   $                  0
        Prior period adjustments (+/-)                                              0                      0
        Beginning Balances, as adjusted                          $                  0   $                  0
       Budgetary Financing Sources:
        Appropriations Received                                  $          130,446     $          40,200
        Appropriations transferred in/out (+/-)                                   0                     0
        Other adjustments (rescissions, etc) (+/-)                                0                     0
        Appropriations used                                                (130,446)              (40,200)
        Nonexchange revenue                                                       0                     0
        Donations and forfeitures of cash and cash equivalents                    0                     0
        Transfers in/out without reimbursement (+/-)                              0                     0
        Other budgetary financing sources (+/-)                                   0                     0
       Other Financing Sources:
        Donations and forfeitures of property                                       0                      0
        Transfers in/out without reimbursement (+/-)                                0                      0
        Imputed financing from costs absorbed by others                             0                      0
        Other (+/-)                                                                 0                      0
       Total Financing Sources                                   $                  0   $                  0
        Net Cost of Operations (+/-)                             $                  0   $                  0
        Ending Balances                                          $                  0   $                  0


214
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

BUDGETARY FINANCING ACCOUNTS
                                                                  Depot                Depot           Depot
                                                               Maintenance,         Maintenance,    Maintenance,
                                                                Shipyards             Aviation      Marine Corps
BUDGETARY RESOURCES
  Budget Authority:
      Appropriations Received                              $              0     $             0     $          0
      Borrowing Authority                                                 0                   0                0
      Contract Authority                                             22,162              58,804            3,881
      Net transfers (+/-)                                                 0                   0                0
      Other                                                               0                   0                0
   Unobligated Balance:
      Beginning of period                                         1,280,688             977,482          119,505
      Net transfers, actual (+/-)                                         0                   0                0
      Anticipated Transfers Balances                                      0                   0                0
   Spending Authority from Offsetting Collections:
      Earned
       Collected                                                  2,326,063            1,988,051         335,370
       Receivable from Federal sources                                2,778              (66,997)         (7,118)
      Change in unfilled customer orders
       Advances received                                             (82,519)              5,535             617
       Without advance from Federal sources                       (1,014,455)           (309,249)         33,454
      Anticipated for the rest of year, without advances                   0                   0               0
      Transfers from trust funds                                           0                   0               0
     Subtotal                                              $       1,231,867    $      1,617,340    $    362,323
   Recoveries of prior year obligations                                    0    $              0    $          0
   Temporarily not available pursuant to Public Law                        0                   0               0
   Permanently not available                                          (4,020)            (36,282)              0
  Total Budgetary Resources                                $       2,530,697    $      2,617,344    $    485,709




                                                                                    N AVY W ORKING C APITAL F UND   215
  Department of Defense
  Navy Working Capital Fund
  COMBINING STATEMENT OF BUDGETARY RESOURCES
  For the years ended September 30, 2004 and 2003
  ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                                  Depot                 Depot                 Depot
                                                               Maintenance,          Maintenance,          Maintenance,
                                                                Shipyards              Aviation            Marine Corps
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $                0    $                0    $                0
            Reimbursable                                            2,162,146             1,712,449               337,336
            Subtotal                                       $        2,162,146    $        1,712,449    $          337,336
        Unobligated balance:
            Apportioned                                    $          368,551               904,894               148,373
            Exempt from apportionment                                       0                     0                     0
            Other available                                                 0                     1                     0
        Unobligated Balances Not Available                                  0                     0                     0
        Total, Status of Budgetary Resources               $        2,530,697    $        2,617,344    $          485,709

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $         (604,825)   $          (50,372)   $          (99,183)
        Obligated Balance transferred, net (+/-)                            0                     0                     0
        Obligated Balance, net-end of period:
            Accounts Receivable                                       (11,508)              (74,443)              (13,218)
            Unfilled customer order from Federal sources             (491,963)             (601,970)             (167,210)
            Undelivered Orders                                        403,252               163,963                43,145
            Accounts Payable                                          331,036               529,991                59,116
        Outlays:
           Disbursements                                            2,338,181             2,020,783               289,984
           Collections                                             (2,243,544)           (1,993,586)             (335,987)
           Subtotal                                        $           94,637    $           27,197    $          (46,003)
        Less: Offsetting receipts                                           0                     0                     0
        Net Outlays                                        $           94,637    $           27,197    $          (46,003)




216
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS
                                                             Ordnance           Transportation        Base Support
  BUDGETARY RESOURCES
    Budget Authority:
       Appropriations Received                         $                0   $                0    $              0
       Borrowing Authority                                              0                    0                   0
        Contract Authority                                              0               13,100              19,063
       Net transfers (+/-)                                              0                    0                   0
       Other                                                            0                    0                   0
     Unobligated Balance:
       Beginning of period                                      210,328               210,634              237,706
        Net transfers, actual (+/-)                             (42,800)                    0                    0
       Anticipated Transfers Balances                                 0                     0                    0
     Spending Authority from Offsetting Collections:
       Earned
         Collected                                                  410              1,837,235           1,642,345
         Receivable from Federal sources                           (825)               (44,940)            (22,486)
        Change in unfilled customer orders
         Advances received                                            0                      0             (19,893)
         Without advance from Federal sources                   (15,027)               (27,326)            (13,143)
        Anticipated for the rest of year, without advances            0                      0                   0
        Transfers from trust funds                                    0                      0                   0
       Subtotal                                        $        (15,442)    $        1,764,969    $      1,586,823
     Recoveries of prior year obligations              $              0     $                0    $              0
     Temporarily not available pursuant to Public Law                 0                      0                   0
     Permanently not available                                        0               (108,143)             (1,424)
    Total Budgetary Resources                          $        152,086     $        1,880,560    $      1,842,168




                                                                                   N AVY W ORKING C APITAL F UND      217
 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2004 and 2003
 ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                            Ordnance          Transportation         Base Support
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                     $             0    $                0     $                0
            Reimbursable                                       104,513             1,689,098              1,499,704
            Subtotal                                   $       104,513    $        1,689,098     $        1,499,704
        Unobligated balance:
            Apportioned                                $        47,573               191,462               342,464
            Exempt from apportionment                                0                     0                     0
            Other available                                          0                     0                     0
        Unobligated Balances Not Available                           0                     0                     0
        Total, Status of Budgetary Resources           $       152,086    $        1,880,560     $       1,842,168

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period      $     (101,338)   $          195,619     $         122,306
        Obligated Balance transferred, net (+/-)                     0                     0                     0
        Obligated Balance, net-end of period:
            Accounts Receivable                                     (2)               (98,318)            (121,518)
            Unfilled customer order from Federal sources             0              (130,904)             (238,925)
            Undelivered Orders                                     442                 26,874               66,342
            Accounts Payable                                    18,478               459,267               294,781
        Outlays:
           Disbursements                                           108             1,700,064             1,656,960
           Collections                                            (410)           (1,837,235)            (1,622,451)
           Subtotal                                     $         (302)   $         (137,171)    $           34,509
        Less: Offsetting receipts                                    0                     0                      0
        Net Outlays                                     $         (302)   $         (137,171)    $           34,509




218
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

BUDGETARY FINANCING ACCOUNTS
                                                               Research &
                                                              Development      Supply Management   Component Level
BUDGETARY RESOURCES
  Budget Authority:
     Appropriations Received                              $              0       $     130,446       $           0
     Borrowing Authority                                                 0                   0                   0
     Contract Authority                                            125,500             112,662                   0
     Net transfers (+/-)                                                 0                   0                   0
     Other                                                               0                   0                   0
  Unobligated Balance:
     Beginning of period                                          1,035,504             37,363             404,115
     Net transfers, actual (+/-)                                          0                  0            (245,000)
     Anticipated Transfers Balances                                       0                  0                   0
  Spending Authority from Offsetting Collections:
     Earned                                                                                   0
      Collected                                                  10,119,066           5,882,342           (204,072)
      Receivable from Federal sources                                48,721              27,582            312,629
     Change in unfilled customer orders
      Advances received                                             186,327                   0                 0
      Without advance from Federal sources                         (153,892)           (225,028)                0
     Anticipated for the rest of year, without advances                   0                   0                 0
     Transfers from trust funds                                           0                   0                 0
     Subtotal                                             $      10,200,222      $    5,684,896      $    108,557
  Recoveries of prior year obligations                    $               0      $            0      $          0
  Temporarily not available pursuant to Public Law                        0                   0                 0
  Permanently not available                                         (22,722)            (13,938)                0
  Total Budgetary Resources                               $      11,338,504      $    5,951,429      $    267,672




                                                                                N AVY W ORKING C APITAL F UND         219
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2004 and 2003
      ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                              Research &            Supply             Component
                                                             Development          Management             Level
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                      $               0     $              0     $             0
            Reimbursable                                        9,942,870            5,700,391           1,167,941
            Subtotal                                    $       9,942,870     $      5,700,391     $     1,167,941
        Unobligated balance:
            Apportioned                                 $       1,395,633              152,093            (900,267)
            Exempt from apportionment                                   0                    0                   0
            Other available                                             1                    0                  (2)
        Unobligated Balances Not Available                              0               98,945                   0
        Total, Status of Budgetary Resources            $      11,338,504     $      5,951,429     $       267,672

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period       $        147,391     $      4,517,578     $      (853,062)
        Obligated Balance transferred, net (+/-)                        0                    0                   0
        Obligated Balance, net-end of period:
            Accounts Receivable                                    (34,971)           (244,746)              8,282
            Unfilled customer order from Federal sources        (4,659,151)           (741,338)                  0
            Undelivered Orders                                   2,234,203           3,953,838                   0
            Accounts Payable                                     2,678,205           1,138,718            (541,042)
        Outlays:
           Disbursements                                         9,977,146            6,308,943            535,009
           Collections                                         (10,305,393)          (5,882,342)           204,072
           Subtotal                                      $        (328,247)   $         426,601    $       739,081
        Less: Offsetting receipts                                        0                    0                  0
        Net Outlays                                      $        (328,247)   $         426,601    $       739,081




220
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2004 and 2003
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS

                                                                 2004 Combined           2003 Combined
  BUDGETARY RESOURCES
    Budget Authority:
        Appropriations Received                              $         130,446       $          40,200
        Borrowing Authority                                                  0                       0
        Contract Authority                                             355,172                 558,144
        Net transfers (+/-)                                                  0                       0
        Other                                                                0                       0
     Unobligated Balance:
        Beginning of period                                           4,513,325               4,117,221
        Net transfers, actual (+/-)                                    (287,800)                (30,200)
        Anticipated Transfers Balances                                        0                       0
     Spending Authority from Offsetting Collections:
        Earned
         Collected                                                   23,926,810              25,585,547
         Receivable from Federal sources                                249,344                (432,227)
        Change in unfilled customer orders
         Advances received                                               90,067                 178,239
         Without advance from Federal sources                        (1,724,666)              1,964,175
        Anticipated for the rest of year, without advances                    0                       0
        Transfers from trust funds                                            0                       0
       Subtotal                                              $       22,541,555      $       27,295,734
     Recoveries of prior year obligations                    $                0      $                0
     Temporarily not available pursuant to Public Law                         0                       0
     Permanently not available                                         (186,529)               (204,140)
    Total Budgetary Resources                                $       27,066,169      $       31,776,959




                                                                                  N AVY W ORKING C APITAL F UND   221
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the years ended September 30, 2004 and 2003
      ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS

                                                               2004 Combined        2003 Combined
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $              0     $               0
            Reimbursable                                         24,316,448            27,263,631
            Subtotal                                       $     24,316,448            27,263,631
        Unobligated balance:
            Apportioned                                    $      2,650,776             4,632,115
            Exempt from apportionment                                     0                     0
            Other available                                               0                     2
        Unobligated Balances Not Available                           98,945              (118,789)
        Total, Status of Budgetary Resources               $     27,066,169     $      31,776,959

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $      3,274,114     $       2,985,762
        Obligated Balance transferred, net (+/-)                          0                     0
        Obligated Balance, net-end of period:
            Accounts Receivable                                     (590,442)             (341,097)
            Unfilled customer order from Federal sources          (7,031,461)           (8,756,130)
            Undelivered Orders                                     6,892,059             7,998,442
            Accounts Payable                                       4,968,550             4,372,899
        Outlays:
           Disbursements                                          24,827,178            25,443,332
           Collections                                           (24,016,876)          (25,763,785)
           Subtotal                                        $         810,302              (320,453)
        Less: Offsetting receipts                                          0                     0
        Net Outlays                                        $         810,302    $         (320,453)




222
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                    Depot           Depot             Depot
                                                                                 Maintenance,    Maintenance,      Maintenance,
                                                                                  Shipyards        Aviation        Marine Corps

Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                          $  2,162,146    $    1,712,449    $    337,336
   Less: Spending Authority from offsetting collections and recoveries (-)         (1,231,867)       (1,617,340)       (362,323)
   Obligations net of offsetting collections and recoveries                      $    930,279    $       95,109    $    (24,987)
   Less: Offsetting receipts (-)                                                            0                 0               0
   Net obligations                                                               $    930,279    $       95,109    $    (24,987)
Other Resources
   Donations and forfeitures of property                                                   0                 0                0
   Transfers in/out without reimbursement (+/-)                                      (38,474)            3,559          (50,573)
   Imputed financing from costs absorbed by others                                         0                 0            8,501
   Other (+/-)                                                                             0                 0                0
   Net other resources used to finance activities                                $   (38,474)    $       3,559     $    (42,072)
   Total resources used to finance activities                                    $   891,805     $      98,668     $    (67,059)

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in budgetary resources obligated for goods, services and benefits
  ordered but not yet provided
     Undelivered orders (-)                                                    $    195,479      $      10,446     $     (7,818)
     Unfilled Customer Orders                                                    (1,096,974)          (303,714)          34,070
  Resources that fund expenses recognized in prior periods                                0                  0             (703)
  Budgetary offsetting collections and receipts that do not affect Net Cost of
   Operations                                                                               0                 0               0
   Resources that finance the acquisition of assets                                   (10,084)          (37,302)        (20,888)
   Other resources or adjustments to net obligated resources that do not
   affect Net Cost of Operations
      Less: Trust or Special Fund receipts related to exchange in the entity's
      budget (-)                                                                            0                 0               0
      Other (+/-)                                                                      38,474            (3,559)         50,573
   Total resources used to finance items not part of the Net Cost of
   Operations                                                                    $   (873,105)   $    (334,129)    $     55,234
   Total resources used to finance the Net Cost of Operations                    $     18,700    $    (235,461)    $    (11,825)




                                                                                       N AVY W ORKING C APITAL F UND      223
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)


                                                                        Depot          Depot               Depot
                                                                     Maintenance,   Maintenance,        Maintenance,
                                                                      Shipyards       Aviation          Marine Corps
Components of the Net Cost of Operations that will not Require
or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability                                 $          0   $          0    $              0
  Increase in environmental and disposal liability                              0              0                   0
  Upward/Downward reestimates of credit subsidy expense                         0              0                   0
  Increase in exchange revenue receivable from the public (-)                   0              0                   0
  Other (+/-)                                                                   0              0                   0
  Total components of Net Cost of Operations that will require or
    generate resources in future periods                             $          0   $          0    $              0

Components not Requiring or Generating Resources:
  Depreciation and amortization                                      $     22,827   $     41,747    $         3,644
  Revaluation of assets and liabilities (+/-)                                   0              0                  0
  Other (+/-)
       Trust Fund Exchange Revenue                                              0              0                  0
       Cost of Goods Sold                                                  25,893        181,545               (363)
       Operating Material & Supplies Used                                       0              0                  0
       Other                                                                    0          5,121                  3
  Total components of Net Cost of Operations that will not require
    or generate resources                                            $     48,720   $    228,413    $         3,284
   Total components of Net Cost of Operations that will not
    require or generate resources in the current period              $     48,720   $    228,413    $          3,284
   Net Cost of Operations                                            $     67,420   $     (7,048)   $         (8,541)




   224
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                                                           Base
                                                                                     Ordnance       Transportation        Support

Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                          $     104,513      $    1,689,098    $  1,499,704
   Less: Spending Authority from offsetting collections and recoveries (-)              15,442          (1,764,969)     (1,586,822)
   Obligations net of offsetting collections and recoveries                      $     119,955      $      (75,871)   $    (87,118)
   Less: Offsetting receipts (-)                                                             0                   0               0
   Net obligations                                                               $     119,955      $      (75,871)   $    (87,118)
Other Resources
   Donations and forfeitures of property                                                      0                  0                0
   Transfers in/out without reimbursement (+/-)                                        (120,000)              (419)         (24,954)
   Imputed financing from costs absorbed by others                                            0                  0                0
   Other (+/-)                                                                                0                  0                0
   Net other resources used to finance activities                                $     (120,000)    $         (419)   $     (24,954)
   Total resources used to finance activities                                    $          (45)    $      (76,290)   $    (112,072)

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in budgetary resources obligated for goods, services and benefits
  ordered but not yet provided
     Undelivered orders (-)                                                    $          6,129     $      (44,176)   $     104,662
     Unfilled Customer Orders                                                           (15,027)           (27,326)         (33,037)
  Resources that fund expenses recognized in prior periods                                    0                  0                0
  Budgetary offsetting collections and receipts that do not affect Net Cost of
      Operations                                                                                0                0                  0
   Resources that finance the acquisition of assets                                    (119,139)          126,786           (25,643)
   Other resources or adjustments to net obligated resources that do not
      affect Net Cost of Operations
      Less: Trust or Special Fund receipts related to exchange in the entity's
      budget (-)                                                                                0                0                  0
      Other (+/-)                                                                      120,000                419            24,954
   Total resources used to finance items not part of the Net Cost of
     Operations                                                                  $       (8,037)    $       55,703    $      70,936
   Total resources used to finance the Net Cost of Operations                    $       (8,082)    $      (20,587)   $     (41,136)




                                                                                        N AVY W ORKING C APITAL F UND          225
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)


                                                                     Ordnance       Transportation   Base Support


Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability                                 $          0    $          0    $          0
  Increase in environmental and disposal liability                              0               0               0
  Upward/Downward reestimates of credit subsidy expense                         0               0               0
  Increase in exchange revenue receivable from the public (-)                   0               0               0
  Other (+/-)                                                                   0               0               0
  Total components of Net Cost of Operations that will require or
    generate resources in future periods                             $          0    $          0    $          0

Components not Requiring or Generating Resources:
  Depreciation and amortization                                      $          0    $      5,353    $    17,562
  Revaluation of assets and liabilities (+/-)                                   0               0              0
  Other (+/-)
      Trust Fund Exchange Revenue                                               0               0              0
      Cost of Goods Sold                                                        0               0              0
      Operating Material & Supplies Used                                        0               0              0
      Other                                                                     0               0          1,976
  Total components of Net Cost of Operations that will not require
    or generate resources                                            $          0    $      5,353    $    19,538
  Total components of Net Cost of Operations that will not
   require or generate resources in the current period               $        0      $      5,353    $     19,538
  Net Cost of Operations                                             $   (8,082)     $    (15,234)   $    (21,598)




   226
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)

                                                                                      Research &       Supply          Component
                                                                                     Development     Management          Level

Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                          $      9,942,870    $    5,700,391    $   1,167,941
   Less: Spending Authority from offsetting collections and recoveries (-)            (10,200,222)       (5,684,896)        (108,557)
   Obligations net of offsetting collections and recoveries                      $       (257,352)   $       15,495    $   1,059,384
   Less: Offsetting receipts (-)                                                                0                 0                0
   Net obligations                                                               $       (257,352)   $       15,495    $   1,059,384
Other Resources
   Donations and forfeitures of property                                                        0                0                 0
   Transfers in/out without reimbursement (+/-)                                          (404,916)        (633,515)        1,269,417
   Imputed financing from costs absorbed by others                                              0                0           536,385
   Other (+/-)                                                                                  0                0                 0
   Net other resources used to finance activities                                $       (404,916)   $    (633,515)    $   1,805,802
   Total resources used to finance activities                                    $       (662,268)   $    (618,020)    $   2,865,186

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in budgetary resources obligated for goods, services and benefits
  ordered but not yet provided
     Undelivered orders (-)                                                    $           9,349     $     831,337     $      37,113
     Unfilled Customer Orders                                                             32,435          (225,028)                0
  Resources that fund expenses recognized in prior periods                                     0                 0          (240,924)
  Budgetary offsetting collections and receipts that do not affect Net Cost of
      Operations                                                                                0                 0                 0
   Resources that finance the acquisition of assets                                      (193,861)       (3,644,614)       (1,120,440)
   Other resources or adjustments to net obligated resources that do not
      affect Net Cost of Operations
      Less: Trust or Special Fund receipts related to exchange in the entity's
      budget (-)                                                                                0                 0                 0
      Other (+/-)                                                                        445,440           633,515         (1,309,941)
   Total resources used to finance items not part of the Net Cost of
     Operations                                                                  $        293,363    $   (2,404,790)   $ (2,634,192)
   Total resources used to finance the Net Cost of Operations                    $       (368,905)   $   (3,022,810)   $    230,994




                                                                                        N AVY W ORKING C APITAL F UND         227
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)


                                                                          Research &         Supply      Component
                                                                         Development       Management      Level


Components of the Net Cost of Operations that will not Require
or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability                                 $            0    $            0    $         0
  Increase in environmental and disposal liability                                0                 0              0
  Upward/Downward reestimates of credit subsidy expense                           0                 0              0
  Increase in exchange revenue receivable from the public (-)                     0                 0              0
  Other (+/-)                                                                     0                 0              0
  Total components of Net Cost of Operations that will require or
     generate resources in future periods                            $            0    $            0    $

Components not Requiring or Generating Resources:
  Depreciation and amortization                                      $      155,364    $        8,760    $         0
  Revaluation of assets and liabilities (+/-)                                     0            42,926             (2)
  Other (+/-)
       Trust Fund Exchange Revenue                                                0                  0             0
       Cost of Goods Sold                                                   250,212          3,703,451             0
       Operating Material & Supplies Used                                         0                  0             0
       Other                                                                      0             31,272             0
  Total components of Net Cost of Operations that will not require
    or generate resources                                            $      405,576    $     3,786,355   $        (2)
  Total components of Net Cost of Operations that will not
    require or generate resources in the current period              $      405,576    $     3,786,355   $        (2)
  Net Cost of Operations                                             $       36,671    $       763,545   $   230,992




 228
Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2004 and 2003
($ in thousands)


                                                                                     2004 Combined         2003 Combined

Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                          $       24,316,448    $       27,263,631
   Less: Spending Authority from offsetting collections and recoveries (-)              (22,541,554)          (27,295,734)
   Obligations net of offsetting collections and recoveries                      $        1,774,894    $          (32,103)
   Less: Offsetting receipts (-)                                                                  0                     0
   Net obligations                                                               $        1,774,894    $          (32,103)
Other Resources
   Donations and forfeitures of property                                                          0                    0
   Transfers in/out without reimbursement (+/-)                                                 125              (13,527)
   Imputed financing from costs absorbed by others                                          544,886              543,381
   Other (+/-)                                                                                    0                    0
   Net other resources used to finance activities                                $          545,011    $         529,854
   Total resources used to finance activities                                    $        2,319,905    $         497,751

Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in budgetary resources obligated for goods, services and benefits
  ordered but not yet provided
     Undelivered orders (-)                                                      $        1,142,521    $        (703,528)
     Unfilled Customer Orders                                                            (1,634,601)           2,142,413
  Resources that fund expenses recognized in prior periods                                 (241,627)                   0
  Budgetary offsetting collections and receipts that do not affect Net Cost of                    0                     8
      Operations
   Resources that finance the acquisition of assets                                      (5,045,185)           (1,899,644)
   Other resources or adjustments to net obligated resources that do not
      affect Net Cost of Operations
      Less: Trust or Special Fund receipts related to exchange in the entity's
      budget (-)                                                                                  0                     0
      Other (+/-)                                                                              (125)                    0
   Total resources used to finance items not part of the Net Cost of
     Operations                                                                  $       (5,779,017)   $        (460,751)
   Total resources used to finance the Net Cost of Operations                    $       (3,459,112)   $          37,000




                                                                                 N AVY W ORKING C APITAL F UND          229
      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF FINANCING
      For the years ended September 30, 2004 and 2003
      ($ in thousands)



                                                                                  2004 Combined   2003 Combined


      Components of the Net Cost of Operations that will not Require
      or Generate Resources in the Current Period:

      Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                    $             0     $          0
        Increase in environmental and disposal liability                                    0                0
        Upward/Downward reestimates of credit subsidy expense                               0                0
        Increase in exchange revenue receivable from the public (-)                         0                0
        Other (+/-)                                                                         0           83,927
        Total components of Net Cost of Operations that will require or
           generate resources in future periods                               $             0     $     83,927

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                         $       255,203     $    243,755
        Revaluation of assets and liabilities (+/-)                                    42,924           74,973
        Other (+/-)
            Trust Fund Exchange Revenue                                                      0               0
            Cost of Goods Sold                                                       4,160,738               0
            Operating Material & Supplies Used                                               0               0
            Other                                                                       38,732             275
        Total components of Net Cost of Operations that will not require
          or generate resources                                               $      4,497,237    $    319,003
        Total components of Net Cost of Operations that will not require or
          generate resources in the current period                            $      4,497,237    $    402,930
        Net Cost of Operations                                                $      1,038,125    $    439,930




230
                DEPARTMENT OF THE NAVY

NAVY WORKING CAPITAL FUND REQUIRED SUPPLEMENTARY
                   INFORMATION




                                                                         REQUIRED SUPPLEMENTARY INFORMATION
                                                                            NAVY WORKING CAPITAL FUND




                                         N AVY W ORKING C APITAL F UND             231
  Navy Working Capital Fund
  General Property, Plant, and Equipment
  Real Property Deferred Annual Sustainment and Restoration Tables
  As of September 30, 2004
  ($ in Millions)


                                       Annual Sustainment FY 2004
                                                       Required         Actual         Difference
            Navy                                       $   230          $    230           0
            Marine Corps                                       5                 5         0
            Building, Structures, and Utilities        $   235          $    235           0


                                    Annual Deferred Sustainment Trend
                                                    FY 2001        FY 2002   FY 2003     FY 2004
            Navy                                        -             -         -           0
            Marine Corps                                -             -         -           0
            Building, Structures, and Utilities     $ 72              0         0           0

                              Restoration and Modernization Requirements
                                                 End FY 2003 End FY 2004                 Change
            Navy                                       -            -                      0
            Marine Corps                               -            -                      0
            Building, Structures, and Utilities            0                 0             0



  Narrative Statement:
  Fiscal Year 2004 represents the third year in which the Facility Sustainment Model (FSM) was utilized.
  Deferred amounts were calculated in accordance with the methodology provided by DoD Financial
  Management Regulation, Volume 6B, Chapter 12. The output of the Facility Sustainment Model continues to
  undergo quality checks to ensure its accuracy. Accordingly, requirements for each fiscal year are prepared
  with a more updated and accurate version of the model.

  In FY 2004, FSM version 4.0 was used for programming and budgeting facilities sustainment.

  This year represents the first year that separate breakout of Navy and Marine Corps sustainment amounts can
  be provided.

  Presently, final execution figures for NWCF are not available. The amounts shown on this table reflect the
  budgeted amounts and will be updated as soon as execution data is available.

  The NWCF has no material amounts of deferred sustainment for the General Property, Plant, and Equipment
  categories of Personal Property, Heritage Assets, or Stewardship Land.




232
Schedule, Part A DoD Intra-governmental Asset                         Fund Balance     Accounts     Loans
                                                     Treasury Index                                          Investments       Other
Balances. ($ Amounts in Thousands)                                    with Treasury    Receivable Receivable

Architect of the Capitol                                   01                                  11
Library of Congress                                        03                                    -
Government Printing Office                                 04                                 126
General Accounting Office                                  05                                    -
The Judiciary                                              10                                    -
Executive Office of the President                          11                                  53
Department of Agriculture                                  12                                 219
Department of Commerce                                     13                               1,209
Department of the Interior                                 14                                 375
Department of Justice                                      15                               1,192
Department of Labor                                        16                                    -
Department of the Navy                                     17                             568,385
United States Postal Service                               18                                  57
Department of State                                        19                               4,956
Department of the Treasury                                 20               861,243         3,990
Department of the Army                                     21                              33,598
Resolution Trust Corporation                               22                                    -
Office of Personnel Management                             24                                   1
Federal Communications Commission                          27                                    -
Social Security Administration                             28                                    -
Federal Trade Commission                                   29                                  38
Nuclear Regulatory Commission                              31                                  26
Smithsonian Institution                                    33                                    -
Department of Veterans Affairs                             36                                 182
Pennsylvania Avenue Development Corp                       42                                    -
General Service Administration                             47                               1,822
National Science Foundation                                49                                  37
Advisory Commission on Intergovernmental Relations         55                                   3
Department of the Air Force                                57                              60,640
National Foundation on the Arts and the Humanities         59                                  10
Consumer Product Safety Commission                         61                                   2
Tennessee Valley Authority                                 64                                   8
Environmental Protection Agency                            68                                 625
Department of Transportation                               69                               7,791
Depatment of Homeland Security                             70                              20,808
Small Business Administration                              73                               1,156
Department of Health and Human Services                    75                               1,727
National Aeronautics and Space Administration              80                               5,915
Export-Import Bank of the United States                    83                                  37
Department of Energy                                       89                               2,315
Selective Service System                                   90                                  31
Department of Education                                    91                                   5
Independent Agencies                                       95                                 272
Corps of Engineers, Civil                                  96                                 270
Other Defense Organizations General Funds                  97                             124,765
Other Defense Organizations Working Capital Funds       97-4930                             3,864
Army Working Capital Fund                             97-4930.001                           6,832                                    15
Air Force Working Capital Fund                        97-4930.003                           4,163
                                                        Totals:       $    861,243     $ 857,516     $   -     $    -      $         15




Note: Totals might not match the amounts shown on the Principal Statements.

                                                                                      N AVY W ORKING C APITAL F UND            233
      Schedule, Part B DoD Intragovernmental entity                                           Debts/Borrowings
                                                                                Accounts
      liabilities.                                        Treasury Index:                        From Other          Other
                                                                                 Payable
      ($ Amounts in Thousands)                                                                    Agencies

      Department of Agriculture                                 12                        6
      Department of Commerce                                    13                       71
      Department of the Interior                                14                    (143)
      Department of Justice                                     15                        5
      Department of Labor                                       16                       54
      Depatment of the Navy                                     17                   56,800
      United States Postal Service                              18                      976
      Department of the Treasury                                20                      132           506,278
      Office of Personnel Management                            24                   36,228                           37,201
      Federal Communications Commission                         27                    3,028
      Department of Veterans Affairs                            36                        0
      Government Printing Office                                4                         1
      General Service Administration                            47                    1,426
      National Science Foundation                               49                      951
      Air Force General Fund                                    57                    1,507
      Depatment of Homeland Security                            70                       50                           72,510
      National Aeronautics and Space Administration             80                      884
      Department of Energy                                      89                       24
      Other Defense Organizations General Funds                 97                    2,152
      Other Defense Organizations Working Capital Funds      97-4930                124,187
      Defense Working Capital Fund, Army                   97-4930.001                6,320
      Defense Working Capital Fund, Airforce               97-4930.003                9,320
      The General Fund of the Treasury                          99                                                     5,141
                                                             Totals:        $       243,979   $       506,278    $   114,852




  Note: Totals might not match the amounts shown on the Principal Statements.

234
 Schedule, Part C DoD Intragovernmental revenue and related costs.
                                                                               Treasury Index:   Earned Revenue
 ($ Amounts in Thousands)

 Architect of the Capitol                                                             01         $            792
 Library of Congress                                                                  03                      921
 Government Printing Office                                                           04                      162
 The Judiciary                                                                        10                         -
 Executive Office of the President                                                    11                    2,057
 Department of Agriculture                                                            12                  14,975
 Department of Commerce                                                               13                  10,144
 Department of the Interior                                                           14                    2,394
 Department of Justice                                                                15                 104,170
 Department of Labor                                                                  16                      716
 Department of the Navy                                                               17              18,912,132
 United States Postal Service                                                         18                       98
 Department of State                                                                  19                  16,974
 Department of the Treasury                                                           20                    8,636
 Department of the Army                                                               21                 288,024
 Resolution Trust Corporation                                                         22                       20
 Office of Personnel Management                                                       24                       61
 Federal Communications Commission                                                    27                       (2)
 Social Security Administration                                                       28                      106
 Federal Trade Commission                                                             29                      420
 Nuclear Regulatory Commission                                                        31                    1,536
 Smithsonian Institution                                                              33                      739
 Department of Veterans Affairs                                                       36                    1,255
 Pennsylvania Avenue Development Corporation                                          42                      169
 General Services Administration                                                      47                    2,213
 National Science Foundation                                                          49                  14,483
 Advisory Commission on Intergovernmental Relations                                   55                      269
 Department of the Air Force                                                          57                 525,513
 Federal Emergency Management Agency                                                  58                      822
 Consumer Product Safety Commission                                                   61                       12
 Tennessee Valley Authority                                                           64                      105
 Environmental Protection Agency                                                      68                    1,932
 Department of Transportation                                                         69                  19,158
 Department of Homeland Security                                                      70                 104,975
 Agency for International Development                                                 72                  16,267
 Small Business Administration                                                        73                       16
 Department of Health and Human Services                                              75                  14,581
 Independent Agencies                                                                 76                        -
 National Aeronautics and Space Administration                                        80                  52,883
 Export-Import Bank of the United States                                              83                      137
 Department of Energy                                                                 89                  31,563
 Selective Service System                                                             90                       75
 Department of Education                                                              91                       28
 Independent Agencies                                                                 95                      131
 Corps of Engineers, Civil                                                            96                      206
 Other Defense Organizations General Fund                                             97               1,167,947
 Department of Defense Working Capital Funds                                       97-4930                78,260
 Defense Working Capital Fund, Army                                              97-4930.001              67,181
 Defense Working Capital Fund, Air Force                                         97-4930.003             233,845
 The General Fund of the Treasury                                                     99                   (5,141)
                                                                              Total              $     21,693,791




Note: Totals might not match the amounts shown on the Principal Statements.

                                                                               N AVY W ORKING C APITAL F UND         235
      Required Supplemental Information - Part E
      ($ Amounts in Thousands)                                Treasury Index:   Transfers In   Transfers Out

      Navy General Fund                                             17                         $     45,177
      Army General Fund                                             21                         $    200,000
      US Army Corps of Engineers                                     96         $      211
      Other Defense Organizations General Funds                     97                         $          0
      Other Defense Organizations Working Capital Funds           97-4930       $        92    $     42,800
      Totals might not match reports                             Totals:        $       303    $     287,977




  Note: Totals might not match the amounts shown on the Principal Statements.

236
              DEPARTMENT OF THE NAVY

NAVY WORKING CAPITAL FUND OTHER ACCOMPANYING
                INFORMATION




                                                                       OTHER ACCOMPANYING INFORMATION
                                                                         NAVY WORKING CAPITAL FUND




                                       N AVY W ORKING C APITAL F UND            237
  APPROPRIATIONS, FUNDS, AND ACCOUNTS INCLUDED                   IN THE   FINANCIAL STATEMENTS

  REPORTING ENTITY
  Navy Working Capital Fund

  Fund/Account Treasury Symbol and Title:
  97X4930 002

  Navy Working Capital Fund Activity Group Treasury Symbol and Title:

      97X4930.NA1*       Depot Maintenance-Shipyards
      97X4930.NA2*       Depot Maintenance-Aviation
      97X4930.NA4*       Depot Maintenance- Other (Marine Corps)
      97X4930.NA3* a     Ordnance
      97X4930.ND*        Transportation
      97X4930.NE* *      Base Support
      97X4930.NH**       Research and Development
      97X4930.NC**       Supply Management

  Notes

  * - The "*" represents alpha or numeric characters which identify an activity or reporting segment of the
      activity group.

  a - The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance
      information included in this report represents residual NWCF accounting for this group.




238
DEPARTMENT OF THE NAVY

 AUDIT OPINIONS




                         AUDIT OPINIONS




                                  239
